<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2017 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 114-658, Part 2]
[From the U.S. Government Publishing Office]




                                                 S. Hrg. 114-658, Pt. 2

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2943

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2017 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               ----------                              

                                 PART 2

                                SEAPOWER

                               ----------                              

                         APRIL 6, 13, 20, 2016
                         
                         
                         
                         
                         
                         
                         
                         
                         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                


                         
                         
                         


         Printed for the use of the Committee on Armed Services
         
         
         
         
         
         
         
         
         


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
      2017 AND THE FUTURE YEARS DEFENSE PROGRAM--Part 2  SEAPOWER
      
      

      
      
      


                                                 S. Hrg. 114-658, Pt. 2
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2943

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2017 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
   MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER 
                                PURPOSES

                               __________

                                 PART 2

                                SEAPOWER

                               __________

                         APRIL 6, 13, 20, 2016

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
 
         
         
         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
        
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
25-897 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001            
        
        



                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman         JACK REED, Rhode Island
JAMES M. INHOFE, Oklahoma                BILL NELSON, Florida
JEFF SESSIONS, Alabama                   CLAIRE McCASKILL, Missouri
ROGER F. WICKER, Mississippi             JOE MANCHIN III, West Virginia
KELLY AYOTTE, New Hampshire              JEANNE SHAHEEN, New Hampshire
DEB FISCHER, Nebraska                    KIRSTEN E. GILLIBRAND, New York
TOM COTTON, Arkansas                     RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota                JOE DONNELLY, Indiana
JONI ERNST, Iowa                         MAZIE K. HIRONO, Hawaii
THOM TILLIS, North Carolina              TIM KAINE, Virginia
DAN SULLIVAN, Alaska                     ANGUS S. KING, JR., Maine
MIKE LEE, Utah                           MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina
TED CRUZ, Texas                      
                                     
                               
                                     
                                     
                      Christian D. Brose, Staff Director
                       Elizabeth L. King, Minority Staff Director
             
                              ________________

                        Subcommittee on Seapower

  ROGER F. WICKER, Mississippi,  MAZIE K. HIRONO, Hawaii
             Chairman            BILL NELSON, Florida
JEFF SESSIONS, Alabama           JEANNE SHAHEEN, New Hampshire
KELLY AYOTTE, New Hampshire      RICHARD BLUMENTHAL, Connecticut
MIKE ROUNDS, South Dakota        TIM KAINE, Virginia
THOM TILLIS, North Carolina      ANGUS S. KING, JR., Maine
DAN SULLIVAN, Alaska
TED CRUZ, Texas                      
                                     
                                     
                                     
                                    
                                     
                                  (ii)


                           C O N T E N T S

                                ________

                             April 6, 2016

                                                                   Page

Navy Shipbuilding Programs.......................................     1

Stackley, Sean J., Assistant Secretary of the Navy, Research,        19
  Development, and Acquisition.
Mulloy, Vice Admiral Joseph P., USN, Deputy Chief of Naval           21
  Operations for Integration of Capabilities and Resources (N8).
Walsh, Lieutenant General Robert S., USMC, Deputy Commandant for     22
  Combat Development and Integration; Commanding General, Marine 
  Corps Combat Development Command.

Questions for the Record.........................................    43

                             April 13, 2016

Marine Corps Ground Modernization................................    45

Walsh, Lieutenant General Robert S., USMC, Deputy Commandant for     49
  Combat Development and Integration; Commanding General, Marine 
  Corps Combat Development Command.
Dee, Thomas P., Deputy Assistant Secretary of the Navy for           51
  Expeditionary Programs and Logistics Management, Office of the 
  Assistant Secretary of the Navy for Research, Development, and 
  Acquisition.

Questions for the Record.........................................    78

                             April 20, 2016

Navy and Marine Corps Aviation Programs..........................    87

Grosklags, Vice Admiral Paul A., USN, Commander, Naval Air           90
  Systems, Department of the Navy.

Questions for the Record.........................................   132

                                 (iii)


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                        WEDNESDAY, APRIL 6, 2016

                               U.S. Senate,
                          Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                       NAVY SHIPBUILDING PROGRAMS

    The subcommittee met, pursuant to notice, at 1:59 p.m. in 
Room SR-222, Russell Senate Office Building, Senator Roger F. 
Wicker (chairman of the subcommittee) presiding.
    Committee members present: Senators Wicker, Sessions, 
Ayotte, Rounds, Blumenthal, Hirono, Kaine, and King.

           OPENING STATEMENT OF SENATOR ROGER WICKER

    Senator Wicker. This hearing will come to order, and thank 
you all for being here.
    This is the Senate Armed Services Subcommittee on Seapower, 
convenes this afternoon to examine Navy shipbuilding programs. 
We welcome three distinguished witnesses, the Honorable Sean 
Stackley, assistant secretary of the Navy for Research, 
Development, and Acquisition; Vice Admiral Joseph P. Mulloy, 
deputy chief of Naval Operations for Integration of 
Capabilities and Resources; and Lieutenant General Robert S. 
Walsh, deputy commandant for Combat Development and 
integration, as well as commanding general, Marine Corps Combat 
Development Command.
    Our subcommittee is grateful for the decades of service to 
our nation from these three witnesses. We are grateful for the 
sacrifice also of our sailors and marines serving around the 
globe.
    With nearly 100 ships deployed on any given day, our Navy 
and Marine Corps continue to provide a critical front line of 
defense for our country. Now, more than ever, a strong Navy and 
Marine Corps are central to our nation's ability to deter 
adversaries, assure allies, and defend our national interests. 
Our sailors and marines are at the forefront of our rebalance 
to Asia, our ongoing operations against the Islamic State, our 
responses to a resurgent Russia, and efforts to deter rogue 
states such as Iran and North Korea.
    However, our current fleet of 272 ships is insufficient to 
address these critical security challenges. Even with recent 
shipbuilding increases, many of which were initiated in this 
subcommittee, the Navy will not achieve its requirement of 308 
ships until 2021. There is also no plan to meet the bipartisan 
National Defense Panel's recommendation for a fleet of 323 to 
346 ships.
    This afternoon, I would like to hear from our witnesses on 
what I consider five key issues our subcommittee will review 
this year: first, vitality of the industrial base. The vitality 
of the 30-year shipbuilding plan is essential to the strength 
of our shipbuilding industrial base. The U.S. Navy's dominant 
maritime position would not be possible without the unique 
skills, capabilities, and capacities inherent in new 
construction shipyards and weapons systems developers.
    I would like our witnesses to describe how they carefully 
weighed the effects on the shipbuilding industrial base when 
they balanced resources and requirements in the shipbuilding 
plan.
    Number two, best use of taxpayer resources: It is critical 
that this subcommittee conduct rigorous oversight of 
shipbuilding programs to ensure the Navy is making the best use 
of limited taxpayer dollars. Congress expects Navy shipbuilding 
programs to deliver promised capability on time and on budget. 
Schedule delays and unsatisfactory test results too often 
result in cost growth and strains on the legacy platforms these 
ships will replace.
    Specifically, I am interested in understanding why the 
delivery of the USS Gerald R. Ford, as well as its advanced 
arresting gear testing have slid day for day since last 
September. Delivery is now slated for September instead of last 
month.
    I am also concerned about delays in Littoral Combat Ship 
mission package testings. Since 2009, the surface package has 
been delayed 2 years, the antisubmarine package for 3, and the 
mine countermeasures package for at least 8 years.
    Additionally, after years of debating early retirement or 
inactivation of a number of cruisers and docked landing ships, 
last year, Congress authorized and appropriated the Navy's 
request to execute this so-called 2/4/6 plan. This means no 
more than two cruisers may be inactivated per year. A cruiser 
may not be inactivated for more than 4 years, and no more than 
six cruisers may be in the program at any given time, 2, 4, and 
6.
    However, in this year's budget the Navy has changed course 
and now wants to inactivate seven cruisers instead of two and 
keep these ships out of service for up to 10 years rather than 
4 before reactivating and re-manning them. I hope the witnesses 
will explain the merits of this plan, and perhaps there are 
merits.
    Thirdly, building the future force: This subcommittee also 
has a duty to shape the future of our Navy. Each of our classes 
of surface combatant ships, cruisers, destroyers, and littoral 
combat ships [LCS] will begin retiring within the next 20 
years. Now is the time to determine the requirements for our 
future service combatants, as well as the munitions they will 
carry.
    I am concerned that the extraordinary cost of the Ohio-
class submarine replacement program will place tremendous 
stress on our already strained shipbuilding budget unless 
funding from outside this account is provided.
    I am also interested in better understanding the 
Department's decision to down-select to one variant of the 
littoral combat ship frigate. Specifically, what analysis 
supports reducing procurement from 52 to 40 of these ships?
    Number four, amphibious ships: The Navy and Marine Corps 
will serve as the lynchpin of the American force projection 
around the globe. I am interested in ways we can ensure the 
Navy shipbuilding plan addresses the demand from our combatant 
commanders for amphibious ships. This demand is greater than 50 
amphibious ships on a day-to-day operational basis, but the 
current inventory is just 30 amphibious ships. To this end, our 
subcommittee would like to know to what extent the next 
amphibious assault ship known as the LX(R) could be 
accelerated.
    Finally, budget constraints: Although the Bipartisan Budget 
Act has provided some measure of short-term relief, 
sequestration remains the law of the land regrettably and will 
return in fiscal year 2018 unless Congress acts. Even with 
these additional funds, the Department of the Navy continues to 
face significant budget challenges that are forcing hard 
choices between readiness and modernization.
    The Department's 2017 request is $8 billion, or 5 percent 
less than the 2017 value presented in last year's budget. As a 
member of both the Armed Services Committee and the Budget 
Committee, I know that tough decisions must be made across the 
Federal Government. However, I would remind everyone that 
national defense is solely a Federal responsibility. Defense 
spending is also known as a twofer, supporting both our 
national security and our high-tech manufacturing workforce.
    As such, I hope our witnesses today will elaborate on the 
hard choices in this budget and how a return to sequestration 
would impact the shipbuilding plan.
    With that in mind, I look forward to the testimony of our 
witnesses, and I am delighted to recognize our ranking member, 
Senator Hirono, for any opening remarks she might have.


               STATEMENT OF SENATOR MAZIE HIRONO

    Senator Hirono. Thank you very much, Mr. Chairman, and I 
certainly share the aspects of this program that you have 
articulated. Of course I, too, want to thank our witnesses for 
being here. We are certainly grateful to each of you for your 
service to the Nation and for the truly professional service of 
the men and women under your command. We also pay tribute to 
their families because, of course, the work that the people 
under your command do is very much involved with the support of 
their families.
    Today, our witnesses face huge challenges as they strive to 
balance the need to support ongoing operations and sustained 
readiness with the need to modernize and keep the technological 
advantage that is so critical to military success. These 
challenges have been made particularly difficult, as the 
chairman has mentioned, by the spending caps imposed in the 
Budget Control Act, caps that were modestly relieved for fiscal 
year 2016 in the Bipartisan Budget Act, but they will resume in 
fiscal year 2018 and beyond unless we do something about it.
    These caps already seriously challenge our ability to meet 
our national security needs, and have already forced all of the 
military departments to make painful tradeoffs. Unless modified 
for the years after fiscal year 2018 and later, I believe that 
these caps will threaten our long-term national security 
interests.
    With that in mind, a continuing focus of this subcommittee 
has been to see that we improve our acquisition stewardship and 
thereby ensure that we are getting good value for every 
shipbuilding dollar that we spend.
    We are very pleased to see continued stability and 
performance in the Virginia-class attack submarine production 
at a level of two per year. We have seen that stability helps 
drive down costs and improves productivity.
    We also support the Navy's continuing efforts to drive 
costs out of the Ohio replacement SSBN program. SSBNs will 
remain a vital leg of the nuclear triad for the foreseeable 
future. Establishing and achieve cost-reduction goals in these 
Virginia-class and Ohio Replacement Programs will yield 
significant stability to our nation's submarine industrial 
base, which will ensure the Navy has a modern, capable 
submarine fleet for many years to come.
    As Admiral Harris noted when I met with him a couple of 
days ago, it is our submarine force that really provides us 
with the asymmetric advantage over other countries.
    Aircraft carrier programs are another important area for 
discussion as well. We need to hear about the progress the Navy 
and the contractors are making to deliver CVN-78 within the 
cost cap and what progress is being made on reducing the 
production cost for CVN-79 and the later carriers.
    Another topic that we should address is the discussion 
within DOD of changes to the LCS program. The Navy had planned, 
as the chairman mentioned, to procure 52 LCS vessels with 20 of 
these in a new frigate configuration, responding to direction 
from former Secretary Hagel. This year, Secretary Carter has 
directed that the Navy truncate the LCS program to 40 ships. 
Under this revised plan, only 11 of LCS vessels will be in the 
frigate configuration. We need to understand how all of these 
changes relate to Navy requirements.
    Also, since last year, there have been significant problems 
in moving to operational testing of the mine countermeasures 
mission packages for the LCS. I know, based on poor results in 
developmental testing, the Navy has changed plans for 
development of mine countermeasure mission module. I look 
forward to hearing more about the new plan and when we can 
expect to field that capability.
    This year, the Navy will be implementing an engineering 
change proposal for the DDG-51 destroyer program to include the 
Air and Missile Defense Radar, or AMDR, on one of the ships in 
the fiscal year 2016 shipbuilding program. We need to assess 
whether the Navy and contractors are making significant 
progress, sufficient progress on the AMDR program to support 
that production schedule.
    I know that the Navy will be moving an engineering 
development model of the radar to Kauai PMRF [Pacific Missile 
Range Facility] for testing, and I hope we can hear from 
Secretary Stackley on this important program as well.
    In our country's current fiscal environment, it is very 
unlikely that we will have much money to spend as the 30-year 
shipbuilding plan assumes, and fundamentally, that is why these 
hearings are important. We need to focus on managing these 
important programs in ways that are efficient and effective in 
delivering the capability the country needs from the Navy. We 
need to improve quality and efficiency in all of our 
shipbuilding programs not only because of the direct savings 
but also because we need to demonstrate to the taxpayer that we 
are using every dollar wisely.
    Thank you very much. I look forward to your testimony. 
Thank you, Mr. Chair.
    Senator Wicker. Thank you, Senator Hirono.
    Gentlemen, the three of you have submitted an extensive 
joint statement consisting of 28 pages. At this point, that 
statement will be placed into the record. Without objection, 
that is so ordered.
    [The prepared joint statement of Mr. Stackley, Admiral 
Mulloy, and General Walsh follows:]

 Prepared Joint Statement by Mr. Stackley, Admiral Mulloy, and General 
                                 Walsh
    Chairman Wicker, Ranking Member Hirono, and distinguished members 
of the subcommittee, thank you for the opportunity to appear before you 
today to address the Department of Navy's shipbuilding programs.
    The fiscal year (FY) 2017 President's Budget submission is governed 
by the 2014 Quadrennial Defense Review (QDR), which implements the 2012 
Defense Strategic Guidance (DSG) and continues our efforts to ensure 
our ability to protect the Homeland, build security globally, project 
power and win decisively. As described in the Chief of Naval 
Operations' A Design for Maintaining Maritime Superiority and the 
Commandant of the U.S. Marine Corps' Advance to Contact, today's 
strategic environment is dramatically more globalized with accelerating 
change. Global connections continue to multiply, fueled by rapid 
advances and proliferation in technology, particularly information 
technology. Our competitors are pursuing advanced weapon systems at 
levels and a pace of development that we have not seen since the mid-
1980s. It is imperative that we fund a force that can fight and win 
against any of our five major challenges (Russia, China, Iran, North 
Korea and Global Counter-Terrorism), investing in advanced capabilities 
that increase our lethality, for both the current and future force. 
This budget addresses that imperative by making investments to sustain 
our ability to fight with decisive capability over the full range of 
operations--at sea, from the sea, and across all domains.
    Though budget issues have challenged the Department, our sailors 
and marines deployed around the world continue to perform the mission 
and operate forward, being where it matters when it matters. During a 
ten month deployment ending in June 2015, the Carl Vinson Strike Group 
and Carrier Strike Group (CSG) ONE conducted 12,300 sorties, including 
2,383 combat missions against Islamic State of Iraq and Syria (ISIS). 
The USS Theodore Roosevelt (CVN 71) with CSG TWELVE returned from 
deployment in November 2015 after conducting over 1,800 combat sorties 
in Iraq and Syria against ISIS targets. During deployment, CVN 71 
quickly relocated from the Northern Arabian Gulf to the coast of Yemen 
to respond to the Houthi insurgency, keep shipping lanes in the region 
safe and open, and intercept weapons shipments meant for the Houthi 
rebels. Day and night carrier-based airstrikes continue from the USS 
Harry S. Truman (CVN 75) which arrived in the Persian Gulf in December 
2015 to support Operation Inherent Resolve.
    The U.S. 7th Fleet along with allies and partner nations combined 
for over 110 exercises throughout 2015 to train, build partner 
capability and relationships, and exchange information. The largest 
exercise, Talisman Sabre in the Indo-Asia-Pacific region, in July 2015, 
featured 21 ships, including U.S. Navy aircraft carrier USS George 
Washington (CVN 73) and more than 200 aircraft and three submarines. 
This exercise continued to emphasize our Navy's worldwide presence and 
honed the skills to plan and execute contingency responses, from combat 
missions to humanitarian assistance efforts. The USS Lassen (DDG 82) 
continued to further United States presence and promote maritime 
security worldwide through participation in multilateral exercises with 
the Republic of Korea, France and Turkey, and patrols in the South 
China Sea. Additionally, the USS Fort Worth (LCS 3) conducted Code for 
Unplanned Encounters at Sea (CUES) exercises with the Chinese People's 
Liberation Army-Navy and completed the Cooperation Afloat Readiness and 
Training with our Indonesian allies to enhance interoperability and 
address shared maritime security priorities.
    Our Naval forces in the 5th and 6th Fleet Areas of Operations (AOR) 
conducted a variety of missions in support of mine-countermine 
operations, Ballistic Missile Defense, counter terrorism and maritime 
security throughout 2015. In the 5th Fleet AOR, Commander Task Force 
52, consisting of United States and United Kingdom units, successfully 
completed Mine Countermeasure Exercises (MCMEX) in November 2015. The 
6th Fleet's USS Cook (DDG 75) conducted ballistic missile defense 
exercises and participated in NATO's counter terrorism operation Active 
Endeavor in July and August 2015 in the Mediterranean and Black Seas. 
Additionally, USS Ross (DDG 71) participated in a passing exercise 
(PASSEX) with Romanian, Turkish and Ukrainian navies to strengthen 
partnerships with allies advancing security and stability in the Black 
Sea region. Furthermore, Naval Special Operations Forces (NAVSOF) 
continue operations in the Middle East, the Horn of Africa, and Central 
Asia. More specifically, NAVSOF is manning the Combined Joint Special 
Operations Task Force-Iraq and deploying forces to Afghanistan. Their 
operational tempo remains high.
    The Marine Corps executed over 100 operations, 20 amphibious 
operations, 140 Theater Security Cooperation (TSC) events, and 
participated in 160 exercises during calendar year 2015. Marine Corps 
units deployed to every Geographic Combatant Command and executed 
numerous TSC exercises to help strengthen relationships with allies and 
build partner capacity. Marines from Special Purpose Marine Air Ground 
Task Force--Crisis Response (SPMAGTF-CR)--Central Command and Advise 
and Assist teams advised and enabled the Iraqi Army. SPMAGTF-CR-Africa 
incident response force maintained various alert postures from Naval 
Air Station Sigonella, Italy, Naval Station Souda Bay, Greece, and 
Moron Air Base, Spain during multiple iterations of Special Operations 
Command Africa operations, and provided fixed site security forces to 
United States Embassy Bangui, Central African Republic, to assist in 
the reopening of the embassy.
    Marine Expeditionary Units (MEU) provided support to the U.S. 
Embassy Sana'a, Yemen to safeguard American civilians and facilities 
including facilitating the evacuation of the Embassy in February and 
March. The 31st MEU also deployed to Saipan to provide Defense Support 
to Civil Authorities as Typhoon Soudelor passed through the 
Commonwealth of the Northern Marianas killing 30 and displacing 150,000 
people. Marine Security Augmentation Units deployed 33 times in 2015 at 
the request of the State Department executing 12 Embassy/Consulate 
security missions and 21 VIP security missions. Additionally, Joint 
Task Force-505 (JTF-505) was activated in April 2015, under USMC 
operational command, in response to a large earthquake in Nepal which 
killed over 8,000 people and injured more than 21,000. JTF-505 Forward 
assumed command of all Department of Defense assets in support of 
Foreign Disaster Relief operations in Nepal and delivered about 114 
tons of emergency relief supplies, transported 534 personnel and 
conducted 63 casualty evacuations.
    Our Nation's away team, the Navy and Marine Corps, continues to 
stand the watch with an operational tempo that keeps nearly half of our 
Fleet underway every day. We must continually adapt to the emerging 
security environment to ensure our military's reach, presence, 
capability, and resolve to maintain this pace of operations remains 
superior in today's and tomorrow's world.
            the fiscal year 2017 president's budget request
    Our ability to respond to the dynamic strategic environment, high 
operational tempo and Combatant Commander requirements is constrained 
by the current fiscal realities. The Department is still recovering 
from funding shortfalls over fiscal year 2013-2016 that collectively 
provided $30 billion less than the levels requested in our President's 
Budget submissions. The Bipartisan Budget Act of 2015 (BBA) provided 
critical relief from a return to sequestration levels in fiscal year 
2016 and fiscal year 2017, but even with overseas contingency 
operations funding, the Navy's fiscal year 2017 request is 3.9 percent 
less than the fiscal year 2017 funding level requested in the fiscal 
year 2016 President's Budget.
    This fiscal context drives tough choices, but also inspires new 
thinking in order to best balance between capability, capacity, 
readiness and the vital industrial base. The fiscal year 2017 
President's Budget integrates the mission guidance, operational 
context, and fiscal constraints in making focused investments, hard 
prioritized choices, and innovative reform to resource and deliver a 
global sea-based force. The Department's shipbuilding plans are 
formulated to provide the required force structure with the right 
capabilities, while preserving alternatives regarding the future force 
and the industrial base required to support it.
    The Navy's current battle force objective of 308 ships is set by 
the fiscal year 2014 update to the 2012 Force Structure Assessment 
(FSA). The FSA defines the balanced naval force, by type and quantity 
of ships, required to meet the full range of global naval operations 
that span from peace time presence to major combat operations.
    The Navy's long range plan to reach and maintain the requirements 
of the FSA is outlined in the ``30 Year Shipbuilding'' report submitted 
to Congress each year, as shown in Table 1.
    The fundamental principles bridging the long range shipbuilding 
plan and the 308-ship Navy defined by the FSA are that:
    (i) the Navy's force structure, today and for the future, underpins 
our ability to provide for our national security;
    (ii) a balanced mix of ships is necessary in order to conduct the 
wide range of operations required of the Fleet in the most effective, 
affordable manner possible;
    (iii) the duration required to construct complex naval warships 
combined with the rate at which we procure these ships, requires the 
Navy to plan decades in advance to affect the size and capabilities of 
the force; and
    (iv) stable, predictable ship construction at a sufficient rate is 
critical to Industry to enable it to make the capital investments and 
retain the critically skilled workforce required to build our Fleet, 
and critical to the Navy to enable us to procure our Fleet in the most 
effective, affordable manner possible.
    With the strong support of Congress and close adherence to the long 
range shipbuilding plan over the period 2009-2016, the Navy is certain 
to reach a Battle Force of 308-ships in 2021 (the nominal year in which 
those ships procured by 2016 will have been delivered to the Navy), as 
shown in Table 1. This twelve year span required to go from a Navy of 
278 ships in 2009 to 308 ships in 2021, exemplifies the importance of 
the principles outlined above and, accordingly, why shipbuilding must 
remain a top priority for the Department of the Navy if we are to 
continue to provide the measure of maritime security and power 
projection required of our naval forces in the decades ahead. The 
fiscal year 2017 President's Budget and the corresponding fiscal year 
2017 to fiscal year 2021 Future Years Defense Plan (FYDP) establish the 
shipbuilding trajectory that will shape our Battle Force and its 
underpinning industrial base in the years following fiscal year 2021.

                                   Table 1.--FSA and Battle Force Requirement
----------------------------------------------------------------------------------------------------------------
                      Platform                          Requirement \1\       Current \2\           FY 2021
----------------------------------------------------------------------------------------------------------------
Fleet ballistic missile submarines..................                 12                  14                  14
Nuclear-powered aircraft carriers...................                 11                  10                  11
Nuclear-powered attack submarines...................                 48                  53                  51
Nuclear-powered cruise missile submarines...........                  0                   4                   4
Large, multi-mission, surface combattants...........                 88                  84                  97
Small, multi-role, surface combatants...............                 52                  17                  34
Amphibious Warfare ships............................                 34                  30                  33
Combat logistics force ships........................                 29                  30                  30
Support vessels.....................................                 34                  30                  34
----------------------------------------------------------------------------------------------------------------
    Total...........................................                308                 272                 308
----------------------------------------------------------------------------------------------------------------
\1\ Based on the 2012 FSA interim update (fiscal year 2014), this requirement is the minimum force structure
  necessary to fulfill the Navy's essential combat missions at an acceptable level of risk.
\2\ As of 1 March 2016.

    The fiscal year 2017 President's Budget request includes seven 
ships in fiscal year 2017: two SSN 774 Virginia-class attack 
submarines; two DDG 51 Arleigh Burke-class destroyers; two Littoral 
Combat Ships (LCS); and one LHA 8 amphibious assault ship. In total, 
across the fiscal year 2017 FYDP, this budget maintains most of the 
elements of our planned ship procurements in support of the FSA. 
However, in view of the Navy's projection that it will meet its force 
structure requirements in 2021 and in light of a separate capabilities 
based risk assessment by the Department of Defense, within the 
constraints of a budget impacted by the BBA, it was determined that a 
shift from shipbuilding investment towards investment in modernization 
and advanced capabilities would provide the best overall balance of 
capability and capacity to meet the needs of the current and future 
fleet. This decision results in an overall reduction to 38 ships in the 
fiscal year 2017 FYDP, most notably impacting our small surface 
combatants, as shown in Table 2.

                               Table 2.--FY 2017-FY 2021 New Construction Shipbuilding Procurement and Funding Plan (TY$M)
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                         FY2017           FY2018           FY2019           FY2020           FY2021           Total
                 Ship Type    ($M)                 -----------------------------------------------------------------------------------------------------
                                                        $      Qty       $      Qty       $      Qty       $      Qty       $      Qty       $      Qty
--------------------------------------------------------------------------------------------------------------------------------------------------------
CVN 78 \1\........................................     2,663            4,361     1      1,650            1,735            3,095           13,504     1
DDG 51............................................     3,211     2      3,428     2      3,508     2      3,595     2      3,665     2     17,408    10
DDG 1000..........................................       272              127               54               28                               481
LCS \2\...........................................     1,126     2        634     1                                                         1,760     3
FF................................................                                         822     1        739     1      1,416     2      2,978     4
SSN 774 \3\.......................................     4,955     2      5,179     2      6,773     2      7,324     2      4,393     1     28,624     9
SSBN(X) \4\.......................................       773              787            2,767            1,312            3,611     1      9,250     1
LX(R).............................................                                          46            1,499     1                       1,545     1
LHA(R)............................................     1,623     1      1,679                                                               3,302     1
T-AO(X)...........................................        73              530     1        519     1        544     1        540     1      2,206     4
T-ATS(X)..........................................                         76     1         78     1         80     1         75     1        308     4
--------------------------------------------------------------------------------------------------------------------------------------------------------
    Total New Construction........................    14,696     7     16,801     8     16,217     7     16,856     8     16,795     8     81,364    38
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Funding for the CVN 78-class program reflects six year incremental funding authorized in the fiscal year 2013 NDAA.
\2\ Funding does not include LCS mission modules, which are funded in Other Procurement, Navy (OPN).
\3\ Includes VPM, one in fiscal year 2019, two in fiscal year 2020 and one in fiscal year 2021.
\4\ Fiscal year 2021 represents incremental funding for the lead ship (fiscal year 2021=41% ($3.6B)/F Y2022=35% ($3.1B)/fiscal year 2023=24% (2.1B)).

                                summary
    Safely, reliably, certainly, your Navy and Marine Corps are 
stationed around the globe; maintaining their readiness, sustaining 
their high operational tempo, and conducting naval missions spanning 
from peacetime presence to war in response to the demands of their 
Combatant Commanders and the needs of the Nation. The Department of the 
Navy's fiscal year 2017 budget provides the warfighting capabilities--
ships, combat and C4I systems, and weapons--required by our sailors and 
marines in the performance of their mission against the increasingly 
complex threats that challenge our security and that of our partners 
and allies around the globe today.
    Reductions to the Department's fiscal year 2017 top line due to the 
Bipartisan Budget Act of 2015 and the Budget Control Act of 2011, 
however, have forced revisions to the shipbuilding programs that we 
presented to the Congress with the fiscal year 2016 budget. We have 
been aggressive in our efforts to drive down the cost of our weapon 
systems in order to offset this top line reduction to the extent 
possible. Ultimately, however, we have been required to make cuts to 
programs that we presented as warfighting requirements just one year 
ago. We have been judicious in these decisions and are prepared to 
provide the Committee the basis and impact to operational requirements, 
cost, and the industrial base associated with each of these decisions. 
Programmatic details regarding Navy and Marine Corps capabilities and 
the Department of the Navy fiscal year 2017 budget request are 
summarized in the following section.
    Congress' strong support for the Department of the Navy's fiscal 
year 2016 budget is a great testament of your support for our sailors 
and marines and their mission. We look forward to continuing to work 
closely with you and hope to build upon such past strong support as you 
evaluate this fiscal year 2017 budget request and carry out your 
responsibilities to ``provide and maintain a Navy.''
                    U.S. Navy Shipbuilding Programs
                           aircraft carriers
    The aircraft carrier is the centerpiece of the Navy's Carrier 
Strike Groups and central to Navy core capabilities of sea control, 
maritime security, and humanitarian assistance and disaster relief. Our 
aircraft carriers' ability to provide forward presence; to rapidly and 
decisively respond to global crises; to simultaneously deter potential 
adversaries and assure allies; and to project power at sea and ashore 
make these national assets the first instruments of our Nation's will 
and the definitive symbol of our Nation's defense strategy.
    Nimitz- and Ford-class carriers will be the premier forward 
deployed asset of choice for crisis response and early decisive 
striking power in major combat operations for the next half-century. 
The Department has established a steady state Ford-class procurement 
plan designed to deliver each new ship in close alignment with the 
Nimitz-class ship it replaces. The Ford-class design improves 
warfighting capability, survivability, operational availability, and 
quality of life for sailors, while reducing total billets, including 
ship's crew and airwing, by nearly 1,200 personnel and decreasing total 
ownership costs by approximately $4 billion per ship.
    The Navy is committed to delivering the lead ship of the class, 
Gerald R. Ford (CVN 78) within the $12.887 billion congressional cost 
cap. Sustained efforts to identify cost reductions and drive improved 
cost and schedule performance on this first-of-class aircraft carrier 
have resulted in highly stable cost performance since 2011. Based on 
lessons learned on CVN 78, the approach to carrier construction has 
undergone an extensive affordability review and the Navy and the 
shipbuilder have made significant changes on CVN 79 to reduce the cost 
to build the ship. The benefits of these changes in build strategy and 
resolution of first-of-class impacts experienced on CVN 78 are evident 
in early production labor metrics on CVN 79. These efforts are ongoing 
and additional process improvements continue to be identified.
    Alongside the Navy's efforts to reduce the cost to build CVN 79, 
the fiscal year 2016 National Defense Authorization Act reduced the 
cost cap for follow ships in the CVN 78 class from $11,498 million to 
$11,398 million. To this end, the Navy has further emphasized stability 
in requirements, design, schedule, and budget, in order to drive 
further improvement to CVN 79 cost. The fiscal year 2017 President's 
Budget requests funding for the most efficient build strategy for this 
ship and we look for Congress' full support of this request to enable 
CVN 79 procurement at the lowest possible cost.
    USS Gerald R. Ford (CVN 78) is in the final stages of lead ship 
completion. As of March 2016, CVN 78 is 97 percent complete. 80 percent 
of the Hull, Mechanical, and Electrical Testing (HM&E) and 71 percent 
of Electronics testing is complete. CVN 78 is currently projected to 
begin Sea Trials in July 2016 and deliver in September 2016. Post 
Shakedown Availability (PSA) is planned for 2017 and the first of class 
Full Ship Shock Trials (FSST) are planned for fiscal year 2019. CVN 
78's first deployment is planned to follow FSST in fiscal year 2021.
    The Navy awarded the CVN 79 fixed price construction contract in 
June 2015 and as of March 2016 the ship is 18 percent complete. The 
keel was laid in July and launch is planned for 2020. The Navy will 
deliver the USS John F. Kennedy (CVN 79) within the cost cap using a 
two-phased strategy wherein select ship systems and compartments that 
are more efficiently completed at a later stage of construction--to 
avoid obsolescence or to leverage competition or the use of experienced 
installation teams--will be scheduled for completion in the ship's 
second phase of production and test. Enterprise (CVN 80) began 
construction planning and long lead time material procurement in 
January 2016 and construction is scheduled to begin in 2018. The fiscal 
year 2017 President's Budget request re-phases CVN 80 funding to 
support a more efficient production profile, critical to performance, 
below the cost cap. CVN 80 planning and construction will continue to 
leverage class lessons learned to achieve cost and risk reduction, 
including efforts to accelerate production work to earlier phases of 
construction, where work is more cost efficient.
    The Nimitz-class Refueling Complex Overhaul (RCOH) is key to both 
the maintenance and modernization of each carrier in support of the 
second half of its service life. USS Abraham Lincoln (CVN 72) is 
scheduled to complete steam plant testing in Spring 2016 and is 
scheduled to complete RCOH and return to the Fleet in November 2016. 
USS George Washington (CVN 73) executed her homeport shift to Norfolk, 
Virginia in December 2015 for a scheduled RCOH start in August 2017. 
CVN 73 advanced planning activity and long lead time material 
procurement initiated in February 2015.
                               submarines
    Submarines' stealth and ability to conduct sustained forward-
deployed operations in anti-access/area-denial environments serve as 
force multipliers by providing high-quality Intelligence, Surveillance, 
and Reconnaissance (ISR) as well as indication and warning of potential 
hostile action. In addition, attack submarines are effective in anti-
surface warfare (ASuW), undersea warfare and the insertion of Special 
Operating Forces (SOF) in almost every environment, thus eliminating 
any safe-haven that an adversary might pursue with access-denial 
systems. As such, they represent a significant conventional deterrent. 
The Navy is mitigating an impending attack submarine force structure 
shortfall that commences in the mid-2020s through multiple parallel 
efforts: continuing procurement of two SSN 774 Virginia-class 
submarines per year; reducing the construction span of Virginia-class 
submarines; and extending the service lives of select attack submarines 
(SSN 688s) with the potential to reduce the SSN shortfall of 51 ship 
years. While each of the Navy's attack submarines provides considerable 
strike capacity, guided missile submarines (SSGN) provide substantially 
more strike capacity and a much more robust capability to deploy SOF 
personnel. Lastly, the Navy's 14 ballistic missile submarines (SSBNs) 
provide the Nation with an around-the-clock, credible, modern and 
survivable sea-based strategic deterrent.
    Ballistic Missile Submarines coupled with the TRIDENT II D-5 
Strategic Weapons System, represent the most survivable leg of the 
Nation's strategic arsenal and provide the Nation's most assured 
nuclear response capability. Originally designed for a 30-year service 
life, the Ohio-class was extended to its current limit of 42 years of 
operation. As the current SSBN and SSGNs' life cycles cannot be 
extended further, the U.S. continued development of the follow-on 
twelve ship Ohio Replacement (OR) SSBN program for a lead ship delivery 
in 2028 is vital. This is our top priority program within the 
Department of the Navy.
    The OR program achieved significant progress in 2015 as the 
program's Capability Development Document (CDD) was validated by the 
Joint Requirements Oversight Council (JROC) in August and the program 
Technical Baseline was locked in November with a robust plan for 
requirements control and cost containment. In January 2016, the Navy 
released the Detail Design Request for Proposal for the OR program to 
the prime contractor, General Dynamics Electric Boat (GDEB), and 
anticipates awarding the contract by the end of 2016. The contract 
effort will produce the diagrams, drawings and information necessary to 
design, build, test and operate this class of submarines, enabling the 
shipbuilder to formally start construction in 2021. The program is on 
track to mature technologies to meet requirements defined in the CDD 
and proceed to detail design in the Engineering and Manufacturing 
Development (EMD) Phase after the Milestone B decision in summer of 
2016.
    The fiscal year 2017 President's Budget requests funding to 
continue development of the OR SSBN. The first-of-class ship is to be 
procured in fiscal year 2021, with Shipbuilding and Conversion, Navy 
(SCN) funding for detail design commencing in 2017 and advance 
procurement for long lead time material commencing in 2019. Previous 
modernizations of the strategic deterrent and nuclear security 
enterprise were accompanied by topline increases.
    The Navy greatly appreciates Congressional support in overcoming 
the challenges posed by funding the OR Program. The procurement 
authorities such as Economic Order Quantity, Advance Construction, and 
Incremental Funding, provided in the fiscal year 2016 National Defense 
Authorization Act are not required in fiscal year 2017. However, the 
Navy will work with Congress in 2016 to provide details regarding how 
these authorities contribute to achieving the overarching objectives of 
delivering the OR capability on schedule and in the most affordable 
manner. The 2017 President's Budget continues to request funding for 
the OR Program via the SCN and Research, Development, Test and 
Evaluation, Navy (RDT&E,N) appropriations to ensure the same level of 
transparency, accountability, and adherence to financial management 
principles and policies as all other shipbuilding programs.
    The fiscal year 2017 President's Budget requests full funding for 
two SSN 774 Virginia-class submarines and advance procurement for the 
fiscal year 2018 and fiscal year 2019 vessels. The Virginia-class 
submarine program has delivered the last eight ships on budget and 
ahead of schedule. The last ship delivered, USS John Warner (SSN 785), 
which features a completely redesigned bow section as part of the 
Design for Affordability efforts (an approximate 20 percent design 
change) delivered over two months early with the least number of 
deficiencies of any Virginia-class submarine to date. The Block IV 
contract for ten ships continues the co-production of the Virginia-
class submarines between GDEB and Huntington Ingalls Industries--
Newport News Shipbuilding (HII-NNS) through fiscal year 2018. The 
savings realized with this Multi Year Procurement (MYP) contract was 
over $2 billion, effectively giving the Navy ``ten ships for the price 
of nine''. The Navy intends to build on these savings and capitalize on 
increased efficiency and decreased costs with a Virginia-class Block V 
MYP contract for up to 10 boats, planned for fiscal year 2019.
    The Navy's four SSGNs, provide significant undersea strike 
capability and SOF capability. To mitigate the 60 percent reduction in 
undersea strike capacity when these boats retire in fiscal year 2026--
fiscal year 2028, the Navy is investing in the Virginia Payload Module 
(VPM). VPM will include a hull insert amidships of a Virginia-class 
submarine that will contain four 87-inch diameter missile tubes each 
capable of launching seven Tomahawk cruise missiles utilizing the same 
Multiple All-Up Round canisters currently in use on SSGNs. The fiscal 
year 2017 President's Budget continues VPM Research and Development and 
starts SCN funding for detail design and long lead time material 
efforts to enable integrating VPM into Block V Virginia-class SSNs 
starting with one in fiscal year 2019 and then increasing procurement 
to all the remaining Block V ships starting in fiscal year 2020. 
Additionally, the fiscal year 2017 President's Budget includes funding 
for Acoustic Superiority (AS) initiatives to be incorporated in Block V 
and later Virginia-class SSNs. AS addresses the Chief of Naval 
Operations' (CNO's) undersea dominance mandate to pace the future 
threat and is comprised of an enhanced hull treatment, the addition of 
a large vertical array, and selected machinery quieting changes.
    In 2014, the Navy led a comprehensive government-Industry 
assessment of shipbuilder construction capabilities and capacities at 
GDEB and HII-NNS to formulate the Submarine Unified Build Strategy 
(SUBS) for concurrent OR and Virginia-class submarine production. This 
build strategy's guiding principles are: affordability, delivering OR 
on time and within budget, maintaining Virginia-class performance with 
a continuous reduction in costs, and maintaining two shipbuilders 
capable of delivering nuclear-powered submarines. To execute this 
strategy, GDEB has been selected as the prime contractor for OR with 
the responsibilities to deliver the twelve OR submarines. HII-NNS will 
design and construct major assemblies and OR modules leveraging their 
expertise with Virginia construction. Both shipbuilders will continue 
to deliver Virginia-class submarines throughout the period with GDEB 
continuing its prime contractor responsibility for the program. Given 
the priority of the OR Submarine Program, the delivery of Virginia-
class submarines will be adjusted with HII-NNS performing additional 
deliveries. Both shipbuilders have agreed to this build strategy.
    In addition to the Department of the Navy's budget request, the 
continued support of Congress for Naval Reactors' Department of Energy 
(DOE) funding is vital to the Navy mission and ensuring the safe, 
reliable and enduring operations of the nuclear-powered Fleet. The 
President's fiscal year 2017 DOE budget fully funds Naval Reactors 
request for the OR SSBN. This funding is critical to maintain the 
reactor design and development in synch with the Navy shipbuilding 
schedule to support lead ship procurement in 2021. The DOE budget 
submission also provides full funding for refueling the Land-based 
Prototype. This effort not only supports development of the OR SSBN 
life-of-the-ship core, but also ensures Naval Reactors continues to 
train about 2,000 nuclear-qualified sailors per year for the next 
twenty years. Naval Reactors' DOE budget also includes funding for the 
Spent Fuel Handling Project. Recapitalizing this capability is critical 
to the Navy's tight refueling and defueling schedule of nuclear-powered 
aircraft carriers and submarines.
                        large surface combatants
    Guided missile cruisers (CGs) and guided missile destroyers (DDGs) 
comprise our large surface combatant fleet. These ships fulfill broad 
mission requirements both independently and in conjunction with a 
strike group with demands for increased capability and capacity in 
Ballistic Missile Defense (BMD) and Integrated Air and Missile Defense 
(IAMD), a continued focal point. In order to meet the increased demand 
for BMD, the Navy forward deployed four BMD capable DDGs, USS Donald 
Cook (DDG 75) and USS Ross (DDG 71) in fiscal year 2014, and the USS 
Carney (DDG 64) and USS Porter (DDG 78) in fiscal year 2015 to Rota, 
Spain. Additionally, the BMD ships USS Benfold (DDG 65) and USS Barry 
(DDG 52) departed in October 2015 and January 2016 respectively to 
forward deploy to Yokosuka, Japan. The Anti-Submarine Warfare (ASW) 
combat systems on DDGs and CGs are also being upgraded, bringing 
significant improvements over legacy systems.
    The Arleigh Burke-class (DDG 51) program remains one of the Navy's 
most successful shipbuilding programs with 62 ships currently operating 
in the Fleet. The fiscal year 2017 President's Budget includes funding 
for two destroyers to execute the final year of the current MYP. Both 
ships will incorporate Integrated Air and Missile Defense and provide 
additional BMD capacity known as Flight III, which incorporates the Air 
and Missile Defense Radar (AMDR) and will deliver this much needed 
capability, essential for future sea-based BMD, to the Fleet in the 
early fiscal year 2020s. The $1 billion of incremental funding provided 
by Congress in the fiscal year 2016 budget for an additional DDG 
underscores the importance of these ships. The Navy will keep Congress 
advised throughout 2016 as we develop plans to award this ship.
    AMDR is the future multi-mission radar of the Navy's surface 
combatant fleet, which will meet the growing ballistic missile threat 
by improving radar sensitivity and enabling longer range detection for 
engagement of increasingly complex threats. The AMDR radar suite will 
be capable of providing simultaneous surveillance and engagement 
support for long range BMD and area defense. The program continues to 
demonstrate maturity in its design development including the successful 
completion of the AMDR System Critical Design Review and the successful 
design verification testing conducted thus far in the early stages of 
developmental testing. Detail design efforts for the DDG Flight III 
design will continue in fiscal year 2016, ultimately leading to over 90 
percent detail design completion prior to start of construction on the 
first Flight III ship in fiscal year 2016.
    The DDG 1000 Zumwalt-class guided missile destroyer will be an 
optimally crewed, multi-mission, surface combatant designed to provide 
long-range, precision, naval surface fire support to Marines conducting 
littoral maneuver and subsequent operations ashore. In addition to the 
ship's two 155mm Advanced Gun Systems capable of engaging targets with 
the Long Range Land Attack Projectiles, the ship will be capable of 
conducting ASW, Anti Air Warfare (AAW), land attack, and will provide 
valuable advancements in technology such as signature reduction (both 
acoustic and radar cross-section), active and passive self-defense 
systems, enhanced survivability features, and shipboard automation (in 
support of reduced manning). The DDG 1000 program accomplished several 
construction milestones in 2015 including an initial sequence of sea 
trials which tested the ship's hull, mechanical, and electrical 
systems. DDG 1000 is on track to complete sea trials for Navy 
acceptance in April 2016 and deliver to the Navy later this year.
                        small surface combatants
    The Littoral Combat Ship (LCS) enables the Navy to implement the 
Defense Strategic Guidance (DSG) directive to develop innovative, low-
cost, and small-footprint approaches to achieve our security 
objectives. The modular, open systems architecture inherent in LCS 
allows for rapid, affordable integration of new warfighting 
capabilities as technology evolves. LCS is designed to fill critical 
warfighting gaps assigned to the small surface combatant force across 
the full range of military operations while also fulfilling naval 
global commitments in operations other than war. LCS design 
characteristics (speed, agility, shallow draft, payload capacity, 
reconfigurable mission spaces, air/water craft capabilities) combined 
with its core command, control, communications, computers and 
intelligence (C4I); sensors; and weapons systems, allow LCS to bring 
unique strengths and capabilities to the mission.
    The Fast Frigate will incorporate significant improvements in 
lethality, survivability and capability from the LCS baseline 
configuration. The ship will provide multi mission ASuW and ASW 
capabilities as well as continuous and effective air, surface and 
underwater self-defense capabilities. The Frigate will be equipped with 
over-the-horizon (OTH) surface-to-surface missiles (in addition to LCS 
baseline Surface Warfare (SUW) and ASW Mission Package (MP) 
capabilities), and additional upgrades to combat and electronic warfare 
systems.
    The 2014 FSA update outlines the requirement for 52 small surface 
combatants and determined a need for 26 deployed SSCs to meet the 
Navy's global peacetime and wartime requirement. The Navy's 2016 Long 
Range Shipbuilding Plan and the fiscal year 2016 FYDP included 
procurement of 14 LCS/Fast Frigate (FF) ships in fiscal year 2017-2021. 
In order to balance current and future capability needs within the 
fiscal year 2017 top line constraints, the procurement plan for LCS/FF 
was reduced to seven ships within the FYDP and the overall inventory 
objective was reduced from 52 to 40 ships. The Navy will evaluate the 
risk associated with this budget decision, in the broader context of 
total large and small surface combatant ship inventory, in the course 
of the 2016 FSA update to inform future shipbuilding plans.
    The fiscal year 2017 President's Budget requests funding for the 
Navy to competitively award one LCS to each shipbuilder and solicit 
block buy LCS proposals from each shipbuilder, to be submitted with 
their 2017 ship proposals. Additionally, it includes a request for 
RDT&E,N funding to proceed with completion of respective Frigate 
designs. A competitive down-select to a single shipbuilder is planned 
for fiscal year 2019, but potentially as early as fiscal year 2018 
based on the proposed Frigate design and the modified block buy cost. 
This acquisition strategy sustains the two shipbuilders competing for 
the single ship awards in fiscal year 2017 while enabling competitors 
to align long term options with their vendor base in support of the 
subsequent down-select, and accelerates delivery of the desired more 
lethal and survivable Frigate capability to the Fleet. Additionally, 
the plan preserves the viability of the industrial base in support of a 
pending decision regarding Foreign Military Sales opportunities, all 
the while preserving future decision space regarding the Frigate 
procurement should further future changes to operational requirements, 
budget, or national security risk dictate the need.
    It is recognized that this down-select decision places one of our 
shipbuilders and part of the support industrial base at risk of 
closure. The Navy will use this current period of stable production--
prior to the down-select decision--to thoroughly assess the impact of 
such potential closure on our strategic shipbuilding industrial base, 
the cost of our shipbuilding program, and our ability to support in-
service ships, in order to identify appropriate actions to mitigate 
these impacts to the extent practical.
    The LCS Mission Modules program provides focused Mission Packages 
for LCS that address critical Navy SUW, Mine Countermeasures (MCM), and 
ASW gaps identified in the 2004 Assured Maritime Access in the 
Littorals Initial Capabilities Document. The LCS Mission Modules 
program continues to field capability incrementally as individual 
mission systems become available in order to fill these critical 
warfighting gaps. The SUW MPs are being introduced in three phases, 
providing capability to address Fast Attack Craft and Fast Inshore 
Attack Craft in the littorals and maritime security and escort roles 
previously assigned to Oliver Hazard Perry-class Frigates and Cyclone-
class patrol ships. MCM MPs are being fielded in four phases delivering 
capability to address maritime mines and to replace legacy Avenger-
class Mine Countermeasures ships and MH-53E Sea Dragon helicopters that 
are nearing the end of service life. The ASW MPs will be delivered in a 
single phase and provide counter-submarine capability in littoral and 
deep water environments, High Value Unit (HVU) ASW escort and barrier 
patrol capability.
    Increment 1 of the SUW MP, which consists of the Gun Mission Module 
(2 Mk 46 30 mm guns) and the Aviation Module (embarked MH-60R) and 
Increment 2 which adds the Maritime Security Module (small boats), 
completed the initial phase of Initial Operational Test & Evaluation 
(IOT&E) in September of 2015 aboard the USS Coronado (LCS 4). A 
subsequent phase of IOT&E will be conducted on another Independence-
variant LCS in the summer of 2016, following upgrades to the ship's 
Integrated Combat Management System and SeaRAM weapon system. USS Fort 
Worth (LCS 3), with an embarked SUW MP, is currently on an extended 
operational deployment based out of Singapore. This embarkation of an 
SUW MP is also the first instance of an MQ-8B Fire Scout Vertical Take-
off Unmanned Aerial Vehicle being deployed in conjunction with an MH-
60R helicopter aviation detachment. The Navy completed the second in a 
series of Guided Test Vehicle launches of the Army's Hellfire Longbow 
missile in December 2015 to evaluate performance of the LCS Surface-to-
Surface Missile Module in a littoral environment. The demonstration 
showed that the vertically-launched missiles could effectively acquire, 
discriminate and engage the representative targets.
    Increment 1 of the MCM MP consists of the Remote Multi-Mission 
Vehicle (RMMV), towed sonar, and airborne mine detection and 
neutralization systems. Technical Evaluation (TECHEVAL) was completed 
in August 2015, aboard USS Independence (LCS 2). The Mission Package 
met the majority of its sustained area coverage rate test requirements, 
but significant reliability issues were noted with the RMMV and 
associated subsystems, which constitute the Remote Minehunting System 
(RMS). Based on TECHEVAL results, CNO and ASN (RDA) chartered an 
Independent Review Team to assess the RMS. The review team recommended 
halting the procurement of the RMMV Low Rate Initial Production (LRIP) 
2 and recommended pursuing acceleration of other promising near term 
technologies to accomplish the MCM mission. The Navy will coordinate 
with all stakeholders, particularly the Fleet, in developing the way 
ahead for this important capability.
    The ASW Mission Package, comprised of a continuously active 
variable depth sonar (VDS), multi-function towed array (MFTA), and a 
torpedo defense capability, is in development and preparing for 
Developmental Testing (DT). The ASW Mission Package completed its 
initial integration test onboard USS Freedom (LCS 1) on September 30, 
2014. All primary test objectives were completed successfully. ASW MP 
testing has been successfully conducted using the Advanced Development 
Model (ADM) Platform. This platform allowed integration testing of the 
Continuous Active Sonar and VDS that will be associated with the ASW 
escort module. The ASW MP is on track to complete DT with IOT&E in late 
fiscal year 2018.
                            amphibious ships
    Amphibious ships operate forward to support allies, respond to 
crises, deter potential adversaries, and provide the Nation's best 
means of projecting sustainable power ashore. They also provide an 
excellent means for providing humanitarian assistance and disaster 
relief. Amphibious forces comprised of sailors, marines, ships, 
aircraft and surface connectors provide the ability to rapidly and 
decisively respond to global crises without a permanent footprint 
ashore that would place unnecessary political or logistical burdens 
upon our allies or potential partners. There are two main drivers of 
the amphibious ship requirement: maintaining persistent forward 
presence, which enables both engagement and crisis response, and 
delivering the assault echelons of Marine Expeditionary Brigades (MEB) 
for joint forcible entry operations.
    The CNO and Commandant of the Marine Corps have determined that the 
force structure for amphibious lift requirements is 38 amphibious 
ships, fiscally constrained to 34 ships. Balancing the total naval 
force structure requirements against fiscal projections imposes risk on 
meeting this requirement. Based on the footprint of a 2.0 MEB assault 
echelon force and assuming 90 percent operational availability, a 
minimum of 30 operationally available ships is assumed for operational 
planning. This would require a force made up of ten Amphibious Assault 
Ships (LHD/LHA), ten Amphibious Transport Docks (LPD) and ten Dock 
Landing Ships (LSD). At the end of fiscal year 2017, the Amphibious 
Force Structure will be 32 ships (9 LHD/LHAs, 11 LPDs, and 12 LSDs) 
increasing to 34 ships throughout the 2020s and 2030s. The Navy plans 
to maintain 11 deployable LSDs in the active force until LX(R) delivers 
by rotating three LSDs to complete phased modernizations beginning in 
fiscal year 2016. This will extend USS Whidbey Island (LSD 41), USS 
Germantown (LSD 42), and USS Tortuga (LSD 46) to ensure 40 years of 
operational service life. This plan mitigates presence shortfalls and 
supports 2.0 MEB Assault Echelon shipping requirements.
    LHA 6 America-class ships are flexible, multi-mission platforms 
with capabilities that span the range of military operations, from 
forward deployed crisis response to forcible entry operations. These 
ships will provide the modern replacements for the LHA 1 Tarawa-class 
ships, which have all decommissioned as of 2015, and the aging LHD 1 
Wasp-class ships as they begin decommissioning in the late 2020s. USS 
America (LHA 6) and Tripoli (LHA 7) are optimized for aviation 
capability and do not include a well deck. USS America completed a 
portion of its Operational Test and Evaluation activities in San Diego, 
CA and commenced PSA in May 2015. The ship is scheduled to complete PSA 
in Spring 2016 and will subsequently complete further operational 
testing and training. As of March 2016, LHA 7 construction is 44 
percent complete and on schedule to deliver in 2018.
    LHA 8, the first Flight 1 ship, will have a well deck to increase 
operational flexibility and a reduced island that increases flight deck 
space to enhance aviation capability. The Navy completed the LHA 8 
early industry involvement affordability phase in fiscal year 2015 in 
which 300 cost reduction initiatives were developed by industry and the 
Navy and Marine Corps. The affordability cost reduction initiatives 
drove technical and production improvements throughout the ship design 
culminating in the ship specification issued to industry for more 
affordable ship design and construction. LHA 8 is currently in 
competitive source selection as part of an amphibious and auxiliary 
shipbuilding acquisition strategy to support stability and 
affordability for this sector of the industrial base. Long lead time 
material procurement and detail design is scheduled to begin in June 
2017, construction is funded in fiscal year 2017 and fiscal year 2018 
and delivery is planned for fiscal year 2024.
    The San Antonio-class (LPD 17) provides the ability to embark, 
transport control, insert, sustain, and extract elements of a MAGTF and 
supporting forces by helicopters, tilt rotor aircraft, landing craft, 
and amphibious vehicles. Two ships are under construction, John P. 
Murtha (LPD 26) and Portland (LPD 27), and will deliver in Summer 2016 
and 2017, respectively. The balance of funding for LPD 28 was provided 
in fiscal year 2016. LPD 28 will possess all of the key fundamental 
capabilities and characteristics associated with LPDs 17 through 27, to 
include command and control, aviation operations and maintenance, well 
deck operations, and medical and will also incorporate system updates 
due to obsolescence. LPD 28's design and construction features will, at 
the same time, exploit many of the ongoing LX(R) design innovations and 
cost reduction initiatives that are necessary for the program to 
achieve affordability goals while maintaining the high level 
capabilities of the LPD 17 class. The procurement of LPD 28 will also 
assist in mitigating critical impacts to shipbuilding and combat 
systems industrial bases caused by the gap in ship construction, 
pending the award for LX(R) procurement.
    LX(R) is the replacement program for the landing ship dock, LSD 41 
and LSD 49 classes, which will begin reaching their estimated service 
life in the mid-2020s. LX(R) is envisioned to be a flexible, multi-
mission warship with capabilities that support execution of the full 
range of military operations. The need to support disaggregated or 
split operations away from the Amphibious Ready Group or to deploy 
independently is a key driver for the design of this ship class. The 
inherent flexibility of amphibious ships is demonstrated by their 
support to seven of the 10 missions in the DSG. LX(R) will leverage 
mature design using the LPD-17 hull form while balancing cost and 
requirements to deliver key capabilities. The lead LX(R) will deliver 
in fiscal year 2025 in advance of LSD 43's retirement in fiscal year 
2027.
    The Consolidated Appropriations Act, 2016 added funding for the 
acceleration of LX(R) and the program focus during fiscal year 2016 
will be on validating the requirements in the Capability Development 
Document and executing contract design efforts. The Navy will initiate 
key long lead time material procurements critical to maintaining a 
stable supplier base, and commence design efforts necessary to 
accelerate design activities to fiscal year 2019. This earlier start 
will enable design completion and start of construction up to a year 
earlier, and delivery in fiscal year 2025, one year earlier than 
originally planned. The LX(R) contract design effort is part of the 
Navy's combined limited procurement acquisition strategy of LHA 8 and 
six T-AO(X) ships. Both General Dynamics NASSCO and Huntington Ingalls 
Industries, Ingalls Shipbuilding will be awarded a share of the LX(R) 
Contract Design, upon awards of LHA 8 and T-AO(X) contracts.
                            auxiliary ships
    Support vessels such as the Expeditionary Sea Base (ESB, formerly 
Afloat Forward Staging Base), Expeditionary Transfer Dock (ESD, 
formerly Mobile Landing Platform) and the Expeditionary Fast Transport 
(EPF, formerly Joint High Speed Vessel) provide additional flexibility 
to the Combatant Commanders. The USNS Montford Point (ESD 1) and USNS 
John Glenn (ESD 2) provide two core capabilities of vehicle and 
equipment transfer at-sea and interface with surface connectors to 
deliver vehicles and equipment ashore to complete arrival and assembly. 
The USNS Lewis B. Puller (ESB 3), the first Afloat Forward Staging Base 
(AFSB) variant of the ESD, was delivered in June 2015. ESBs are 
flexible platforms capable of hosting multiple mission sets with 
airborne, surface, and subsurface assets. The Navy started construction 
of ESB 4 in October 2015, and is planning for a fiscal year 2016 award 
of the fifth ESB. While not a substitute for amphibious warships, the 
ESB will relieve pressure on our amphibious fleet in routine 
operations. The EPF provides a high-speed, shallow-draft alternative to 
moving personnel and materiel within and between the operating areas, 
and to supporting security cooperation and engagement missions. The 
Navy continues to explore opportunities to further enhance EPF's 
operational profile to support/enhance warfighter requirements such as 
Special Operations support, Maritime Interdiction Operations, and ISR 
missions. EPF 6 was delivered in January 2016 and production continues 
with EPFs 7-10. In fiscal year 2016, Congress provided funding for a 
twelfth EPF and the Navy is currently issuing a Request for Proposal 
for construction of EPF 11 and 12.
    The Combat Logistic Force consists of T-AOE fast support ships, T-
AKE auxiliary dry cargo ships, and T-AO fleet replenishment oilers. 
Combat Logistics Force ships fulfill the vital role of providing 
underway replenishment of fuel, food, repair parts, ammunition and 
equipment to forward deployed ships and embarked aircraft, to enable 
them to operate for extended periods of time at sea. The T-AO and T-AKE 
ships serve as shuttle ships between resupply ports and their customer 
ships, while the T-AOE ships serve as station ships, accompanying and 
staying on-station with a Carrier Strike Group to provide fuel as 
required to customer ships. The Navy continued its efforts in 2015 to 
mature its concept for the replacement of the Kaiser-class (T-AO 187) 
of Fleet Replenishment Oilers. The new replacement oilers, currently 
designated as T-AO(X), will be double-hulled and meet Oil Pollution Act 
1990 and International Marine Pollution Regulations. The lead ship is 
funded in 2016 with serial production beginning in 2018. The total ship 
quantity is planned to be 17 ships.
    Beginning in 2016, the Navy will begin procurement of a combined 
Towing, Salvage, and Rescue (T-ATS) ship to replace the four T-ATF 166 
class fleet tugs, which reach the end of their expected service lives 
starting in 2020, and the four T-ARS 50 class salvage ships, which 
reach the end of their expected service lives starting in 2025. The 
Navy appreciates the efforts of Congress to bolster the force structure 
and support the industrial base with the fiscal year 2016 accelerated 
funding for T-ATS and ESB.
                       surface ship modernization
    The fiscal realities facing the Navy make it imperative that we 
modernize and extend the service lives of our in-service ships to meet 
the FSA requirements. The bulk of our current surface fleet was 
procured in the late 1980s and 1990s, and as such will reach the end of 
their service lives and retire at the same rate creating inventory 
shortfalls across the battle force. An important element of mitigation 
is the extension and modernization of our Arleigh Burke-class DDGs, 
Ticonderoga-class cruisers, and LSD 41/49 class amphibious ships.
    The fiscal year 2017 President's Budget includes funding for the 
modernization of two destroyers to sustain combat effectiveness, ensure 
mission relevancy and to achieve the full expected service lives of the 
AEGIS Fleet. The destroyer modernization program includes HM&E upgrades 
as well combat systems improvements with upgraded AEGIS weapons systems 
Advanced Capability Build (ACB) 12 to include open architecture 
computing environment, BMD capability, installation of the Evolved Sea 
Sparrow Missile (ESSM), integration of the SM-6 missile, and improved 
air dominance with processing upgrades and Naval Integrated Fire 
Control-Counter Air capability. This renovation reduces total ownership 
costs and expands mission capability for current and future combat 
capabilities.
    Cruiser modernization ensures long-term capability and capacity for 
purpose-built Air Defense Commander (ADC) platforms. Eleven recently 
modernized CGs (CG 52-CG 62) will perform the ADC function for 
deploying Carrier Strike Groups while the Navy modernizes the newest 
eleven ships (CG 63-CG 73). The newly modernized CGs will replace the 
first eleven CGs on a one-for-one basis as each older ship reaches the 
end of service life (35 years) starting in fiscal year 2020. To date, 
the Navy has modernized CGs 52-58 with the ACB 08 Combat System as well 
as substantial HM&E upgrades, and completed modernization on CGs 59, 
60, and 62 with the improved ACB 12.
    In fiscal year 2015, the Navy inducted the USS Cowpens (CG 63) and 
USS Gettysburg (CG 64) into modernization. The next two CGs, USS 
Vicksburg (CG 69) and USS Chosin (CG 65), will be inducted in April 
2016. The modernization for these four ships is being executed in 
accordance with congressional legislation and is utilizing funding from 
the Ships Modernization, Operations, and Sustainment Fund (SMOSF). The 
induction of these ships also greatly supports industrial base 
workload. For example, our ability to accelerate the USS Gettysburg (CG 
64) modernization is helping to mitigate the significant workload 
valley in the Hampton Roads area during 2016.
    The fiscal year 2017 President's Budget requests $521 million 
across the FYDP (in addition to current SMOSF funding) to support CG 
Modernization ($183 million in fiscal year 2017) and proposes a CG/LSD 
modernization plan within this funding profile that ensures the long 
term capability and capacity for ADC platforms. This plan will avoid $3 
billion over the FYDP compared to the current Congressionally mandated 
plan. The fiscal year 2017 President's Budget supports the induction of 
an additional seven cruisers in fiscal year 2017, phased to ensure 
completion, where applicable, of each ship's planned operational 
deployment prior to induction.
    During modernization, costs avoided by minimizing manpower and 
operations and support provide a fiscal offset that partially funds the 
modernization itself. This plan paces the threat through the 
installation of the latest technological advances in combat systems and 
engineering and will provide the means to retain the best ADC and 
Marine expeditionary lift capabilities through the 2040s. The plan 
proposed in the fiscal year 2017 budget provides significant cost 
avoidance within the FYDP, and Navy is fully committed to funding and 
completing modernization outside the FYDP. The Navy will continue to 
work with Congress to develop and evaluate funding options to mitigate 
the effects of the BBA and continue this vital modernization with 
adequate funding in fiscal year 2017 and beyond.
    Similarly, the Navy plans to perform the final Whidbey Island-class 
midlife modernization as well as to extend two LSDs This plan completes 
the HM&E midlife and modernizes combat systems, engineering and ship's 
control, satellite communications, computers, and intelligence 
gathering capability on USS Tortuga (LSD 46) extending expected service 
life from 35 to 44 years. LSD 46 was inducted into modernization in 
December 2015 and is scheduled to return to the Fleet in fiscal year 
2019. Additional post-midlife modernization is planned for USS Whidbey 
Island (LSD 41) and USS Germantown (LSD 42) to execute structural, 
engineering, and combat systems modernizations to extend their expected 
service life. LSD 41 is planned for induction into modernization in 
fiscal year 2020.
                             combat systems
    The Navy continues to field the most capable and lethal surface and 
submarine combat systems in the world. The combination of forward 
stationed and rotationally deployed AEGIS Baseline 9 cruisers and 
destroyers is a uniquely adaptable means to maintain global military 
presence while respecting the sovereignty of other nations. The forward 
presence of these large surface combatants provides an expansive range 
of options to influence events and project power in peacetime, crisis 
and war. AEGIS Baseline 9 incorporates advances in technology and keeps 
pace with emerging threats using networked-based, commercial off-the-
shelf computing system infrastructures to bring increased warfighting 
capabilities. The related AEGIS Common Source Library (CSL) enables 
software reuse and commonality across all modern AEGIS Combat System 
configurations: Air Defense Cruisers, IAMD Destroyers, New Construction 
IAMD Destroyers, and AEGIS Ashore.
    To ensure the Navy maintains its defensive capability in the next 
decade and beyond, the Department is pursuing affordable defensive 
systems that are employable from multiple platforms. The use of spiral 
development has been utilized to acquire and field the newest surface 
ship electronic warfare systems. Under the Surface Electronic Warfare 
Improvement Program (SEWIP), we are replacing aging analog electronic 
warfare defensive systems first fielded in the early 1970's with new, 
digital systems. The first SEWIP program, Block 1, provides a digital 
backbone and highly sensitive receivers, while SEWIP Block 2 will add 
larger receivers to detect the current and projected future threats in 
the electromagnetic spectrum. These two spirals completed a highly 
successful deployment, aboard USS Bainbridge (DDG 96) in 2015. The 
SEWIP Block 3 program, entering its engineering and manufacturing 
development phase now, will add an active jamming system. Block 3 is 
currently on track to begin fielding in the 2019-2020 timeframe.
    The Submarine community continues to successfully deliver 
improvements in Anti-Submarine Warfare utilizing a bi-annual spiral 
development model and leveraging Commercial-Off-The-Shelf (COTS) 
technologies via the Acoustic Rapid COTS Insertion (A-RCI) program. 
Developmental towed arrays with improved telemetry have been 
successfully fielded on deployed fast attack submarines and new 
contracts with these new telemetries will be awarded in fiscal year 
2016. Progress in development of the Large Vertical Array continues on 
track in support of the Acoustic Superiority program.
    Surface Navy ASW is evolving to an active sonar approach to counter 
advanced submarine capabilities. The AN/SQQ-89(V) sonar system 
processes active and/passive sensor data from the hull-mounted and 
towed arrays, and sonobuoys. We have installed over 30 SQQ-89 systems 
which include the multi-function towed array for extended passive 
detection. Additionally, the LCS ASW MP remains on track to achieve 
Initial Operational Capability (IOC) in fiscal year 2018. LCS with the 
ASW MP is capable of detection and tracking of submarines at extended 
ranges via multiple convergence zones. The ASW MP leverages existing 
and fielded technology, including a continuous active sonar/variable 
depth sonar (CAS/VDS), the multi-function towed array (MFTA), a command 
and control module, a torpedo defense module, and an aviation module.
                                weapons
    The Navy has made significant strides in extending the fleet's 
layered defense battle-space while also improving the capabilities of 
the individual ship defense layers in order to pace the increasing 
anti-ship missile threat. Standard Missile-6 (SM-6) provides theater 
and high value target area defense for the fleet and with integrated 
fire control has more than doubled defensive battle-space. SM-6 testing 
between March 2015 and January 2016 achieved maximum range, reliability 
and multi-mission capability goals. The Evolved Sea Sparrow Missile 
(ESSM) program awarded the Block 2 Engineering Manufacturing and 
Development contract in 2015, which will leverage the SM-6 active 
guidance section architecture to improve ship self-defense performance 
against stressing threats and environments. Rolling Airframe Missile 
(RAM) Block 2 achieved IOC in May 2015, providing improved terminal 
ship defense through higher maneuverability and improved threat 
detection.
    The fiscal year 2017 President's Budget includes funding to upgrade 
the Standard Missile-2 (SM-2) inventory with active guidance. This 
investment provides an affordable, integrated fire control capable, 
area defense missile to counter stressing threats. (Potential $2 
billion savings compared to filling the entire area defense inventory 
needs with the SM-6 Block 1A missiles.)
    Affordability continues to be a focus for weapons. International 
cooperation on ESSM and RAM results in our allies sharing 50 percent or 
more of the program costs. By leveraging investment in previous 
designs, the Navy's development, production, and maintenance costs are 
reduced. The increased capabilities inherent in these new designs can 
also support the use of these weapons in additional roles thereby 
creating multi-mission weapons from existing designs. The fiscal year 
2017 President's Budget provides the funds required for these critical 
activities.
                         expeditionary warfare
    The Navy/Marine Corps team provides the Combatant Commanders and 
our Nation the options needed to engage with our partners, to deter our 
adversaries and, when needed, to fight and win. Unique to our 
expeditionary warfare capabilities is the ability to maneuver ashore 
and force entry once there. That ability is provided through the 
combination of air and surface connectors to move the ground force from 
the sea base to the ashore objective and the organic capability of the 
ground force to maneuver and fight once ashore.
    The Seabasing Joint Integrated Concept requires surface capability 
to transport personnel, supplies and equipment from within the seabase 
and maneuver them to objectives ashore. Surface connectors with 
enhanced speed and range will provide future expeditionary force 
commanders greater flexibility to operate in contested environments. 
Our primary surface connectors, the Landing Craft Air-Cushion (LCAC) 
and the Landing Craft Utility (LCU) are reaching the end of their 
service lives and require modern replacements.
    The fiscal year 2017 President's Budget requests $128 million for 
new Ship to Shore Connector (SSC) air cushioned vehicles and additional 
funding across the FYDP for procurement. The SSC is the replacement for 
the aging LCACs which have undergone service life extension programs 
(SLEP) and a Post SLEP sustainment program to mitigate the gap as the 
SSC is developed and fielded. Additionally, funding was provided in 
fiscal year 2016 to accelerate the procurement of the LCU-1700 Program 
(formerly known as the Surface Connector (X)-Recapitalization (SC(X)) 
program), which is planned to recapitalize the aging LCU 1610 class.
    These platforms are essential in connecting the combat power and 
logistical sustainment that the sea base provides with the forces that 
are operating in the littorals and inland for all missions. The 
Department will continue to explore future connector options that will 
increase our ability to exploit the sea as maneuver space by increasing 
range, speed, and capacity.
    The whole principle of Expeditionary Warfare is to operate forward, 
to exploit the seas as maneuver space--as a base for global power 
projection--and to be ready to maneuver to shore when so ordered. Our 
ability to deploy from the sea in austere environments at a time and 
place of our choosing gives us significant tactical, operational and 
strategic advantages over potential adversaries.
                            unmanned systems
    The Department of the Navy has placed a priority on the development 
of unmanned systems leading to a fully integrated manned and unmanned 
fleet. Unmanned technology will not replace our sailors and marines, 
instead it will unlock their full potential as we integrate this 
technology with our total forces.
    Currently, our warfare communities are all doing superb work in 
unmanned systems and integrating them into the existing architecture 
within their own framework, but as this technology becomes more complex 
and widespread, ensuring we have a cohesive management function is 
critical to maintaining our superiority across all domains, and 
possibly even multiple domains.
    Autonomous Undersea Vehicles (AUV) are a key component of the 
Navy's effort to expand undersea superiority. These unmanned vehicles 
operate independently from or in cooperation with manned vehicles, 
conducting maritime missions such as ISR, Seabed Warfare, and 
Deception. AUVs and undersea fixed systems will operate in areas that 
are inaccessible to manned submarines and ships.
    Dozens of AUVs are conducting sea sensing and mine countermeasure 
tasks today with human-in-the-loop supervision. Developmental work to 
expand AUV endurance, autonomy, and sensor/payload capability will 
eventually enable AUVs to operate for days or weeks with minimal human 
interaction needed to ensure successful task completion. While nominal 
force structure requirements for fiscal year 2025 have not been 
determined, the Navy is committed to growing both the size and 
composition of the AUV force. In the near-term, AUVs present an 
opportunity to increase undersea superiority and offset the efforts of 
our adversaries.
    The Large Displacement Unmanned Underwater Vehicle (LDUUV) is an 
unmanned undersea vehicle to offload ``dull, dirty, dangerous'' 
missions from manned platforms & mitigate the submarine gap beginning 
in 2022. LDUUV will be launched from a variety of platforms, including 
both surface ships and submarines. The craft's missions will include 
ISR, acoustic surveillance, ASW, MCM, and offensive operations.
    The Surface Mine Countermeasure Unmanned Undersea Vehicle (SMCM 
UUV) commonly referred to as Knifefish employs a low frequency 
broadband synthetic aperture sonar. Knifefish simultaneously detects 
volume and buried mines in high clutter environments, and is planned 
for incorporation into Increment 4 of the LCS MCM MP.
    The Common Unmanned Surface Vehicle (CUSV) is capable of towing 
sensors that provide various capabilities, including minehunting and 
influence sweep. The vehicle's modular design allows it to be 
reconfigured to perform either function. CUSV, Knifefish and an 
upgraded RMMV are being considered as replacements for the RMMV in the 
LCS MCM Mission Package.
           affordability and the shipbuilding industrial base
    Stability and predictability are critical to the health and 
sustainment of the Nation's shipbuilding and combat systems industrial 
base. A healthy design and production industrial base is critical to 
achieving Department priorities and fulfilling Navy near term and long 
term needs. The shipbuilding industry, with its interdependent 
suppliers and vendors, is a complex system where today's decisions have 
a cascading effect both in the near-term and the future. Perturbations 
in naval ship design and construction plans are significant because of 
the long-lead time, specialized skills, and extent of integration 
needed to build military ships. Each ship is a significant fraction of 
not only the Navy's shipbuilding budget, but also industry's workload 
and regional employment. Consequently, the timing of ship procurements 
is a critical matter to the health and sustainment of U.S. shipbuilding 
and combat system industries, and has economic impacts at the regional 
and local levels. It is important, therefore, for the Department to 
provide stability and predictability to the industrial base, including 
key suppliers and vendors, to maintain our ability to continue to build 
the future Fleet as outlined in the long range shipbuilding plan.
    While top-line budget reductions impose significant challenges and 
result in some uncertainty for portions of the industry, the Navy is 
committed to identifying and implementing solutions to stabilize and 
maintain the base. The Navy will continue to take prudent actions to 
contain and reduce costs, foster efficiency and sustain the industrial 
base. Key to cost containment and reduction is the implementation of 
innovative acquisition strategies that stabilize ship construction 
workload while maximizing competition within the industrial base. Just 
as vital for cost reduction is a focus on product design to include 
initiatives such as design for affordability and modularity, 
incorporation of combat system open architecture, design and ship 
specification stability, and strict control over change orders. 
Improved material management and selection, utilization of Economic 
Order Quantities and the pursuit of cross-program common equipment buys 
further cost containment and reduction objectives. To foster 
efficiency, the Navy will continue to make investments to support 
shipyard facility improvements and the development of optimal build 
plans which support current and future ship construction.
    In support of industrial base sustainment as well as cost 
reduction, the Navy will continue to stabilize procurements through 
utilization of block buys and Multi Year Procurements. Additionally, we 
will consider judicious use of Advance Procurement to bridge production 
gaps and sustain the vendor base while at the same time mitigating 
material risk and improving program schedule and cost performance. Navy 
support of shipbuilding capability preservation agreements and build 
strategies (such as SUBS) will also provide stability and improve 
potential for cost reductions. In addition to improving affordability 
in procurement, these strategies minimize life-cycle costs, improve and 
ensure quality products, facilitate effective and efficient processes, 
and promote competition--which all support Department priorities.

    Senator Wicker. We will recognize each of you for as much 
as 5 minutes each. Secretary Stackley, we will begin with you 
and then followed by Vice Admiral Mulloy and Lieutenant General 
Walsh.

STATEMENT OF SEAN J. STACKLEY, ASSISTANT SECRETARY OF THE NAVY, 
             RESEARCH, DEVELOPMENT, AND ACQUISITION

    Mr. Stackley. Yes, sir. Mr. Chairman, Ranking Member 
Hirono, distinguished members of the subcommittee, thank you 
for the opportunity to appear before you today to address 
Navy's shipbuilding.
    On behalf of the Navy and the Marine Corps, I would like to 
start by thanking the Seapower Subcommittee for your strong 
support in the 2016 defense bill not only as Congress fully 
supported our request, but you have increased funding for our 
ship programs, sending a strong signal regarding the priority 
you place on the role of the Navy and Marine Corps.
    We are committed to make good on that investment to uphold 
our end of our shared responsibility to protect the Nation, to 
take care of our men and women in uniform, and to do so in the 
most cost-conscious manner possible to protect the taxpayer. We 
have been faithful to our fiscal responsibilities leveraging 
every tool available to drive down cost.
    However, fiscal challenges remain. Across the past 4 fiscal 
years, the Navy's budget has been reduced by $30 billion 
compared to the funding that we determined was necessary to 
meet the defense strategic guidance. This fiscal environment 
continues to drive tough choices, and it requires new thinking 
in order to improve the balance between capability, capacity, 
readiness, and the vital industrial base.
    Independent of the fiscal environment, the demand for naval 
presence remains high. Today, greater than half of our fleet is 
at sea and near 80,000 sailors and marines are deployed. From 
the Sea of Japan to the eastern Mediterranean, they are our 
first defense against the threat of ballistic missiles. From 
the Strait of Hormuz to the Strait of Malacca, they are the 
providers of maritime security.
    They are engaged in expeditionary maneuver from the Western 
Pacific to West Africa, ready to move ashore should conditions 
on the ground call for it or provide humanitarian assistance, 
disaster relief wherever disaster may occur. They are training 
and operating with coalition partners in all corners of the 
globe, and below the surface of the sea, they are our nation's 
surest deterrent against the use of strategic weapons.
    Consistent with these demands, we have placed a priority on 
forward presence, near-term readiness, investment in those 
future capabilities critical to our long-term technical 
superiority and stability in our shipbuilding program. Today, 
with greater than 60 ships under contract and construction, we 
are on track to meet our requirement for a 308-ship Navy by 
2012.
    We are preparing CVN-78, the Gerald Ford, our first new 
design aircraft carrier in 40 years for sea trials in June and 
continue construction of her sister ship CVN-79, the John F. 
Kennedy. In doing so, we have been successful in our drive to 
control and improve cost on these capital ships, and we will 
continue to do so.
    We are also proceeding with planning and material 
procurement to refuel CVN-73 George Washington scheduled to 
start next year. The Zumwalt destroyer, DDG-1000, our first 
new-design destroyer in 30 years, successfully completed her 
builder's sea trials in March and is preparing for acceptance 
trials later this month. Meanwhile, DDG-51 construction is 
progressing well with a first restart ship DDG-113 on track to 
deliver this year and follow ships 114 and 115 in the water.
    We recently awarded the two fiscal year 2016 ships of the 
DDG-51 multiyear contract, and we are intent on awarding the 
additional DDG incrementally funded by the 2016 defense bill 
pending determination regarding the balance of funding for this 
ship.
    We are also on track to award the Flight III destroyer 
upgrade with the Air and Missile Defense Radar later this year 
as modification to the latter of these fiscal year 2016 ships.
    The Littoral Combat Ship construction program continued its 
strong cost improvement with the delivery in 2015 of USS 
Milwaukee and USS Jackson and with the award in 2016 of the 
final three ships of the 2010 block buy contract.
    As you are aware, we revised the program one year ago to 
upgrade the LCS with increased capabilities consistent with a 
frigate. The first of these frigates is on track to award by 
fiscal year 2019. As a result of the budget reductions since 
that decision, this year's request downsizes the program from 
52 to 40 ships total. The two ships requested in 2017 are the 
minimum necessary to maintain a healthy industrial base until 
we can run the down-select competition for the frigate. We will 
keep you advised as we formulate the acquisition strategy for 
this revised program.
    In submarines, the Virginia program continues to deliver 
below budget and ahead of schedule, and we are accelerating the 
pace of design on the Ohio Replacement Program to support her 
critical schedule, releasing the contract solicitation for 
detailed design and construction of the lead boat earlier this 
year.
    In other major programs, the 10th LPD-17 San Antanio-class 
ship John P. Murtha is on track for acceptance trials this 
month. The big-deck amphibious assault ship Tripoli LHA-7 is on 
track towards her 50 percent milestone, and we are continuing 
excellent learning curve performance with construction of 
Hershel ``Woody'' Williams, our second expeditionary staging 
base.
    Meanwhile, we are evaluating proposals for three major new 
programs to be awarded this year: the fleet oiler T-AO(X), the 
next big-deck amphib LHA-8, and the design for the LSD-41 class 
replacement LX(R).
    It is also worth noting that we are proceeding with 
execution of our cruiser and LSD [dock landing ship] 
modernization programs. The first four of 11 remaining cruisers 
have entered modernization, and this budget requests an 
additional $521 million across the Future Years Defense plan, 
in addition to the $1.6 billion prior appropriated funding to 
support cruiser modernization.
    This falls well short of the $3.5 billion that would have 
been required in the 2017 through 2021 years to continue 
cruiser modernization per our congressional direction in the 
2016 NDAA [National Defense Authorization Act]. We are unable 
to fund this approach while our top line was decreasing. 
Nonetheless, we are committed to modernize these ships to 
perform their defense commander mission into the 2040 time 
frame, and the Navy submission provides an affordable path to 
do so.
    In summary, the Department's 2017 budget request has 
balanced the resources provided by the Bipartisan Budget Act 
with our requirement to provide the capacity, the capability, 
and the readiness necessary to uphold national policies, to 
protect our nation, and assure our allies. We look for your 
continued strong support for this budget request as you have 
shown in this year's 2016 budget.
    Mr. Chairman, thank you for the opportunity to appear 
before you today, and we look forward to answering your 
questions.
    Senator Wicker. Thank you very much.
    Vice Admiral Mulloy, do you have a statement?
    Admiral Mulloy. Yes, sir, I do.

 STATEMENT OF VICE ADMIRAL JOSEPH P. MULLOY, USN, DEPUTY CHIEF 
    OF NAVAL OPERATIONS FOR INTEGRATION OF CAPABILITIES AND 
                         RESOURCES (N8)

    Admiral Mulloy. Chairman Wicker, Ranking Member Hirono, and 
distinguished members of the subcommittee, I am honored to be 
here today to testify on the Navy's 2017 budget request and our 
shipbuilding programs. I look forward to working with all of 
you during the year.
    As detailed in the Chief of Naval Operations' recently 
issued design for maintaining maritime superiority, the 
emerging security environment is rapidly becoming increasingly 
globalized with accelerating change and rapid advances and 
proliferation of technology. We must continue to invest in 
sustaining our ability to outpace our adversaries and fight 
with decisive capability across the full range of operations at 
sea, from the sea, and across all domains.
    However, the fiscal realities drove tough choices, 
particularly in 2017 where the Navy had to balance over a $4 
billion reduction on the Bipartisan Budget Act. After 
integrating strategic guidance, operational context, and fiscal 
constraints, I do believe that our 2017 budget provides the 
best balance between capability, capacity, and readiness within 
our fiscal guidance.
    We made focused investments, hard prioritized choices, and 
innovation reform efforts to deliver a global sea-based force 
that can fight and win against our five major challenges, and 
we invested in advanced capabilities that increase our 
lethality for both our current and our future force. We remain 
committed to the Asia-Pacific rebalance and we will achieve 308 
ships by the end of 2021.
    In prioritizing advance capabilities, our hard choices came 
with some increased risk, primarily in capacity, military 
construction, and some readiness. In shipbuilding, this risk is 
primarily seen in the reduction of the LCS and frigate's small 
service combatant force from 52 to 40. We also had to reduce 
weapon inventories by almost 900 munitions over our 5-year 
plan.
    This reduced capacity in readiness in our presence options 
slows our time to arrive in a combat zone, which could result 
in longer timelines to achieve victory should we have to engage 
in war. However, absent fiscal relief, our 2017 investments and 
critical capabilities strengthen our naval power at and from 
sea not only to address today's threats but also tomorrow's.
    On behalf of all our sailors and civilians, I thank the 
subcommittee for the immense support you have shown the Navy 
over many years. We are very grateful. We again ask your 
support for our 2017 budget request and the balance provides 
under the Bipartisan Budget Act.
    I look forward to answering your questions.
    Senator Wicker. Thank you, sir. Lieutenant General Walsh?

 STATEMENT OF LIEUTENANT GENERAL ROBERT S. WALSH, USMC, DEPUTY 
 COMMANDANT FOR COMBAT DEVELOPMENT AND INTEGRATION; COMMANDING 
        GENERAL, MARINE CORPS COMBAT DEVELOPMENT COMMAND

    General Walsh. Thank you, Chair Wicker and Ranking Member 
Hirono. Just a few comments I would like to make.
    I would like to first thank the committee for the strong 
support you have given to our Navy and our marines over the 
years, especially last year with LPD-28 and the acceleration of 
the LX(R) has gone a long way towards meeting our requirements, 
our global requirements that we have got across the world.
    I think as you look at the shipbuilding plan, I think we 
are on a strong path right now on our amphib ship program. I 
think we have reversed the downward decline to 30, and we have 
got a strong path with LX(R) coming online. The LPD-28 is that 
bridge ship as we are calling it, going from an LPD-17 to the 
LX(R). We are excited about the LHA-6 America that we have got 
out and our LHA-7, which Tripoli is right behind, and the 
contract negotiations that we are soon to have on LHA-8, which 
will follow with bringing oil deck back into our big-deck 
amphibs.
    I think as you look across the connector force, I think 
there are a lot of good things going on there as we have got 
our amphibious warships, our marines on those ships, which are 
a landing force, and then we have got to get those marines 
ashore. We are replacing our aged LCACs [Landing Craft Air 
Cushion] with the ship-to-shore connector program, which is 
moving in the right direction and is going to bring us 
tremendous capability as it replaces those LCACs. Right behind 
that is replacing our old landing craft units with the new LCU 
1700, which is going to bring us also good capability.
    I think, Chairman, as you discussed balancing readiness and 
modernization, I think that is a challenge we all have. We have 
talked about the budget and the pressure that is on the budget. 
I kind of compare it to looking back at the cold war a little 
bit and where we are at today, two completely different times. 
What we have got today is our marines, even though we have 
reduced operations in Afghanistan and Iraq, we are still 
deployed at about a 1-to-2 deployment-to-dwell ratio.
    You mentioned requiring to meet commander demands over 50 
amphibious ships. The demand is very high for our Navy and 
Marine Corps all across the globe, and we see that. No change 
really at all in how hard our sailors and marines are working 
across the globe, and like I said, it is really seen in that 1-
to-2 deployment-to-dwell ratio.
    The thing that I will say, though, that is changing in my 
mind is for the last 14 years we have been against a fairly 
steady state threat in Iraq and Afghanistan, and we have had a 
clear focus on that. What we see is that threat continues to 
stay out there and is not diminishing, but at the same time we 
see a rise in China in East and South China Seas. We see a 
tremendous growth in their modernization and their military 
capability. At the same time we see Russia and Syria, in 
Georgia, Crimea, and Ukraine and some of the activities. They 
have gotten high-end capabilities that they are delivering out 
there.
    All those would be a challenge to our force today with the 
capabilities that we have been focused on for the last 14 
years. I think that is going to take a change in the 
modernization strategy that we are on right now. We all see 
that to be able to operate on tomorrow's battlefield with those 
complex and hybrid threats that we are going to see in a very 
complex world that we are seeing out there today.
    That balance between that readiness and modernization, as I 
look back to the cold war, we stayed very focused on a high-end 
threat, and it was a gradual increase in our capabilities after 
really World War II that we just continued to ramp up those 
high-end capabilities.
    This is more of a coming out of Iraq and Afghanistan and 
now seeing that threat right in front of us, we have not had 
that time to ramp up that capability while the threats have 
continued to modernize and increase their capability.
    I think that is the difference is looking at the threats we 
see today are a lot of the same type of threats that we saw 
back in the cold war that we in the Marine Corps certainly and 
I think also our Navy partners had not focused on the high end 
that had been in the electromagnetic spectrum, signals 
intelligence, some of those areas there to be able to defeat a 
higher-end threat.
    Our focus is really changing. That balance between trying 
to maintain that high-end for deployed forces, along with 
modernizing a force is that balancing that risk that we are 
under right now.
    Again, I thank the committee's support for all you are 
doing for our Navy and Marine Corps.
    Senator Wicker. Well, thank you, all three of you, for your 
very impressive opening statements and your insights.
    General Walsh, you began by talking about the LX(R) and our 
teamwork in accelerating that program. How important is this 
class of ship to the Marine Corps in meeting your requirement, 
and how important is it to our marines?
    General Walsh. Sir, that is a great--you know, we talked 
about the demand on the amphib force right now and in the Navy 
in general about the ships. What we are seeing right now is--I 
would say specifically an example would be we used to have an 
amphibious-ready group in the Mediterranean years ago when we 
had a larger-size force. I think over the last 14 years or so 
it has kind of been quiet in that area, but things have gotten 
a lot more complex off of African and the Mediterranean region. 
We would like to have a capability of the ships that are there.
    As you are well aware, if we put a Special-Purpose MAGTF, 
Special Purpose Marine Air-Ground Task Force in Moron, Spain, 
that operates out of Moron, Spain; Sigonella, Italy; and also 
Souda Bay, Greece, we kind of work out of those three places 
because we do not have enough amphib ships in that area.
    I think as we look at the amphibious ships we have got 
right now, we went from a time and place where we had three 
amphibious ships tied together in an amphibious-ready group 
with our Marine Expeditionary Unit, always worked up together, 
trained together, deployed together. We are expected to stay 
together. Those commanders loaded those ships to be able to 
expect to operate and work together.
    Recently, we have written a concept of operations for 
disaggregated ARG [amphibious ready group] MEU concepts to be 
able to allow us to train in advance, to be able to split those 
ships up in advance when they deploy and be able to operate 
that way.
    The LSD ships that we have today are really cargo trucks 
that we have to be able to carry the gear that goes with those 
amphibious ready groups. The LPD-17 class ship is able to--
because it is a newer ship, brings tremendous aviation 
capability, medical capability, along with probably most 
important command-and-control capability to those ships. By 
allowing it to have that capability, we can split that ship off 
with an aviation debt with a pretty good significant punch to 
go with it to be able to deploy independently and sail whether 
it is on an independent deployment or away from the ARG MEU. 
The LSDs do not really have that capability.
    By going to the LX(R) with a derivative of that or if we 
are using the same hull form, we are going to have pretty close 
to the same capability that is going to allow us to be in more 
than one place at the same time with the capabilities that that 
ship brings.
    Senator Wicker. All right. Secretary Stackley, both you and 
General Walsh mentioned that we work together, we are able to 
get an extra $279 billion above the President's request. To 
what extent did that help us accelerate based on last year's 
congressional action?
    Mr. Stackley. Yes, sir. It helped in a couple of ways. 
First, the dollars that were provided in the 2016 bill and the 
authorizations that came with us allowed us to first go after 
the planning activities, which is the first thing you have to 
do with a new ship program, get the planning activities going. 
We are working in parallel with what we refer to as preliminary 
design for the ship, and then perhaps most importantly is to 
start ordering long-lead-time material that will support, one, 
the vendor base, and then two, will start an earlier start of 
construction for the ship.
    Senator Wicker. From when to when?
    Mr. Stackley. Right now, it is at 2020 procurement. The 
advanced procurement material that you have allowed us to go 
ahead and go forward with in 2016 we believe that we can pull 
construction to the left by a year, and this year's budget 
reflects----
    Senator Wicker. 2019?
    Mr. Stackley. Effectively, we are on the same schedule for 
construction as though we were going to procure the ship in 
2019. In other words, when you award the ship, typically, you 
do not start construction right away. With the advanced 
procurement, we will have enough material ready and the 
planning ready and the design ready that the shipbuilder can in 
fact accelerate construction by a year. It has the effect of 
accelerating the program by a year.
    Senator Wicker. What if anything could we do in the NDAA 
this year to further accelerate?
    Mr. Stackley. Additional advanced procurement dollars, 
buying additional material will not further accelerate the 
LX(R). As I look at the issue----
    Senator Wicker. Is there any way to further accelerate?
    Mr. Stackley. The critical path today is the design, 
leading to a competitive award. The design would support an 
award in 2019. We believe that we could support a 2019 contract 
award, and with the advanced procurement [AP] would allow us to 
then double-down on the acceleration. The AP in 2016 would 
provide one year's acceleration. Design would support a second 
year's worth of acceleration. The challenge becomes the budget.
    As we have already discussed in our opening statements, the 
challenges that we have in the budget today stand as a hurdle 
between us and pulling that ship to the left another year. What 
I would propose is that we take a hard look at what the funding 
stream would be required to support that additional year's 
worth of acceleration, and without pulling the whole ship to 
the left, what additional funding, with incremental funding 
authority, would allow the acceleration without breaking our 
budget.
    Senator Wicker. There is additional acceleration that could 
be had if we work together and are smart?
    Mr. Stackley. Yes, sir. Critical path is designed--the 
design right now, we are on a path to support and award as 
early as 2019. We have budget challenges associated with doing 
that. A way to mitigate the budget impact would be looking 
specifically at the funding requirements on a year-by-year 
basis and look to see if it would make sense to incrementally 
fund that ship to allow it come to the left a year.
    Senator Wicker. Okay. Well, I am way past my time, but let 
me ask one other aspect of this program since we are on it, and 
that is are we going to have a production gap between the LPD 
and the LX(R) as we did when we paused the DDG destroyer 
program, and upon restarting production there, costs increase 
by perhaps 25 percent? Are we looking at the same thing 
possibly happening because of a gap between the LPD and the 
LX(R) and what efficiency and cost losses could we avoid in 
that regard looking forward?
    Mr. Stackley. Yes, sir. The first place where a gap would 
occur is the vendor base. Again, we are taking the advanced 
procurement dollars that you have provided and we are serving 
the vendor base to identify any potential breakage that would 
occur to make sure that we are first addressing those issues 
between now and when LX(R) starts.
    Now, recognize that the acquisition strategy for LX(R) is 
to compete the program, and so today, Ingalls is building the 
LPD-17 class. If Ingalls were to win the competition and we 
were not able to further accelerate the LX(R), then there would 
not be the overlap that you want on a shipbuilding program to 
retain efficiencies and retain the skilled workforce. The 
impact would not be the same that we saw on DDG-51, but there 
would be an impact.
    Senator Wicker. Thank you.
    Senator Hirono?
    Senator Hirono. Thank you very much.
    As long as we are on the subject of the LX(R), I know that 
the Navy announced an intention to compete a package of ship 
contracts, including the T-AO(X) oiler, the LHAR, and the LX(R) 
ships. There is a desire to accelerate the LX(R). You know, 
could Congress accelerate the LX(R) program in a responsible 
way and avoid undermining your acquisition strategy? If so--you 
have spoken you could accelerate by 1 year, by 2 years--can we 
do this in a responsible way and maintain your strategy of 
competition?
    Mr. Stackley. Yes, ma'am. You touched on two topics. One is 
the pending contract to award for the combined solicitation for 
the LHA-8 and the T-AO(X). In the chairman's opening remarks, 
he wanted us to address what we are doing to help provide 
stability for the industrial base. That acquisition strategy 
goes exactly at stability for the industrial base while also 
preserving competition on the two programs.
    We have two shipbuilders that are competing for two 
separate shipbuilding programs, and in the end, we will receive 
the competitive pricing that we desire, but we are going to be 
providing stability to both those builders because they both 
recognize that they will get--that that work will be split 
between then.
    Now, after we complete that award in about the June time 
frame, we will have a clear picture of what the workload looks 
like at the same two shipbuilders that will be competing for 
the LX(R) contract. We will understand what the workload 
picture looks like.
    Your question regarding the ability to accelerate and 
preserve competition, we can accelerate a year without 
impacting the competition. From 2020 to 2019, that work that 
needs to be done for design we could accelerate a year and we 
would not harm either competition or the maturity of the design 
that we want for the LX(R). Then the second year we effectively 
gain by simply having the material available so construction 
can start to an earlier schedule. That is the potential in 
terms of 2 years of acceleration to construction while also 
preserving competition.
    Senator Hirono. I think that is a worthy goal to follow.
    Regarding the 308 ships that is our goal, and we are told 
that by 2024 we will get there, and with the rising of China, I 
did want to ask Admiral Mulloy, how are you incorporating the 
shift to the Asia and the Pacific in reviewing requirements for 
the number of ships that you will need and where they will be 
based? Because you also mentioned that, yes, we have a 
continuing commitment to the rebalance to the Asia-Pacific.
    Admiral Mulloy. Yes, ma'am. As we currently move the ships 
we currently have and as we build more, the focus is getting to 
60 percent of the Navy by platforms in the Pacific. We are 
currently at about 57 going on 58 percent, so we still have 
some more ships to move. We are also moving as they are new out 
there also. We just moved two more DDGs to Japan that have the 
ballistic missile defense capability. We put a fourth submarine 
in Guam. We moved a second submarine tender to Guam to be able 
to maintain the submarines and be able to actually assist all 
the Pacific ships. As one of the tenders leaves Guam, it can 
also go be repaired.
    We are putting the most modern airplanes out there. We are 
putting--the first Joint Strike Fighter squadron will be in 
Lemoore, California. We are putting--right now, we have one LCS 
in Singapore. We will have four LCS by 2019.
    As we focus on the newest platforms, the newest 
technologies, we position them in the Pacific and the numbers 
go up. Across the board in every aspect of the Navy, once 
again, new is there and also more numbers are there.
    We have to balance slightly, though, as we look at the new 
world order only because what I could is the more rapid 
reemergence on the world scene of Russia and their ability to 
move their product and dangerous equipment around, in Syria 
they have now installed missile systems which are a tremendous 
threat.
    As we look at what do we have to have in the Pacific, in 
many cases we have to deal with the same electronic warfare 
high-speed weapons or similar on a Russian technology. It 
implies the four DDGs in Rota, we need those for ballistic 
missile defense. We also need to make sure they can survive 
cruise missile attacks, which are similar but different than 
China.
    It is a constant tension, as we talked to the CNO [Chief of 
Naval Operations] and the Secretary of the Navy where to put 
these ships. Generally, the Pacific will get more, but you 
still have to put a Baseline 9 Aegis ship in the Atlantic such 
that it can go to the Mediterranean because if you are in the 
eastern Med or the Black Sea or near Russia, you need to be 
also very aware of a dangerous missile system.
    Senator Hirono. With both Russia and China really 
increasing and modernizing and adding to their military assets, 
one wonders whether 308 ships is really, you know, what we 
should be talking about.
    Admiral Mulloy. Yes, ma'am.
    Senator Hirono. It is all a function of money, I realize.
    Admiral Mulloy. Yes, ma'am. It is a function of money and 
also looking at the world. The 308-ship Navy was based upon the 
2014 force structure assessment. Chief of Naval Operations has 
commissioned me to do another one, and we are in process now, 
which will take into account changes in China but largely the 
changes in, as General Breedlove has talked about as he looks 
at the world and advises the chairman and the President on the 
status in Europe and Russia, we will also look at it.
    I think the CNO in testimony before you hearing of the 
whole committee talked at very length that that number would 
probably go up over time. We actually need to go through that 
and do our analysis, and we will come back in next year's 
budget, lay out what we think the Navy really is necessary for 
national defense.
    Senator Hirono. I look forward to that.
    Regarding the Littoral Combat Ship program----
    Senator Wicker. Can I interject? Do you want to give 
Senator Hirono a sneak preview about what that number might be 
later on this year? Come on.
    [Laughter.]
    Admiral Mulloy. Sir, you know, I will not even have a 
number until September, so perhaps----
    Senator Wicker. Okay.
    Admiral Mulloy. I cannot really commit to any ``sneak 
peeks,'' sir. I mean, we certainly will come over and talk to 
the committee as we go through this process. We can talk about 
it, but we really have to deliver that to the CNO first, and I 
am not expecting to have that discussion with him until the end 
of August.
    The teams are actually in the process of arranging flights 
out to the numbered fleets as I speak, sir.
    Senator Wicker. She is pretty correct. It is likely to go 
up?
    Admiral Mulloy. Yes, sir. The CNO did kind of say at his 
hearing that as he looks across the world as more dangerous, 
the size of the Navy very likely will have to go up in that 
world, sir.
    Senator Wicker. Senator Hirono?
    Senator Hirono. Thank you very much. My time is up, Mr. 
Chairman.
    Senator Wicker. Thank you, ma'am.
    Senator Sessions is next.
    Senator Sessions. Thank you, Mr. Chairman. I thank all of 
our witnesses.
    Mr. Stackley, we are glad to have you with us. I think the 
country is blessed to have someone with your experience in this 
work and your integrity.
    I want to focus on the LCS, littoral combat ship. The way I 
look at the numbers, our Navy procurement plan in 2016 was for 
48 ships, for 2017 it was 38 ships over 5 years to be procured, 
and that is a fundamental reduction of the 10 ships from the 
LCS, a rather dramatic change, one of the most dramatic changes 
in shipbuilding I have seen in a number of years here in the 
Congress. I think we need to talk about that.
    Admiral Mulloy, the 52 LCS ships that were Navy 
requirements, a requirement is done through a formal process, 
is it not?
    Admiral Mulloy. Yes, sir. It is done through that process, 
the force structure assessment, as we look at the needs of the 
commanders of the Navy around the world.
    Senator Sessions. As a result of--and that requirement has 
never been altered by the Navy?
    Admiral Mulloy. No, sir. That number is still 52. We will 
go and probably verify it, but I do not see that number 
changing as we work through our next force structure 
assessment.
    Senator Sessions. Secretary Stackley, Secretary Hagel 
wanted a more combat-oriented ship, and he made an evaluation 
and decided to use an up-armored--as might call it--LCS, and 
that would be 52 ships, but 20 of them would be classified as 
frigates, is that correct?
    Mr. Stackley. That is correct. We were specifically tasked 
with coming up with an alternative that would be more lethal, 
more survivable, and that at least 20 of the 52 small service 
combatants would be this frigate-type ship.
    Senator Sessions. That was the recommendation that was made 
to Secretary Carter from the Navy to maintain the 50 ships with 
20 frigates when he made his decision to reduce the number from 
52 to 40.
    Mr. Stackley. The way I would describe it was we spent the 
prior year, the 2016--as we built the 2016 budget, going 
through our requirements review, effectively an analysis of 
alternatives arriving at the frigate design, and we carried 
that exact plan into our 2017 budget. The 2017 budget that the 
Navy built included 32 LCSs, 20 frigates, and the frigate would 
start in 2019.
    Senator Sessions. You wrestled with that and you made your 
priorities on the amount of money you had, and you still 
recommended that the LCS be a total of 50, but the Secretary 
decided otherwise?
    Mr. Stackley. Well, I would say that our requirement for 52 
small service combatants was unchanged. Our budget, as we built 
it for 2017, supported the 52 plan just as it was presented in 
2016 to Congress. Then with the reductions to the budget, in 
the budget process the final decision was made that we would 
truncate the program to 40 and effectively reduce the rate at 
which we procure the LCSs in the Future Years Defense plan.
    Senator Sessions. Well, if you go to a--so the plan calls 
for a down-select to one shipyard, in effect a closing of the 
other shipyard, is that correct?
    Mr. Stackley. Yes, sir. The profile that has come across in 
the budget, it is insufficient to support two builders, and 
that would drive a down-select decision.
    Senator Sessions. You know, Marinette, Wisconsin, and the 
shipyard in Alabama, I assume, are similar. There are 4,000 
people working at this shipyard in Alabama producing a fabulous 
new ship, I think.
    With regard to the capabilities of the ship, is it not true 
that essentially the framework--the ship itself is performing 
well?
    Mr. Stackley. Yes, sir. The ship has been performing well.
    Senator Sessions. There have been--we heard mentioned a 
little earlier some of the packages that had some difficulties, 
but it is really not as bad as some have suggested with the 
packages. The difficulties you have had do not question the 
viability of the ship itself, do they?
    Mr. Stackley. No, sir. I would characterize the packages--
we have three mission packages today. What is referred to the 
anti-surface warfare mission package, that is what is deployed 
today on USS Fort Worth over in the Western Pacific. There are 
future increments. We will continue to upgrade the mission 
package with missile systems as we complete those developments.
    There is an antisubmarine warfare mission package that I 
will describe as the best ASW [anti-submarine warfare] 
capability that we will have afloat. It is a combination of 
what is referred to as variable depth sonar plus a towed array 
sonar that its performance and developmental testing has been 
unlike anything else that we have afloat today. We look forward 
to completing that and going through the operational testing 
per plan in 2018.
    The mine countermeasure mission package is the one that has 
garnered the most attention. In 2015 we did technical 
evaluation of the mine countermeasure mission package. In fact, 
in four series of runs about 3 weeks each, we demonstrated the 
system's ability to meet our overarching requirement for 
detecting, identifying, and clearing mines.
    The one part of the system, however, referred to as remote 
multi-mission vehicle, the one part of the system that did not 
meet its reliability requirements, we canceled that in order to 
move forward with other alternatives that promise to be able to 
perform that function in a more affordable fashion.
    Senator Sessions. Well, thank you. I think you do well. I 
think you manage toughly. You are not satisfied with that one 
aspect, and you are demanding it be fixed. I do think it is 
fair to say, do you not, that the ship is performing well, all 
the bugs are out, and it is performing at the level that you 
would hope it to perform at?
    Mr. Stackley. Both platforms have completed what they refer 
to as our initial operational capability meeting our 
requirements.
    Senator Sessions. My time is up, Mr. Chairman.
    Senator Wicker. Thank you, Senator Sessions.
    Let me just ask Vice Admiral Mulloy. Did you earlier say 
that in going from 52 to 40 of these LCSs there would be a 
substantial delay in our ability to respond? Did you make that 
statement?
    Admiral Mulloy. I was talking about the total size, but 
part of it revolved around this----
    Senator Wicker. To what extent--could you sort of give us 
an example there?
    Admiral Mulloy. The actual specifics we can bring over in a 
classified discussion, but it was involved as the ships are 
deployed and then respond to an area--let us say the central 
area commander has a need for suddenly a flow of Navy, some 
country in his area may be doing something, he would then use 
the ships he has and then have a flow of ships from the United 
States. The same would happen in the Pacific.
    Well, when you have only 40, not 52, you have fewer ships 
than America to flow. You have to take more from areas where 
you are worried about another country now. That is essentially 
the risk we are taking is tradeoffs between our combatant 
commanders because they have no longer the force back in the 
United States to flow forward that we have to then start making 
trades in areas--what I would then call you have an emergent 
competitor or someone who is taking advantage of a situation, 
which happens in the world. That is when I talk about the flow 
of risk.
    Also, in any major event, we would have to then--if we do 
not keep our Navy at 308 and keep growing, we worry about the 
entire force. LCS is part of that, sir.
    Senator Wicker. Delays that affect security and the level 
of risk we are prepared to take?
    Admiral Mulloy. Yes, sir. It would be days of delay of the 
ships arriving and then also the risk of the ships would not be 
in the other theater where they might be. It is a combination 
of--and the actual specifics we could come back over and see 
you and your staff with some classified analysis on the risk 
taken. That was part of this calculus, and the decision was 
some risk--you know, as people have talked about, the combatant 
commanders would like to have a 450-ship Navy and they would 
like to have 50 amphibs.
    Everyone takes some risk. This is one area that was drilled 
down in the fall that was determined was this is a risk that we 
thought the Navy would be able to take to be able to spend the 
weapons on aircraft for other areas.
    Senator Wicker. Thank you.
    Senator King?
    Senator King. Thank you, Mr. Chairman.
    A couple of preliminary comments: First, I just heard on 
the way over that the Navy has made a decision to name the DDG-
120 the Senator Carl Levin, which I compliment. That is a 
wonderful decision and certainly will look forward to 
participating in the commissioning of that ship. I just think 
that is great news.
    Secondly, I think it is important in this discussion about 
budget to put it into some kind of context. We often hear about 
the size of our defense budget and it is very large relative to 
the discretionary budget. The reality is defense spending as a 
percentage of GDP [gross domestic product] is the lowest today 
that it has been in 70 years, the lowest today that it has been 
in 70 years.
    Going back just--I have some data going back to the 1960s. 
Defense spending as a percentage of GDP was about 8.6 percent 
in the 1960s. It fell to 5.2 percent in the early 1990s. Today, 
it is 3.3 percent. Yet we are now being bound by numbers 
derived 5 years ago in the summer of 2011 before Syria, before 
ISIS, before Russia's incursion into the Ukraine, before 
Russia's militarization of the Arctic, before the rise of the 
danger of cyber attacks, before China's military modernization, 
before North Korea's nuclear capabilities.
    All of those things have happened since we locked ourselves 
into a number that we are now trying to squeeze all of our 
response to these threats in the context of this lowest 
percentage of GDP for defense spending in 70 years. I just 
think we need some fundamental rethinking of what we are trying 
to do here and the threats we are trying to meet.
    Jim Clapper said that it is the most complex and dangerous 
world he has seen in 50 years, and yet we are still trying to 
budget and work within a constraint that was defined in the 
summer of 2011 before all those other things happened.
    Mr. Chairman, I think we have got to really start to make 
the case here in the Congress and to the people of America that 
we are not fully meeting our fundamental responsibility in the 
preamble of the Constitution to provide for the common defense.
    If you can find a question in there, you are welcome to.
    [Laughter.]
    Mr. Stackley. Well, can I make a comment?
    Senator King. Yes, please. This is a shipbuilding hearing. 
The defense budget, 3.3 percent of the gross domestic product, 
shipbuilding is about 3.3 percent of the defense budget. We are 
talking about a small percentage of a small percentage.
    Mr. Stackley. That is right. That is one of the things that 
we try to keep before everybody is we are talking about force 
structure, the size of the Navy, the mission of the Navy, and 
the tax or the burden that places on the overall economy, it is 
a small, small portion of the overall economy, and yet it has a 
big impact in terms of national security.
    Senator King. Yet when we are going to need it, we are 
going to really need it, and if it is not there, we are going 
to suffer the consequences.
    You mentioned, Secretary Stackley, in your remarks the 
importance of the DDG program. I mentioned the Carl Levin. The 
additional DDG that was partially funded in the prior year, 
where do we stand on that? What needs to happen in order to 
award that ship and move that forward?
    Mr. Stackley. Yes, sir. First, I appreciate the significant 
add in 2016. It was not just the $1 billion towards the 
additional destroyer but also incremental funding authority. 
Now, that add came across the line after we were done our 2017 
budget. Today, we have no funding in the 2017 budget to 
complete the ship.
    We have included it on our unfunded priorities list the 
balance of funding that would be required, $433 million. We are 
proceeding with planning, and we have modified our acquisition 
strategy to account for the additional destroyer.
    Absent Congress addressing that unfunded priority, then we 
are tied to the 2018 budget process, and we will have to--we 
are just at the front end of that budget process.
    We are moving forward with the intent of executing on the 
2016 schedule, but we are doing that absent the balance of 
funding required to complete the ship. Between your action in 
2017 and our deliberations in 2018, we need to get it the rest 
of the way there.
    Senator King. Thank you. Next year is the year that you 
would normally address the multiyear procurement. Would there 
be any advantages to authorizing the multiyear to start in 2018 
to start in this budget, in the 2017 budget rather than waiting 
until 2018.
    Mr. Stackley. There is always a benefit in terms of 
certainty because what we are in the process of doing is we are 
putting together all of the analysis in terms of the benefits, 
the substantial savings that are going to be required 
associated with the multiyear. As we do that, it leaves a 
degree of uncertainty in terms of planning on the part of the 
shipbuilders in terms of the vendor base. If in fact we had 
authorization at this point in time, we can press on, focused 
on the execution and capturing the savings as opposed to the 
analysis preceding that effort.
    Senator King. Of course a multiyear is always going to be 
better for the taxpayer than one at a time.
    Mr. Stackley. The DDG-51 program has been inside of a 
multiyear since 1998, and this again goes back to the 
chairman's initial comments regarding stability for 
shipbuilding. The stability that the multiyear brings not just 
for the shipbuilders but throughout the vendor base, we have 
been able to capture no less than that 10 percent target that 
we have for savings in shipbuilding. We have done it on the 
DDG-51 program, we have done it with the Virginia program, and 
we have effectively done it on the LCS program with the block 
buy approach.
    Senator King. Thank you. Thank you very much, gentlemen. 
Thank you, Mr. Chairman.
    Senator Wicker. Secretary Stackley, get back to us on the 
record about where that percentage of the total defense budget 
shipbuilding has been, where it has been historically. That 
might be helpful to us. If you will supply that to us on the 
record----
    Mr. Stackley. Yes, sir.
    Senator Wicker.--I would appreciate that.
    [The information referred to follows:]

    The historical trend information provided herein is primarily from 
the Department of Defense (DOD) budget for new construction 
Shipbuilding and Conversion, Navy (SCN) account. Funds were 
appropriated in SCN, and in certain years National Defense Sealift 
Fund, to buy new aircraft carriers, attack submarines, surface 
combatants, amphibious ships, and support ships. Going back to 1980, 
shipbuilding new construction funding and quantities were at their 
highest in the mid-to-late 1980s. During the 1980s, new construction 
shipbuilding averaged 3.8 percent of the DOD budget. During the 1990s, 
the ten-year average dropped to 2.3 percent of the DOD budget. From 
fiscal year (FY) 2000 to fiscal year 2009, the new construction 
shipbuilding share of the DOD budget was 2.0 percent. In this decade, 
it is expected that new construction shipbuilding's share of DOD budget 
will increase to 2.3 percent as projected by the Annual Long-Range Plan 
for Construction of Naval Vessels for fiscal year 2017.

    Senator Wicker. Also, Senator King, thank you for that 
pleasant news item about the Carl Levin. I think you saw heads 
nodding on both sides of the table. Senator Levin is a 
distinguished and thoughtful American statesman and was as 
evenhanded a chairman as I have ever served with in my 21 years 
in the House and Senate, so that is excellent news.
    Senator Ayotte?
    Senator Ayotte. Thank you, Chairman.
    Let me just add my congratulations to Senator Levin, who, 
as a new member on this committee, I just enjoyed his 
leadership and well he treated all of us and how well he 
handled his position. I cannot think of a better person to name 
this ship after, so it is great.
    I wanted to follow up, Admiral Mulloy, on--you were talking 
about the requirements overall for the size of our fleet. Well, 
one of the issues that I am concerned about as we look at all 
the threats that we are facing and all the challenges that were 
certainly outlined well by Senator King is the Navy's 
requirement for the attack submarine fleet was actually 
established, as I understanding it in--I think it was around 
2006.
    Given all the things that have changed since 2006 and the 
challenges that we face and in particular obviously even in the 
Asia-Pacific region, is the Navy going to undertake 
establishing a new requirement for the attack submarine fleet 
as well? We already know that 50 to 60 percent of our combatant 
commanders' requests for the attack submarines is being met.
    Admiral Mulloy. Yes, ma'am. As part of that force structure 
assessment, there are actually nine analyses of carriers, 
large-surface combatants, and one of those is SSNs and SSBNs as 
well. Clearly, the number is 48. It has been since the 2006 
study. Unfortunately--and we are slightly above it right now. 
Based upon the decommissioning rate of the 688 class 
submarines, we built them at four or five a year with the 
tremendous support of Congress back in the 1980s. We will go 
down to a number of 41 in 2029, and we will stay below 48 for 
over 10 more years.
    It is important to execute that multiyear, and one item 
that we have been asked by the House Armed Services Committee 
and we are looking at now in next year's budget is in fiscal 
year 2021 we go to one Virginia because we start the first Ohio 
replacement.
    Senator Ayotte. You are reading my mind.
    Admiral Mulloy. Yes, ma'am.
    Senator Ayotte. I love this.
    Admiral Mulloy. That is clearly--we are now looking at what 
are the advantages that would come from the authorization of 
more of those ships and that multiyear. Could we get further 
savings out of the hulls? We will have to come back next year. 
Clearly, the first submarine that fills in that divot is buying 
the 2021 submarine.
    Mr. Stackley had commissioned a group and he will probably 
be able to talk more about it, the Submarine Unified Build 
Strategy that looked at Virginia-class, Virginia payload, and 
Ohio replacement, and we think we would be able to do that.
    Senator Ayotte. Well, Secretary Stackley, I would certainly 
love your comment on that of what Admiral Mulloy just said 
because this is also something that has been raised by--both 
the chief and the vice chief have expressed a real interest in 
not going down to one Virginia-class submarine in 2021 and our 
ability to keep it at two. Even with two, you know, we have a 
gap, but with one, it is just--it is not sensible.
    Mr. Stackley. Yes, ma'am. We have been building two 
submarines a year since 2011, and this year is actually the 
first year we start delivering it two per year. We have got 
stability in the line. Admiral Mulloy referred to the Submarine 
Unified Build Strategy. Twenty-one is a challenge year because 
of the high replacement.
    We have spent a lot of time this past year working with 
industry taking a look at how can we best build the Ohio 
Replacement Program so that we can leverage the best of our two 
submarine builders, Electric Boat and Newport News. As we 
worked through that, what we are uncovering is opportunity and 
capacity across the two builders.
    One of the challenges was capacity and imposing potential 
risk on the Ohio replacement. We think we have the capacity to 
address that. A second challenge is design associated with the 
Ohio replacement. We have that on track today. A third 
challenge then becomes cost, and so as we look at building the 
Virginia multiyear and as we look at driving down costs, 
frankly, in the Ohio Replacement Program, we are finding more 
opportunities.
    We are working. This is a top priority in our 2018 budget 
build to be able to come back and fill in that 2021 submarine. 
Because of all the decisions going forward to mitigate the 
shortfall that Admiral Mulloy described, that boat is the first 
and best mitigation effort that we can have.
    It is a priority. We think we have tools available to 
address it as opposed to just bringing it back to large build 
and a lot of risk associated with it, and we look forward to 
continuing to work with you all in the course of this year and 
with next year's budget to do so.
    Senator Ayotte. Well, I think that is excellent, and I look 
forward to working with you both on that issue.
    I had one final question for Admiral Mulloy and General 
Walsh. Russia has provided advanced anti-craft and anti-ship 
systems to Syria that pose a challenge to our most 
sophisticated ships and aircraft, as well as partners in the 
region like Israel. How has the deployment of advanced Russian 
systems like the S-400 anti-aircraft and the P-800 Yakhont 
anti-ship cruise missiles changed how United States Naval 
Forces are operating in and around Syria? General?
    General Walsh. Senator Ayotte, I do not know if I could 
specifically say. I will defer to Admiral Mulloy in how the 
ships, the fleet is operating right now around Syria. I will 
tell you that one of the things the CNO and the commandant has 
us looking at--one of the other things I do, I co-chair the 
Naval Board, and one of the things they asked us to do is look 
at how we would operate in a contested environment. With Naval 
Development Warfare Center and Combat Development and 
Integration down in Quantico, we are working together on 
writing a concept for littoral operations in a contested 
environment, which takes into all--across all the globe places 
we would look at. One of the areas is the scenario you just 
talked about.
    As we look at that, how those type of threats would affect 
fleet operations, specifically how we would conduct, whether it 
is a noncombatant evacuation or it would be high-end conflict 
and how those threats, we have to deal with that.
    What we are definitely seeing is those threats impact us, 
and we are going to have to work much closer and integrate with 
the rest of the battle force, that the amphibious ready group 
is certainly not going to have all the capabilities to be able 
to operate independently and is going to need the rest of the 
battle force to integrate and operate closely and work together 
with the high-end threats that the cruisers, destroyers bring, 
the carriers bring, along with the submarine force.
    Admiral Mulloy. Yes, ma'am. A lot of the specifics would be 
very classified. We can come back in a separate session.
    Senator Ayotte. Sure.
    Admiral Mulloy. What I can tell you is that items such as 
the decoys you have on board, we have done--above-threshold 
reprogramming is a great support from your committee to fund 
next-gen jammers. The focus the fleet has to put on is ranges 
and distance to the coast, where we have to be for our 
operations, and then the level of the ships you bring. If you 
have an E-2D, the Advanced Hawkeye airplane, that has the 
ability to link up with our cruisers to block 9, if that is the 
force you have, you can be closer or be able to survive. Other 
times, you have to be farther away.
    It is combination we call CONOPS [concept of operations], 
the ability to operate, and then the equipment you bring. The 
more modern that we can bring in terms of the better airplanes, 
more advanced Aegis, a ship can look up for missiles and look 
close at water for missiles--I know there is a modern ability 
to search both areas--one ship can defend itself and others 
around it better.
    It is a combination technology and operations, but it 
clearly, as I said, was at the very beginning operations in the 
eastern Med, the Black Sea near Russia are as much of a threat 
as they are being operated near the China coast. Both can bring 
tremendous change. We need to look at, once again, the 
modernization we talked about to get the advanced electronics, 
as well as the weapons to deal with it.
    Senator Ayotte. Thank you.
    Mr. Stackley. Can I exhaust the topic a little bit here?
    Senator Ayotte. Chairman's permission.
    Senator Wicker. Absolutely.
    Mr. Stackley. We have gone forward with deploying four 
AEGIS destroyers to the Mediterranean in part dealing with the 
phased adaptive approach for ballistic missile defense for 
Europe.
    In doing that, we sent over our more advanced baselines to 
have basically the ability to deal with both the ballistic 
missile threat but also the AAW [anti-aircraft warfare] threat. 
As these other threats emerged, we basically prosecuted, you 
know, I will call it rapid deployment of capabilities. We went 
to a naval research lab and we brought their best and 
brightest, and within a cycle of a year were able to develop a 
thing called the Transportable Electronic Warfare Module to 
specifically deal with the threat that you described.
    Then this past year, we followed up with installing and 
testing overseas what is referred to as C-RAM [Counter Rocket, 
Artillery, and Mortar], which is a combination of a Close-In 
Weapon System and the Rolling Airframe Missile.
    We have been able to put electronic warfare, as well as 
self-defense capabilities on these advanced destroyers, four 
deployed in the Mediterranean in response to these threats as 
they emerge. This type of turnaround as the threat emerges, 
frankly, what we need to be doing every day, every day.
    Senator Ayotte. Absolutely. Thank you for the information 
on that. Russia said it was being so helpful in Syria. I think 
we know the truth. Thanks.
    Senator Wicker. Thank you, Senator Ayotte.
    Senator Blumenthal?
    Senator Blumenthal. Thank you, Mr. Chairman. Thank you all 
for your service.
    I want to focus on the Ohio Replacement Program, which you 
have identified as the Navy's top priority with the lead 
delivery plan for 2028, I believe. Considering that around that 
time there will be a shortfall or a fall below the desired 48 
minimum boat level for the Virginia-class reaching the low 
point of 41 boats in 2029, I would expect that you were 
planning to produce essentially three boats a year for some 
period of time after 2020 because the Virginia-class will have 
to continue with two boats a year and you will have to be 
building the Ohio Replacement Program. Is that expectation 
correct?
    Mr. Stackley. Not yet. What you have described is the 
problem because we need both. First, our top priority is Ohio 
replacement, and that is scheduled for her delivery and her 
patrol in 2031 is chiseled in stone. Everything that we are 
doing on the program and things around the program are to 
support that schedule. Frankly, what we need to be doing now is 
we need to be moving left, building margin back in that 
schedule because it is as tight as it is.
    Now, in doing that, what we have heard is a long-range 
shipbuilding plan, a 30-year plan. It proposes that we build 
two submarines per year for the next 30 years, but those two 
submarines are going to be--in years where you have an Ohio 
replacement, it would just be one Virginia. That is a fiscal 
issue, and it is a capacity issue. I discussed earlier what we 
are doing to address the capacity issue. It still remains a 
budget issue largely because of the significant cost associated 
with the Ohio Replacement Program. The first boat is just 
entering this Future Years Defense plan in 2021.
    What we have been describing and we are being very clear 
about this is if we have to build out the Ohio replacement on 
the back of our current shipbuilding total obligation 
authority, our shipbuilding budget, if we do not get relief, 
then we are going to be a very different Navy in the late 2020s 
and 2030s.
    Senator Blumenthal. Essentially, what I hear you saying is 
that $100 billion, which is the cost of the Ohio Replacement 
Program, somehow has to be addressed, that significant 
challenge. At the same time, will the program for the Virginia-
class lead to replenishment of the shortfall that is 
anticipated when the number drops from 48 to 41?
    Mr. Stackley. Yes, sir. Today, we are first focused on the 
year 2021. That is the first year when Virginia drops down from 
two to one boat. We will spend this budget cycle coming to 
grips with what it will take to keep Virginia up to two per 
year. We are making that--as I described earlier, we are making 
that a priority in our budget build.
    In the near term we are going to address 2021. The next 
year that we drop down to one Virginia is 2014. Our success in 
being able to sustain two Virginias through the Ohio 
Replacement Program cycle is going to depend on our success in 
getting two in 2021, that first year, and executing it, and 
then our success in getting some relief, some help in terms of 
financing the Ohio replacement during the 15-year period of 
that program.
    Senator Blumenthal. What you are describing is the 
financing challenge, not the capacity challenge? Because I am 
assuming that the capacity challenge can be addressed. That is 
a shipbuilding challenge that Electric Boat and Newport News 
are going to have to address, and I am of the view--it may be 
overly optimistic--that they are up to that task. They can 
address it. They can do it. Really what you are posing to us is 
the financing challenge.
    Mr. Stackley. Yes, sir. The challenge on the shipbuilder 
side--that is the Navy and that is industry--to ensure that 
that ramp, because it is a tough ramp, that we climb that ramp 
smartly. It is also bouncing across the two boat builders 
because there is significant capacity available across the two. 
What we need to do is balance that capacity with the risk and 
separately address the funding requirements.
    Senator Blumenthal. You would agree with me, considering 
you acknowledge it in your testimony, that the shipbuilding 
program for submarines has operated on budget, on schedule, 
perhaps even under budget, ahead of schedule, that so far the 
capacity would seem to be available? The important point, I 
think, that is raised here is that your plan is to continue 
building two Virginia-classes through 2021, you need to do it 
through 2024, the lead delivery is going to be 2028, and you 
need to develop a financing plan very soon to meet, in effect, 
those two programs?
    Mr. Stackley. Yes, sir. We have got to nail down what it is 
going to cost to add a second Virginia in 2012. In POM [Program 
Objective Memorandum] 2018 we have got to come to grips with 
that funding requirement because it is going to come out of 
somewhere else. In terms of the capacity issue, I agree with 
exactly the way you described it.
    Senator Blumenthal. Thank you. Thank you, Mr. Chairman.
    Senator Wicker. There is not a capacity problem; it is just 
a financing problem. In that respect you are agreeing with 
Senator Blumenthal?
    Mr. Stackley. I am agreeing that we have to manage the 
growth that is going to be required because we are going to 
double the amount of submarine work. That is significant 
growth. We are going to have to manage that. When we talk about 
maintaining two Virginias per year, once we get up on that 
plateau, we are there. Then we have to sustain it.
    The near years is going to be growing our submarine 
workforce to go with the increased volume of work that will be 
required, and we are set about managing that across our two 
boat builders. That is our responsibility.
    Then there is a funding challenge associated with adding 
that second Virginia in 2021, and we are working that in POM 
2018.
    Senator Wicker. Okay. Mr. Clerk, we are going to take a 
second round, so you can start my clock.
    Following up on the Ohio-class, and I am sorry Senator 
Blumenthal has to leave, but I think you told him if we do not 
find an innovative way to pay for the Ohio-class, the Navy is 
going to look far different. Did you say words to that effect?
    Mr. Stackley. Yes, sir.
    Senator Wicker. Okay. Could you elaborate on that? Instead 
of 308 ships, what does that do to that number? What did you 
mean specifically?
    Mr. Stackley. Yes, sir. In our long-range shipbuilding 
plan, we lay out the ships that we need to procure, the period 
that we need to procure them, and we also described the funding 
that will be required to do that. In the period of the Ohio 
Replacement Program starting about 2021 until about 2035, that 
15-year period, there is $100 billion of additional procurement 
required for that program.
    Today, when you look across the 2017 FYDP [Future Years 
Defense Plan], the average funding for new construction is 
about $16.5 billion per year. That is about on average. That 
has to go up to north of $20 billion per year to support the 
Ohio replacement over that period of time.
    If the Navy is going to have fund that within our notional 
shipbuilding budget, then that is going to put pressure on all 
of our procurement accounts. We will look----
    Senator Wicker. Pressure is a euphemism.
    Mr. Stackley. Yes, sir.
    Senator Wicker. What is your suggestion, sir?
    Mr. Stackley. Well, in this FYDP, in the budget that we 
have submitted to Congress, we have been working with OMB 
[Office of Management and Budget] to get that type relief. In 
2021, first, we have proposed to incrementally fund the first 
boat over 3 years so we do not have a huge spike associated 
with the first boat of the class. The dollars in 2021 with the 
lead boat is about $3.6 billion in 2021. OMB has provided 
relief for about two-thirds of that. In the first year of a 15-
year procurement plan, we did receive relief. We have to 
continue to work this OMB and POM 2018 and each year going 
forward.
    Senator Wicker. All right. Okay. Well, are you finding that 
OMB acknowledges that this is something they are going to have 
to help you solve? Are you getting all the help you need at 
OMB?
    Mr. Stackley. The first year was the easy year, and we have 
got two-thirds of our need.
    Senator Wicker. Okay. Well, keep us posted.
    I think I need to follow up on a couple things I mentioned 
in my statement that you still have not touched on. Which one 
of you wants to discuss the deviation from the 2/4/6 plan?
    Admiral Mulloy. I can certainly talk about that, sir.
    As Mr. Stackley pointed out in his opening remarks, to fund 
the Navy back to 2/4/6 would be about between 3.2 and $3.4 
billion I did not have in this FYDP. As I looked at the money 
to then--because those ships would then require more crewing, 
more operations, and more maintenance faster.
    I also then--but my bigger issue as I laid out with the CNO 
and the Secretary of the Navy last summer is this idea of force 
structure size. We have 22 cruisers. If we operate all those 
cruisers to their end and in fact we execute 2/4/6, we actually 
cause block retirement. All the cruisers will retire in 2035 
and 2036 and one more in 2037. Effectively, a cruiser 
decommissioning rate of five per year, the same as the Burkes, 
rapidly, and the large-surface combatant numbers that we talk 
about in our FSA were over right now, we would be under and we 
would have a shortfall of large-surface combatants as deep and 
longer than the submarine shortfall we have right now.
    Our cruiser plan allows us to continue to build the Flight 
III Burkes and start looking at where during this period of 
time when we are building the Ohio replacement not to be 
building three or four DDGs a year. Once again, the DDGs 
decommission at three to five a year, just like the SSNs did. 
They were all built in the 1980s and early 1990s. That is the 
conundrum in front of us.
    As we looked at this force structure issue, that is as 
much--it is a bigger problem but it is further away. I also 
look at the money problem nearby. The best way to keep 
effectively of these cruisers--we have 11 battle groups and I 
need one cruiser per battle group now. I put 11 I operate now, 
the other 11 is I put then in phase modernization, I de-man 
down to a level, and then I bring them back. You know, as other 
ships retire, I am able to put that out there.
    If an emergency happened in the world in 9 to 12 months, I 
could bring those ships back, but if I burn them out and I get 
to 2035, nothing will bring them back. I will have a permanent 
shortfall of ships. That is----
    Senator Wicker. Did you voice these concerns last year?
    Admiral Mulloy. Yes, sir, we did, and we got the 2/4/6. I 
voiced the same concerns, but it is even more emphatic as I 
stated the force structure issues and came back again because 
we talked about the Virginia-class. When we stop building 688s 
and we delayed starting Virginia and we delayed going to two a 
year, we made that bathtub. This is going to be the same thing 
again.
    Senator Wicker. Senator Hirono?
    Senator Hirono. Thank you.
    There was some discussion about the mine countermeasure 
testing that we are doing. Secretary Stackley, can you describe 
the modified mine countermeasures program for the subcommittee 
a bit more and give us an estimate of what impact this 
restructuring has on being able to provide LCS-based mine 
countermeasures capability to the fleet? When can we expect to 
get the initial operating capability of this module?
    Mr. Stackley. Yes, ma'am. First, to briefly describe the 
module itself, the first thing you need to do is find the 
mines. The workhorse for finding the mines is an unmanned 
vehicle, a remote multi-mission vehicle that tows a sensor. The 
sensor is basically detecting the mines.
    The technical evaluation that we performed last year 
demonstrated that we successfully found the mines and then 
followed up to classify the mines and destroy the mines at the 
rate that is required of the mission package. In doing that, 
that remote multi-mission vehicle did not prove reliable enough 
for our purposes. The failure rate was not where it needs to 
be.
    We had a couple of choices. One is to proceed with building 
the new design that would improve the reliability. That would 
be about a 3-year program, and then to go back into testing. 
That had cost and uncertainty associated with it.
    Second is to utilize a different unmanned vehicle called an 
unmanned surface vehicle that is currently being built and will 
be delivered this summer as a part of the mission package for 
the LCS.
    What we are planning to do is rather than build the 
upgraded design for the RMMV and 3 years later go back into 
testing, to utilize the unmanned surface vehicle that we get 
this year that has other functions and make it dual-purpose. 
One of the purposes would be to tow the sensor.
    This summer we will get the unmanned surface vehicle, and 
we will proceed with demonstrating the ability of the surface 
vehicle to tow the sensor where the sensor has already proved 
its performance. Assuming success, that mission package would 
be ready for IOC [Initial Operational Capability] in about the 
2020 time frame.
    Now, in the meantime, we have 10 other remote multi-mission 
vehicles that are already built. What we plan to do is we plan 
to upgrade those with fixes for reliability to improve their 
reliability. It will not get up to the full level that we 
require, better than what was demonstrated in technical 
evaluation, and better than anything we have out there today, 
and have them deployable because the rest of the mission 
package around it is ready to go.
    It is not the long-term solution, but it is an interim 
solution using the RMMV [Remote Multi-Mission Vehicle]. We 
expect the midterm solution to be the unmanned surface vehicle, 
which is already a part of the mission package. We believe the 
long-term vehicle is simply an unmanned underwater vehicle that 
does not require a separate tow but in fact carries the sensor 
on the front end called the Knifefish. The Knifefish today is 
deploying. However, it does not have the endurance that we 
need.
    We have a short-term fix associated with the RMMV upgraded; 
midterm, unmanned surface vehicle; and what we are exploring 
for the longer term is simply a vehicle like the Knifefish, 
which works today, but getting the endurance that we need for 
the mission itself.
    Senator Hirono. All this is going to be taking place within 
a year or so?
    Mr. Stackley. These are three----
    Senator Hirono. All these different components that you are 
putting together?
    Mr. Stackley. Yes, ma'am. These are three parallel efforts 
we expect that the mission package with the upgraded RMMVs 
would be ready for deployment in 2018. We expect that the 
mission package with the unmanned surface vehicle will be going 
through the formal IOT&E [initial operational test and 
evaluation] testing to support this operational capability in 
2020. During this time, we are already working with the 
Knifefish. This is not--the endurance requirements that we are 
going to try to impose on the Knifefish are not as mature, and 
this is a longer-term vision that we are going to try to get 
to.
    Senator Hirono. We will stay in touch with you on all of 
that.
    I did have one question regarding the Air and Missile 
Defense Radar that will be tested at PMRF on Kauai. Are you 
confident that the radar will be ready to install in one of the 
fiscal year 2016 DDG-51 destroyers without causing any delays 
in that shipbuilding program?
    Mr. Stackley. Yes, ma'am. The radar that we are sending out 
to PMRF that you referred to as an engineering development 
model radar, that is a production-representative radar. You 
will not see differences in terms of production of the radar 
that is going to PMRF and the radar that is ultimately going to 
the ship.
    The radar has completed its critical design review last 
year. It is on track. The efforts today are the ship-
integration portions of the design that we are working, and the 
ship critical design review is scheduled for November. The 
radar, we have got a lot of testing to complete, but we have 
very high confidence in the radar's performance and its design.
    The ship design, we do not see that as risk. We see that as 
a lot of work to complete leading up to its critical design 
review in November, which well supports the 2016 construction 
schedule.
    Senator Hirono. Thank you very much.
    Senator Wicker. Senator King?
    Senator King. Just some comments and questions about the 
Ohio bow wave. I call it the Ohio bulge. It is a bulge in the 
budget, and just some quick notes. It looks like it is about a 
40 percent increase in the basic levels of $16 billion a year, 
$6 billion a year for 15 years. It seems to me that we and the 
Congress have to really be talking about this because--and you 
are already thinking obviously very deeply about it talking to 
OMB, but if we do not deal with this and there is not a 
significant bump up in the shipbuilding budget, it is going to 
really decimate the remainder of the shipbuilding program 
during that period. There has to be a recognition that this is 
a sort of class-by-itself expenditure, is that correct?
    Mr. Stackley. Yes, sir. I think there is recognition that 
it is a class by itself, but that does not take away the 
challenge associated with funding it. Historically, going back 
to our first ballistic missile submarine referred to as 41 for 
Freedom, if you look at the Navy's budget and shipbuilding 
budget, in fact, they were increased during that period.
    The next instantiation was the Ohio itself. If you look at 
our shipbuilding budget during that period of time, it also was 
increased----
    Senator King. It was increased to accommodate that cost?
    Mr. Stackley. Let us just say that cost was inside of the 
increases. That was the Reagan buildup as well, so there was a 
lot of increase during that period of time. You would see 
significant increase in terms of our shipbuilding budget. When 
we look ahead at the Ohio replacement, if we do not likewise 
see that type of increase to our shipbuilding budget, then we 
will not be able to execute the long-range plan that we have 
laid before Congress that builds and sustains our 308-ship 
Navy.
    Senator King. Yes. Good. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you all. Without objection, we will 
leave the record open for questions for the record for 4 days. 
Thank you, gentlemen. I thank the members of the committee. I 
think it has been very helpful to us.
    The hearing will be closed.
    [Whereupon, at 3:39 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Roger F. Wicker
               american naval architecture and tug design
    1. Senator Wicker. I understand that design work for the Navy's 
next generation fleet tug may utilize a foreign vendor. Has the Navy 
determined that domestic naval architecture firms are not capable of 
handling this design? If not, why?
    Assistant Secretary Stackley. The Navy's upcoming fleet ocean tug 
(T-ATS) solicitation will specify the required performance parameters 
and characteristics of a towing, salvage, and rescue vessel. 
Shipbuilders will have the flexibility to offer their own specific 
designs or select from a wide range of foreign or domestic naval 
architecture and marine engineering subcontractors to provide the best 
value to the Navy. The solicitation will include clauses requiring that 
the vessels be constructed at a shipyard in the United States and built 
from a majority of domestic components in accordance with 10 
U.S.C.7309, 41 U.S.C. 8301 (Buy American Act), and the Federal 
Acquisition Regulation. The fleet ocean tugs are also required to be 
built to American Bureau of Shipping regulatory body standards.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                         rapid innovation fund
    2. Senator Shaheen. Mr. Stackley, as you know, the Rapid Innovation 
Fund (RIF) is a competitive, merit-based program designed to fund 
innovative technologies, reduce acquisition costs and rapidly insert 
technologies needed to meet our critical national security needs. Since 
the program was established in fiscal year 2011, over 85 percent of the 
awards have gone to small business. Over 60 percent of awards have gone 
to firms participating in the Small Business Innovation Research 
(SBIR). RIF provides a responsive funding mechanism for the testing of 
innovative SBIR-developed technologies like Beacon Interactive's energy 
management products. Beacon's technology provides Mission Assurance for 
a ship's CO to know if there is enough energy available on the ship to 
get where they are going, fire their weapons and get home.
    In my home state of New Hampshire, a number of SBIR and Small 
Business Technology Transfer (STTR) firms have been able to utilize 
this valuable resource. For example, Mentis Sciences, from Manchester, 
received a Rapid Innovation Fund award to advance the design and 
engineering of prosthetic devices that cost less to manufacture and 
last longer. The combination of initial SBIR funding for prototype 
development and the follow-on funding from RIF enables a more rapid 
delivery of much needed operational capability to the Fleet than the 
traditional procurement process allows.
    In your January 2015 memo, entitled ``Tapping Into Small Business 
in a Big Way,'' you stated that the SBIR and STTR programs could 
benefit from greater Phase III commercialization transitions for a 
greater return of investment on Navy research and development. Given 
that RIF is helping fill that need you mention, would you support 
making RIF permanent and giving it a stable funding source?
    Mr. Stackley. The RIF program has been successful for the 
Department of the Navy (DON). It has provided a path to transition 
innovative technologies and capabilities rapidly into the hands of the 
warfighters. ASN (RD&A) supports the continuation of the RIF program as 
it is currently funded but recommends further analysis with respect to 
SBIR, STTR and rapid prototype experimentation and demonstration before 
making it permanent.
    As stated in testimony to the House Armed Services Committee on 
Acquisition Reform: Experimentation and Agility, January 7, 2016, 
fundamental to the Department's efforts toward improving our 
acquisition outcomes is the increased use of rapid prototype 
experimentation and demonstration early in a program's formulation. 
Early prototyping efforts jump start the capability development process 
and inform the development of material solutions. These prototyping and 
experimentation efforts are essential elements in our ability to get 
the requirements right; to inform critical decisions on the operational 
utility, technical feasibility, producibility and programmatic risks 
early; and to expedite fielding of needed capability to our operational 
forces. With this objective in mind, the DON is increasing our focus on 
research and development initiatives directed at rapid prototype 
development to address operational gaps and needs identified by Navy 
and Marine Corps operational forces.
    The DON RIF Program in addition to other efforts we have initiated 
help to achieve this objective now and in the future. Our ultimate goal 
is to provide technically feasible capability rapidly to the warfighter 
while reducing total acquisition costs. The DON RIF program provides a 
path to do just this while actively growing the small business base 
where much of the nation's technical innovation occurs.
                                  sbir
    3. Senator Shaheen. Mr. Stackley, absent Congressional action, both 
the Small Business Innovation Research (SBIR) and Small Business 
Technology Transfer (STTR) programs will expire at the end of September 
2017. During the last reauthorization efforts, there were 14 extensions 
that harmed both small businesses and SBIR/STTR agencies in working on 
our country's technology challenges. It is a priority for me to 
permanently authorize both the SBIR and STTR programs before they 
expire to avoid repeating those disruptions, and I know that Navy's 
SBIR and STTR programs are the gold standard.
    The Navy's SBIR program has given us technologies that benefit the 
Navy's mission and save taxpayer dollars. For example, Creare, a small 
business from New Hampshire, has developed protective covers to protect 
corrosion of equipment in a challenging maritime environment. These 
investments saved the Navy over $600M in corrosion prevention and 
maintenance costs in the last 10 years. Would you support making the 
SBIR and STTR programs permanent?
    Mr. Stackley. I support making the SBIR/STTR programs permanent. 
SBIR and STTR programs have proven their ability to deliver innovation 
to our Naval warfighters with great efficiencies in cost and schedule, 
and noteworthy improvements in performance.

    4. Senator Shaheen. Mr. Stackley, in your leadership role, what 
efforts have been put in place to better leverage the SBIR and STTR 
programs to meet the mission of DOD?
    Mr. Stackley. In January, 2015 I issued a memorandum to the 
Department of the Navy (DON) to support increased use of small 
business, and specifically SBIR and STTR technologies, by making my 
Deputy Program Managers--that is, senior acquisition management--
responsible and accountable for building and managing SBIR and STTR 
technology inventories within their portfolios. This guidance is 
consistent with the Secretary of Defense's ``Better Buying Power'' 
initiative, with the overall DOD acquisition instruction 5000.02, and 
especially with Congressional reauthorization of SBIR and STTR in 2011, 
and your emphasis on DOD commercialization.
    I have required the major Systems Commands and Program Executive 
Offices to formulate a Small Business contract plan. In addition I have 
enforced SBIR and STTR accountability in Milestone Reviews for DON 
acquisition programs and helped transform the department's Office of 
Small Business Programs so that it too can help foster the ability of 
SBIR and STTR to serve DOD missions.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 13, 2016

                           U.S. Senate,    
                  Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                   MARINE CORPS GROUND MODERNIZATION

    The subcommittee met, pursuant to notice, at 2:00 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Roger F. 
Wicker (chairman of the subcommittee) presiding.
    Members present: Senators Wicker, Ayotte, Rounds, Tillis, 
Sullivan, Hirono, Kaine, and King.

          OPENING STATEMENT OF SENATOR ROGER F. WICKER

    Senator Wicker. Good afternoon. This hearing will come to 
order. The Senate Armed Services Subcommittee on Seapower 
convenes this afternoon to examine Marine Corps ground 
modernization programs.
    This afternoon, we welcome Mr. Thomas Dee, Deputy Assistant 
Secretary for the Navy for Expeditionary Programs and Logistics 
Management; and Lieutenant General Robert S. Walsh, who serves 
as Deputy Commandant for Combat Development and Integration. 
General Walsh is also the Commanding General of the Marine 
Corps Combat Development Command.
    Gentlemen, thank you for your service. We thank the 184,000 
marines who serve in more than 40 countries around the world. 
The Nation asks much of the Marine Corps. Its amphibious 
mission, its role as the Nation's expeditionary crisis response 
force, and its provision of key enablers to joint task forces 
from Kandahar to Anbar to northern Iraq offer a unique set of 
capabilities. The United States calls upon these capabilities 
often.
    The consequences of this high operation tempo and fiscal 
uncertainty are clear. As General Neller observed last month 
before the full committee, the Marine Corps is no longer in a 
position to simultaneously generate current readiness, reset 
our equipment, sustain our facilities, and modernize to ensure 
future readiness. The modernization of the Marine Corps, 
particularly of its ground forces, must be even more focused 
and economical than usual. Fortunately, Marine Corps--marine 
ground programs are targeted, relatively small, and well 
managed. Today, our witnesses will update us on their work to 
meet the need for the Nation's global crisis response force. 
They will provide assessments of Marine Corps requirements, 
going forward. Of course, they will answer critical questions.
    First and foremost, the subcommittee wishes to discuss the 
Marine Corps's strategy for modernizing its vehicle fleet, 
particularly the Amphibious Combat Vehicle and the joint light 
tactical vehicle. This fleet provides maneuver from the sea as 
well as protection and tactical flexibility ashore. The 
subcommittee wishes to discuss the design, suitability, and 
acquisition strategy for the amphibious combat vehicle, or ACV, 
which are perhaps most critical to the Corps's amphibious role.
    Last fall, two companies received contracts to develop 
prototypes of the first increment of the ACV. This vehicle will 
serve as a substitute for the canceled Marine Personnel Carrier 
[MPC], utilizing wheels and a limited swim capability that will 
likely require a connector to move it ashore. A fully 
amphibious increment of ACV that can be--that can self-deploy 
is being considered for future development. I'm interested in 
the progress of both concepts and the plan, going forward.
    We also want to discuss the Joint Light Tactical vehicle, 
or JLTV. I'm encouraged by the progress the Army and Marine 
Corps have made on this multiservice program, which provides 
our troops with a highly mobile protected means of 
transportation. The subcommittee would benefit from hearing how 
the Marine Corps plans to acquire its fleet of 5,500 JLTVs, 
particularly in light of the decision to defer 77 vehicles in 
fiscal year 2017, and to provide more funding to the ACV and 
the Ground/Air Task-Oriented Radar [GATOR] programs. Such 
shortfalls have an impact on capability, readiness, and program 
cost that must be addressed in order for our Humvees to be 
replaced as soon as possible.
    More broadly, we remain committed to maintaining a healthy 
industrial base through competition. With both the ACV and the 
JLTV, I understand the Marine Corps relies on competition to 
gauge, early on, what is technologically feasible and 
affordable. Competition requires viable competitors, which we 
do not always have. I would like our witnesses to provide their 
best assessment of the state of the U.S. industrial base for 
ground combat and tactical vehicles. I hope they will suggest 
what can be done to sustain the vitality of our manufacturing 
base.
    In addition to its work on tactical vehicles, I've 
previously mentioned the Marine Corps's development of the 
ground/air task-oriented radar, or G/ATOR, to replace five 
older radars. I believe this is a matter for discussion. 
Intended as an all-purpose system that can provide marines with 
early warning from missiles, indirect fire, and aerial systems, 
G/ATOR will also provide air traffic control capabilities. The 
subcommittee wishes to learn more about this complex program 
and its future role.
    We're eager to hear our witnesses discuss other equipment 
essential to the Marine Corps mission, such as small arms. Over 
the past year, the Marine Corps has collaborated with the Army 
on a joint 5.56-millimeter round. I hope our witnesses can 
speak to the status of this important project. We also welcome 
updates on the status of other critical capabilities, such as 
artillery and armor.
    The Marine Corps budget accounts for approximately 6 
percent of DOD's total budget. I remain concerned about the 
impact of budget uncertainty on modernization and readiness 
across the Defense Department, but especially on the Marine 
Corps. As such, I hope our witnesses today will elaborate on 
the impact that uncertainty has on our expeditionary marines, 
their ability to execute our country's national security 
strategy, and the vitality of our defense industrial base.
    So, we look forward to your testimony.
    I'm delighted, as I always am, to be joined by my teammate 
and Ranking Member, the Senator from Hawaii, Ms. Hirono.

              STATEMENT OF SENATOR MAZIE K. HIRONO

    Senator Hirono. Thank you very much, Mr. Chairman, for 
holding this important hearing on Marine Corps ground 
modernization.
    Of course, I'd like to welcome our witnesses and thank you 
for your service.
    First, I'd like to begin by acknowledging the men and women 
serving in support of U.S. Marine Corps Forces Pacific and 
Marine Corps Base Hawaii. These marines are vitally important 
to our national defense and for the ongoing rebalance to the 
Asia Pacific.
    Currently, Secretary Carter is traveling to the region to 
solidify our relationship with our Asia-Pacific partners. I 
commend the Department for the continuing emphasis and 
commitment on the rebalance.
    Our hearing today is focused on the Marine Corps's ground 
modernization. After nearly 15 years of continuous military 
operations, it is crucial that we evaluate the current status 
of our military forces also. Last year alone, the U.S. Marine 
Corps conducted 100 operations, 20 amphibious operations, 140 
theater security cooperation events, and 160 major exercises. 
While our marines remain ready and capable to address 
contingencies at a moment's notice, challenges persist.
    In their budget request, the Marine Corps made rebuilding 
readiness in the Active Duty Marine Corps and the Marine Corps 
Reserves a priority. Currently, less than half of our Marine 
Corps units are ready to perform their core wartime mission, 
and 80 percent of aviation squadrons do not have the required 
number of aircraft to train.
    Furthermore, increased readiness includes not only 
training, but providing marines with equipment that has been 
reset and is in proper working order. According to the Marine 
Corps, 77 percent of its ground equipment has been reset. 
However, the budget request funds ground depot maintenance in 
the base budget and OCO [Overseas Contingency Operations] 
accounts at 79 percent of the validated requirement, which 
could impact the readiness of nondeployed units in the future.
    To ensure that our marines will be supplied with the most 
effective equipment, the fiscal year 2017 budget request makes 
targeted investments in the ground combat and tactical vehicle 
portfolio of the Marine Corps. This budget provides $158.7 
million in funding to the Amphibious Combat Vehicle, ACV, 
program for research, development, testing, and evaluation, 
RDT&E, activities. Fielding the ACV is imperative, as it will 
replace the Assault Amphibious Vehicle, AAV, which has been in 
operation for over 40 years.
    Some of the other comments that I will make will echo what 
the Chairman has already noted, but I think that that's good, 
because that means he and I are on the same page.
    In November 2015, the Marine Corps awarded contracts to two 
vendors, each tasked with building 16 prototypes of the ACV 1.1 
vehicle to be used for testing over the next 2 years. Following 
testing, the Marine Corps plans to down-select to a single 
vendor. I welcome an update from our witnesses on the status of 
the program. In particular, I would like your thoughts on 
whether you anticipate any problems with the program schedule 
due to the contract protest, which I know has been resolved.
    The other priority for the Marine Corps is the joint light 
tactical vehicle, JLTV. JLTV is a joint Army and Marine Corps 
program that will replace the high mobility multi-wheeled 
vehicle, another acronym, HMMWV [Humvee]. The fiscal year 
budget includes $136.2 million in funding for the JLTV program; 
and, of this amount, $113 million will be used to procure 192 
vehicles, while $23.3 million is dedicated to the RDT&E 
activities. Over the course of the program, the marines will 
procure a total of 5,500 vehicles. Of course, we know the Army 
will procure many, many more of these vehicles.
    Like the ACV program, the JLTV program also had a vendor 
protest following the contract award. The protest was finally 
resolved in the Marine Corps's favor in February, but the 
winning vendor was under a stop-work order until the issue 
could be resolved. Again, I would like to know from our 
witnesses what impact this delay will have on this particular 
program.
    One final program critical to Marine Corps ground 
modernization is the amphibious assault vehicle, AAV. The 
Marine Corps is currently upgrading part of their AAV fleet 
with survivability upgrades to address obsolescence and 
increase the vehicle's capability until the AAV can be replaced 
by the ACV, the amphibious combat vehicle. It is my 
understanding that this program is slightly ahead of schedule 
and that the Marine Corps is on track to begin testing this 
month.
    In addition to the major ground modernization programs that 
I've highlighted, the Marine Corps is also developing the 
common aviation command and control systems which will 
consolidate the current control system of the marine air 
command and control systems into a single upgraded system with 
common hardware, software, and equipment. The Marine Corps is 
also developing, as the Chair mentioned, the ground/air task-
oriented radar, G/ATOR. The G/ATOR is an expeditionary radar 
system that will replace legacy radar systems currently fielded 
by the Marine Air-Ground Task Force. However, this committee 
has expressed concerns about the status of this program, 
including poor developmental test results and reliability 
issues with the system's software. I look forward to any 
comments our witnesses have on this program.
    Again, thank you, Mr. Chairman, for holding this hearing. I 
look forward to hearing from the witnesses.
    Senator Wicker. Thank you, Senator Hirono.
    Gentlemen, you have submitted a joint statement consisting 
of 9 pages, which will be inserted in the record at this point, 
without objection.
    Lieutenant General Walsh, I see that your name is listed 
first on the statement, so you are recognized for whatever 
comments you might have.

 STATEMENT OF LIEUTENANT GENERAL ROBERT S. WALSH, USMC, DEPUTY 
 COMMANDANT FOR COMBAT DEVELOPMENT AND INTEGRATION; COMMANDING 
        GENERAL, MARINE CORPS COMBAT DEVELOPMENT COMMAND

    General Walsh. Okay. Thank you, Chairman Wicker and Ranking 
Member Hirono, also Senator Rounds, Senator Kaine, and Senator 
King. Thank you very much for allowing us to be here.
    Joining me today is my good friend, Mr. Tom Dee, Deputy 
Assistant Secretary of the Navy for Expeditionary and Logistics 
Management. With your permission, I'd like to submit that for 
the record, our written testimony.
    Senator Wicker. It will be received.
    General Walsh. The Marine Corps's ability to serve as the 
Nation's premier crisis response force is due, in large part, 
to the subcommittee's continued strong support on behalf of all 
marines and your marines, and we thank you for that.
    The Marine Corps faces a challenging future operating 
environment in which peer and near-peer adversaries approach 
parity with some key capabilities. Anti-access and area-denial 
capabilities will proliferate and are becoming cheaper, more 
lethal, and harder to target from our end. Hybrid adversaries 
with mass signatures will fight in distributed fashion in 
densely populated urban littorals, and U.S. satellite 
capabilities may be degraded or denied. Cyberthreats will 
target the digital networks that are central to the way we 
currently fight. Adversaries will leverage advanced commercial 
off-the-shelf, or COTS, technologies to outcycle our 
acquisition process. Information warfare will exploit global 
communications in social media. We will face all these 
challenges in an area of reduced manpower and fiscal austerity.
    To fight and win in such an environment, we are conducting 
a very deliberate forced structure review that will field 
future Marine Air-Ground Task Forces [MAGTFs] that are naval, 
leveraging the sea as maneuver space to project power from the 
sea base; lethal, employing 21st-century combined arms; agile, 
employing 21st-century maneuver to generate overmatch of combat 
power with the ability to rapidly aggregate forward from 
distributed locations and from CONUS [the Continental United 
States]; and expeditionary, able to rapidly deploy, employ, 
sustain in littorals and further inland.
    With the smallest modernization budget in the Department of 
Defense, the Marine Corps continually seeks to leverage the 
investments of the other services. Carefully allocating our 
modernization resources to those investment areas which are 
most fiscally prudent and which--those that promise the most 
operationally effective payoffs. Innovative warfare fighting 
approaches and can-do leadership are hallmarks the Marine 
Corps, but these cannot overcome the vulnerabilities created by 
our rapidly aging fleet of vehicles. Long-term shortfalls in 
modernization have a detrimental impact on readiness, degrade 
our crisis response capability, and will ultimately cost lives 
during crisis. We are seeking to balance the increasing costs 
of maintaining legacy platforms with the needed investments in 
modernization across many portfolios. Eventually, sustaining 
fleets of severely worn and legacy systems become inefficient 
and no longer cost-effective.
    Our ground vehicle modernization strategy is to 
sequentially modernize priority capabilities, reduce equipment 
inventory requirements wherever possible, and judiciously 
sustain remaining equipment. The future security environment 
requires a robust capability to operate from the sea and 
maneuver ashore to positions of advantage.
    The amphibious combat vehicle enables us to do so and is 
the Marine Corps's highest-priority ground modernization 
program, and consists of two increments. This program, when 
coupled with improvements to our existing fleet of assault 
amphibian vehicles, generates a complementary set of 
capabilities to meet the general support lift capability and 
capacity requirements of our ground combat element.
    The second highest priority within the portfolio remains 
the replacement of our Humvee fleet that is most at risk, those 
trucks that perform a combat function and are typically exposed 
to enemy fires. In particular, the Army, the Marine Corps have 
sequenced the JLTV program to ensure affordability in the 
entire GCTV [Ground Combat Tactical Vehicles] portfolio while 
replacing 5,500 units of the legacy Humvee fleet with modern 
tactical trucks prior to fielding the first increment of ACV.
    These core Marine Corps modernization efforts have been 
designed in a manner to ensure their affordability. However, if 
the budget is fully sequestered in fiscal year 2017 or beyond, 
it will jeopardize both the timing and resources required to 
undertake the strategy, and greatly affect our ability to 
achieve our requirements in both vehicle fleets.
    Finally, the ground/air task-oriented radar that combines 
five current radar programs will enhance our ability to command 
and control the Marine Air/Ground Task Force. This solution 
will allow us to support air defense, air surveillance, 
counterfire, targeting, and air traffic control missions 
through simple software swaps on a single piece of hardware, a 
much more expeditionary solution than numerous offers of radar 
solutions for each mission. It will increase our sensing and 
sharing effective across the range of military operations, 
suborning missions in high-end conflict, hybrid warfare, and 
low-intensity conflict; and thus, enabling the command and 
control of our forces.
    Thank you again for this opportunity. I look forward to 
your questions.
    Senator Wicker. Thank you, sir.
    Mr. Dee.

 STATEMENT OF THOMAS P. DEE, DEPUTY ASSISTANT SECRETARY OF THE 
   NAVY FOR EXPEDITIONARY PROGRAMS AND LOGISTICS MANAGEMENT, 
  OFFICE OF THE ASSISTANT SECRETARY OF THE NAVY FOR RESEARCH, 
                  DEVELOPMENT, AND ACQUISITION

    Mr. Dee. Yes, sir, thank you. Chairman Wicker, Ranking 
Member Hirono, distinguished members of the subcommittee, thank 
you for the opportunity to testify before you today.
    Lieutenant General Walsh and I have submitted a joint 
statement. So, with your permission, I'll be very brief with my 
opening remarks.
    General Walsh highlighted the challenging environment in 
which we operate and within which we expect to operate through 
the foreseeable future. The pace of technological innovation, 
the ubiquitous availability of information, and the shifting 
demographics and political and economic balance of the world's 
population requires more than ever a Marine Corps that is 
forward-deployed, expeditionary, and agile.
    The Commandant has testified that this challenging 
geopolitical environment is further complicated by the fiscal 
environment and the budget pressures that face our Navy and 
Marine Corps. Last week before the subcommittee, Secretary 
Stackley observed that our shipbuilding account represents only 
about 3.3 percent of the defense budget in this time of 
diminishing defense budgets relative to the national GDP [gross 
domestic product]. Well, as context for this hearing, the total 
Marine Corps budget request for fiscal year 2017 is $24.9 
billion, approximately 4.3 percent of the Nation's defense 
budget. If you include all of the support the Navy provides--
aviation, seabasing, manpower, et cetera--that percentage edges 
upwards to only about 7 and a half percent. Within those 
limited dollars, our Marine Corps investment and ground 
modernization accounts allow only about $2.4 billion, four 
tenths of 1 percent of the defense budget, to equipment and 
modernize your Marine Corps. These funds need to cover the 
range of ground force capacities, from combat and tactical 
vehicles to artillery and missiles, enterprise IT [information 
technology], command and control, and radars, unmanned aerial 
vehicles, personal protective equipment, small arms and 
ammunition, generators, tents, and everything in between, all 
while investing in the R&D [research & development] to build a 
future Marine Corps that will be inherited by the next 
generation and remain as the Nation's premier forward-deployed 
and ready force.
    So, with the need to stretch so few dollars over so many 
critical capabilities, the Marine Corps is specially conscious 
of every--of making every dollar count and of the opportunity 
cost of making less-than-optimum decisions. The Marine Corps 
must strike a delicate balance between current and future 
readiness, with our future readiness to fight and win somewhat 
dependent on the wise selection and execution of our R&D and 
procurement projects. We cannot afford to do everything we 
might like to do. The good news is that the current global and 
fiscal environments do not only impose a threat, they also help 
to serve as a sometimes uncomfortable catalyst for the Navy and 
the Marine Corps to think differently and to be innovative in 
our acquisition efforts.
    So, even while still in the early production stage, our 
ground/air task-oriented radar, G/ATOR, is introducing new but 
mature and proven technologies to reduce cost and improve 
performance as we move to operational test. Our ACV program 
wisely took a pause, reevaluated capability priorities, and 
heavily leveraged the benefits of competition to provide the 
Marine Corps with a capable and modern amphibious combat 
vehicle.
    Now, being innovative means doing things differently, which 
sometimes results in unusual schedule or funding profiles. We 
appreciate the support of your committee in understanding that, 
to be innovative and agile, sometimes our programmatics must 
also be agile.
    Over the past few years, with the support of the 
subcommittee, the Navy and the Marine Corps team has been 
diligent in making difficult trades to balance risk within our 
modernization portfolio. It's incumbent now upon us to execute 
those decisions well so that your Marine Corps will remain 
America's expeditionary force in readiness well into the 
future.
    Mr. Chairman, thank you for the support you and your 
committee have provided and continue to provide to our Marine 
Corps. I look forward to answering your questions.
    [The prepared joint statement of General Walsh and Mr. Dee
follows:]

   Prepared Joint Statement by Lieutenant General Robert S. Walsh and
                           Mr. Thomas P. Dee
Introduction
    Mr. Chairman, Ranking Member Hirono, and distinguished members of 
the Subcommittee, we thank you for the opportunity to appear before you 
today to discuss Marine Corps Ground Force Modernization. Our testimony 
will provide the background and rationale for the Marine Corps' fiscal 
year 2017 budget request which is aligned to our strategic priorities 
and budgetary goals.
    The United States is a maritime nation with global 
responsibilities. Our Navy and Marine Corps persistent presence and 
multi-mission capability represent U.S. power projection across the 
global commons. We seek to move at will across the world's oceans, seas 
and littorals, and extend the effects of the sea-base deep inland. We 
enable global reach and access, regardless of changing circumstances, 
and will continue to be the nation's preeminent solution for employing 
deterrence through global presence, sea control, mission flexibility 
and when necessary, interdiction. We are an agile strike and amphibious 
power projection force in readiness, and such agility requires that our 
Naval expeditionary forces remain strong.
    The Marine Corps is the Nation's expeditionary force-in-readiness. 
By congressional mandate, it has a unique role and structure as a ``. . 
. balanced force-in-readiness, air and ground.'' This mandate results 
in the requirement for the Marine Corps to maintain a high state of 
combat readiness to be ``most ready, when the Nation is least ready.''
Operating Environment
    The Marine Corps executed over 100 operations, 20 amphibious 
operations, 140 Theater Security Cooperation (TSC) events, and 
participated in 160 exercises during calendar year 2015. Marine Corps 
units deployed to every Geographic Combatant Command (GCC) and executed 
numerous TSC exercises to help strengthen relationships with allies and 
build partner capacity. In Syria and Iraq, Marine squadrons continued 
over 1,275 total sorties and 325 strikes in support of Operation 
Inherent Resolve (OIR). 300 marines from Special Purpose Marine Air 
Ground Task Force--Crisis Response--Central Command (SPMAGTF-CR-CC) and 
Advise and Assist (AA) teams advised and enabled the Iraqi Army. 
SPMAGTF-CR-AF incident response force (IRF) maintained various alert 
postures from NASSIG, Italy, Souda Bay, Greece, and Moron Air Base, 
Spain during multiple iterations of SOCAF operations, and provided 
fixed site security forces to US embassy Bangui, Central African 
Republic, to assist in the reopening of the embassy. In addition, 
SECFOR provided security at Diplomatic Transit Facility, Sana'a, Yemen 
and AMEMB Yemen.
    Marine Expeditionary Units (MEU) provided support to the U.S. 
Embassy Sana'a, Yemen to safeguard American civilians and facilities 
including facilitating the evacuation of the Embassy in February and 
March. The 31st MEU also deployed to Saipan to provide Defense Support 
to Civil Authorities (DSCA) as Typhoon Soudelor passed through the 
Commonwealth of the Northern Marianas killing 30 and displacing 150,000 
people. The 15th MEU and III MEF supported the President's travel in 
Kenya, Ethiopia, and Malaysia. Additionally, the 15th MEU provided 
support to SOCCENT by offloading air combat assets into Djibouti to 
make room on the USS Anchorage to provide an Afloat Forward Staging 
Base (AFSB) capability in support of SOP tasking in the region.
    Marine Security Augmentation Units (MSAU) teams deployed 33 times 
in 2015 at the request of the State Department executing 12 Embassy/
Consulate security missions and 21 VIP (POTUSNPOTUS/SECSTATE) security 
missions. MSAU marines deployed to Iraq, Burundi, South Sudan, Belgium, 
Egypt, Philippines, Kenya, Ethiopia, Turkey, Uruguay, Canada, 
Tajikistan, Chile, Switzerland, Jamaica, Panama, Sri Larika, Germany, 
Jordan, Kyrgyzstan, France, Burkina Faso and Ukraine. Additionally, 
Joint Task Force-505 (JTF-505) was activated in response to a magnitude 
7.8 earthquake in Nepal in April 2015 that killed over 8,000 people and 
injured more than 21,000. JTF-505 Forward assumed command of all DOD 
assets in support of Foreign Disaster Relief operations in Nepal and 
delivered about 114 tons of emergency relief supplies, transported 534 
personnel and conducted 63 casualty evacuations.
Future Environment
    If one characteristic defines the future operating environment it 
is uncertainty. Crises, whether natural disasters or manmade, will 
continue to arise at an ever increasing pace. The 2014 Quadrennial 
Defense Review correctly states that ``the international security 
environment remains uncertain and complicated. The United States will 
likely face a broad array of threats and opportunities and must prepare 
to address both effectively in the coming years.'' Exacerbating these 
future threats is the nature of our adversary's capabilities. We 
continue to see the power of disruptive technologies distributed to 
more diffused and decentralized actors. In what has been described as a 
'new normal,' extremism, economic disruption, identity politics and 
social change generate new potential security threats at an 
accelerating pace.
    Two years ago we published Expeditionary Force 21, our Marine Corps 
capstone concept, which establishes our vision and goals for the next 
10 years and provides a plan for guiding the design and development of 
the future force that will fight and win in this environment. It is 
aligned with our Cooperative Strategy for 21st Century Seapower and 
informs decisions regarding how we will adjust our organizational 
structure to exploit the value of regionally focused forces and provide 
the basis for future Navy and Marine Corps capability development to 
meet the challenges of the 21st Century. Developed in close 
coordination with the refresh of the maritime strategy, Expeditionary 
Force 21 provides guidance for how the Marine Corps will be postured, 
organized, trained, and equipped to fulfill the responsibilities and 
missions required around the world. We will publish an updated 
Expeditionary Force 21 in May. It will continue to guide. refinements 
to how we operate from the sea and provide the right sized force in the 
right place, at the right time.
    A key attribute of this force will be its requirement to remain 
flexible, with the capability to arrive from a variety of platforms and 
seamlessly aggregate to serve as a leading edge of the United States 
response or assume command of a Joint Task Force (JTF). In addition 
these forces will operate over even greater distances and be employed 
in even smaller packages to include the increased reliance on 
independent company sized units. This diffusion of combat power will 
place increasing demands on our command and control, communication, and 
logistics support architecture.
    Marines must be ready to respond anywhere in the world, at any 
time, with the full spectrum of expeditionary capabilities across a 
range of operations, to include, crisis response, disaster relief, or 
armed conflict. Consequently, we man, train, and equip our force and 
prioritize resources for readiness. As one of the five pillars of 
readiness, equipment modernization is a critical factor in our ability 
to support our capability requirements. Under current fiscal 
constraints, we have prioritized near-term readiness while assuming 
risk in other areas, including equipment modernization. The support of 
this committee is greatly appreciated in relieving this budgetary 
pressure.
    We are committed to delivering required warfighting capabilities to 
marines in a timely and affordable manner. Continued funding shortfalls 
in our investments will force reliance on aging equipment and diminish 
our technical advantage over our adversaries. The continuing need to 
maintain and update legacy systems takes the focus off innovation and 
is costly in its own right. Experience tells us that investing in new 
capabilities and technologies is a proven cornerstone for your marines 
and sailors to achieve mission success today and into an uncertain, but 
no less demanding future.
Ground Modernization
    A fundamental strength we have working for us is the close 
partnership between Navy and Marine Corps. Naval integration is a 
critical factor in our mission performance. The Marine Corps also works 
closely with the Army, other Services, and industry to provide the most 
effective and affordable capabilities to your marines and sailors. The 
Marine Corps and the Army have worked together on programs such as the 
Joint Light Tactical Vehicle (JLTV), the Enhanced Combat Helmet and the 
Modular Scalable Vest. To improve our collaborative relationship, this 
year we are resuming use of the Army Marine Corps Board, with regularly 
scheduled meetings at the 3-star level, to identify, develop, review, 
and resolve issues with concepts, capabilities, service approved 
requirements and programs.
    Ground force modernization is focused on high-priority programs 
such as the Amphibious Combat Vehicle (ACV) 1.1, Amphibious Assault 
Vehicle (AAV) survivability upgrades, Ground/Air Task Oriented Radar 
(G/ATOR), and Joint Light Tactical Vehicle (JLTV).
               ground combat and tactical vehicles (gctv)
    The overarching priority within the GCTV portfolio is the 
replacement of the legacy Amphibious Assault Vehicle (AAV) with modem 
armored personnel carriers through a combination of complementary 
systems. The ACV program is the Marine Corps highest ground 
modernization priority and will use an incremental approach that 
consists of two Phases: ACV Phase 1 Increment 1 (ACV 1.1) and ACV Phase 
1 Increment 2 (ACV 1.2). Phase 1 Increment 1 will field a personnel 
carrier while Increment 2 will deliver improved personnel carrier 
capabilities, a command and control variant, and a recovery variant. 
Phase 2 will examine potential High Water Speed solutions.
    The second highest priority within the portfolio remains the 
replacement of a portion of the high mobility multi-purpose wheeled 
vehicle (HMMWV) fleet that is most at risk; those vehicles that perform 
a combat function and are typically exposed to enemy fires. In 
partnership with the Army, the Marine Corps has sequenced the JLTV 
procurement so as to ensure affordability of the entire GCTV portfolio 
while replacing one third of the legacy HMMWV fleet with modem tactical 
vehicles.
Amphibious Combat Vehicle (ACV) 1.1
    The fiscal year 2017 President's Budget requests $158.7 million in 
RDT&E for ACV 1.1. The Marine Corps appreciates the support of the 
Congress and this Committee in the restructuring of the ACV program in 
the fiscal year 2015 defense authorization. The Marine Requirements 
Oversight Council (MROC) approved ACV 1.1 on March 6th, 2015, Milestone 
B was certified on November 1J1h, 2015, and two competitive contracts 
were awarded to industry on November 24th 2015. Those vendors are 
scheduled to deliver 16 prototype vehicles each in fiscal year 2017. 
The ACV 1.1 program successfully leveraged technology demonstrations 
and competitive prototyping to create a set of realistic requirements 
that are achievable with a non-developmental vehicle. Market research 
and extensive discussions with industry confirmed that requirements 
could be met with low-risk, affordable solutions. The use of 
demonstrated mature technologies and stable requirements reduced 
technical risk and allowed foregoing the Technology Maturation and Risk 
Reduction (TMRR) phase, accelerating Initial Operational Capability 
(IOC). The condensed Engineering and Manufacturing Development (EMD) 
phase will focus on manufacturing and testing rather than system 
design. An acquisition strategy that included affordability constraints 
and competition through to Low Rate Initial Production (LRIP) will 
continue to ensure affordability. The Acquisition Objective (AO) for 
ACV 1.1 is 204 vehicles. This AO provides lift for two infantry 
battalions and is planned to achieve Initial Operational Capability 
(IOC) in fiscal year 2020. This aggressive schedule for ACV 1.1 
requires full funding and the continued support of this Committee and 
Congress.
    The Marine Corps is also investing in the exploration of a range of 
high water speed technology approaches to provide for an affordable, 
phased modernization of legacy capability to enable extended range 
littoral maneuver. These efforts will develop the knowledge necessary 
to reach an informed decision point in the mid-2020s on the 
feasibility, affordability, and options for developing a high water 
speed capability for maneuver from ship-to-shore.
Amphibious Assault Vehicle (AAV) Survivability Upgrade (SU)
    The fiscal year 2017 President's Budget requests $38.0 million for 
RDT&E and $73.8 million for PMC for the AAV program. To restore much 
needed survivability and mobility to the current AAVs, approximately 
one third of that fleet will undergo a survivability upgrade. The AAV 
Survivability Upgrade (SU) improves AAV capability in order to support 
Marine Expeditionary Unit (MEU) deployments, and when globally sourced, 
provide the capacity necessary for the amphibian assault echelons of 
two Marine Expeditionary Brigades. The combination of a modem 
amphibious armored personnel carrier alongside the improved AAV 
generates a complementary set of capabilities to meet general support 
lift capability and capacity requirements of our Ground Combat Element.
Joint Light Tactical Vehicle (JLTV)
    The fiscal year 2017 President's Budget requests $23.2 million in 
RDT&E and $113.2 million in PMC for the Marine Corps portion of the 
JLTV program. The Department remains firmly partnered with the U.S. 
Army in fielding a JLTV that meets requirements of both services while 
remaining affordable. The JLTV program strives to control ownership 
costs by maximizing commonality, increasing reliability over the legacy 
HMMWV fleet, and improving fuel efficiency. The program completed the 
EMD phase in November 2014. The program received a Milestone C decision 
on August 25th 2015 and the LRIP contract was awarded to Oshkosh 
Defense. The acquisition objective of 5,500 will be procured in the 
first increment.
                 ground force command and control (c2)
    The ability to coordinate and synchronize distributed Command and 
Control (C2) sensors and systems is critical to the success ashore of 
the MAGTF. Modernization priorities in this area are the Ground/Air 
Task Oriented Radar (G/ATOR), the Common Aviation Command and Control 
System (CAC2S), and Networking on the Move (NOTM). These systems will 
provide modem day, interoperable technologies that support real-time 
surveillance, detection, targeting and force protection, in addition to 
the common C2 suite required to enable the effective employment and 
situational awareness of the MAGTF.
Ground/Air Task Oriented Radar (GIATOR)
    The fiscal year 2017 President's Budget requests $83.5 million in 
RDT&E and $135.0 million in PMC for the G/ATOR program. GIATOR is the 
Marine Corps short and medium range multi-role radar designed to detect 
aircraft, unmanned aerial systems, cruise missiles, air breathing 
targets, rockets, artillery and mortars. GIATOR Block 1 provides air 
defense and air surveillance capability, and achieved Milestone C in 
2014. Block 2 is in the EMD phase and will provide counter-battery and 
target acquisition capability. RDT&E funding resources Block 2 
development. PMC funding resources procure three LRIP assets. This 
program is critical to replacing radars that have exceeded their 
expected life cycle and technological relevance and we appreciate the 
continued support of the committee in furthering the capability.
Common Aviation Command and Control System (CAC2S)
    The fiscal year 2017 President's Budget requests $11.8 million in 
RDT&E and $47.3 million in PMC for CAC2S. CAC2S Increment 1 is a 
modernization effort to replace existing Marine Air Command and Control 
System (MACCS) equipment. Increment 1/Phase 1 successfully fielded a 
product baseline Processing and Display Subsystem (PDS) and 
Communications Subsystem (CS) during 4th quarter fiscal year 2013. 
Increment 1/Phase 2, covers the integration of sensor capabilities with 
the PDS and addresses the remaining Air Combat Element (ACE) Battle 
Management and C2 requirements through integrating the Air Command and 
Control Subsystem.
    Phase 2 completed a successful Milestone C in February 2015. 
Funding in this budget supports the assembly and Initial Operational 
Test and Evaluation (IOT&E) of the first four Limited Deployment Units 
and the required government furnished equipment. IOT&E is scheduled for 
fiscal year 2016. Phase 2 completion will result in the delivery of the 
full CAC2S Increment 1 capabilities and is planned to begin fielding in 
fiscal year 2017. The approved AO is 50 systems.
Networking on the Move (NOTM)
    The fiscal year 2017 President's Budget requests $9.1 million in 
RDT&E and $37.5M in PMC for the NOTM program. NOTM provides the MAGTF 
with a robust, over-the-horizon/beyond line-of-sight digital command 
and control capability while on-the-move and at-the-halt. RDT&E funding 
resources the development of a NOTM Airborne variant for MV-22 and KC-
13 OJ systems in support of the SPMAGTF-Crisis Response forces, and the 
development of a NOTM Internally Transportable Vehicle (ITV) variant on 
a vehicle internally transportable in a MV-22. PMC funding is focused 
on production of the current NOTM Ground Combat Vehicle (GCV) variant 
towards its Approved Acquisition Objective (AAO).
                        small arms modernization
    Informed by operational lessons, technological maturity, industrial 
capabilities, and guided by concepts and initiatives such as 
Expeditionary Force 21 and the Marine Expeditionary Rifle Squad Initial 
Capabilities Document, the Marine Corps is aligned with the Joint 
strategy for weapons modernization to improve accuracy, lethality and 
mobility. Initially prioritizing selective modernization and 
sustainment of critical legacy capabilities, longer-term goals will 
capitalize on technological advances to deliver modem replacements for 
critical weapon systems. Our end state is to develop improved lethality 
while also improving the mobility of the individual marine, the Marine 
Rifle Squad, and the MAGTF. The fiscal year 2017 President's Budget 
requests $1.4 million in RDT&E and $5.2 million in PMC across the 
Marine Corps' small arms portfolio.
    In the near term, we will selectively modernize systems and conduct 
a prioritized sustainment of legacy capabilities. For example, an 
adjustable buttstock of the M16A4 has been fielded in limited 
quantities while commanders have been authorized to procure more and 
modify rifles as necessary to improve the ergonomics relative to the 
stature of the individual Marine. In 3rd Quarter fiscal year 2016 we 
will achieve IOC on the quick change barrel for our M2Al heavy machine 
gun, an improved capability common to all the services. We are 
realigning our existing M4 inventory to provide our infantry battalions 
with our most capable service rifle. We anticipate completion in 3rd 
Quarter fiscal year 20l6. Finally, the Marine Corps will participate in 
the Army's Precision Sniper Rifle (PSR) program in addition to fielding 
the M40A6 Sniper Rifle, ensuring the most accurate and lethal fires for 
our Scout Sniper community.
    In the long term, we will look to make larger gains in capability 
through pursuit of next generation weapons with the other services. 
This includes working with the Army to explore the Modular Handgun 
System (MHS) in pursuit of developing a pistol that features increased 
accuracy, improved ergonomics, and a higher degree of reliability/
durability over legacy systems. We will also work together to develop 
the next generation of infantry squad weapons by taking a holistic 
approach to integrating technological and materiel advancements for 
small arms to improve accuracy and increase lethality out to 600m.
              family of ballistic protective systems (bps)
    Coupled with our infantry weapons systems, we seek to improve the 
protection and lethality of our marines through BPS. BPS provides 
technologically advanced ballistic protection at the lightest possible 
weight. It provides the critical ballistic protective systems to save 
lives, reduce the severity of combat injuries, and increase combat 
effectiveness by keeping more marines in the fight. Major BPS programs 
include: Plate Carrier (PC); Improved Modular Tactical Vest (IMTV); 
Enhanced Small Arms Protective Inserts (ESAPI); Enhanced Combat Helmet 
(ECH); Improved Ballistic Eyewear (IBE); and hearing protection. As in 
small arms, we are actively working with the Army to develop improved 
protection systems that maximize mobility while providing the requisite 
protection through the active sharing of novel designs and materials. A 
key component of all of the BPS programs is that as new threats emerge 
on the battlefield, BPS equipment will be ready to adapt and meet these 
new threats. This initiative supports this requisite adaptability as 
well as sustaining currently fielded protection. Continued 
Congressional support is critical to enable this capability. The fiscal 
year 2017 President's Budget requests $2.7 million in RDT&E and $4.2 
million in OMMC across the BPS portfolio.
                               conclusion
    The Marine Corps continues to improve our essential ground 
capabilities through a strategy that is stable and affordable. We 
recognize the need for continued vigil--ance in achievement of a proper 
balance between current readiness and the long-term imperatives of 
modernization and innovation. This balance is critical to ensuring the 
Marine Corps and the individual Marine has the capability to fight and 
win future battles while being prepared to respond today as our 
Nation's force in readiness.
    On behalf of the marines and sailors who provide the Nation with 
its forward deployed crisis response force, we thank you for your 
constant support in an era of competing challenges. We are proud of our 
reputation for frugality and we remain one of the best values for the 
defense dollar. These critical modernization investments, among many 
others, will ensure our success not if, but when future conflict 
occurs. Fiscal uncertainty has threatened both our capacity and 
capabilities, forcing us to sacrifice our long-term operating and 
training health for near-term readiness. Recognizing these fiscal 
challenges, we remain committed to fielding the most ready Marine Corps 
the Nation can afford. Mr. Chairman, and distinguished committee 
members, on behalf of your marines, we request your continued support 
for our modernization strategy.

    Senator Wicker. Thank you. Thank you very much, Mr. Dee, 
for emphasizing that we need to make every dollar count.
    Let's just jump right into this top priority, which is the 
ACV. On your joint testimony, pages 4 and 5, you discussed this 
in some detail. Mr. Dee, you mentioned competition. The marines 
expect to down-select one vendor in 2018. How is that going? 
What can you tell us about the entire acquisition strategy and 
your confidence that the cost and schedule are under control?
    Mr. Dee. Yes, sir. I alluded to this in my opening remarks. 
ACV--everybody's familiar with the history of EFV 
[Expeditionary Fighting Vehicle] and with the history of MPC. 
We were on a path for an amphibious combat vehicle with some 
question still as to what the priority capabilities were. We 
took a pause for that. With that pause, we were able to 
reprioritize or prioritize and emphasize the capabilities that 
we most required, the ability to effectively operate ashore 
once we got ashore. We looked at mature technologies. We looked 
at seven different vendors, five of which were interested in 
competing for this particular program. We down-selected to two 
vendors in order to allow the competition to produce our EMD 
vehicles. The idea behind that was--is the competition will 
cause price to come down, which it has, significantly below our 
previous service cost position. So, we were very successful in 
that. We've got a very abbreviated EMD--engineering, 
manufacturing, development--phase, which will lead to testing--
development--developmental testing, as well as the beginnings 
of some operational tactics development, which will allow us to 
do a down-selection in fiscal year 2018 and go forward then 
with a low-rate initial production [LRIP] and a production 
contract. Everything is on track. We are at cost or below cost. 
We are a little behind in schedule now, because of the protest, 
which was mentioned earlier. It's a fairly minimal delay that 
we're experiencing with this. Both contractors leaned forward 
during the period of delay to avoid losing much time. No more 
than one-quarter. The good news on this is that the funding is 
still phased in the correct year to support both the EMD phase 
as well as the procurement portion, fiscal year 2018, to allow 
those initial LRIP contracts. So, we don't expect any major 
significant delays as a result of the program----
    Senator Wicker. For the record, the pause was from when to 
when?
    Mr. Dee. The protest was initiated in November. I believe 
it was cleared in early February.
    Senator Wicker. That was the reason for the pause?
    Mr. Dee. Oh, no, sir. No. I'm sorry. I thought----
    Senator Wicker. My question was----
    Mr. Dee.--I thought you meant the----
    Senator Wicker.--about the pause.
    Mr. Dee.--the--so, we had a program that was intended to 
begin RDT&E in fiscal year 2015. We were still looking at 
evaluating the value of high water speed. We took a pause on 
initiating that program, which put our money a little bit out 
of phase, so we have RDT&E money in 2015 for a program that we 
didn't really initiate and award the contracts to until last 
year. So, the pause was between the EFV [Expeditionary Fighting 
Vehicle], the MPC, the original ACV concept. Took a pause on 
that to reevaluate the requirements and what the priority was 
for that before we initiated the program and led to the RFP and 
the competition. So, that was back in 2015.
    Senator Wicker. The 1.1 relies on commercial off-the-shelf 
wheeled vehicles that will rely on connectors to get ashore, 
and then, gentlemen, you say, on page 5, ``Phase 2 will examine 
potential high water speed solutions.''
    General, would--what's the reason for this deferred 
objective of high water speed?
    General Walsh. Chairman, you know, I think, going back to 
what Mr. Dee was saying about, ``Why do we feel like we're in 
pretty good shape with the program, itself?''--is--one of the 
things is, when we made that decision on the ACV, to go with a 
wheeled vehicle, we went with a capability that was 
nondevelopmental. So, using vehicles that were part of the 
original MPC program, we started with those. So, when we went 
with those, those vehicles were not designed to go ship-to-
shore. Those were vehicles that were designed to go shore-to-
shore, with an objective capability to go ship-to-shore of 12 
miles. So, that capability in the 1.1 was to provide a 
capability that would give us more combat power once we got 
ashore, and, as you said, that they would come from connectors. 
We still have our assault amphibious vehicle capability of 392 
vehicles in that program that we're going to the AAV upgrade 
program. Those are our main capability to get the marines 
ashore while we develop the ACV 1.1 capability, and then see 
how that goes to--as we go forward into the second increment, 
or the 1.2, which would hopefully have the ship-to-shore 
capability while still maintaining our intent to try to get to 
a high water speed down the road.
    Senator Wicker. Are you certain we'll go to a 1.2, General?
    General Walsh. Right now, I think what we've got is--the 
capability we've got right now is a personnel vehicle. So, the 
1.2 would come in with a command-and-control vehicle and a 
recovery vehicle capability. So, we're--we'll go to some type 
of vehicle that will bring those capabilities in, and then what 
type of requirements--we still have to develop our requirements 
documents for what those would be.
    Senator Wicker. So, it might be a 1.1 or it might be what?
    General Walsh. It could--I guess it could be a follow-on to 
the 1.1 or it could be a 1.2. It would be a second increment 
that would bring in those other capabilities, like a personnel 
variant or recovery variant or a C2 [Command and Control] 
variant, and potentially different capabilities within it to 
give it more ship-to-shore capability.
    Senator Wicker. When will the decisionmakers know on that?
    General Walsh. I think we'll probably be working those 
requirement documents--probably in about 2018 would the time 
period we'd start doing that. I think about 2019 would be the 
time we'd starting working in--that into the program to start 
putting requests out there for when we'd start to need those 
vehicles.
    Senator Wicker. Thank you.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    You've already been asked some questions regarding the ACV, 
which is your highest ground modernization priority. We know 
that the Marine Corps has had a mixed record developing a new 
amphibious vehicle. The first attempt, the expeditionary 
fighting vehicle, EFV, cost the Marine Corps $3 billion before 
it was canceled in early 2011 because it demonstrated poor 
performance during operational testing. Can you explain to this 
committee how the ACV effort this time will be different and 
what steps the Marine Corps has taken to ensure that we don't 
have another failed program in this your most important 
modernization priority?
    General? Secretary?
    General Walsh. I think the thing that probably would be 
different at this point, Senator Hirono, would be that we have 
been putting so much focus on the high water speed in our 
expeditionary fighting vehicle program and then in our 
amphibious combat vehicle program. We've kind of taken that off 
the table with the ACV 1.1. Even the 1.2, the one that would be 
the follow-on variant, we don't believe we're going to get the 
high water speed with that. The decision point for us to go to 
a high water speed, we think we're going to use about the next 
10 years, til 2025, to continue to look at that on whether, in 
the longer term, what we'd be calling probably a ACV 2.0, 
beyond the 1.2, might be a time period where we'd be looking at 
that vehicle coming in, following when our AAVs start to run 
out, in about 2035.
    So, I think the thing that would be different here is, is 
that taking that high water speed requirement, staying with 
something that we think is much more achievable in the 1.1 
program, and then seeing where that--the 1.1 program gets us 
for follow-on development into the 1.2 program.
    So, I think what we've done is, we've reduced a lot of that 
risk by trying not to put the high water speed. That's where we 
came into the tradeoffs with high water speed by taking off 
protection, lethality, those kind of things that we weren't 
willing to trade off once we got ashore to get--just to get to 
the high water speed. We realize, at this point in time, the 
technology is not there.
    Senator Hirono. No.
    General Walsh. So, we kind of limited that as part of the 
requirement that was stressing the program.
    Senator Hirono. You probably could make that kind of 
comment with regard to any of our acquisition programs, because 
the more requirements we place in terms of design survivability 
and all of that, that can really increase the risk of the 
acquisition actually performing. That's what happened, 
apparently. Thank you for noting that. I hope, going forward, 
that we really make a very accurate assessment as to what we 
really need from these programs.
    As far as the joint light tactical vehicle program, in 
light of the delay due to the protests that occurred--and I 
don't know whether these protests are becoming a common thing 
and whether you just factor in the delays as a result of the 
protests so that we--you know, we don't come and ask you, 
``Well, what's--what has the delay cost?'' Do you feel 
confident that the program is now on track and will still meet 
the development and testing timelines? Because you are going to 
acquire a lot of these vehicles.
    Mr. Dee. Yes, ma'am. In regards to protests, we don't 
account for the potential protest in our schedules, generally. 
We try to establish our selection criteria so that it is very 
clear to the vendors so that we are at minimal risk of protest. 
That doesn't stop protests from happening. So that I think the 
Department gets probably about 2,000 per year, out of tens of 
thousands of contract awards. So, we don't account for protests 
up front.
    The impact of the protest definitely affects the schedule. 
So, I mentioned, in an ACV, because the dollars were phased, 
it's a fairly minimal impact that we've got in the ACV program. 
JLTV is a little bit differently. So, JLTV, the same scenario--
it was a little different, in terms of the process of the 
protest, in the fact that it went to the Court of Federal 
Claims as well as to the GAO [Government Accountability 
Office]--but, in terms of the impact, the--that 90-day delay 
cascaded into a further delay in testing because of test-range 
availability and testing schedules. So, a 90-day delay grew 
into about a 6- or 8-month delay just because of, now, the 
difficulty in rescheduling the test phase that we were going to 
do, which then impacts the decision date for the full-rate 
production decision, which, in turn, puts our funding out of 
phase for the JLTV program for our production decision for 
JLTV, which then allowed us to take a look at the time 
difference between the completion of testing and that full-rate 
production decision, and it ended up stretching out IOC 
[initial operational capability] about a year. A 90-day protest 
period resulted in about a year delay in achieving IOC.
    Now, not all of that is directly related to the protest 
itself, that 90-day protest, but the cascading effect----
    Senator Hirono. Yes.
    Mr. Dee.--of the protest, and then some decisions we made 
internally to be able to better address any potential changes 
that come out of the testing prior to FRP [full-ride 
production] to make sure that we're giving the first battalion 
equipped a capable, ready vehicle to go out.
    So, we--so, the impact on JLTV is about a year--a little 
over a year, actually, for IOC [initial operational 
capability]. That came out of a 90-day protest period.
    Senator Hirono. Well, thank you for explaining how a short 
protest period can have the cascading impact, as you say. So, 
the idea is to minimize any kind of a potential for protest, 
even though we know that they will occur, because we're talking 
about a lot of money and contracts at stake.
    Mr. Chairman, do you mind if I ask one more question? I----
    Senator Wicker. Please go ahead.
    Senator Hirono. Thank you so much.
    In light of the evolving security--this is for General 
Walsh--security environment and the unanticipated global 
challenges--and you did note in your written testimony when you 
stated that, ``If one characteristic defines the future 
operating environment, it is uncertainty''--do you believe that 
the Marine Corps has the force structure necessary if called 
upon for major combat operations?
    General?
    General Walsh. Senator Hirono, I guess I would say that we 
are prepared for today, and we are--we're ready to fight in any 
operation we may have to fight. As you project out into the 
future, what the future operating, as--environment, as we call 
it, I think, as you take a look at the threats we're seeing and 
how quickly--I think a lot of it's the technology we're seeing 
today, and the proliferation of the technology, how quickly our 
adversaries can bring technology in. A lot of it's the things 
that we view very beneficial to us, that we can bring in plug-
and-play, rapidly bringing those capabilities. They're able to 
do the same thing. I think, while we, on the Marine Corps, have 
been focused very much over the last 14 years on combat 
operations in Iraq and Afghanistan, our adversaries have 
continued to grow their capabilities. So, as we look at our 
peer competitors, countries such as Russia or China, you can 
just rapidly see what they're doing with those capabilities 
that are certainly keeping pace with us, and outpacing us in 
many capabilities.
    At the lower end. I think some of the things you're seeing 
on the ground in Syria today--capabilities like antitank guided 
missiles, where, before, we were very concerned about IEDs 
[improvised explosive devices], now those kind of capabilities 
that we're seeing for complex attacks with those type of 
capabilities, proliferation of unmanned aerial systems, drones, 
that are out up there now to be able to see our forces, target 
our forces, and bring in pretty sophisticated capabilities 
pretty quickly, that what we're seeing is, we are having to 
take a look at our force structure--we talked the--before, on 
the force structure review that the Navy was doing with its 
ships, its force structure assessment at the last hearing. 
We're doing the same thing. In fact, I just left the 
Commandant, with all the senior leadership, just before I came 
over here, and we're conducting our force structure assessment, 
and it's all projected into that future operating environment. 
We see this as probably the most complex operating environment, 
both at the lower end of the spectrum and certainly at the 
higher end of the spectrum, that we have not really seen since 
the Cold War, these types of capabilities, when we start 
getting into precision weapons, ability to sense the area, and 
also working in the electronic magnetic spectrum.
    Senator Hirono. Thank you----
    Senator Wicker. Thank you.
    Senator Hirono.--very much, Mr. Chairman.
    Senator Wicker. Thank you, Senator Hirono.
    Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    General Walsh, I just want to walk my way through this a 
little bit. Please help me with the concepts behind getting 
these marines from a ship to the shore. I understand that, 
first of all, we've got the AAV, which is 40 years old. I 
understand that--I mean, it's got to be replaced. It's got a 2-
mile capability, basically, coming in, as I understand it, from 
ship to shore. Then right now we're talking about the ACV, 
the--and the variant is the 1.1, to begin with. My 
understanding is, is that the 1.1 that you're looking at today 
has very limited amphibious capabilities, but you think you can 
begin with that one with adding a connector to it to get it 
from the ship to shore. Is that correct? Can you walk us 
through that a little bit?
    General Walsh. Yes, Senator. The first thing I would say 
is, the AAVs--we've got an amphibious assault vehicle upgrade 
program. So, we've got that going on right now. We just got our 
first vehicle in the EMD phase. It just came out--and we went 
out there and--went out there a couple of weeks ago and looked 
at it--which completely really refurbishes that vehicle and 
brings in a lot of good capabilities to it. So, it's basically 
pretty much a new vehicle.
    Senator Rounds. So, you would use the AAV--the new model 
AAV----
    General Walsh. Right.
    Senator Rounds.--with the upgrades, to get a marine to 
shore.
    General Walsh. That is our primary--to meet our 2 MEB 
[Marine Expeditionary Brigade] amphibious assault requirement, 
the current AAVs that we're upgrading will provide that 
capability.
    Senator Rounds. When they do that, will that have a 
capability greater than the 2-mile capability today?
    General Walsh. The 2-mile--I think if we looked at that, is 
that--you know, we've seen the AAV swim in from 12 miles. Now, 
a lot of that has to do with sea state, what the conditions 
are, how long those marines under--on the--and that's one of 
the reasons we want to go faster. One is maneuver, to maneuver 
away from the threat; but, the other thing is how long marines 
in higher sea-state conditions can live and survive--not 
survive, but, you know, be an effective fighting force when 
they come out of them when we get ashore. So, I would say, 2 
miles, we're--we can easily exceed that. We're not out to where 
we'd like to be. The ACV, again, would be a vehicle that would 
be coming ashore as the follow-on echelon, not the initial wave 
coming in.
    Senator Rounds. Now, this is a 1.1 variant----
    General Walsh. This would be the 1.1 variant.
    Senator Rounds. All right.
    General Walsh. Now, the other thing I would say with that 
is, because we were buying a nondevelopmental capability, that 
we put on the requirement that the vehicle would just be a 
shore-to-shore capability, because that's what the companies 
really had--you know, had been designing for. What we hope to 
see as we get these 32 EMD vehicles and get out there and start 
working with them, getting them with our marines, and getting 
them in the operating environment, we think they're probably 
going to do a lot better than just shore-to-shore. So, not for 
a requirement to meet our requirement for the 2-MEB [Marine 
Expeditionary Brigade] joint forcible entry, but, if they do 
better than that, then we're really on a good step to start 
moving for that ACV 1.2 and follow-on capabilities.
    Senator Rounds. Now, share with us a little bit about the 
1.2 and the differences between the 1.1 variant and the 1.2 
variant. Would the 1.2, under current plans, be fully 
amphibious?
    General Walsh. My feeling right now--we haven't done that 
requirements document yet. Like I said, I think we'd be 
developing those requirements documents 2018-2019, bringing the 
vehicles in probably in around 2024 or so. The intent right now 
would be, they're going to be amphibious. I think what we're 
going to be doing between now and then is working with the 1.1 
vehicle. One of the things we've got going on is working with 
the Office of Naval Research. We've gotten money into the 
program to continue to develop the--increase the speed of the 
1.1 variant to make it better, to be able to operate at sea and 
come from further distances. We think that will then roll into 
the 1.2 capabilities down the road.
    Senator Rounds. Okay. In both cases, we're not talking 
about it replacing the new variant of the AAV. Or are we?
    General Walsh. No. Those would be the--those four that we 
have--when we bring in the 1.1, they're additional 
capabilities. The 1.2 variant capabilities would then--right 
now our plan would be--those would actually be going to the 
Reserve forces as extra vehicles, again, replacing some of our 
older-model AAVs.
    Senator Rounds. What would be going to replace the older-
model AAV?
    Senator Wicker. The 1.1 or 1.2?
    General Walsh. It would be the 1.2s.
    Senator Rounds. Okay.
    General Walsh. The 1.1 right now--I'm sorry--so, the 1.1 is 
not intended to replace the AAVs from a ship-to-shore 
capability.
    Senator Rounds. Okay.
    General Walsh. It would be the 1.2 coming in to start 
bringing in that capability.
    Senator Rounds. So, you----
    General Walsh. Ship-to-shore.
    Senator Rounds. So, you would eventually have--you've got a 
vehicle right now which is being upgraded, and that is the AAV.
    General Walsh. Right.
    Senator Rounds. That's going to be the one that our marines 
are going to leave a ship and they're going to make it to shore 
on.
    Number two, you've got a 1.1 variant, which is--which will 
be a follow-on, but it will be the vehicle which will move 
marines once they are on shore. It does have a mobility or a 
connector that gets it to the shore.
    Then you've got a 1.2. A 1.2 will have full amphibious 
capabilities, or at least that's the plan. It'll come down 
later. Then which one of those three--the current AAV, the 1.1, 
or the 1.2--will then be shipped to the Reserve units?
    General Walsh. Right now, the current plan we have is, it 
would be--the 1.2s would be going into the Reserves.
    Senator Rounds. So----
    General Walsh. That's a follow-on decision, though, that 
could be changed, and it could be the 1.2s going into the 
Active Force and the AAVs going into the Reserves.
    Senator Rounds. Okay.
    Mr. Chairman, thank you.
    Senator Wicker. Thank you very much.
    Senator Rounds. That did help. Thank you.
    Senator Wicker. Vice President Kaine.
    [Laughter.]
    Senator Wicker. I'm sorry.
    Senator Kaine. Oh, boy.
    I--General Walsh, your testimony really interested me--your 
oral testimony, right at the beginning. You used a phrase--and 
I sometimes act like I know what military folks mean when they 
say things; and I'm just looking smart, and I don't really 
know. I want to make sure I understood this one. I think you 
said, as you were describing the adversarial environment that 
we may face, that adversaries will use COTs, which I think was 
commercial off-the-shelf, technologies to out-cycle our 
acquisition process. I thought that was an interesting phrase. 
So, what I thought you probably meant by that was that there's 
so much off-the-shelf, you know, technology that's available 
that, while we're doing an acquisition process to be really 
careful about getting 100-percent solution, our adversaries are 
able to just buy off-the-shelf 80-percent solutions and maybe 
race ahead of us, in terms of some of their capacity. Could you 
elaborate? Did I--do I interpret that right? Could you 
elaborate a little bit more on that worry and how we need to 
deal with it? Because we're going to be doing some acquisition 
reform stuff as part of the big NDAA [National Defense 
Authorization Act], and I want to make sure, if we're thinking 
about acquisition reform, we're thinking about this problem.
    General Walsh. Sure. No, I think, Senator Kaine, that it 
comes along with rapid prototyping and how we can go faster 
with our acquisition cycles and our programs. You see a lot of 
these things, like these unmanned aerial systems, which are 
commercial off-the-shops---shelf. You can go into Walmart and 
buy those things. Those kind of capabilities, we're seeing 
right now out in Syria and Iraq that are being used to target, 
you know, coalition or our own forces. So, those are the kind 
of things that are coming in very quickly.
    When I look at the marines' capabilities, when I look at 
the technology that we operate in our command operation 
centers, for example, our command operation centers are 
intense, but we're able to bring technology in very quickly. 
So, over the last 14 years, we've watched technology be brought 
into our tents and rapidly bring that capability in, where a 
young person today looking inside that tent would look at it 
and go, ``Wow, this is pretty high-tech.'' Now, go aboard our 
amphibious ships. Trying to bring that type of technology onto 
those ships that may just get a midlife upgrade, or 
periodically come in for long-term upgrades to their 
capabilities, that technology isn't flowing as fast into those 
capabilities.
    When I was flying F-18s, and I got into an F---our MiG-29 
for the first time, in the Cold War, and I looked inside at the 
technology of the MiG-29 for the first time. You know, we 
watched it turn fast, fly fast, and I was really concerned that 
this is going to be a better airplane than we had. When I got 
inside the cockpit and looked inside the cockpit and looked at 
the technology, it was something that I thought that I was 
flying back in the F-4. It was way behind, from a technology 
standpoint.
    Now as I take a look at the F-35 coming in, and looking at 
that technology, now you look at what the Chinese variant, that 
J-20 that looks very much like an F-35--on the outside, looks 
like the F-35. Is it like the MiG-29, or are they going to be 
continuing to upgrade their technology faster than we can, 
that, in 5 years from now, 10 years from now, their technology 
is better than ours, that they're able to spiral that in into 
their programs faster than we can?
    Senator Kaine. Did--anything to add, Secretary Dee? Or is--
--
    Mr. Dee. Sir, so----
    Senator Kaine. Especially in terms of advice for us as 
we're thinking about acquisition reform issues that kind of--
you know, what would you tell us to pay attention to?
    Mr. Dee. So, I believe we all need to be agile, on both 
sides of the river. We need to be able to take a look at 
decisions, decide what our requirements are, reduce the 
requirement cycle quickly. We need to look at innovative ways 
to do acquisition. We need to look at open architectures, when 
appropriate, which is not always appropriate, but when 
appropriate, so that we can quickly incorporate new 
technologies. So, that involves standards and interface 
standards, mechanical, electrical, logical interface standards 
that we need to be able to define and have access to the 
intellectual property to allow us to do that with. We need the 
agility on the funding side, as well. So, it's very difficult, 
if you're trying to incorporate a new technology, where you're 
looking at POMing [Program Objective Memorandum], programming, 
4-year requirements. We're beginning to do--we're well through 
2018 already. So, if we had a new requirement today, we'd 
really be looking at 2019. Incorporating that, getting it 
through our process within the building, within the executive 
branch, and getting it over here for execution dollars in 
fiscal year 2019. A 3-year budget cycle is not helpful for 
being agile.
    What we are doing within the Department--and the General 
alluded to it, in terms of prototyping. So, we've requested in 
2017, over here, $55 million to support our rapid prototyping 
initiative, which will be a pot of money, flexible funds that 
are not defined to any specific project, but will allow us to 
look at priorities as they evolve during the course of the 
year, and select prototyping projects that we can then give to 
the fleet, that we can allow the marines to play with, that we 
can determine the usefulness of the technologies to see if the 
requirement--if the capability that we might be able to 
prototype very quickly is good enough to meet the need for the 
General to make a decision on.
    So, there are several things we need to do to be more agile 
and be able to turn more quickly.
    Senator Kaine. Great. Thank you.
    Senator Wicker. Thank you, Senator Kaine.
    Senator Kaine. Thanks, Mr. Chair.
    Senator Wicker. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chair.
    General Walsh, thank you for your distinguished service. 
Mr. Dee, thank you also for your service.
    I want to go back to the acquisition piece. You know, I 
believe that you're doing everything you can to get the 
capabilities that you need to fulfill the requirements and take 
the fight to the bad guys. So, I want to talk a little bit more 
about the agility question, but at a--maybe a different way, 
which could be difficult for you, Mr. Dee, but it's to kind of 
put a mirror where you're standing right now and talk about 
constraints that we've placed on the process, maybe well-
intentioned at some time, but, over time, a hairball of 
constraints and requirements that--could you describe for me--
and you could pick any acquisition program you want--when I'm 
talking to the Army, I like to talk about a handgun and a 600-
page RFP [request for proposal]. In this particular case--only 
39 pages of which, by the way, are specifications--in this 
particular case, when we're talking about some of the delays 
that some of the other members have discussed, could you give 
me an idea of how much of that are changing requirement, budget 
changes over time that affect you or move things to the right 
and kind of get things out of cycle? Those are things you have 
to deal with. Factors that are largely driven by direction from 
the Congress, either constraints or other things that we should 
look at to potentially reform so that we can help you be more 
agile, get inside the decision cycles of the enemy, versus what 
we've heard here, that China could literally be to a point to 
where they could get inside our decision cycles on our joint 
strike fighter?
    Mr. Dee. Yes, sir. So, there's lots to talk about within 
that question. So, at a high level, we've had--and you have 
witnessed, and we have witnessed--difficulties over the years, 
over decades, with various acquisition programs. Generally 
speaking, each one of those has resulted in a fix being put in 
place either by ourselves through policy, through regulation 
within the FAR [Federal Acquisition Regulation], or through 
statute. So, when those get put into place in order to fix a 
problem, that generally results in additional oversight 
requirements, it generally results in additional bureaucracy, 
it generally results in additional steps that a program manager 
needs to get to, to get through, in order to be able to get to 
a decision. So, that's at a very high level.
    There's----
    Senator Tillis. Would you say that it would be common or 
uncommon, at that point in time where you find that constraint 
that's going to potentially delay--would it be common or 
uncommon for you all to come back before this body and say, 
``Change the rules so that we can be more efficient?'' Does 
that happen?
    Mr. Dee. Yes, sir, it happens every year. We submit 
legislative proposals. We sit down with your staff from----
    Senator Tillis. Does it have--I mean, is it more a 
perspective--is it something that could have a meaningful 
impact on the existing processes, or is it something so we 
continue to slide? Is there any way that we could be more 
resilient, more agile, in terms of providing relief so that the 
things that are going to slide, we get ahead of the curve, 
versus make it less worse or fix it in the future? I'm trying 
to get an idea----
    Mr. Dee. Yes, sir.
    Senator Tillis.--of how we become more resilient in the way 
that we refine the acquisition process.
    Mr. Dee. So, from my perspective, sir, generally speaking, 
the professionalism and the competencies of our program 
managers is the key. So, providing support to the acquisition 
workforce, providing folks with the authorities to run and the 
oversight to ensure that, if they run, they can be held 
accountable for things. Generally speaking, I believe less is 
better, in terms of the--whether it's statute, policy, or 
regulation that's put in place over them, but holding them 
accountable for outcomes.
    I am a fan of reducing the oversight, the regulations, but 
then holding the executors accountable, and doing that, you 
know, through the appropriate bodies, service acquisition 
executive, the defense acquisition executive----
    Senator Tillis. Well, I'd--because I want to ask a real 
brief question before I get the gavel--but I'd like to follow 
up more and maybe find some case examples that are instructive 
to us that go beyond maybe some of the requests you've made.
    General, we had a Emerging Threats committee hearing 
yesterday, and one of the things we're talking about here are 
big rocks that are going to be used for--I mean, they can be 
used for a variety of purposes, but largely to make sure that 
we can match what have been more conventional threats. What 
work are we doing, and what confidence level do you have, that 
we're also better preparing our men and women to fight the 
kinds of fights that we're seeing that are small autonomous 
units? Do we have enough attention to that, in your opinion, 
versus what we've talked about here?
    General Walsh. I think an example that would kind of maybe 
tie to that is that we are--our operating concept, 
Expeditionary Force 21, relies on distributed and dispersed 
operations. We think we can maneuver to our advantage by being 
more distributed and dispersed. C2 precision fires, overhead 
situational awareness will allow us to maneuver faster than the 
enemy.
    Where I think some of this is changed, though, that I would 
tie this in, and it kind of comes back to rapid prototyping and 
how we can move faster, and that area is our aircraft. Our 
aircraft, if you--or trying to take--approach with our ground 
vehicles the same way we have with our aircraft. When we 
started getting threats on our aircraft--our helicopters, our 
fixed-wing aircraft--against infrared missiles, we quickly put 
on capabilities to defeat those type of missiles. Now we're 
seeing the threat on the ground changing, becoming a much more 
sophisticated threat on the ground. What we've continued to do 
is up-armor our capabilities on the ground, put more armor on 
them. We've got to start thinking more with the higher 
technology capability, with vehicle protective systems, active 
protective systems that can defeat anti-guided tank munitions, 
RPGs [rocket-propelled grenades], top-down capabilities that 
we're seeing from threats on our vehicles, along with soft 
capability, which is the technology our aircraft have. We have 
both hard and soft kill on our aircraft. We need that same type 
of technology on our vehicles. As you project where the threat 
is going, that's where we've got to move quicker in that area 
with our vehicles.
    Talking about the rapid prototyping that Mr. Dee talked 
about is--it could take us a long time to develop active 
protection systems on our vehicles. We could be here for a long 
time. The threat continues to move ahead of us. So, we're 
working very closely with the Army to develop active protection 
systems. We're going to go out and try to buy or lease some 
trophy systems that are out there, working with the Army, and 
we're going to put those on our M1A1 tanks. Take that, use it, 
see how it works. As the Army is doing the same thing on their 
Stryker and M1A2s, use that and see how it works. Learn from 
that and then see whether we buy that or buy something else, 
but at least we learn from it, rather than slowly developing a 
program over time.
    I think that technology, just like on the aircraft--we saw 
our aircraft and helos getting shot down in Iraq and 
Afghanistan. We're going to have the same problem if we don't 
get our--you know, out in front of this technology on the 
ground side also.
    Senator Wicker. Thank you, Senator Tillis.
    Senator King.
    Senator King. Thank you.
    I've never heard ``agile'' used so much in a hearing 
before, and I can't help but be reminded of my high school 
football coach, who said he wanted us to be agile, mobile, and 
hostile.
    [Laughter.]
    Senator King. Maybe that's a good motto for what we're 
talking about today.
    A couple of, just, short questions. I noticed the light 
tactical vehicle is joint. I presume that means you're working 
with the Army on that? That's----
    Mr. Dee. Yes, sir. In fact, the Army is the lead service on 
the JLTV.
    Senator King. Okay. So--and, I mean, that's something, I 
think, that's very important. I'm glad that's happening. We 
can't be developing slightly different versions of the same 
weapon systems as between the services. That's a plus.
    Now, a dumb question about the ACV and the AAV. What's the 
difference? They look the same to me. They look pretty close. 
You said you're upgrading the AAV, and it's going to have 
greater capability. What is the ACV going to have that the AAV 
doesn't have? One has treads, and the other has----
    Mr. Dee. Yes, sir. One has treads. The other is wheels. One 
is--well, it's 40 years old, but it was really built with that 
seagoing requirement in mind. It's--beyond being an old vehicle 
and being difficult to maintain and such, it doesn't have the 
mobility characteristics ashore, or the efficiency ashore, or 
the protection level ashore, specifically for underbelly 
protection and things like RPGs and----
    Senator King. Basically, the ACV is an--is an upgraded 
version of the----
    Mr. Dee. Well, the ACV, the requirement that we're meeting 
with the ACV is really for the ground mobility more than the 
water mobility capability. It's focused on ground maneuver more 
so than it is on amphibious capability at the moment. It 
provides a very much improved protection level for the 
operators.
    Senator King. The idea is that the AAV will be used to get 
the marines ashore. Would they then transfer into the other 
vehicle and----
    Mr. Dee. Sir, if I can----
    Senator King.--go from there?
    Mr. Dee. I'll ask the General to correct me, here.
    Senator King. I know you've been over this, I'm sorry, 
but----
    Mr. Dee. To try to explain it a different way. There's--we 
have a requirement for 10 battalions of lift----
    Senator King. Right.
    Mr. Dee.--right?--at the moment. All of those, at the 
moment, are fulfilled by double-AVs, by AAVs. The plan for the 
future is, we're upgrading four battalions worth of double-AVs, 
392 vehicles, as the General discussed, to meet four of the 10 
requirements. The ACV 1.1 is going to provide lift and follow-
on echelon for two battalions of lift. The ACV 1.2, when that 
comes about, is going to provide four, so it's going to 
replace----
    Senator King. It's a phased----
    Mr. Dee. It's a phased replacement plan. Ultimately, 
leading into--currently within the strategy, leading into the 
2030s, we have four battalions' worth of double-AV with the 
survivability upgrades, and we have six battalions of AAV 1.1 
and 1.2. A decision down the road, in the 2020s, is, When do we 
replace those four battalions' worth of double-AVs? That 
depends largely on the outcome of the capabilities that we 
develop in ACV 1.1 and what we're calling--in 1.2--and what 
we're calling 2.0, looking at future capabilities in the 
requirements perhaps for high water speed or other additional 
capabilities that will allow us to replace those last four 
battalions.
    Senator King. Okay. To move from the particular to the more 
general. You mentioned the 2020s. We had a hearing the other 
day on the Navy. We've got a bulge of acquisition coming. It's 
the pig in the python. It's the Ohio-class submarine, it's the 
Long-Range Strike Bomber [LRS-B], nuclear modernization, 
deployment of the F-35--are all hitting at the same time. The 
procurement, just the Ohio-class, as I recall, Mr. Chairman, 
adds something like 6 billion a year to the acquisition budget 
during this period of the late teens into the 2020s. That means 
we've really got to think hard about, (a) what we're procuring, 
and (b) how we're doing it. I think Senator Kaine mentioned 
something about 80-percent solutions. I mean, we've really got 
to think about, How do we get at--and I'm worried, not only 
about the price part, but about the timing part. It--we've got 
to be able to do these things more quickly. We want you to help 
us. You don't have to do it now, for the record or--we are 
going to be doing something about procurement reform in this 
bill. The Chairman--Chairman McCain has made it clear that 
that's something he's interested in. Now is the time for you 
guys that are doing this on a daily basis to tell us how we 
could improve this system, both in terms of how--what we do and 
in terms of how the whole system works. Because we've got to be 
able--we're facing a really serious crunch when the Ohio 
nuclear--the Ohio, the nuclear modernization, and the Long-
Range Strike Bomber come into the budget cycle, and we don't 
want the Marine Corps to be left behind. You're one part of 
this procurement process. To the extent you can write us an 
essay on--If you started with a blank sheet of paper, how would 
you design the weapons procurement system? I think that would 
be very helpful. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Well, if you'd like to start, we'll leave 
the record open for a few days, and you can start on that 
essay.
    [Laughter.]
    Senator Wicker. Because Senator King has opened a very 
important subject.
    [The information referred to follows]:

Introduction:
    Although starting with a ``blank sheet of paper'' and redesigning 
and implementing an entirely new acquisition system is not practicable, 
any attempt to reform the system must begin with an acknowledgement 
that circumstances change. Rarely do requirements, technology, or 
adversaries remain static throughout the course of an acquisition 
program. Threats change. Technology advances.
    Our acquisition system, and the authorizations and appropriations 
that enable it, must be agile enough to move at the pace of change 
being experienced by the world in the 21st century. If it cannot, the 
comparative advantage held by the US military will diminish relative to 
that which we've held since the end of the cold war.
    We cannot legislate or regulate agility. The success of our system 
is dependent on the knowledge, experience, initiative and leadership of 
the people who work within it. As in any large bureaucracy governed by 
strict laws, regulation and policy, we have created of culture of 
compliance within our acquisition system. Further efforts at reform 
should create an environment that rewards outcomes--not compliance with 
process. Successful reform efforts will lead to a culture of initiative 
and innovation that delivers the right capability at the right time and 
within affordable limits.
Acquisition Reform:
    Since the establishment of the Department of Defense (DOD) in 1947 
there has been a persistent perception that the defense acquisition 
process is broken and urgently in need of repair.
    Despite having a defense budget larger than the next seven 
countries combined (down from 2003 when our defense budget was larger 
than the next 13 countries combined) we cannot assume that our wealth 
advantage will sustain our military advantage indefinitely. DOD funding 
levels will remain constrained as the Nation continues to cope with 
budget pressures, and we must ensure that our investment dollars enable 
successful acquisition outcomes and deliver needed capability in a 
timely fashion.
    While the equipment and systems used by the US Military are the 
envy of the world, over the years well publicized failures of the DOD 
acquisition system, combined with its massive budget, have fueled an 
increasingly frustrated appetite for effective and enduring acquisition 
reform. Given the enormous size and complexity of the DOD as an 
organization, the budgets it executes, the systems it develops, and the 
statutes, regulations, policies, processes and cultures that govern it, 
the potential to make improvements and find efficiencies may seem 
boundless.
    The DOD History website (http://history.defense.gov/) hosts a 2011 
publication by J. Ronald Fox: Defense Acquisition Reform 1960-2009 : An 
Elusive Goal. Mr. Fox highlights that between 1960 and 2009, more than 
27 major studies of defense acquisition were commissioned by various 
institutions--exclusive of the many reviews directed by Congress and 
its supporting offices (GAO, CRS, etc.). Over the years, corrective 
actions that were informed by the conclusions of these studies--and by 
anecdote--were implemented to improve oversight and preclude the 
repetition of mistakes. These actions have resulted in the thousands of 
pages of statute, regulation and policy which govern our Defense 
Acquisition System (DAS) today. The unintended consequence of this 
accumulation of governance has been to create a culture where 
compliance with guidance is rewarded and innovative processes that 
deviate from established processes are discouraged.
    Major acquisition reform efforts have continued through today, and 
recent National Defense Authorization Acts (NDAAs) have routinely 
included provisions intended to improve the execution and oversight of 
acquisition efforts.
    Most recently, Section 809 of the fiscal year 2016 NDAA implicitly 
recognized the burden placed on DOD by reams of compliance standards 
and directed the Secretary of Defense to establish an advisory panel on 
streamlining acquisition regulations. Within two years the panel shall 
review and provide a report on ``the history of each current 
acquisition regulation and make recommendation as to whether the 
regulation and related law (if applicable) should be retained, 
modified, or repealed'' and to provide such additional recommendations 
for legislation as the panel considers appropriate.
    The Section 809 panel is only one of 14 sections within the fiscal 
year 2016 NDAA that directs the Department to conduct a study, a review 
or an analysis of some aspect of the DAS. Despite the significant 
changes made in the fiscal year 2016 NDAA and the many studies it 
directs, major reforms are again included in both the House and Senate 
versions of the fiscal year 2017 NDAA ranging from expanded reporting 
requirements to a reorganization of OSD.
    The demand for action to fix a perceived broken system has led to 
``concurrency'' in our reform efforts. Just as beginning production on 
a new weapon system before the design is complete introduces risk to 
the program, risk is similarly introduced to the success of reform 
efforts by continually implementing corrective changes to the 
acquisition system before the effect of previous changes can be 
observed and assessed. Rather than speeding our acquisition reform 
efforts, we are continually confounding them by introducing new reforms 
before the effect of earlier reforms can be observed. To analogize Col 
Boyd's OODA loop, we are disrupting our own acquisition reform decision 
cycle by deciding and acting, without the requisite orienting and 
observing. As the former Vice Chairman of the Joint Chiefs of Staff, 
ADM Sandy Winnefeld, testified before the House Armed Services 
Committee on 3 February 2016, ``I think we should be mindful of the 
fact that it takes a while to see the effects of change in this 
business... We should take a deep, though very watchful breath, and let 
the good work of the past few years in reforming acquisition take 
effect.''
Compliance vs Innovation:
    The Defense Acquisition System as we know it today is designed to 
minimize risk through the imposition of meticulous documentation 
requirements with many layers of oversight, both within the DOD and by 
the Congressional Defense Committees.
    Management theory tells us that ``you get what you measure''. In 
choosing what to measure however, we implicitly prioritize what's 
important. In prescribing detailed process and reporting requirements 
along with expanded oversight we reinforce a culture of compliance.
    Acquisition risk is typically measured in terms of ``cost, 
schedule, and performance'', where cost and schedule are measured 
against the originally approved acquisition program baseline and 
performance is measured against the parameters specified in the 
approved requirements documents. The imperative for change to the 
acquisition system, however, is no longer driven by the need to remain 
within those parameters, but rather by the risk of losing our military 
superiority. In today's era DOD no longer holds a monopoly on 
technological innovation and commercial enterprise is at the cutting 
edge of many critical technologies. The world communicates through open 
and largely unregulated global information networks in which not only 
social content is available, but detailed technical data is globally 
shared--either voluntarily or nefariously--with both friends and 
adversaries. In this environment, a defense acquisition system designed 
to reward compliance with process while minimizing program risk now 
struggles with the imperative to become innovative and agile. Success 
of our acquisition system must now be measured by the level of agility 
the system demonstrates to respond to accelerating threat cycles and 
technology opportunities.
    To transition from a defense acquisition mindset that rewards 
compliance to one that permits agility and innovation, we may need to 
accept more potential risk in our traditional acquisition parameters 
(cost, schedule, performance) in order to reduce the risk of losing our 
military advantage. The correct balance of risk however, is not to be 
found solely within the traditional acquisition parameters, but among 
the three main elements of capability development: (1) deciding what 
you need (requirements); (2) providing adequate and stable resources to 
develop and procure it (programming and budgeting); and (3) executing a 
sound strategy to acquire and sustain it (acquisition). Collectively, 
the requirements system (JCIDS), the Planning, Programming, Budgeting, 
and Execution System (PPBES), and the Defense Acquisition System (DAS) 
are known as ``Big A'' acquisition. Any comprehensive proposal to 
reform the acquisition system must be a collaboration of all three 
elements of the Big ``A''. If we only needed to address the DAS itself, 
USD AT&L's Better Buying Power initiative would provide an ample guide 
with which to improve the system.
Principles for 21st Century Acquisition:
    While it's not possible in this paper to review every statute and 
regulation that governs the acquisition system (that is the charge of 
the Section 809 panel), it is possible to suggest some broad principles 
from which to consider future reforms.
    People: The foundation of an agile and innovative acquisition 
system is the people that operate that system. Whether in the 
requirements community, the programming and budgeting community or the 
acquisition community, it is the knowledge, experience and wisdom of 
people--not rigidity of process--which will enable successful 
acquisition outcomes. A successful acquisition system will be one that 
empowers leaders and holds them accountable for outcomes, not process. 
Any reform efforts must begin with the question as to whether the 
statutes, regulations, and policies that govern the system create an 
environment that encourages and rewards initiative, innovation, and 
leadership, or whether they discourage those traits through the 
bureaucratic imposition of process oversight.
    Increased flexibility in hiring, retention incentives, and 
educational opportunities will all help to attract and retain a 
professional workforce. The most powerful incentive to our workforce, 
however, will be the removal of bureaucratic barriers and the 
establishment of a culture that tolerates risk and rewards innovation.
    JCIDS: Perhaps the most important element of ``Big A'' is the 
requirement. We consistently emphasize the need to ``get the 
requirements right'' and achieve requirements stability throughout the 
program. The rapid pace of change, however, makes it increasingly 
difficult to predict at the inception of a program what that 
requirement should ultimately be when the system is fielded and through 
the life of the program.
    Requirements need not be fully mature prior to initiating action. 
Requirements processes--and the associated cost, schedule, and 
performance parameters--should allow sufficient flexibility for 
performance specifications to evolve as knowledge is gained throughout 
the project. A major improvement to the requirements leg of Big ``A'' 
would be to enable greater use of prototyping, demonstrations, and 
experimentation in order to accelerate and inform concepts and 
requirements development, and to enable thoughtful cost, schedule, and 
performance tradeoffs before the initiation of a program of record.
    Schedule matters. The longer a new capability takes to design, 
develop, manufacture, and field, the more likely it is that the program 
will face obsolescence issues and that competitors will find asymmetric 
means to mitigate our advantage. Requirements need to be informed not 
only by the operational capability gap and the programmatic risk, but 
also in recognition of the temporal nature of the requirement. 
Requirements should specify not only what capability is needed, but 
when it is needed.
    Requirements should define the sufficient capability--but not 
necessarily the best capability--necessary to deliver the desired 
effect on the relevant timeline to maintain our advantage and deter 
competitors. What is ``good enough'' to meet today's threat may not be 
good enough to meet tomorrow's. The commercial market cannot always be 
expected to anticipate and provide sufficient capabilities and the 
system must allow the time and funding for investment in higher risk 
and longer term development efforts.
    PPBES: The second leg of Big ``A'', budget, is understandably 
rigid. On behalf of the taxpayer, Congress demands full oversight of 
the dollars the Department is spending and our Financial Management 
Regulation is designed to enable that oversight. Budgets are prepared 
two years prior to the intended execution year, lacking knowledge of 
future changes to the threat or of new technology opportunities, and 
with limited ability to reprogram dollars within the execution year to 
adjust to new circumstances. Programs are held to strict obligation and 
execution benchmarks with under execution--regardless of the cause--
placing future funding at risk. This challenge has been exacerbated in 
recent years with ``Continuing Resolutions'' delaying funds until later 
in the year further challenging funding execution rates, and with the 
use of overseas contingency funds (OCO) further limiting funding 
stability.
    The rigidity of the funding process also precludes a healthy 
prototyping, demonstration and experimentation effort which further 
challenges the ability to ``get the requirements right'' before 
initiation of a program. The Department's Research and Development 
funds are requested, authorized, and appropriated for specific 
programs. The Congress must develop an appetite to accept some level of 
risk in authorizing and appropriating funds that are not tied to a 
predetermined acquisition program in order to enable the prototyping 
and experimentation that will improve our concept and requirements 
development and, subsequently, our acquisition effectiveness.
    DAS: The acquisition process itself is not broken. It has produced 
the most capable and reliable weapon systems known to man. It is, 
however, inhibited by a culture that sometimes rewards compliance over 
outcome and by a constantly shifting governance environment fueled by 
continual efforts at reform.
    As we move through the 21st century, the acquisition professional 
will be faced with an increasingly complex environment. The pace of 
technology change will lead to expectations that military requirements 
can be satisfied rapidly and cheaply. At the same time, we will be 
striving to maintain an edge over those same commercial technologies 
that are ubiquitously available to our potential adversaries. Our most 
advanced and complex systems will continue to take a decade or more of 
development before fielding, making the need to ``get the requirement 
right'' all the more pressing. We will continue to minimize our 
vulnerabilities to cyber-intrusions and counterfeits. As the service 
life of major military equipment is extended to 30+ years, readiness 
challenges will compound and life cycle sustainment considerations--to 
include obsolescence planning and intellectual property strategies--
will become ever more important. The nature of the US industrial base 
will continue its tendency towards services and away from 
manufacturing, and the acquisition community will be challenged to 
maintain a competitive environment that will enable innovation and 
affordability into the next century.
    These are significant challenges for defense acquisition, but the 
system doesn't need to be reformed in order to meet the challenges. The 
acquisition process as it currently exists can meet all of the 
challenges outlined above. Over the past 15 years at war we have 
demonstrated that when urgency dictates, we can work within the current 
system and tailor our processes to balance risk with urgency and to 
align resources with priorities. The key to ensuring the continued 
success of acquisition outcomes is not more law or regulation, but to 
empower our acquisition leaders and hold them accountable for outcomes, 
not process. Creating an environment that encourages and rewards 
initiative, innovation, and leadership should be the foundational 
principle of any reform effort.
Summary:
    The Section 809 report will provide recommendations that ``clean 
sheet'' acquisition regulations and statutes. We should exercise 
patience in awaiting that report. In the interim, we should acknowledge 
that from Silicon Valley, to DARPA, to the Pentagon, and to our Warfare 
Centers, Labs, and Program Offices, people thrive in environments that 
encourage their initiative and measure their outcomes, not process.
    Acquisition is not a mechanical activity, but a human activity. Its 
success cannot be reduced to a compendium of statutes and regulations. 
It is a collaborative effort between people from the requirements, 
budget, and acquisition communities. Any effort to reform the system 
must include all elements of the Big ``A'' system. Risks must be 
communicated and understood by all stakeholders, tradeoffs made, 
timelines determined, requirements defined and programs expertly 
managed by the offices charged with project execution.
    In seeking to improve our acquisition outcomes, we must acknowledge 
that circumstances will change and that our acquisition programs need 
to have the agility to change with them. That agility will come from 
our ability to innovate, the foundation of which is our human capital 
whose initiative and professionalism must continue to be cultivated.

    Senator Wicker. Let me just conclude, here, on behalf of my 
Ranking Member and me.
    Tell us about Asia-Pacific rebalance. Specifically, the 
Marine Air/Ground Task Force operating from Darwin, Australia, 
and the plans for additional force in Guam, and touch on the 
marine air/ground task force at--rotational, the idea of a 
rotational 2500-person presence.
    General?
    General Walsh. The 2500-person presence, Chairman, in 
Darwin, the one in----
    Senator Wicker. Right, in Australia, yeah.
    General Walsh.--in Australia, all right. We're still 
building up towards that 2500 number in Australia. All part of 
the--our reposturing or rebalancing to the Pacific as we move 
forces around. I think, you know, in past years, we've been 
focused very much on the Korea and--Peninsula forces up in 
Japan. With that rebalance moving forwards under DPRI [Defense 
Policy Review Initiative] down towards Guam is part of that, 
and we're in the middle of that transition, or start--I 
shouldn't say in the middle, but progressing along that 
timeline to move our forces to Guam, some of them from Japan.
    The other piece is--as we look at that landscape of where 
we need to be, one of the pieces was trying to put more 
presence down further south. You're seeing us do more training 
exercises with countries, you know, down--like the Philippines, 
down in that area. Part of it also is with our--building our 
partnership, or continuing our partnership, with the 
Australians, down in that part. All part of the Pacific, all 
part of being in different areas and trying to get presence in 
different locations throughout the area operations.
    Senator Wicker. What about that timeline? Could you be a 
little more specific? You say we're really more toward the 
beginning of that----
    General Walsh. I would say probably in the Guam part. You 
know, we're still in the early stages----
    Senator Wicker. What are the specifics----
    General Walsh.--of the DPRI piece that we're still--I mean, 
some of these pieces are some of the things that are still 
being negotiated with the Government of Japan as part of the 
Futenma rule, a placement facility, moving some of our forces 
off of Okinawa to be able to reposition some of those forces 
down towards Guam. Some of those decisions are still going on 
with negotiations with the Government of Japan. With that 
replacement facility from Futenma, that's a player in some of 
these pieces of moving the forces down to Guam. I think we're 
on track, on schedule. I'd have to get back with you on the 
exact----
    Senator Wicker. Well, just put that----
    General Walsh.--schedule that we're doing.
    Senator Wicker.--on the record. That'll be great.
    [The information referred to follows:]

    The rebalance to Asia and the Pacific remains a priority for the 
Marines. Some of the more visible manifestations of our efforts include 
our rotational presence in Darwin, Australia and our continuing efforts 
to relocate 85,000 marines to Guam, 84,100 of coming from Okinawa.
    The Marine Rotational Force--Darwin (MRF-D), is deploying now on 
its fifth rotation with 81,250 marines including 4 x UH-1Y helicopters. 
Our goal for the MRF-D remains a MAGTF of up to 2,500 marines. 
Achieving that size depends on several variables including force 
availability and cost-share negotiations with Australia the results of 
which will help us understand the total cost for that force going 
forward.
    In Guam we are building facilities to support aviation training on 
the north ramp of Anderson AFB and preparing to award a contract for 
the initial construction of the future Marine Corps Base Guam (MCBG). 
The next project will be ranges at AAFB northwest field and should 
award in the fall. While we anticipate awarding these contracts in June 
and September respectively, we are awaiting a Biological Opinion (BO) 
from US Fish and Wildlife Service (USFWS) before initiating 
construction that would disturb raw land on Guam. We are working 
diligently with USFWS and our partners from DoN to achieve a BO that 
supports our efforts. Our plans support the initial force flow from 
Okinawa to Guam in 2022.
    The Futenma Replacement Facility (FRF) has been in the news quite a 
bit recently due to the cessation of construction on the 4th of March. 
The policy of the US has not changed; the FRF is the only solution for 
moving marines out of Futenma and ultimately closing the facility and 
returning the land to Japan. Since 2012 our efforts in Guam have not 
been linked to progress on the FRF, so we will continue our work in 
Guam despite this delay at Camp Schwab. The agreement allows for our 
continued operation of MCAS Futenma until the replacement facility is 
operational, and that too has not changed.
    A related but separate program is the consolidation of the USMC 
footprint on Okinawa and the return of land to the Government of Japan. 
Despite it being a separate program from the Camp Schwab 
reconfiguration (FRF), it is related and in many cases sequential due 
to the fact that several units will be consolidating to the FRF. The 
FRF and Guam buildouts must be completed in order to execute the 
consolidation plan. We had planned on updating the most recent OkiCon 
plan this spring, but the cessation of the construction at Camp Schwab 
and unknowns associated with the FRF and Guam have delayed that effort. 
We are now planning on convening the update planning process with our 
Japanese partners towards the end of the summer.
    When we talk about this rebalance, the focus tends to be on our 
alliance with Japan and actions affecting Okinawa in particular. 
However, we also like to discuss the MCAS Iwakuni transformation that 
has been going on for the better part of a decade. This project has 
been a model of success in working with the Japanese, both the central 
government and the local population. We have already relocated VMGR-152 
from MCAS Futenma to MCAS Iwakuni (in the summer of 2014). We are on-
track to receive CVW-5 in 2017, consistent with bilateral agreed 
timelines. Iwakuni is also scheduled to receive the first permanent 
overseas basing of the F-35B Joint Strike Fighter early in 2017.

    Senator Wicker. Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chair.
    I actually want to follow up on--General, good to see you, 
sir--and follow up on some of the questions that we were asking 
just on timeline on the rebalance. First--and I apologize if 
it's already been asked--but, you know how the--the 
redeployment of marines from Okinawa to Guam, to Hawaii, to 
Australia has a dispersal effect, as you know, General, in 
terms of dispersing the forces throughout the Asia-Pacific, but 
it's also a big Asia-Pacific theater. I know that the PACOM 
[United States Pacific Command] commander has testified to 
this, but are there concerns that our strategic lift 
capabilities are not, kind of, in line with what our strategic 
needs are? Meaning, as we look at moving marines throughout the 
Asia-Pacific, out of Okinawa, that we lack the strategic lift 
capability to respond to a crisis in a moment's notice, which 
is what the Marines are known for throughout their history, in 
a way that we have the ability to do that, whether it's with 
shipping, whether it's with, you know, C-17s? Does the Marine 
Corps remain concerned about this issue that the PACOM 
commander has indicated is a strategic issue we need to be 
concerned about? Then, how do we address it?
    General Walsh. I think--you know, I think the Pacific area 
of responsibility--it's obviously a--it's a big area. It's a 
maritime area. Strategic lift, when you get in an area like 
that, that's--it's so wide and so spread out, as it is--
strategic lift is going to be a critical thing to be able to 
conduct the operations that go on.
    I think, from an amphibious shipping standpoint, obviously 
we've got our requirement for 38 ships. Right now we're at 30. 
We're on a plan to start building back up to that capability. I 
think, as long as we keep the shipbuilding plan that we're on, 
with our LHA-7 and -8, and continuing the LHA [Landing 
Helicopter Assault Ship] program along with the LX(R) 
[amphibious ship] replacement program, we're going to be on a 
good track on our amphibious ships.
    Now, to be able to meet the COCOM [combatant command] 
demand, we know that number is much higher than the 38 
requirement we have. I think building towards that amphibious 
warship capability, we're on a path to do that in the 30-year 
shipbuilding plan.
    From a--from the other asset strategic lift that we've got, 
we've got Diego Garcia in Guam, our two maritime pre-
positioning squadrons, which each have seven ships in there. 
One of the things--ships that were just added was the John 
Glenn and the Montford Point, which are new MLPs, which add 
capability into those maritime pre-positioning squadrons. From 
a pre-positioning ship squadron to be able to get those follow-
on forces in after the assault echelon goes in, which we talked 
about on the amphibs, we've got that capability. I think 
we've--always going to have a struggle ensuring that we've got 
enough of the aircraft lift to be able to move strategic forces 
around, because that's a competition that we'd have to be 
competing with COCOM demands to be able to get other forces 
like the Army or the Air Force into theater.
    Senator Sullivan. Let me ask another question that relates, 
not to strategic lift, but to training opportunities. As you 
know, General, on Okinawa, the training is limited for infantry 
units and--can you even do indirect fire there? I don't think--
can you do 81s or artillery there? I think it's still limited.
    General Walsh. On the artillery side, I'll have to get back 
to you on mortars or 81 millimeter mortars, specifically. We'll 
take that for the record.
    [The information referred to follows:]

    Marine units can fire 60mm and 81mm mortars into the Central 
Training Area on Okinawa. The firing of artillery on Okinawa was moved 
to the Fuji Maneuver Area (FMA) on mainland Japan under an agreement 
with the Government of Japan. The FMA is located near Mount Fuji, 
Japan, and is a training facility jointly used by the Japanese Ground 
Self Defense Force (JGSDF) and U.S. forces. Marine Corps Camp Fuji is 
administered and maintained by the JGSDF. The Marine Corps coordinates 
the use of ranges and training in the FMA by Marine Expeditionary Force 
units stationed in Japan (including Okinawa) and units deployed to the 
Western Pacific.

    General Walsh. Artillery, we're not able to conduct 
artillery on island, like in years past where we were able----
    Senator Sullivan. Okinawa's limited. How about the training 
opportunities in the CNMI [Companion Wealth of the Northern 
Manana Islands] and/or Guam? It--I was in Guam last year, and 
did not make it out to some of the islands, but are there 
concerns that--it's Okinawa, it's Guam, it's CNMI. I even think 
there are some training limitations with regard to the 
deployments to Hawaii. Obviously, Australia seems to be much 
more open, like CACs [Combined Arms Companies] or Twentynine 
Palms. Are you concerned about--we're going to redeploy these 
marines to different parts of the Asia-Pacific, and yet the 
limitations that were some of the concerns that we had in 
Okinawa, in terms of serious infantry combined-arms training, 
we're going to have limits in the next places we go to? If 
that's the case, what should we--should we be looking at other 
places, where the training is wide-open, serious, no-
limitations, all combined-arms capabilities, including close 
air support? Do you have concerns about that?
    General Walsh. I think the Pacific Commander and also 
General Toolan, our Marine Forces Pacific Commander, they're 
always working those opportunities into the theater security 
cooperation engagement plan. I think there's a balance of 
training and getting the most focus on the best training you 
can get, along with building partnerships and alliances in 
working with our allies. I think part of that is--if I focus 
specifically on the Guam piece, I think our training plan--
we've got some training on-island at Guam, but we've also got 
capabilities that we're building into Tinian and building up 
some capabilities there.
    Senator Sullivan. Are those--I mean, have we nailed those 
down yet? It seems like we're always in negotiation with the 
island governments on additional training that--I know, talking 
to some of the officers who have been working that, it seems to 
be an--kind of a continuing source of frustration.
    General Walsh. I think we're working through that. I know 
the Commandant testified, just recently, on--one of the things 
we've got to ensure is--as we build up Tinian, is a training 
location. We've got to be able to get our marines from Guam to 
Tinian--is going to be a challenge that we've got to do. We 
talked about Australia, though, is the marine rotational force 
Darwin to be able to move forces in there, not only build 
partnership and alliances with our Australian partners, but a 
very good training area that we've got, along with our 
Australian partners there.
    I think the more exercises, the more opportunities, working 
with other allies and partners over there, it gives us more 
training opportunities. One of the reasons is, marines like to 
get off-island in Okinawa, to be able to go other places, 
because a lot of the training opportunities exist in other 
places we go. Why they like to deploy up to Korea, there's a 
lot of good ground training capabilities we get there. We get 
those--the amphibious exercises there, which provide us a lot 
of the training capabilities.
    I think they're out there, and you have to balance where 
you go along with continuing to work with allies and partners 
so you can continue to make those relationships. Sometimes you 
are making some trades on the training to be able to build 
those partnerships and alliances.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Sullivan.
    Senator Hirono.
    Senator Hirono. Just one short followup regarding the 
movement of our marines out of Okinawa. There are a lot of 
moving parts to that movement. Right now, I know that there is 
a delay, probably a rather substantial delay, in moving our 
troops out of Futenma into Henoko. At the same time, we are 
doing what we need to be doing with regard to Guam and--and we 
do need to figure out the training that we're going to do in 
CNMI.
    My question--clarification, General, is that--as long as we 
are not able to build the facility in Henoko, we will--our--the 
remaining marines will still be in Futenma. Is that your 
understanding?
    General Walsh. The intent, Senator Hirono, is to move those 
marines from Futenma up to Henoko in the Futenma replacement 
facility. What I understand is, the Okinawa Governor has 
brought a protest against----
    Senator Hirono. Yes.
    General Walsh.--that, in negotiating with the Japanese 
Government. Until that's cleared, we really, obviously, can't 
get the construction going to be able to build the facility 
that would allow us to move from Futenma up there to the 
facility that we're looking to build as an offshore facility up 
there to replace the Futenma location.
    Senator Hirono. Everybody understands, including the 
Governor of Okinawa, that if we can't build the facility in 
Henoko, we will be in Futenma.
    General Walsh. That's been the position of the Government, 
is--we will stay there until we can solve that solution, ma'am.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Has construction or site preparation 
completely halted because of the protest?
    General Walsh. I'll have to get back with a specific 
answer, Mr. Chairman, but I believe it has stopped while the 
protests have been ongoing.
    [The information referred to follows:]

    Complete cessation of all construction did not occur until the 
Government of Japan (GOJ) agreed to an out-of-court settlement with the 
Okinawan Prefectural Government (OPG) on 4 March 2016. Though the out-
of-court settlement only addressed construction within areas of Camp 
Schwab covered by the land fill permit, GOJ voluntarily suspended all 
construction activities aboard the camp. As such, the current halt in 
construction is not due to protest activities, but rather the ongoing 
legal actions between GOJ and OPG, and the efforts to bring them to 
resolution.

    Senator Wicker. Thank you.
    Well, listen, it's been a great hearing. We appreciate your 
service, as all members have said. We appreciate you being 
patient with us on our questions today.
    Without objection, we'll leave the record open for other 
questions for the record for 5 days.
    If there's nothing further, this hearing is closed.
    [Whereupon, at 3:15 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Roger Wicker
                   operating environment and concepts
    1. Senator Wicker. As you look at the future operating environment, 
conduct exercises, and set requirements for future systems, to what 
extent are you assuming air superiority, close and unopposed access to 
the beach, and uninterrupted communications and satellite access?
    General Walsh. The Marine Corps makes no assumption of air 
superiority, close/unopposed beach access, or uninterrupted 
communications and satellite access in the future operating 
environment. Potential peer and near-peer adversaries already possess 
significant capabilities in integrated air defense systems (IADS), 
anti-access/area denial (A2AD), and technology denial. With 
proliferation of these technologies, the threat in these areas will 
continue to expand beyond what would traditionally be considered 
``peer'' competitors, to encompass a broad range of potential 
adversaries around the world. The scope and scale of the future threat 
is described in detail by the Marine Corps Intelligence Activity in its 
publication 2015-2025 Future Operating Environment: Implications for 
Marines (MCIA, 2015, classified SECRET//REL USA, FVEY). Future sea and 
airspace, as well as the electromagnetic spectrum and cyber domain, 
will be contested by the adversary as the new norm in 21st century 
military conflict. This fact must drive the future design of our force 
across the full range of Doctrine, Organization, Training, Materiel, 
Leadership & Education, Personnel, and Facilities (DOTMLPF) so that we 
train our people and allocate limited resources efficiently towards 
development of a force that remains competitive in a highly contested 
future operating environment.

    2. Senator Wicker. Last year General Neller ordered the Marine 
Corps to examine the future of the Marine Air-Ground Task Force (MAGTF) 
called ``Force 2025,'' with two teams developing an ``evolutionary'' 
approach and a ``revolutionary'' approach that will be briefed to the 
Commandant this month. How might these approaches impact Marine ground 
modernization priorities? How could modernization priorities change?
    General Walsh. The ``evolutionary'' and ``revolutionary'' force 
design approaches were used in the Force 2025 process to develop two 
courses of action for consideration by the Commandant. Force 2025 is 
moving forward with examination of how to build a force, within 
directed resource constraints, which balances proven existing 
capabilities with the requirement for new capabilities to address the 
demands of the future operating environment. Force 2025 produced two 
alternate courses of action for consideration by the Commandant of the 
Marine Corps; these will be wargamed in June 2016 and assessed against 
a peer competitor. The outputs of the wargame will provide the 
Commandant and senior leadership with a greater understanding of the 
capabilities required, and ensure that the Marine Corps has sufficient 
capacity to satisfy the full range of roles and missions envisioned for 
the Service in the 21st century. The results of Force 2025 will inform 
the Marine Corps Capability Based Assessment process and drive 
requirements for future capability development. Ground modernization is 
included in consideration, but Force 2025 will drive planning for 
modernization across the Marine Corps enterprise. Priorities will 
reflect the imperative to remain competitive against a rapidly 
evolving, technology-enabled threat across the range of military 
operations, from steady state to crisis response and major combat 
operations.

    3. Senator Wicker. General Walsh, Can you explain how the Marine 
Corps will ensure that it will continue to meet its surface lift 
requirement for a two Marine Expeditionary Brigade Assault Echelon, 
within the required timelines to get ashore, while you modernize to the 
Amphibious Combat Vehicle?
    General Walsh. The assault amphibian modernization strategy is 
designed to sustain sufficient capability and capacity for the assault 
echelon of two Marine Expeditionary Brigades (MEB). Each MEB requires 
two surface infantry battalion lift equivalents (Battalion Landing 
Teams) and each of those is met with an Assault Amphibian (AA) company. 
This results in a total of four infantry battalion lift equivalents.
    Four of the Marine Corps six Active component assault amphibian 
companies will be modernized with the survivability upgraded AAV (AAV 
SU). AAV SU is intended to be the primary amphibious armored personnel 
carrier forward deployed on naval amphibious warfare ships. In time of 
war, as AAV SU equipped units aggregate into an assault echelon they 
will be reinforced with AAVs from the Maritime Prepositioning Squadrons 
(MPS) in order to provide sufficient capacity to rapidly build up 
combat power ashore. Follow-on echelons will deliver the remaining two 
Active component amphibious combat vehicle (ACV 1.1) equipped units in 
support of sustained operations ashore. In future years we will 
modernize an additional four assault amphibian companies with ACV 1.2.

    4. Senator Wicker. Can you walk the subcommittee through the Marine 
Corps concept of operations for how marines will get ashore from 
amphibious ships in the future? Please describe the roles of the Ship-
to-Shore Connectors, Landing Craft Utility, and Amphibious Combat 
Vehicles.
    General Walsh. To meet our 2.0 Marine Expeditionary Brigade (MEB) 
assault echelon requirement, the Marine Corps has family of systems 
that allow for flexible and tailored task organization when moving 
marines ashore.
    We will maintain our requirement of deploying four infantry 
battalion lift equivalents via surface assault with the Amphibious 
Assault Vehicle Survivability Upgrade (AAV SU) while also using CH-53E/
K and MV-22 vertical connectors to maneuver additional forces from 
amphibious warfare ships to objectives ashore. These self-deploying 
vehicles are complimented by the Navy's surface connectors (Landing 
Craft, Air Cushion (LCAC)/LCAC 100, Landing Craft Utility (LCU)/LCU 
1700) which allow the movement of non-amphibious assets ashore.
    Simultaneously, Marines will leverage Maritime Prepositioning Force 
(MPF) assets such as the Expeditionary Transfer Dock (T-ESD); Large, 
Medium Speed, Roll-on/Roll-off (LMSR); and Dry Cargo/Ammunition (T-AKE) 
ships to integrate marines and equipment at sea. This will reinforce 
the flow of combat power in the form of heavy combat equipment, large 
numbers of marines, and sustainment, across the shore, in follow-on 
echelons.
    For lower intensity missions (Non-combatant Evacuation, 
Humanitarian Assistance/Disaster Relief, Theater Security Cooperation, 
etc), the above mix of platforms allows the Marine Corps to employ 
tailored mission packages that exploit the complimentary capabilities 
of these assets to optimize effectiveness for the task at hand.

    5. Senator Wicker. Can you discuss the extent to which the Marine 
Corps is with experimenting with smaller and more independent units in 
a more distributed geographic manner? What is the vision for where 
these units would operate, what platforms would support them, and what 
objectives they would achieve?
    General Walsh. In order for the Marine Corps to fight successfully 
in a future operating environment where airspace, sea lines of 
communication, and the electromagnetic spectrum are highly contested, 
Marine forces must have the ability to distribute as conditions 
require, and mass at the chosen time and place when conditions are set 
to enable concentration. This concept is not new to the Marines Corps. 
These same principles were laid out in Operational Maneuver From The 
Sea and Ship To Objective Maneuver, written in early 1990s. The same 
attributes were reinforced again in the 2014 publication of 
Expeditionary Force 21. The Marine Corps recognizes that these concepts 
were valid - they were just ahead of their time.
    Given advances in technology, the Marine Corps believes that we can 
now realize these concepts. Recent experimentation has focused 
extensively on development of the Company Landing Team (CLT) as a base 
unit of employment for combat. While still subordinate to a parent 
battalion, the CLT will be enabled beyond the capabilities of a 
traditional company, allowing it to operate at extended distance from 
its parent unit for missions of limited scope and duration. New 
capabilities and skill sets will provide the CLT with the ability to 
employ organic precision fires and unmanned aerial systems (UAS) for 
both kinetic strike and battlefield situational awareness. New digital 
command and control (C2) capabilities will provide reach back to higher 
echelons for access to long range fire support, intelligence, and 
sustainment. The CLT has been the focus of experiments within a number 
of exercises, including Rim of the Pacific (RIMPAC) 2014 and the 
upcoming RIMPAC 16. The MAGTF Integrated Exercise (MIX), as part of 
RIMPAC 16 in the summer of 2016, will test the ability of a Marine 
Expeditionary Unit to project a CLT ashore for independent operations, 
while sustaining and supporting it from afloat. The construct of the 
CLT as a base unit of employment will drive future concept development 
for employment of distributed forces. Distributed operations from the 
sea and from expeditionary advance bases will enable marines in a 
contested littoral environment to conduct advance force missions to set 
conditions for the concentration and introduction of larger follow-on 
forces, both from the Marine Corps and the Joint Force.
    The Concept for Littoral Operations in a Contested Environment 
(service chief signature expected in the summer of 2016) will serve as 
a joint Navy/Marine Corps operating concept to drive further 
development and experimentation in the realm of distributed operations. 
Additionally, the Concept for Distributed Operations is being written 
to describe Marine Corps distributed operations; the circumstances that 
drive distributed operations; and implications to the Service spanning 
the range of Doctrine, Organization, Training, Materiel, Leadership and 
Education, Personnel, and Facilities (DOTMLPF).

    6. Senator Wicker. With high demand for Marine crisis response 
capabilities and the shortage of amphibious platforms, Special Purpose 
Marine Air Ground Task Forces--Crisis Response were developed in 2012. 
Can you provide the subcommittee with an update on the current role and 
future vision for these task forces? How does this focus on crisis 
response affect readiness for major contingency operations?
    General Walsh. SPMAGTF-CR-AF and SPMAGTF-CR-CC provide the AFRICOM 
and CENTCOM combatant commanders (CCDRs), respectively, a flexible 
response force with a battalion of light infantry, organic tilt-rotor 
lift, and limited sustainment capacity for rapid response to a range of 
military missions. The SPMAGTFs have the capacity to conduct low-
intensity, short or medium-duration missions (i.e., embassy 
reinforcement or small-scale Non-Combatant Evacuations (NEO)). They can 
also serve as a rapidly deployable lead echelon in support of a large 
NEO or other crisis response mission. In support of major combat 
operations, the SPMAGTFs can provide a forward deployed lead echelon 
capable of aggregating with other Marine forces and equipment from the 
Maritime Prepositioned Force (MPF) to form a composite Marine 
Expeditionary Brigade, capable of full-spectrum combat operations. The 
forward presence and inherent readiness of the SPMAGTFs can enable the 
Marine Corps to establish a rapid foothold, and shorten the lead time 
required to generate and deploy a larger force for a major contingency 
in the AFRICOM or CENTCOM AOR. In steady state operations, the SPMAGTFs 
can engage in Theater Security Cooperation missions, establishing 
enduring host nation relationships, which will facilitate access to key 
points of entry and host nation support in the event of a crisis or 
major contingency in the region. Creation of the SPMAGTFs has enhanced 
awareness within the DOD of the demand from the CCDRs for forward 
deployed forces for both steady state operations and crisis response.
    In the future, given the availability of amphibious shipping, 
moving the SPMAGTFs aboard ships would significantly improve their 
expeditionary character and provide CCDRs additional capabilities, 
flexibility, and range. Further, the Marine Corps is prepared to 
aggregate forward deployed forces, be they SPMAGTFs or Marine 
Expeditionary Units (MEU), under higher headquarters to create Marine 
Expeditionary Brigades (MEB) to respond to Major Contingency Operations 
(MCO). In this way, these forward deployed units actually enhance the 
Marine Corps' ability to meet these requirements.
                      major marine ground programs
    7. With development initiated ten years ago, the Marine Corps is 
moving forward with a long-delayed and expensive radar system, the 
Ground/Air Task-Oriented Radar or G/ATOR, which will replace a number 
of older radars and will protect marines from rockets, artillery, 
cruise missiles, and UAVs while also serving as an air traffic control 
system. Can you tell us more about why this program is essential to the 
marines' role as an expeditionary force and your acquisition strategy 
for the program?
    Mr. Dee. This program is an essential enabler and a critical 
modernization piece of the Marine Corps role as the Nation's force-in-
readiness. The G/ATOR will ultimately replace five radars, two of which 
are already obsolete. The G/ATOR is more expeditionary and provides a 
dramatic improvement in performance against smaller threats in high 
clutter environments, a capability we currently lack. Without the G/
ATOR, the Marine Corps will not have the ability to control its 
airspace as aviation threats continue to become smaller and the 
proliferation of rockets, artillery and mortars capable of exceeding 
the range of our current target acquisition capabilities become more 
common place. G/ATOR ensures Combined Force Air Component Commander/
Joint Force Air Component Commander delegation of airspace control for 
the MAGTF.
    The G/ATOR is rapidly deployable via heavy-lift helicopters, tilt-
rotor aircraft, KC-130s, or ground vehicles during the initial stages 
of operations. This system will augment sea-based air-defense sensors, 
aviation command and control, and provide invaluable indirect fire 
detection for the landing force as combat power and capability 
transitions ashore. G/ATOR will provide naval and joint forces 
expeditionary radar with a cruise missile detection capability that 
extends landward battlespace coverage. When fully fielded, the diverse 
capabilities of G/ATOR and the many warfighting functions it supports 
will make it a highly valued asset to the MAGTF commander.
    G/ATOR's expeditionary, multi-role capabilities represent the next 
generation of ground radar technology. Because of its software defined 
capabilities, it will be able to pace the threat for the foreseeable 
future. This flexibility, combined with G/ATOR's improved update rate 
and accuracy, enables G/ATOR to be a potential source for current and 
future integrated fire control concepts (i.e., this radar's data can be 
used for expanding engagement solutions from multiple sources).
    The acquisition strategy for the G/ATOR program employs an 
evolutionary approach that utilizes a common hardware suite and 
baseline software that via software block upgrades adds additional 
mission capability. The initial hardware and software baseline 
capability, defined as the Air Defense/Surveillance Radar (AD/SR) G/
ATOR Block 1 (GB1), provides capabilities in the Short Range Air 
Defense (SHORAD) and Air Surveillance mission areas. G/ATOR Block 2 
(GB2) adds software for the Ground Weapons Locating Radar (GWLR) 
capability that supports Counterfire Targeting missions utilizing the 
same common hardware and software baseline from GB1. G/ATOR Block 4 
(GB4) will provide Expeditionary Airport Surveillance and air traffic 
control capability. GB4 is a future mission capability that currently 
is not resourced in the budget.
    (Note: G/ATOR Block 3 (GB3) was previously removed from the upgrade 
strategy, and for administrative purposes GB4 was not renamed/
renumbered.)

    8. Senator Wicker. G/ATOR is a complex and multifunctional piece of 
equipment, replacing five legacy radar systems. Ultimately its 
capabilities will enable air traffic control, protect marines from 
indirect fire, and enable surveillance of UAVs and other low 
observables. Can you comment on the progress of each of these 
capabilities in testing? When do you anticipate testing in a live fire 
scenario?
    Mr. Dee. Initial G/ATOR development efforts started with 
development of the hardware solution and G/ATOR Block 1 (GB1) software. 
The hardware was designed to meet all of the requirements for all the 
missions. Development of follow-on software capability blocks resides 
on the common hardware and software baseline developed during GB1. GB1 
provides Air Defense/ Surveillance Radar (AD/SR) capability which 
supports surveillance of UAVs and other low observables. Formal live 
test events of the pre-production hardware and GB1 software started in 
4QFY 2012 and completed in 1Qfiscal year 2014. During this test period, 
G/ATOR demonstrated its ability to meet all key performance parameters. 
The G/ATOR system has been used in several exercises since then with 
performance continuing to improve. GB1 testing on the first production 
systems begins in 2QFY 2017.
    G/ATOR Block 2 provides indirect fire detection utilizing the same 
hardware and rides on the GB1 baseline software. Initial contractor 
integration testing of GB2 in October 2016 will use live rockets, 
artillery and mortars. Government testing of this capability, again 
using live rockets, artillery and mortars, will begin 4QFY 2017.
    G/ATOR Block 4 (GB4) will provide Expeditionary Airport 
Surveillance and air traffic control capability. GB4 is a future 
mission capability that currently is not resourced in the budget.

    9. Senator Wicker. Does the current and projected amphibious ship 
inventory meet Marine Corps training needs and operational lift 
requirements?
    General Walsh. No. There is not enough amphibious warship 
capability to support an assault echelon of two Marine Expeditionary 
Brigades required for contingency response. The Navy and the Marine 
Corps have determined that 38 amphibious warships are needed in the 
inventory to support this requirement as well as the training and 
readiness of fleet Marine forces. ?There are 31 amphibious warships in 
inventory today. The planned average amphibious inventory from fiscal 
year 2016-fiscal year 26 (near-term) is 34 ships. The planned average 
amphibious inventory from fiscal year 2027-fiscal year 2037 (mid-term) 
is 36 ships, with 38 being reached for one year (fiscal year 2033) of 
the fiscal year 2017 Long Range Shipbuilding Strategy (LRSS). The 
support of the Congress for these critical ships is appreciated and 
must continue for the Marine Corps to meet the Nation's needs.
    Shortfalls in amphibious warship inventory have multiple negative 
effects. This must be viewed as a two-faceted problem of inventory and 
availability. A decreased inventory has negative effects on both 
overall capacity and maintenance. This puts the nation at risk of being 
unable to embark the 2 MEB assault echelon required for a forcible 
entry capability. Further, as ships are stressed due to increased use, 
they require more maintenance, which compounds the availability 
problem.
    The Chief of Naval Operations and the Commandant of the Marine 
Corps have determined the force structure to support the deployment and 
employment of 2 MEBs simultaneously is 38 amphibious warfare ships. 
Understanding this requirement, in light of fiscal constraints faced by 
the Nation, the Department of the Navy has agreed to sustain a minimum 
of 34 amphibious warships. However, Combatant Commander Demand is more 
realistically assessed in excess of 50.
    To mitigate this, the Navy and Marine Corps are exploring 
opportunities to deploy marines on non-combatant auxiliary platforms. 
This is not ideal. Auxiliary platforms are not a replacement to the 
capabilities and survivability of amphibious warships. Furthermore, 
this shortfall has forced the Navy and Marine Corps to explore ways to 
distribute elements of a single Amphibious Ready Group (ARG)/MEU across 
combatant commander boundaries to provide some measure of coverage in 
various regions. Again, this is not an ideal method when compared to 
the preferred employment of the full ARG/MEU as an aggregated three-
ship force which can bring to bear its full capability.
    Finally, shortfalls negatively affect our ability to train. 
Conducting amphibious operations with our joint services is not just a 
matter of putting marines on Navy ships. Those units must have the 
opportunity to operate with each other during their workup to establish 
relationships, tactics, techniques, procedures, and build 
interoperability.

    10. Senator Wicker. As you know, Marines are currently supporting 
the fight against ISIL with field artillery in northern Iraq. The 
National Commission on the Future of the Army recently noted that field 
artillery is an area where the Army will need to focus more on in light 
of the United States voluntary participation in the cluster munitions 
ban, munition short falls, and changes in doctrine. Do you believe that 
field artillery should also be a modernization focus area for the 
Marines? If so, what are the Martine Corps' current plans?
    General Walsh. Field Artillery in the Marine Corps has been a focus 
of modernization for the past two decades, and will continue to be so 
with an emphasis on longer range, enhanced lethality munitions. The 
Marine Corps is currently procuring the Guided Multiple Launch Rocket 
System--Alternate Warhead (GMLRS-AW) as its rocket cluster munition 
replacement strategy. Additionally, the Marine Corps continues to 
collaborate with the Army on science and technology initiatives to 
achieve greater capabilities in these areas as well as pursue efforts 
through the Office of Naval Research. The Marine Corps is sponsoring 
the Future Naval Capability science and technology development of the 
High Reliability DPICM Replacement (HRDR) and the Moving Target 
Artillery Round (MTAR) artillery munitions. These munitions, if 
feasible, could transform the effects of Marine Corps cannon artillery.
    Mr. Dee. Field Artillery in the Marine Corps has been a focus of 
modernization for the past two decades, and will continue to be so with 
an emphasis on longer range, enhanced lethality munitions. The Marine 
Corps is currently procuring the Guided Multiple Launch Rocket System--
Alternate Warhead (GMLRS-AW) as its rocket cluster munition replacement 
strategy. Additionally, the Marine Corps continues to collaborate with 
the Army on science and technology initiatives to achieve greater 
capabilities in these areas as well as pursue efforts through the 
Office of Naval Research. The Marine Corps is sponsoring the Future 
Naval Capability science and technology development of the High 
Reliability DPICM Replacement (HRDR) and the Moving Target Artillery 
Round (MTAR) artillery munitions. These munitions, if feasible, could 
significantly transform the effects of Marine Corps cannon artillery.

    11. Senator Wicker. In testimony before the full committee last 
year, General Dunford identified inventories of Javelin, TOW and HIMARS 
weapons programs as insufficient to meet USMC requirements. Can you 
describe in more detail the risks being assumed by these shortfalls and 
your efforts to mitigate them? Are there are other weapons systems that 
face similar shortages?
    General Walsh. TOW and Javelin missiles have been brought up to an 
acceptable level of risk against the most demanding of Major Combat 
Operations scenarios given the current budget restrictions. Successful 
missile life extension programs have reduced the need for extensive 
missile reprocurement in the near term. Additionally, an inter-Service 
transfer of Javelin missiles from the U. S. Army has ensured a healthy 
Marine Corps stockpile. The procurement lead time associated with both 
missiles requires a relatively continuous procurement program in order 
to avoid sharp inventory decline.
    The current High Mobility Artillery Rocket System (HIMARS) 
munitions procurements consists of the Guided Multiple Launch Rocket 
System - Alternative Warhead (GMLRS AW) and a training rocket. The 
GMLRS AW will be the only area effects munitions fired from HIMARS 
after calendar 2018, when the Dual Purpose Improved Conventional 
Munition (DPICM) rockets are removed from inventory per U.S. policy. 
GMLRS AW procurement began in 2015, and the rocket has an average 
delivery time of 18 months. Current programmed funding will deliver 
only 12 percent of the total munitions required by the time that DPICM 
rockets must be removed from inventory under current policy but will 
deliver approximately 75 percent of the munitions required for the 
stressing Major Combat Operational scenarios by fiscal year 2022.

    12. Senator Wicker. Over the past year, the Army and the Marine 
Corps have explored developing new 5.56mm ammunition for their service 
rifles. The Marine Corps was initially concerned that the round could 
damage the rifle and cause malfunctions. Have you resolved that issue? 
If so, how? If not, how do you plan to resolve it?
    General Walsh. We are committed to finding a common solution with 
the Army. In March 2016, the US Army, with Marine Corps observers, 
began a new series of tests of the Army and Marine Corps enhanced 
5.56mm ammunition with Marine Corps weapons in order to address the 
Marine Corps concerns. Test officials plan to produce an interim test 
report in 1st Quarter fiscal year 2017 and the final test report by the 
end of 2nd Quarter fiscal year 2017. In addition, 2016 National Defense 
Authorization Act language requires a federally funded research and 
development center to conduct a study on the use of different types of 
enhanced 5.56mm ammunition by the Army and Marine Corps. This OSD 
sponsored study is ongoing and is expected to be completed in 4th 
Quarter fiscal year 2016. The results of the tests and the OSD study, 
in combination with related equipping costs and other relevant 
considerations, will provide the basis for recommendations on the way 
forward for enhanced 5.56mm ammunition to Marine Corps leadership. The 
desired end state is for the Marine Corps and Army to utilize the same 
5.56mm round.
    Mr. Dee. We are committed to finding a common solution with the 
Army. In March 2016, the US Army, with Marine Corps observers, began a 
new series of tests of the Army and Marine Corps enhanced 5.56mm 
ammunition with Marine Corps weapons in order to address the Marine 
Corps concerns. Test officials plan to produce an interim test report 
in 1st Quarter fiscal year 2017 and the final test report by the end of 
2nd Quarter fiscal year 2017. In addition, 2016 National Defense 
Authorization Act language requires a federally funded research and 
development center to conduct a study on the use of different types of 
enhanced 5.56mm ammunition by the Army and Marine Corps. This OSD 
sponsored study is ongoing and is expected to be completed in 4th 
Quarter fiscal year 2016. The results of the tests and the OSD study, 
in combination with related equipping costs and other relevant 
considerations, will provide the basis for recommendations on the way 
forward for enhanced 5.56mm ammunition to Marine Corps leadership. The 
desired end state is for the Marine Corps and Army to utilize the same 
5.56mm round.

    13. Senator Wicker. I understand that the Marine Corps is closely 
following the Army's development of a next-generation pistol. In recent 
testimony before the House Armed Services Committee, the Army Chief of 
Staff stated that the 356-page requirements document and the testing 
process was ``two years long on known technology.''Do you agree with 
General Milley's characterization of the acquisition process for a new 
service pistol? How will the Marine Corps learn from this experience as 
they prepare to replace Marine small arms in the years to come?
    General Walsh. The Marine Corps acknowledges the challenges that 
face the acquisitions process. We are committed to working with the 
Congress, our sister services, and the industrial base to find 
solutions to this which will yield better equipment, on a faster 
timeline, at less cost to the taxpayer. Our next generation pistol is 
no exception. The Marine Corps has been closely joined with the Army on 
the development and evaluation of requirements for the next generation 
pistol.
    The Marine Corps remains committed to learning lessons from every 
iteration of the acquisitions process. For other small arms, we see 
significant value in joint collaboration with the Army. We intend to 
work with and to procure the same weapons as the Army when similar 
operational requirements can be met with common solutions. This should 
provide cost savings, allow us to leverage expertise and resources from 
both services, and improve interoperability on the battlefield. The 
Marine Corps will use the established Joint Capabilities Integration 
and Development System and the Defense Acquisition System to define 
requirements and manage weapon system acquisition programs.

    14. Senator Wicker. On April 3rd, the Washington Post reported that 
U.S. Special Operations Forces are using the EOTech holographic rifle 
sight manufactured that has a known defect--particularly in extreme 
weather, like our troops encounter in Afghanistan and Iraq--that can 
cause the sight to be off-target by six to twelve inches away when a 
shooter is 300 feet away from a target. According to the Post, the 
Marine Corps continues to use 6,000 of the sights. Can you describe 
what the Marine Corps is doing to bridge and rectify this problem?
    General Walsh. The Marine Corps utilizes two versions of the 
sights; one is used for close quarter battle, and the other is used 
with heavy machine guns for close target engagements while mounted to a 
vehicle platform. In March 2016, the Marine Corps issued a Safety of 
Use Message to inform users that testing of the Marine Corps version of 
EOTech sight confirmed that a reticle shift occurs when exposed to 
temperature variations (thermal drift).
    Recently, the Marine Corps completed discussions with the vendor 
and identified solutions for EOTech sight issues occurring within the 
Marine Corps inventory. The Marine Corps will continue to evaluate the 
operational effectiveness of these sights and take corrective action as 
necessary. Affected sights will be replaced as they are identified.
    Mr. Dee. The Marine Corps utilizes two versions of the sights; one 
is used for close quarter battle, and the other is used with heavy 
machine guns for close target engagements while mounted to a vehicle 
platform. In March 2016, the Marine Corps issued a Safety of Use 
Message to inform users that testing of the Marine Corps version of 
EOTech sight confirmed that a reticle shift occurs when exposed to 
temperature variations (thermal drift). The Marine Corps recently 
completed discussions with the vendor to identify solutions for the 
issues identified with EOTech sights within the Marine Corps inventory. 
The Marine Corps will continue to evaluate the operational 
effectiveness of these sights and take corrective action as necessary. 
Affected sights will be replaced as they are identified.
                  strategic issues and foreign policy
    15. Senator Wicker. Can you describe how the Marine Corps is 
continuing to support the Asia-Pacific rebalance? Please comment on the 
Marine Air Ground Task Force operating from Darwin, Australia and the 
plan to base an additional Marine Air Ground Task Force in Guam.
    General Walsh. The Marine Corps remains committed to the rebalance 
to Asia and the Pacific. The Marine Corps is implementing a distributed 
laydown of forces which realigns approximately half of the Marines 
currently in Okinawa throughout the Pacific. This distributed laydown 
will establish MAGTFs in four key locations: Okinawa, Darwin, Guam and 
Hawaii. To this end we are breaking ground on the main cantonment of 
the future Marine Corps Base Guam later this year, and have requested 
as a part of the fiscal year 2017 budget request $62.2 million for 
MILCON to support the move to Guam.
    The Marine Rotational Force--Darwin (MRF-D), a part of the 
distributed laydown, alliance modernization and the rebalance to Asia 
and the Pacific, is in its fifth rotation and is composed of 1,250 
marines. The MRF-D MAGTF is currently built around a reinforced 
infantry battalion with attachments that include 4xUH-1Y helicopters, a 
combat engineer platoon, and a combat logistics detachment. The plan 
for increasing the size of the MRF-D relies on the resolution of 
several factors to include completion of a cost share implementing 
arrangement, facilities availability, and force sourcing to support the 
deployment in the context of global demand. Full implementation of the 
initiative envisions a MAGTF of up to 2,500 marines.

    16. Senator Wicker. Can you update the subcommittee on Marine 
Rotational Force--Darwin, which will conduct exercises and training on 
a rotational basis with the Australian Defense Force? I understand the 
intent in the coming years is to establish a rotational presence of up 
to a 2,500-person Marine Air Ground Task Force in Australia.
    General Walsh. The Marine Rotational Force--Darwin (MRF-D) is 
currently deployed to Australia for its fifth rotation since the 
announcement of the agreement to increase engagement with Australia was 
made in 2011. The 2016 MRF-D rotation is organized around an infantry 
battalion supported by four UH-1Y helicopters and a combat logistics 
detachment. During the 2016 rotation the MRF-D will participate in 
unilateral, bilateral, and multilateral training events inside and 
outside Australia. Of note, elements from the 2016 MRF-D will 
participate in Exercise HAMEL with the Australian Army at training area 
Cultana. They will embark HMAS Adelaide, one of two new Australian LHD 
amphibious assault ships, in Brisbane and transit to Adelaide, where 
they will offload and participate in the exercise at training area 
Cultana. Exercises of this significance have not been conducted to date 
by the MRF-D and demonstrate a commitment to the Force Posture 
Agreement by both the Australian Defence Force and the Marine Corps. 
Additionally, elements of the MRF-D will conduct security cooperation 
activities with countries within Southeast Asia in support of PACOM's 
Theater Security Cooperation Plan. Continued growth of the MRF-D for 
subsequent rotations relies on the resolution of several factors to 
include completion of a cost share implementing arrangement, facilities 
availability, and force sourcing to support the deployment in the 
context of global demand. The end-state goal is a Marine Air Ground 
Task Force of up to 2,500 marines deploying to Darwin during the 
Australian ``dry season'', April-October. The Marine Corps is working 
closely with the Australian Defence Force and Australian Defence 
Department during the implementation of the MRF-D initiative.

    17. Senator Wicker. To what extent can equipment used in 
Afghanistan be repaired or rebuilt versus needing to be replaced? What 
equipment must be replaced because it cannot be repaired or rebuilt? 
Can you give us a rough estimate in terms of cost and quantities?
    General Walsh. The Marine Corps is executing an aggressive 
equipment reset of 71,859 Principal End Items (PEI) used in Operation 
Enduring Freedom and Operation Iraqi Freedom. To date, we are 81 
percent complete with reset. We have repaired or rebuilt over 39,000 
items at the depot or field maintenance level and used normal DLA-
Disposal Services for approximately 20,000 items that were not 
economical for repair. The remaining items are in the repair cycle or 
awaiting inspection and maintenance. The estimated reset liability is 
just under $800 million.
    Mr. Dee. The Marine Corps is executing an aggressive equipment 
reset of 71,859 Principal End Items (PEI) used in Operation Enduring 
Freedom and Operation Iraqi Freedom. To date, we are 81 percent 
complete with reset. We have repaired or rebuilt over 39,000 items at 
the depot or field maintenance level and used normal DLA-Disposal 
Services for approximately 20,000 items that were not economical for 
repair. The remaining items are in the repair cycle or awaiting 
inspection and maintenance. The estimated reset liability is just under 
$800 million.

    18. Senator Wicker. I understand this budget completes the 
congressionally-directed expansion of the Marine Corps Embassy Security 
Group, providing for operations and sustainment for the existing 
detachments and the establishment of nine new detachments. Can you 
comment on this critical Marine Corps function and what this expansion 
means for embassy security around the world?
    General Walsh. The National Defense Authorization Act (NDAA) of 
2013 authorized additional marines for embassy security. Realizing the 
need to improve security at its overseas diplomatic posts the 
Department of State, in consultation with the Marine Corps, has 
activated 22 of 50 new detachments from the original Department of 
State list, as well as improved security at all current detachments. 
The Marine Corps continues to work with the Department of State to 
complete the expansion and also to ensure that the security 
requirements at U.S. embassies and consulates overseas continue to be 
met and improved.
                            industrial base
    19. Senator Wicker. How would you describe the state of the 
industrial base that supports your programs? In the event of further 
budget reductions, what must this subcommittee be particularly mindful 
of related to the industrial base?
    General Walsh. The defense industrial base is doing the maximum 
they can to cope with the turbulent budget of the last few years. 
However, with an unpredictable budget, they have had to make difficult 
decisions regarding investment in emerging technologies. In order to 
identify potential issues with the industrial base, OSD has tasked the 
Services with an assessment, scheduled to be complete in June 2016.
    The Marine Corps continues to work closely with the industrial base 
that supports our programs to create innovative solutions to validated 
requirements while keeping cost-effectiveness and sustainability in 
mind during this prolonged period of fiscal constraint. The primary 
concern remains keeping procurement schedules predictable and on 
timeline which enables us to maximize productivity and cost savings. 
Stable and predictable budgets will enable this to the maximum extent 
possible by allowing both the Marine Corps and our industrial partners 
to plan procurement and capital investment in a rational manner which 
provides the taxpayers with the highest quality product at the best 
price.
    Mr. Dee. The defense industrial base is doing the maximum they can 
to cope with the turbulent budget of the last few years. However, with 
an unpredictable budget, they have had to make difficult decisions 
regarding investment in emerging technologies. In order to identify 
potential issues with the industrial base, OSD has tasked the Services 
with an assessment of the industrial base. This is scheduled to be 
completed in June 2016.
    The Marine Corps continues to work closely with the industrial base 
that supports our programs to create innovative solutions to validated 
requirements while keeping cost-effectiveness and sustainability in 
mind during this prolonged period of fiscal constraint. The primary 
concern remains keeping procurement schedules predictable and on 
timeline which enables us to maximize productivity and cost savings. 
Stable and predictable budgets will enable this to the maximum extent 
possible by allowing both the Marine Corps and our industrial partners 
to plan procurement and capital investment in a rational manner which 
provides the taxpayers with the highest quality product at the best 
price.



DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2017 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 20, 2016

                           U.S. Senate,    
                  Subcommittee on Seapower,
                               Committee on Armed Services,
                                                    Washington, DC.

                NAVY AND MARINE CORPS AVIATION PROGRAMS

    The subcommittee met, pursuant to notice, at 2:02 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator Roger F. 
Wicker (chairman of the subcommittee) presiding.
    Committee members present: Senators Wicker, Ayotte, Rounds, 
Tillis, Sullivan, Shaheen, Blumenthal, Hirono, Kaine, and King.

          OPENING STATEMENT OF SENATOR ROGER F. WICKER

    Senator Wicker. This hearing will come to order.
    The Senate Armed Services Subcommittee on Seapower convenes 
this afternoon to examine Navy and Marine Corps aviation 
programs.
    This afternoon our subcommittee welcomes three 
distinguished witnesses: Vice Admiral Paul A. Grosklags, 
Commander, Naval Air Systems Command; Lieutenant General Jon M. 
Davis, Deputy Commandant for Marine Corps Aviation; and Rear 
Admiral Michael C. Manazir, Director of Air Warfare for the 
Department of the Navy. Our subcommittee is grateful to these 
gentlemen for their presence today and decades of service to 
our Nation.
    Over the course of the past year, a wide variety of 
witnesses from both inside and outside the Department have 
testified before the Senate Armed Services Committee that our 
Nation faces the most diverse, complex, and potentially 
dangerous threats to national security in recent history. There 
is a need to strengthen our military and ensure that our men 
and women in uniform have comprehensive training and world-
class equipment.
    Instead, our reduced military budgets have damaged our 
military's force structures, modernization, and readiness amid 
years of sustained operations.
    The stakes are high during these challenging times. 
Extremists of the Islamic State in Iraq and Syria are 
increasingly spreading terror to North Africa, Europe, and 
beyond. Vladimir Putin's belligerence has dashed our hopes for 
cooperating to benefit the people of Russia and the United 
States. Instead he continues to test our resolve in eastern 
Europe and Syria. The Peoples Republic of China continues to 
expand and modernize its military and engage in destabilizing 
behavior in the Asia-Pacific region.
    Given this global environment, I hope our witnesses today 
will collaborate on the current readiness of our naval and 
marine aviation forces, the efforts to modernize our forces to 
pace growing threats and the vitality of our aviation 
industrial base.
    This afternoon our subcommittee will examine five key areas 
related to the Navy and Marine Corps aviation programs.
    First, the subcommittee is concerned with the current state 
of readiness of our naval and marine aviation forces. Delays in 
the development of new aircraft, intense budgetary pressures, 
and years of high levels of ongoing operations have created a 
situation where the Navy and Marine Corps do not have enough 
ready basic aircraft for our aviators to fly the hours they 
need to remain qualified, proficient, and motivated. Our 
airframes are wearing out faster than anticipated, further 
stressing the fleet, although improving the throughput in our 
depots remains challenged to meet demands.
    General Davis, in the Marine aviation plan, you state, ``I 
am concerned with our current readiness rates both in equipment 
and personnel. We have seen a decrease in flight hours per 
month per aircrew and an up-tick in our mishap rates''. Perhaps 
we will expound on that testimony.
    The subcommittee shares your concerns and looks forward to 
hearing from you and Admiral Manazir on the path out of this 
critical situation for the Navy and Marine Corps.
    Secondly, the strike fighter shortfall. Our subcommittee 
would like to learn more about the gaps in the Navy fighter 
fleet. The Navy has estimated the shortfall at two to three 
squadrons of strike fighter aircraft. The CNO [Chief of Naval 
Operations] and Commandant both included strike fighters in 
their unfunded priority lists, ranking them as the number one 
and number three priorities for the Navy. I hope our witnesses 
today will be able to provide more details on the unfunded 
requirements for multi-role fighter aircraft.
    Third, Joint Strike Fighter operations. We would like to 
know more about the development and operations of the F-35B and
F-35C Joint Strike Fighter. Last August, the Marines declared 
initial operation capability of the first F-35B squadron, the 
Green Knights of VMFA-121. The subcommittee looks forward to 
hearing an update on F-35 operations and preparations for the 
Green Knights' move to Japan in 2017 and shipboard deployment 
in 2018.
    Fourth, we would like to learn more about the F-35 follow-
on modernization program. The Joint Program Office is beginning 
the development of block 4, the next increment of capabilities 
for the F-35. The Department is expected to spend nearly $3 
billion on this program over the next 6 years alone, and both 
the GAO [Government Accountability Office] and the Director of 
Test and Evaluation have recommended the program be managed as 
a separate major defense acquisition program. The subcommittee 
looks forward to hearing the witnesses' views on follow-on 
modernization and the recommendations of these two agencies.
    Then finally, munitions shortfall. Our subcommittee would 
like an update on the status of the Navy and Marine Corps air-
launched munitions inventories. Years of budgetary neglect and 
high operational tempo have left munitions inventories 
depleted, some critically so. The subcommittee needs to 
understand where the Department is taking risk, what is being 
done to mitigate that risk, and the ability of the industrial 
base to produce the required munitions.
    We welcome our witnesses. We thank you for your service.
    I am delighted at this point to recognize my ranking 
member, Senator Hirono.

              STATEMENT OF SENATOR MAZIE K. HIRONO

    Senator Hirono. Thank you, Mr. Chairman.
    I too want to welcome our witnesses to the hearing this 
afternoon. We are grateful to each of you for your service to 
our country and, of course, that of your families and the truly 
professional way that you serve our country. We also pay 
tribute to, as I mentioned, all of the workers and the people 
who are under your command, men and women of our armed 
services.
    Today our witnesses face huge challenges as you strive to 
balance the need to support ongoing operations and sustain 
readiness with the need to modernize and keep the technological 
advantage that is so critical to military success. These 
challenges have been made particularly difficult by the 
spending caps imposed in the Budget Control Act, caps that were 
modestly relieved for fiscal year 2016 in the Bipartisan Budget 
Act. However, these caps are scheduled to resume in fiscal year 
2018 and beyond. These caps already seriously challenge our 
ability to meet our national security needs and have already 
forced all of the Military Departments to make painful 
tradeoffs. Unless modified for the years after fiscal year 2018 
and later, I believe that they will threaten our long-term 
national security interests.
    With that in mind, a continuing focus of the subcommittee 
has been to see that we improve our acquisition stewardship and 
thereby ensure that we are getting good value for every single 
dollar that we are spending. This year I believe we have three 
pivotal issues in naval aviation.
    Since last year, the Marine Corps declared initial 
operating capability, or IOC [Initial Operational Capability], 
for the F-35B, the short takeoff, vertical landing, STOVL. That 
is all well and good, but we need to hear how the testing is 
proceeding and how other parts of the program are supporting 
the Navy's IOC declaration plans for 2018. Continuing the F-35 
program on schedule is important for maintaining force 
structure. The chairman has already also noted that concern.
    Second, the Navy is facing a major shortfall in its strike 
fighter inventory, again already mentioned by the chairman. I 
want to echo his concerns. The Navy responded to forecasts of a 
shortage of almost 200 aircraft several years ago by better 
managing the remaining life of the existing aircraft by 
redistributing aircraft within the force, designing a series of 
modernization and rehabilitation measures, including a service 
life extension program, or a SLEP, for older aircraft and 
buying new F-18 aircraft.
    After several years of predicting significant improvements 
in the Navy's ability to support operating forces, including 
aircraft carrier squadrons and Marine Corps squadrons with 
strike fighter aircraft, the Navy last year was predicting a 
major erosion in that ability. This year, the Navy has not 
provided a specific estimate of the strike fighter shortfall. 
We would like to hear from you as to what that number is.
    The committee received previous testimony from Navy 
witnesses that a shortfall of roughly 65 strike fighters was 
manageable. We need to understand what the estimate of the 
shortfall is this year, as I mentioned, and whether that 
estimate is up or down from last year and what actions the Navy 
can or should take to reduce or mitigate that shortfall.
    Finally, fiscal year 2017 is the last year of the second V-
22 multiyear contract. The Navy plans to buy as many as 72 more 
aircraft after the current multiyear contract is finished, 
including 48 aircraft to replace the Navy's C-2 fixed wing 
aircraft in the carrier onboard delivery mission. However, 
under the terms of the current multiyear 2 contract, the 
Department of the Navy is required to purchase 18 aircraft in 
fiscal year 2017. The fiscal year 2017 budget request includes 
only 16 V-22 aircraft. We need to understand why the Department 
of the Navy has made this proposal, because if we are supposed 
to be buying 18 and we are buying only 16, I think that 
abrogates the contract, and what the implications of this 
action are.
    In the interest of time, Mr. Chairman, I will stop there so 
we can hear more about the concerns that both of us have 
expressed on other issues from our witnesses this afternoon. 
Thank you.
    Senator Wicker. Thank you, Senator Hirono.
    Gentlemen, you have submitted a very extensive statement, 
jointly submitted consisting of some 44 pages. That statement 
will be included in the record. Without objection, so ordered. 
Vice Admiral Grosklags, we will start with you.

 STATEMENT OF VICE ADMIRAL PAUL A. GROSKLAGS, USN, COMMANDER, 
           NAVAL AIR SYSTEMS, DEPARTMENT OF THE NAVY

    Admiral Grosklags. Thank you, Mr. Chairman, Ranking Member 
Hirono, distinguished members of the subcommittee.
    I have just got a brief opening statement, and then we will 
look forward to your questions.
    First, thanks for the opportunity to appear before you 
today to talk about our naval aviation programs. I am, 
obviously, pleased to be here with General Davis and Admiral 
Manazir.
    On behalf of the Navy and Marine Corps, I would like to 
start by thanking the Seapower Subcommittee for your strong 
support of the Department of the Navy in previous years, as 
well as, more particularly, your support of naval aviation.
    As you have noted, the current fiscal environment drives 
some tough choices, and we are clearly balancing between 
capabilities, capacity, and readiness. Independent of that 
fiscal environment, the demand for our naval presence and in 
particular naval aviation remains very high.
    As Secretary of Defense Carter recently testified, there 
are five evolving strategic challenges that are driving our 
planning and budgeting: Russia, China, Iran, North Korea, and 
terrorism. Planning scenarios for each one of these strategic 
challenges involve in key aspects naval aviation.
    Consistent with those demands, we have placed priority on 
two specific aspects of naval aviation that you have already 
talked about. The first is recovery of our near-term readiness, 
and the second is investment in those future capabilities 
critical to our long-term technical superiority while ensuring 
that we have got the capacity to win our Nation's battles.
    Our current readiness, particularly in some of our Marine 
Corps communities, is well below the required levels. We are 
addressing this readiness problem through a number of lines of 
effort, but sufficient and stable funding is a key component of 
our ``get well'' plan.
    Specifically, we ask for your help in maintaining the 
funding requested by the Department to sustain the aircraft we 
have on the flight lines today. Stability in all of the 
multiple lines, funding lines in PB17 that drive our current 
readiness and sustainment, must be maintained so that we can 
ensure the proper balance and harmonization across our flying 
hours, our depot maintenance, our air systems support, aviation 
spares, and the rest of the accounts that make up our 
sustainment effort for aviation.
    In parallel, continued investment in the procurement of F-
35's and F-18's is critical to ensuring we can successfully 
manage our strike fighter inventory through the decade of the 
2020s.
    While our focus in naval aviation leadership is clearly on 
those two priorities, I do want to take just a few seconds to 
highlight some significant milestones since last year's 
hearing.
    Both the chairman and the ranking member have already 
touched on the IOC for the F-35B. The Marines have two full 
squadrons operating and a third one ready to stand up early 
this summer. Gaining that capability and confidence that they 
are getting through their daily use of this aircraft in a 
tactical environment is really building momentum for the entire 
F-35 program, and the Marine Corps in this case is truly in the 
vanguard of the F-35.
    On the Navy side of the house, last October we completed 
our second carrier-based test period abroad the USS Dwight D. 
Eisenhower. We conducted 66 launches and successful 
arrestments.
    The CH-53K King Stallion program conducted its first flight 
last October. To date, they have got two aircraft flying. They 
have got two more planned to fly in early June. They have flown 
about 60 hours, reached air speeds up to 140 knots, 30 degrees 
angle of bank. The airplane is performing very well. They are 
on track for an LRIP [low-rate initial production] decision in 
fiscal year 2017 and a critical initial operating capability in 
2019.
    Our transition from P-3's to P-8's, a very, very capable 
aircraft, is about 50 percent complete. Our planned mission 
capability, the incremental upgrades that you all have heard 
about in the past, are on track. Last year, we implemented the 
broad area ASW [anti-submarine warfare] search capability. To 
date, we have seen about a 98 percent mission completion rate 
out of our forward-deployed P-8's.
    Last the presidential helicopter program completed their 
preliminary design review last August. They are on track for a 
2020 initial operational capability. The program is doing 
extremely well. They are executing to schedule, and more 
importantly, they are executing to a budget. In fact, we were 
able to pull a couple hundred million dollars out of their 
program due to their outstanding execution.
    Mr. Chairman, we believe the Department's 2017 budget 
request has properly balanced the capacity, capability, and 
readiness that I talked about. We ask for your continued 
support for that budget submission.
    Thank you for the opportunity to appear before you today. I 
look forward to your questions.
    [The prepared joint statement of Admiral Grosklags, General 
Davis, and Admiral Manazir follows:]

  Prepared Joint Statement by Vice Admiral Paul Grosklags, Lieutenant 
         General Jon Davis, and Rear Admiral Michael C. Manazir
                              introduction
    Mr. Chairman, Senator Hirono, and distinguished members of the 
Subcommittee, we thank you for the opportunity to appear before you 
today to discuss the Department of the Navy's (DON) Aviation programs. 
Our testimony will provide background and rationale for the 
Department's fiscal year 2017 budget request for aviation programs 
aligning to our strategic priorities and budgetary goals.
    The United States is a maritime nation with global 
responsibilities. Our Navy and Marine Corps' persistent presence and 
multi-mission capability represent U.S. power projection across the 
global commons. They move at will across the world's oceans, seas and 
littorals, and they extend the effects of the sea-base and 
expeditionary basing deep inland. Naval Aviation provides our nation's 
leaders with ``offshore and onshore options'' where it matters, when it 
matters. We enable global reach and access, regardless of changing 
circumstances, and will continue to be the nation's preeminent option 
for employing deterrence through global presence, sea control, mission 
flexibility and when necessary, interdiction. We are an agile maritime 
strike, amphibious and expeditionary power projection force in 
readiness, and such agility requires that the aviation arm of our naval 
strike and expeditionary forces remain strong.
    As described in the Chief of Naval Operations' A Design for 
Maintaining Maritime Superiority and the Commandant of the U.S. Marine 
Corps' Advance to Contact, today's strategic environment is 
dramatically more globalized with accelerating change. Global 
connections continue to multiply, fueled by rapid advances and 
proliferation in technology, particularly information technology. Our 
competitors are pursuing advanced weapon systems at levels and a pace 
of development that we have not seen since the mid-1980s. It is 
imperative that we fund a force that can fight and win against any of 
our five major challengers (Russia, China, Iran, North Korea and Global 
Counter-Terrorism), investing in advanced capabilities that increase 
our lethality, for both the current and future force. Our fiscal year 
2017 budget addresses that imperative by making investments to improve 
our ability to fight with decisive capability over the full range of 
operations--at sea, from the sea, and across all domains.
    Our ability to respond to the dynamic strategic environment, high 
operational tempo and Combatant Commander (COCOM) requirements is 
constrained by the current fiscal realities. The Department is still 
recovering from reduced funding over fiscal years 2013-2016 that 
collectively provided $30 billion less than the levels requested in our 
President's Budget submissions. The Bipartisan Budget Act of 2015 (BBA) 
provided critical relief from a return to sequestration levels in 
fiscal year 2016 and fiscal year 2017, but even with overseas 
contingency operations funding, the Navy's fiscal year 2017 request is 
3.9 percent less than the fiscal year 2017 funding level requested in 
the fiscal year 2016 President's Budget.
    This fiscal context drives difficult choices, but also fosters new 
thinking in order to best balance between capability, capacity, 
readiness and a vital industrial base. The fiscal year 2017 President's 
Budget integrates the mission guidance, operational context, and fiscal 
constraints in making focused investments, hard prioritized choices, 
and innovative reform to resource and delivers a global sea-based 
force. The Department's aviation plans are formulated to reach and 
maintain the required force structure with the right capabilities, 
while sustaining the initial industrial base required to support this 
force.
    The Navy/Marine Corps `Vision for Naval Aviation 2025' provides the 
framework for determining investment priorities across the triad of 
warfighting capability, capacity, and aviation wholeness and there are 
several central themes to our 2017 Naval Aviation budget plan: 5th 
generation fighter/attack capability; netted persistent multi-role 
intelligence, surveillance, reconnaissance and targeting; supporting 
capabilities such as electronic attack, maritime patrol, and vertical 
lift; advanced strike weapons programs; readiness; and targeted 
modernization of the force for relevance and sustainability.
    First, we are acquiring F-35 5th generation fighter/attack aircraft 
and planning to procure additional F/A-18E/F aircraft within the Future 
Years Defense Program (FYDP) to address near-term tactical aviation 
(TACAIR) capability and overutilization challenges. Our plan will 
integrate 5th generation technologies into the Carrier Air Wing (CVW), 
the Aviation Combat Element in our Amphibious Ready Groups, and 
expeditionary forces while maintaining and modernizing the capability 
of the current TACAIR fleet. The F-35B and F-35C will replace Marine 
Corps F/A-18 and AV-8B aircraft significantly increasing capabilities 
across the range of military operations of Marine sea- and land-based 
Marine Air-Ground Task Forces (MAGTFs). The F-35C, F/A-18E/F, and EA-
18G provide complementary capabilities that enhance the versatility, 
lethality, survivability, and readiness of our CVWs. F/A-18A-F and AV-
8B aircraft will continue to receive capability enhancements to sustain 
their lethality and Fleet interoperability well into the next decade. 
Future avionics upgrades will enable network-centric operations for 
integrated fire control, situational awareness and transfer of data to 
Joint command-and-control nodes afloat and ashore.
    To meet the demand for persistent, multi-role intelligence, 
surveillance, and reconnaissance (ISR) capability, the Navy and Marine 
Corps are building a balanced portfolio of manned and unmanned aircraft 
focused on missions in the maritime environment. A future unmanned 
carrier-based capability (MQ-XX), which takes the place of the Unmanned 
Carrier Launched Airborne Surveillance and Strike (UCLASS) program, 
will enhance carrier capability and versatility for the joint forces 
commander through integration of a persistent, sea-based, multi-mission 
aerial refueling and reconnaissance Unmanned Aircraft System (UAS) into 
the CVW. The MQ-XX system is envisioned to be an integral part of the 
future CVW; its robust organic refueling and long-endurance ISR 
capability, with open standards to enable future capabilities growth 
after it has been successfully integrated into the air-wing, is 
essential to the CVW Multi-Mission concept of the future. MQ-4C Triton 
will provide persistent land-based maritime ISR and complement our P-8 
Multi-Mission Maritime Aircraft (MMA); MQ-8 Fire Scout will provide ISR 
support and Maritime surveillance to our Littoral Combat Ships (LCS), 
Fast Frigates (FF) and other suitably-equipped air-capable ships; and 
smaller unmanned systems such as the RQ-21A Blackjack and RQ-7B Marine 
Corps Tactical UAS will provide the shorter duration, line-of-sight 
reconnaissance capability integral at the unit level.
    The fiscal year 2017 budget request enables Naval Aviation to 
continue recapitalization and modernization of our aging fleets of 
airborne early warning and maritime patrol platforms. The Department is 
recapitalizing our fleet of E-2C airborne early warning aircraft with 
the E-2D, P-3C maritime patrol and reconnaissance with the P-8A, EA-6B 
airborne electronic attack with the EA-18G, and C-2A Carrier Onboard 
Delivery (COD) with the V-22. E-2D integrates a new active 
electronically-scanned array radar that provides a two-generation leap 
in technology with the capability to detect and track existing and 
emerging air-to-air and cruise missile threats in support of Integrated 
Air and Missile Defense. P-8A combines the proven reliability of the 
commercial 737 airframe with avionics that enable integration of modern 
sensors and robust communications. The fifth and sixth operational P-8A 
deployments are currently underway, and the program is on track to 
complete the transition of all twelve P-3C squadrons to P-8A by 2019. 
Electronic attack capabilities, both carrier-based and expeditionary, 
continue to mature with the fielding of EA-18G squadrons while we 
develop the Next Generation Jammer (NGJ) to replace the legacy ALQ-99 
Tactical Jamming System. With the Marine Corps fielding of the F-35B 
and Intrepid II Tiger Pods, we have also added new Electronic Warfare 
(EW) and spectrum management capabilities across the MAGTF. Finally, 
the Department is planning to recapitalize its fleet of C-2A COD 
aircraft with an extended range variant of the V-22 (CMV-22B). The 
decision closes a capacity gap in the COD capability within an existing 
Program of Record (POR) and introduces new interoperability with the 
Amphibious Forces.
    In fiscal year 2017, the Navy and Marine Corps are recapitalizing 
and modernizing their vertical lift platforms while also participating 
in Joint Future Vertical Lift efforts to identify leverage points for 
future rotorcraft investment. The Department will do so with 
procurement of AH-1Z, and MV-22B, the continued development of the VH-
92A (Presidential Helicopter replacement), and the continued 
development and initial production of the CH-53K. The `Special Purpose 
Marine Air-Ground Task Force-Crisis Response' (SPMAGTF-CR), designed to 
support U.S. and partner security interests throughout the CENTCOM, 
EUCOM and AFRICOM Areas of Responsibility (AOR), leverages these 
vertical lift investments. The speed and range of the MV-22B, together 
with the KC-130J and joint tanker assets provides the SPMAGTF-CR with 
the operational reach to respond to crises throughout any AOR. The 
addition of the MV-22 Aerial Refueling System (VARS) will bring air 
refueling capability to the MV-22s and allow for a Roll-On/Roll-Off 
system to fill a critical air refueling capability of our sea-based 
forces, extending the reach and striking power of the MAGTF.
    Within our fiscal year 2017 budget request, the Department 
implements our Cruise Missile strategy and continues investments in 
advanced strike weapons programs. These include Air Intercept Missiles 
(AIM-9X/BLK II and AIM-120D); Small Diameter Bomb II (SDB II); Tactical 
Tomahawk Cruise Missiles (TACTOM/BLK IV); the Long-Range Anti-Ship 
Missile (LRASM); Next Generation Land Attack Weapon (NGLAW); Offensive 
Anti-Surface Warfare (OASuW) Increment II; the Advanced Anti-Radiation 
Guided Missile (AARGM); Advanced Precision Kill Weapon System II (APKWS 
II) and the Joint Air-to-Ground Missile (JAGM).
    Readiness recovery remains one of the key areas of concern in the 
Department. We continue to have lower than acceptable numbers of 
aircraft available to train and fight; our sailors and marines are 
getting less time flying the aircraft we do have, to be as proficient 
as we expect them to be. This is a major concern as we are in a 
fiscally challenged environment and the department is in the midst of 
transitioning a significant portion of its aircraft to more modern and 
lethal varieties. The Marine Corps alone is currently transitioning 
every single one of its Type/Model/Series aircraft. Increasing funding 
of the readiness accounts, to include spares, air systems support, 
repair parts, and support equipment, will be critical to ensure we can 
recover to an acceptable level of readiness. Given fiscal realities, 
our PB-17 submission represents an optimal balance of regaining an 
adequate level of current readiness while maintaining investment in new 
aircraft and capabilities--both of which are required to support 
current and enduring Naval Aviation requirements.
                           tactical aviation
F-35B/F-35C Lightning II:
    The F-35 Lightning II will form the backbone of U.S. air combat 
superiority for decades to come. Delivering this transformational 
capability to front-line forces as soon as possible remains a top 
priority. The F-35 will replace legacy tactical fighter fleets of the 
Navy and Marine Corps with a dominant, multirole, fifth-generation 
aircraft, capable of projecting U.S. power and deterring potential 
adversaries. The fiscal year 2017 President's Budget increases the 
procurement ramp and requests $1.2 billion in Research, Development 
Test and Evaluation, Navy (RDT&E,N) and $3.4 billion in Aircraft 
Procurement Navy (APN).
    The F-35 program is executing relatively well across the entire 
spectrum of acquisition, to include development and design, flight 
test, production, fielding and base stand-up, sustainment of fielded 
aircraft, and stand up of a global sustainment enterprise. In February 
2016, the F-35 reached 50,000 flight hours, including approximately 
18,000 for the F-35B and almost 6,000 hours for the F-35C. Our overall 
assessment is that steady progress is continuing to be made on all 
aspects of the program. F-35 does continue to have its risks, including 
software development and integration, albeit less risk than was 
reported last year. The discipline instilled several years ago in the 
method by which software is developed, lab tested, flight tested, 
measured and controlled has resulted in improved and more predictable 
outcomes and we have begun to see positive results.
    The program completed all flight tests for Block 2B software and 
the Marine Corps declared its Initial Operational Capability (IOC) for 
F-35B in July 2015. Block 3i software test for Low Rate Initial 
Production (LRIP) was completed and is anticipated to deliver all 
planned capabilities in support of the U.S. Air Force (USAF) F-35A IOC 
later this year. The final system development and demonstration 
configuration, Block 3F, is now flying in developmental test and we are 
tracking toward a Navy F-35C IOC in fiscal year 2018. Block 3F, which 
has the most software development risk driven by data fusion, will 
build on the mission capabilities of Block 2B and add the remaining F-
35 mission capabilities stated in the approved operational requirements 
document. Block 3F data fusion enables the aircraft to integrate 
onboard capabilities with information from multiple other sources, such 
as other F-35 aircraft, non-F-35 aircraft, satellites, and ground 
stations, in order to provide the pilot complete and accurate 
battlespace awareness. This multi-platform fusion is the most complex 
remaining developmental activity and is being closely monitored.
    The program has delivered 170 aircraft to test, operational, and 
training sites, with the production line delivering F-35s per the 
contract schedule. Due to government/industry manufacturing 
initiatives, production deliveries improved from a three-month delay in 
early 2015 to be on contract schedule starting in December 2015.
    Affordability remains a top priority. We continue to make it clear 
to the program management team and the F-35 industrial base that the 
development phase must complete within the time and money allocated; 
continue to drive cost out of aircraft production; and reduce life-
cycle costs. To that end, the program has engaged in a multi-pronged 
approach to reduce costs across production, operations, and support. 
The government/industry team is reducing aircraft production costs 
through ``blueprint for affordability'' initiatives and reducing F135 
engine costs via ongoing engine ``war on cost'' strategies. These 
efforts include up-front contractor investment on cost reduction 
initiatives mutually agreed upon by the Government and contractor team. 
This arrangement motivates the contractors to accrue savings as quickly 
as possible in order to recoup their investment, and benefits the 
government by realizing cost savings at the time of contract award. The 
goal is to reduce the flyaway cost of the USAF F-35A to between $80 and 
$85 million dollars by 2019, which is anticipated to commensurately 
decrease the cost to the Marine Corps F-35B and Navy F-35C variants. 
The program has also set a goal of decreasing overall operating and 
support life-cycle cost by 30 percent.
F/A-18 Overview
    The F/A-18 Hornet is challenged to meet current readiness and 
operational commitments. There are 30 Navy Super Hornet strike fighter 
squadrons and a total inventory of 547 F/A-18E/Fs. Deliveries and 
squadron transitions will are planned to continue through 2020. There 
are six Navy and 11 Marine Corps F/A-18 A-D Active strike fighter 
squadrons and a total inventory of 609 Hornets. Super Hornets and F/A-
18A-D Hornets have conducted more than 219,454 combat missions since 
September 11, 2001.
F/A-18 A/B/C/D Hornet
    The fiscal year 2017 President's Budget requests $371.7 million in 
APN to implement aircraft commonality programs, enhance relevant 
capability, improve reliability, and ensure structural safety of the 
inventory of 609 F/A-18 A-D Hornets. $31.4 million is for the Service 
Life Extension Program (SLEP).
    The F/A-18A-D was designed for, and has achieved, a service life of 
6,000 flight hours. These aircraft have performed as expected through 
their design life. Service life management of this aircraft is 
extending the life of this platform beyond its designed 6,000 flight 
hours. Through detailed analysis, inspections, and structural repairs, 
the DON has been successful in achieving 8,000 flight hours for 171 
aircraft and is pursuing a strategy to go as high as 10,000 flight 
hours on select aircraft, with the leading aircraft currently above 
9,550 hours. Continued investment in SLEP, the High Flight Hour (HFH) 
inspection program, Program Related Engineering, and Program Related 
Logistics is critical for our flight hour extension strategy and the 
ability of operational units to meet training and operational mission 
requirements.
    In order to maintain warfighting relevancy in a changing threat 
environment, we will continue to procure and install advanced systems 
such as the Joint Helmet-Mounted Cueing System (JHMCS), High Order 
Language Mission Computers, ALR-67v3, ALQ-214v5, Multifunctional 
Information Distribution System (MIDS), Joint Tactical Radio System 
(JTRS), APG-73 radar enhancements, Advanced Targeting Forward looking 
Infrared (ATFLIR) upgrades, and LITENING for the Marine Corps on 
selected F/A-18A-D aircraft.
F/A-18 E/F Super-Hornet
    The F/A-18E/F will be a mainstay of Navy's aviation CVW strike 
fighter force through 2035. The fiscal year 2017 President's Budget 
requests $184.9 million for procurement of 2 F/A-18E/F aircraft with 
Overseas Contingency Operations funds; $531.2 million in APN to 
implement aircraft commonality programs, enhance relevant capabilities, 
improve reliability, and ensure structural safety of the Super-Hornet 
fleet; and $227.4 million RDT&E,N to support the Flight Plan spiral 
capability development of increased survivability, improved lethality, 
counter-electronic attack, and continuation of the F/A-18E/F Service 
Life Assessment Program (SLAP).
    The F/A-18E/F significantly improves the survivability and strike 
capability of the CVW. The Super-Hornet provides increased combat 
radius and endurance, and a 25 percent increase in weapons payload over 
F/A-18A-D Hornets. The production program continues to deliver on-cost 
and on-schedule.
    The Super-Hornet uses an incremental approach to incorporate new 
technologies and capabilities, to include Digital Communication System 
Radio, MIDS-JTRS, JHMCS, ATFLIR with shared real-time video, Accurate 
Navigation, Digital Memory Device, Distributed Targeting System, 
Infrared Search and Track and continued advancement of the APG-79 
Active Electronically Scanned Array Radar. $38.3 million of the 2017 
RDT&E,N supports the F/A-18E/F SLAP requirement. The F/A-18 E/F fleet, 
on average, has flown approximately 45 percent of the design life of 
6,000 flight hours. The remaining design service-life will not be 
adequate to meet anticipated operational requirements through 2035. In 
2008, the Navy commenced a three phase F/A-18E/F SLAP to analyze actual 
usage versus structural test results and determine the feasibility of 
extending F/A-18E/F service life from 6,000 to 9,000 flight hours via a 
follow-on SLEP. The F/A-18E/F SLAP will identify the necessary 
inspections and modifications required to achieve 9,000 flight hours 
and increase total arrested landings and catapults beyond currently 
defined life limits. This extension is currently assessed as low risk. 
The Service Life Management Plan philosophy has been applied to the F/
A-18E/F fleet at an earlier point in its lifecycle than the F/A-18A-D. 
This will facilitate optimization of Fatigue Life Expended, flight 
hours, and total landings, thereby better aligning aircraft service 
life with fleet requirements.
AV-8B Harrier
    Since the beginning of the war on terror, the AV-8B Harrier has 
been a critical part of the strike fighter inventory for the Joint 
force. This aircraft has flown more than 54,000 hours in combat since 
2003, an average of over 400 hours per aircraft, with zero losses from 
the enemy in the air, but six losses on the ground when the enemy broke 
through our perimeter at Bastion Air Base in 2012. The fiscal year 2017 
President's Budget requests $60.8 million in APN funds to continue the 
incorporation of Obsolescence Replacement/Readiness Management Plan 
systems, electrical and structural enhancements, inventory sustainment 
and upgrade efforts to offset obsolescence and attrition, LITENING Pod 
upgrades, F402-RR-408 engine safety and operational changes, and 
Digital Interoperability upgrades to include Link 16.
    The fiscal year 2017, President's Budget requests $33.7 million in 
RDT&E,N funds to continue Design, Development, Integration and Test of 
various platform improvements, to include Engine Life Management 
Program, Escape Systems, Joint Mission Planning System updates, Link 16 
Digital Interoperability integration, Operational Flight Program (OFP) 
block upgrades to various mission and communication systems, navigation 
equipment, weapons carriage, countermeasures, and the Obsolescence 
Replacement/Readiness Management Plan.
    The AV-8B continues to deploy in support of operational 
contingencies. Each Marine Expeditionary Unit (MEU) deploys with 
embarked AV-8Bs. The AV-8B equipped with LITENING targeting pods and a 
video downlink to ROVER ground stations, precision strike weapons, 
Intrepid Tiger II EW pods and beyond visual range air-to-air radar 
guided missiles, continues to be a proven, invaluable asset for the 
MAGTF and joint commander across the spectrum of operations. AV-8B 
squadrons, both land- and sea-based, have flown more than 3,400 hours 
of strike sorties against ISIS with an average combat radius of 900 
miles. Digital Improved Triple Ejector Racks have allowed us to load up 
to six precision guided munitions per aircraft, with fuel tanks, guns, 
and LITENING Pods, exponentially increasing the combat viability of 
this platform. In fiscal year 2017 the Airborne Variable Message Format 
terminals will be installed in AV-8B to replace the current digital-
aided close air support (CAS) technology. The program will continue 
development of the H6.2 OFP which will include initial integration of 
Link 16 message sets. Additionally, this OFP will integrate Federal 
Aviation Administration compliant Navigation Performance/Area 
Navigation capability, an update to the LITENING Common OFP to 
implement improvements to moving target tracking, and it will correct 
additional software deficiencies identified through combat operations. 
The program will also work on the H7.0 OFP which will integrate full 
Link 16 functionality. As an out-of-production aircraft, the AV-8B 
program will continue its focus on sustainment efforts to mitigate 
significant inventory shortfalls, maintain airframe integrity, achieve 
full Fatigue Life Expended, and address reliability and obsolescence 
issues of avionics and subsystems.
    Operations ODYSSEY DAWN, ENDURING FREEDOM, FREEDOM SENTINEL, and 
today's Operation INHERENT RESOLVE confirm the expeditionary advantages 
of Short Take-Off and Vertical landing (STOVL) capabilities. Placing 
the Harrier as the closest multi-role fixed-wing asset to the 
battlefield greatly reduces transit times to the battlefield and 
enables persistent CAS without strategic tanking assets. Airframe 
sustainment initiatives, capability upgrades, and obsolescence 
mitigation is essential and must be funded to ensure the AV-8B remains 
lethal and relevant.
Next Generation Air Dominance (NGAD) Family of Systems
    The Department initiated a Next Generation Air Dominance (NGAD) 
analysis of alternatives (AoA) in January 2016 to address the 
anticipated retirement of the F/A-18E/F and EA-18G aircraft beginning 
in the mid-late 2020 timeframe. The Joints Chiefs of Staff have 
approved the Initial Capabilities Document that frames NGAD study 
requirements to support the full range of military operations from 
carrier-based platforms. The AoA will consider the widest possible 
range of materiel concepts while balancing capability, cost/
affordability, schedule, and supportability considerations. It will 
assess manned, unmanned, and optionally manned approaches to fulfill 
predicted 2030+ mission requirements. Analyses will consider baseline 
programs of record (current platforms), evolutionary or incremental 
upgrades to baseline programs (including derivative platforms), and new 
development systems or aircraft to meet identified gaps in required 
capability. The fiscal year 2017 budget requests $1.2 million in 
RDT&E,N to continue this AoA.
                  strike fighter inventory management
    The Department remains challenged with end of life planning for F/
A-18A-D and AV-8B aircraft that reach the end of their service life 
before replacement aircraft can be fully delivered into service. To 
keep pace with the issue and provide high-fidelity analytical rigor to 
decision makers, DON transitioned to the Naval Synchronization Tool in 
2014. This inventory modeling and forecasting tool better informs 
Strike Fighter Inventory Management planning and the budget programming 
process.
    The Strike Fighter inventory should be viewed in two separate and 
distinct phases. The near term challenge is managing a DON TACAIR force 
that has been reduced in capacity through a combination of reduced 
Strike Fighter aircraft procurement, higher than planned TACAIR 
utilization rates, under resourcing sustainment and enabler accounts 
resulting in inadequate availability of spare parts, and F/A-18A-D 
depot production falling short of the required output. As a result of 
aggressive efforts instituted in 2014 across the Department to improve 
depot throughput and return more aircraft back to service, fiscal year 
2015 depot throughput improved by 44 percent as compared to fiscal year 
2014, returning to pre-sequestration levels of production. TACAIR 
aviation depots are expected to continue to improve productivity 
through 2017, and fully recover the backlog of F/A-18A-D aircraft in 
2019, at which time the focus will shift toward F/A-18E/F service life 
extension, F-35 repair, and the rest of the DON aircraft inventory. In 
a similar effort to increase Harrier aircraft availability, the 
Department conducted a Harrier Independent Readiness Review which 
identified a need for changes in the Harrier sustainment plan to 
achieve required flight line and inventory readiness. This year, with 
Congress' support, the Department is implementing the identified 
changes to return Harrier readiness to required levels.
    In the far term, the Strike Fighter inventory is predominantly 
affected by new aircraft procurement: F/A-18E/F and F-35. COCOM-driven 
operations and Fleet Readiness Training Plan requirements are driving 
an increased Strike Fighter utilization rate that currently outpaces 
procurement. Mitigation strategies, such as reducing utilization on 
current aircraft, are being examined by Commander, Naval Air Forces. 
Nonetheless, the DON Strike Fighter force continues to meet Global 
Force Management operational commitments. We anticipate inventory 
pressure to remain relatively constant through the future as we 
experience peak depot inductions of F/A-18A-D aircraft reaching 8,000 
hours HFH service life extension inspections, repairs and 
modifications, and later as depot inductions increase significantly due 
to required F/A-18E/F service life extensions. The continued efforts of 
the Naval Aviation Enterprise will define the necessary actions 
required to manage the end of life for aging F/A-18A-D and AV-8B 
aircraft, address further discovery of greater than expected fatigue 
and corrosion issues, maintain their operational relevancy, and ensure 
required availability of these aircraft until fully replaced by the 
Joint Strike Fighter.
    The DON POR includes 680 F-35 aircraft; 340 F-35B and 340 F-35C. 
The Navy and Marine Corps will continue to modify transition plans to 
adjudicate F-35 procurement changes. Sustainment and modernization 
funding will be required to maintain the relevant operational 
capability of the F/A-18A-F and the AV-8B throughout the transition to 
the F-35.
    A 1,240 aircraft Strike Fighter force is the projected DON 
inventory needed to support the anticipated operational demand through 
the 2030 timeframe. The Navy inventory requirement of 820 aircraft 
supports 40 Active Duty Strike Fighter squadrons composed of 440 
aircraft (mix of 10-12 aircraft per squadron), and two Reserve 
squadrons with 22 total aircraft assigned. This requirement includes 
260 F-35C aircraft in 18 operational squadrons and one training 
squadron. In order to maintain the operational aircraft, support 
aircraft are required for aviator training, flight test, attrition 
Reserve and depot pipeline. This inventory projection is estimated 
based on historical averages and assumes 100 percent squadron 
entitlement.
    The Marine Corps TACAIR requirement is 420 F-35B/C aircraft in 18 
Active, two Reserve, and two training squadrons. Integral to our 
current force structure reductions, our tactical aviation squadrons 
were restructured to optimize the support they provide to the MAGTF. 
The POR for Marine Corps F-35 includes four F-35C squadrons that are 
capable of being integrated with Navy carrier air wings and a fair 
share contribution of F-35C aircraft, pilots and maintainers to the 
Fleet Replacement Squadrons.
Airborne Electronic Attack (AEA) / EA-18G Growler
    The fiscal year 2017 President's Budget request includes $120.6 
million in APN to implement aircraft commonality programs, maintain 
relevant capabilities, improve reliability, and ensure structural 
safety of the Growler fleet; and $46.9 million in RDT&E,N for Flight 
Plan spiral capability development, design and integration of Jamming 
Techniques Optimization improvements, evolutionary software development 
and related testing.
    In 2009, the Navy began the transition from EA-6Bs to EA-18Gs. The 
EA-18G is a critical enabler of the Joint force, bringing fully netted 
capabilities that provide electromagnetic spectrum dominance in an 
electromagnetic maneuver warfare environment. The first EA-18G squadron 
deployed to Iraq in an expeditionary role in November 2010 in support 
of Operation NEW DAWN, and subsequently redeployed to Italy on short 
notice in March 2011 in support of Operations ODYSSEY DAWN and UNIFIED 
PROTECTOR. The first carrier-based EA-18G squadron deployed in May 
2011. Three Active component Navy expeditionary squadrons, nine carrier 
based squadrons, and one Reserve squadron have completed transition to 
the EA-18G. The nine carrier based EA-18G squadrons will fulfill Navy 
requirements for airborne electronic attack; six expeditionary EA-18G 
squadrons (five Active, one Reserve component) will provide the joint, 
high-intensity AEA capability required by the joint forces commander, 
which was previously fulfilled by the Navy and Marine Corps EA-6B. The 
Navy was divested of EA-6Bs in 2015; the Marine Corps will be by 2019, 
leaving the E/A-18G as the only dedicated tactical AEA platform in the 
DOD inventory. The funded inventory is 160 EA-18G aircraft, of which 
114 have been delivered. Since their initial deployment, Growlers have 
flown more than 4,970 combat missions, have expended approximately 16 
percent of the 7,500 flight hour life per aircraft, and are meeting all 
operational commitments.
Next Generation Jammer (NGJ)
    NGJ is a new EW capability that will replace the 44-year old ALQ-
99, currently the only Navy and Joint airborne Tactical Jamming System 
pod. The ALQ-99 has limited capability to counter tactically and 
technically advanced threats, is increasingly difficult and costly to 
maintain, and has a vanishing industrial supplier base. The Navy and 
DOD require NGJ to meet current and emerging EW threats. NGJ will have 
the necessary power and digital techniques to counter increasingly 
advanced and sophisticated adversary EW search, surveillance, and 
targeting-radars and communications systems. NGJ will be DOD's only 
comprehensive tactical AEA capability, supporting all Services and 
joint/coalition partners, and will be implemented in three increments: 
Mid-Band (Increment 1), Low-Band (Increment 2), and High-Band 
(Increment 3). NGJ is designed to provide improved capability in 
support of joint and coalition air, land, and sea tactical strike 
missions and is critical to the Navy's vision for the future of strike 
warfare. Our fiscal year 2017 budget request of $577.8 million RDT&E,N 
is vital to maintain Increment 1 schedule, allow the program to 
complete the Critical Design Review, and begin pod hardware procurement 
and assembly of the Engineering and Development Models. In addition, 
$13.0 million RDT&E,N will complete technology feasibility studies and 
initiate prototyping efforts for Increment 2, the lower frequency band 
capability, to validate the technology readiness levels of the major 
subsystems for Increment 2.
Airborne Electronic Attack (AEA) / EA-6B Prowler
    The fiscal year 2017 President's Budget request includes $15.4 
million in RDT&E,N for EW Counter Response, $20.8 million RDT&E,N for 
MAGTF EW, $51.9 million in APN for AEA systems, and $5.7 million APN 
for MAGTF EW.
    Currently, there are 32 EA-6Bs which are distributed to three 
Marine Corps operational squadrons, one Navy flight test squadron, and 
one Marine Corps training squadron. Final retirement of the EA-6B from 
the DON inventory will be in 2019.
    Marine aviation is on a path toward a distributed AEA `system of 
systems' that is a critical element in achieving the MAGTF EW vision: A 
composite of manned and unmanned surface, air, and space assets on a 
fully collaborative network providing the MAGTF commander freedom of 
maneuver in and through the electromagnetic spectrum when and where 
desired. Included in this plan are the ALQ-231 Intrepid Tiger II 
communications jammer, integration of F-35s organic EW capabilities, 
planned UAS EW payloads, and the Spectrum Services Framework network to 
facilitate collaborative EW Battle Management.
    Intrepid Tiger II development and procurement is in response to 
Marine Corps requirements for increased precision EW capability and 
capacity across the MAGTF and provides EW capability directly to 
tactical commanders without reliance upon the limited availability of 
the low density/high demand EA-6B Prowler or E/A-18G. Intrepid Tiger II 
is currently carried on AV-8B and F/A-18 A++/C/D aircraft, has 
successfully completed nine deployments, and is currently deployed with 
both the 13th, 15th, 26th and 29th MEUs. Integration on Marine Corps 
rotary-wing aircraft is scheduled to be completed by the second quarter 
of fiscal year 2016. Development of an Intrepid Tiger II counter-radar 
capability for the penetrating electronic attack mission will begin in 
fiscal year 2016.
E-2D Advanced Hawkeye (AHE)
    The fiscal year 2017 President's Budget requests $363.8 million in 
RDT&E,N for continuation of added capabilities, to include Aerial 
Refueling, Secret Internet Protocol Router chat, Advanced Mid-Term 
Interoperability Improvement Program, MIDS/Joint Tactical Radio System 
Tactical Targeting Network Technology, Counter Electronic Attack, 
Sensor Netting, and Data Fusion, Navigation Warfare, Fighter to Fighter 
Backlink, ALQ217 Electronic Support Measures, and Crypto Modernization/ 
Frequency Remapping. In the fourth year of a 26 aircraft Multi-Year 
Procurement (MYP) contract covering fiscal years 2014-2018, the budget 
requests $1,041.5 million in APN for six Full Rate Production (FRP) Lot 
5 aircraft and spares, and Advance Procurement for fiscal year 2018 FRP 
Lot 6 aircraft.
    The E-2D AHE is the Navy's carrier-based Airborne Early Warning and 
Battle Management Command and Control system. The E-2D AHE provides 
Theater Air and Missile Defense and is capable of synthesizing 
information from multiple onboard and off-board sensors, making complex 
tactical decisions and then disseminating actionable information to 
Joint Forces in a distributed, open-architecture environment. E-2D is 
also a cornerstone of the Naval Integrated Fire Control--Counter Air 
(NIFC-CA) system of systems capability.
    Utilizing the newly developed AN/APY-9 Mechanical/Electronic Scan 
Array radar and the Cooperative Engagement Capability system, the E-2D 
AHE works in concert with tactical aircraft and surface-combatants 
equipped with the Aegis combat system to detect, track and defeat air 
and cruise missile threats at extended ranges. IOC was achieved in 
October 2014 and VAW-125 accomplished the first Fleet Squadron 
Deployment with the USS ROOSEVELT from March 11, 2015, through November 
23, 2015.
                        assault support aircraft
MV-22
    The fiscal year 2017 President's Budget requests $174.4 million in 
RDT&E,N for continued product improvements, including development of an 
Engineering Change Proposal for the Navy variant, the CMV-22B; and $1.3 
billion in APN for procurement of 16 Lot 21 MV-22s. The funds requested 
in the fiscal year 2017 President's Budget fully fund Lot 21, the final 
production lot of the second Multi-Year Procurement (MYP II), and 
procure long-lead items for fiscal year 2018 Lot 22 V-22 aircraft. 
Fiscal year 2018 begins procurement of the Navy CMV-22B variant in 
support of the Carrier On-Board Delivery mission. The APN request also 
includes $141.5 million to support Operations and Safety Improvement 
Programs (OSIPs), including Correction of Deficiencies and readiness 
improvements, with an additional $8.7 million Overseas Contingency 
Operations requested for the Advanced Ballistic Stopping System.
    MV-22 Osprey vertical flight capabilities, coupled with the speed, 
range, and endurance of fixed-wing transports, continue to enable 
effective execution of current missions that were previously 
unachievable. In November 2015, the V-22 fleet achieved its 300,000th 
flight hour milestone while executing at a high operational tempo 
consisting of multiple MEU deployments and two SPMAGTF-CR deployments 
in support of AFRICOM and CENTCOM. During 2015, the fourteenth of 
eighteen planned Active component squadrons became fully operationally 
capable. This is significant because while the platform the MV-22 is 
replacing, the CH-46, flew its final flight on August 1, 2015, the full 
complement of MV-22s have not yet been produced. The MV-22 Osprey fleet 
has continued world-wide growth with 269 of 360 MV-22s delivered. There 
are also 48 of 53 USAF CV-22s delivered.
    The V-22 Program focus is on delivery of MYP II production 
aircraft, sustaining Fleet aircraft, improving aircraft readiness, 
reducing operating costs, and expanding the business base, both 
domestically and internationally. Both the MV-22 and CV-22 continue to 
meet all Key Performance Parameters, and cost and schedule performance 
remains within established thresholds. The DON has initiated planning 
in preparation for a third MYP procurement (fiscal years 2018-2022) 
that would support procurement of the Navy CMV-22B variant, continued 
Marine Corps procurements, as well as potential future domestic and 
International sales. The stability of continuing procurement under a 
MYP benefits the supplier base and facilitates cost reductions on the 
part of both the prime contractor and sub-tier suppliers; and provides 
an incentive for additional V-22 procurements by international 
customers. In June of 2015, the Program's first Foreign Military Sales 
case was established with an initial procurement of five V-22s by the 
Government of Japan.
    Due to extremely high demand for MV-22 capability from the COCOMs, 
and resultant high operational tempo, the mission capability rates have 
not continued the year-over-year improvements seen from 2010-2013. This 
is primarily due to a shortfall in our ability to train enlisted 
maintainers in the numbers and with the qualifications necessary to 
sustain the high demand signal. Resources are being shifted and 
standup, transition, and training plans are being modified, but it 
remains challenging to keep pace with the COCOM demand signal. Despite 
the impact on readiness, the cost per flight hour has dropped by nearly 
26 percent since 2010. The fiscal Year 2017 OSIP provides a necessary 
and stable source of crucial modification funding as the program 
continues to implement readiness and cost reduction initiatives.
    Concurrent with our readiness and support initiatives, we are 
adding capabilities to the MV-22 that will make it even more valuable 
to the COCOMs. First, we are expanding the number of aerial refueling 
platforms that can refuel an MV-22, increasing the range of available 
options to support extended range missions. A mission kit to allow the 
MV-22 to deliver fuel to other airborne platforms is also being 
developed. This is a critical enabler for both shore and sea-based 
operations. Initial capability is planned to deliver by the summer of 
2018. Finally, an important capability that is a priority for the 
entire aviation force is Digital Interoperability (DI). We are testing 
and deploying the initial configuration of an onboard suite of 
electronics that will allow the embarked troop commander and aircrew to 
possess unprecedented situational awareness via real-time transmission 
of full motion video and other data generated by multiple air and 
ground platforms throughout the battlespace. This DI suite will also be 
able to collect, in real-time, threat data gathered by existing 
aircraft survivability equipment and accompanying attack platforms, 
thereby shortening the kill chain against ground and air based threats.
    In ongoing operations in the Middle East, the MV-22 has become the 
Tactical Recovery of Aircraft and Personnel (TRAP) platform of choice 
to rescue downed aircrew in hostile territory. Currently, marines are 
on alert in Central Command to recover American and Coalition aircrew 
executing strike operations. The speed, range, and aerial refueling 
capability have allowed the Osprey's to remain in strategic locations 
throughout the area poised for rescue operations. With an unrefueled 
mission radius of 423 nautical miles, the Osprey can reach greater 
distances around the battlefield to increase the likelihood of 
recovering isolated personnel as the speed and altitude envelopes 
provide better survivability for the TRAP force and recovered aircrew.
CH-53K Heavy Lift Replacement Program
    The fiscal year 2017 President's Budget requests $405.0 million in 
RDT&E,N to continue the Engineering Manufacturing Development phase of 
the CH-53K program and $438.0 million in APN for LRIP Lot 1. The first 
Engineering Development Model (EDM) achieved first flight on October 
27, 2015, and continues testing. The second EDM conducted its first 
flight on January 22, 2016, with the two remaining EDM vehicles 
expected to begin flying in 2016. During fiscal year 2017, the program 
will continue to execute developmental test flights and assembly of 
System Demonstration Test Article aircraft, which will be production 
representative aircraft utilized for Operational Test.
    The CH-53K will provide land and sea based heavy-lift capabilities 
not resident in any of today's platforms and contribute directly to the 
increased agility, lethality, and presence of joint task forces and 
MAGTFs. The CH-53K will transport 27,000 pounds of external cargo out 
to a range of 110 nautical miles under the most extreme operational 
conditions, nearly tripling the CH-53E's lift capability under similar 
environmental conditions, while fitting into the same shipboard 
footprint. The CH-53K, by providing unparalleled lift capability under 
high-altitude and hot weather conditions, greatly expands the 
commander's operational reach.
    Compared to the CH-53E, maintenance and reliability enhancements of 
the CH-53K will improve aircraft availability and ensure cost effective 
operations. Additionally, survivability and force protection 
enhancements will dramatically increase protection for both aircrew and 
passengers. Expeditionary heavy-lift capabilities will continue to be 
critical to successful land and sea-based operations in future anti-
access, area-denial environments, enabling sea-basing and the joint 
operating concepts of force application and focused logistics.
    Over the past 13 years, the CH-53 community accumulated over 95,000 
combat flight hours. During this period, we suffered fourteen aircraft 
losses; seven in combat and seven in training. As our CH-53E community 
approaches 30-years of service, these sustained and unprecedented 
operational demands have aged our heavy lift assault support aircraft, 
making it ever more challenging to maintain and underscoring the 
importance of its replacement, the CH-53K King Stallion.
    The MH-53E continues to perform its primary mission of airborne 
mine counter measures as well as transport of cargo and personnel. Over 
the past 12 years the MH-53 community has accumulated 87,474 flight 
hours. It too is approaching 30-years of service life and continues to 
be a challenging asset to maintain. Mine countermeasures operations 
puts added stress on these airframes. These aircraft are planned to 
remain in service until viable follow-on airborne mine countermeasure 
systems are fielded.
    To keep the CH-53E and MH-53E viable through their remaining 
services lives, the 2017 President's Budget requests $46.4 million in 
APN and $5.1 million in RDT&E,N. The requested funding provides for 
critical capabilities, to include: Condition Based Maintenance software 
upgrades; Kapton wiring replacement installations; Improved Engine 
Nacelles; Non-recurring engineering for upgrades to the MH-53E's 
antiquated cockpit; Area Navigation capability; Moving map and hover 
displays; Embedded Global Positioning System/Inertial Navigation 
System; T-64 Engine Reliability Improvements; Critical Survivability 
Upgrade; Satellite Communications kits; and a Smart Multi-Function 
Color Display. These critical safety and avionics upgrades will address 
obsolescence issues within the cockpit and increase overall situational 
awareness and mission effectiveness.
                      attack and utility aircraft
UH-1Y // AH-1Z
    Marine Corps Venom and Viper utility and attack aircraft have been 
critical for the success of the Marines in harm's way, and over the 
past 10-years these aircraft have flown over 162,000 hours. The fiscal 
year 2017 President's Budget requests $27.4 million in RDT&E,N for 
continued product improvements; and $817.0 million in APN for 24 AH-1Z 
aircraft. The program is a key modernization effort designed to resolve 
existing safety deficiencies and enhance operational effectiveness of 
the H-1 fleet. The 85 percent commonality between the UH-1Y and AH-1Z 
will significantly reduce life-cycle costs and the logistical 
footprint, while increasing the maintainability and deployability of 
both aircraft. The program will provide the Marine Corps with 349 H-1 
aircraft through a combination of new production and a limited quantity 
of remanufactured aircraft.
    The H-1 Upgrades Program is replacing the Marine Corps' UH-1N and 
AH-1W helicopters with state-of-the-art UH-1Y ``Venom'' and AH-1Z 
``Viper'' aircraft. The new aircraft are fielded with integrated glass 
cockpits, world-class sensors, and advanced helmet-mounted sight and 
display systems. The future growth plan includes a digitally-aided, 
close air support system designed to integrate these airframes, 
sensors, and weapons systems together with ground combat forces and 
other capable DOD aircraft. Integration of low-cost weapons such as the 
APKWS II provides increased lethality while reducing collateral damage.
    The UH-1Y aircraft achieved IOC in August 2008 and FRP in September 
2008. The ``UH-1Y Forward'' procurement strategy prioritized UH-1Y 
production in order to replace the under-powered UH-1N fleet as quickly 
as possible. The last UH-1N was retired from service as of December 
2014. The AH-1Z program received approval for FRP in November 2010 and 
achieved IOC in February 2011. As of January 2016, 171 aircraft (124 
UH-1Ys and 47 AH-1Zs) have been delivered to the Fleet Marine Force. An 
additional 72 aircraft are on contract and in production, to include 
the first three of 12 Pakistan Foreign Military Sales aircraft. Lot 1-7 
(fiscal years 2004-2010) aircraft deliveries are complete for both the 
UH-1Y and AH-1Z. Lot 8, 9, and 10 (fiscal years 2011-2013) deliveries 
are complete for the UH-1Y, and Lot 11 UH-1Y deliveries are in progress 
and ahead of schedule.
    The H-1 Upgrades program is in the process of integrating both the 
UH-1Y and AH-1Z into the Digital Interoperability environment being 
established across the MAGTF. With the integration of Intrepid Tiger II 
EW pod, the Marine Corps' Light Attack Helicopter Squadron community 
will be able to provide the MAGTF commanders with all six essential 
functions of Marine Air. Additionally, these aircraft will incorporate 
Software Reprogrammable Payloads (SRP) which enables utilization of 
diverse networks and waveforms, thereby enabling maneuverability within 
the EM spectrum. SRP will employ systems such as Link-16, Tactical 
Targeting Network Technology, Adaptive Networking Wideband Waveform, 
and the Soldier Radio Waveform.
MH-60 (Overview)
    MH-60 Seahawks have consistently met readiness and operational 
commitments. There will be 38 Navy Seahawk squadrons, with 275 MH-60S 
and 280 MH-60R aircraft, when transitions from the SH-60B, SH-60F, and 
HH-60H are complete. The last MH-60S delivered in January of 2016 and 
MH-60R deliveries are projected to continue into fiscal year 2018. The 
production program continues to deliver on-cost and on-schedule. Over 
the last twelve years of combat operations, deployed ashore and aboard 
our aircraft carriers, amphibious ships, and surface combatants at sea, 
Navy H-60 helicopters have provided vital over-watch and direct support 
to troops in combat across multiple theaters of operation and a variety 
of mission areas; including support for special operations forces, air 
ambulance, surface warfare, anti-submarine warfare, mine warfare, 
logistics support and humanitarian assistance/disaster relief.
    The MH-60R Multi-Mission Helicopter provides strike group 
protection and adds significant capability in its primary mission areas 
of Undersea Warfare and Surface Warfare; the latter including Fast 
Attack Craft/Fast In-shore Attack Craft threat response capabilities. 
The MH-60R is the sole organic air Anti-Submarine Warfare (ASW) asset 
in the Carrier Strike group and serves as a key contributor to theater 
level ASW. The MH-60R also employs advanced sensors and communications 
to provide real-time battlespace management with a significant, active 
or passive, over-the-horizon targeting capability. Secondary mission 
areas include Search and Rescue, Vertical Replenishment, Naval Surface 
Fire Support, Logistics Support, Personnel Transport and Medical 
Evacuation.
    The MH-60S supports Carrier and Expeditionary Strike Groups, Combat 
Logistics Ships, and LCS in the mission areas of SUW, Strike Warfare, 
Combat Search and Rescue, Vertical Replenishment (VERTREP), and will 
soon be supporting the LCS Mine Counter Measures Mission Package.
MH-60R/S Budget
    The fiscal year 2017 President's Budget requests $52.3 million in 
RDT&E,N across the Future Years Defense Program (FYDP) for a Service 
Life Assessment Program (SLAP). SLAP is critical to sustaining this 
critical capability. This program will inform the Department on what 
will be required to extend the MH-60 airframe service life beyond 2030. 
The program will initially focus on the air vehicle and include a 
Fatigue Life Assessment, Dynamic Component, and Subsystem Analysis to 
inform Service Life Extension Program (SLEP) requirements.
    The fiscal year 2017 President's Budget requests $61.2 million in 
APN for ancillary, support equipment, and field activities in support 
of the final aircraft deliveries.
    The Budget request also includes $5.3 million in RDT&E,N to support 
the MH-60 test program and other improvements. The MH-60 test program 
consists of numerous system upgrades and Pre-Planned Product 
Improvements, to include the Digital Rocket Launcher with APKWS II, 
MIDS-Low Volume Terminal Block Upgrade 2, and the VHF Omnidirectional 
Ranging/Instrument Landing System. Other improvements under this 
RDT&E,N line item are for MH-60S active/passive aircraft survivability 
equipment and MH-60S fixed forward-firing weapon/rocket corrections of 
deficiencies. These investments continue to improve the overall 
lethality of the MH-60 which is a critical enabler to sea control and 
provides forward-deployed capabilities to defeat area-denial 
strategies, allowing joint forces to project and sustain power.
                       executive support aircraft
VH-3D/VH-60N Executive Helicopter Series
    The VH-3D and VH-60N are safely performing the Executive Lift 
mission worldwide. As these aircraft continue to provide seamless 
vertical lift for the President of the United States, the DON is 
working closely with HMX-1 and industry to sustain these aircraft until 
a Presidential Helicopter Replacement platform (VH-92A) is fielded. The 
fiscal year 2017 President's Budget requests an investment of $66.8 
million of APN to continue programs that will ensure the in-service 
Presidential fleet remains safe and reliable. Ongoing efforts include a 
Communications Suite Upgrade (Wide Band Line of Sight) that provides 
persistent access to the strategic communications network, the 
continuing Structural Enhancement Program necessary to extend the 
service life, and Obsolescence Management needed to sustain and improve 
system readiness for both VH-60N and VH-3D platforms. The Cabin 
Interior and Environmental Control System upgrade is a critical 
obsolescence management effort for the VH-3D, reducing aircraft 
operational weight and improving maintainability. Where appropriate, 
technology updates for legacy platforms will be directly leveraged for 
the benefit of the VH-92A program.
VH-92A Presidential Helicopter Replacement Aircraft
    The fiscal year 2017 President's Budget request includes $338.4 
million of RDT&E,N to fund the VH-92 Engineering Manufacturing 
Development contract and associated government activities. The Sikorsky 
S-92A aircraft will be used to execute the acquisition strategy of 
integrating mature subsystems into an air vehicle that is currently in 
production. Significant progress has been made in the past year, with 
completion of the System Preliminary Design Review in August, 
successful completion of the antenna co-site risk reduction ground and 
fight testing in September, and induction of two S-92A aircraft into 
the modification process. These will become EDM aircraft (EDM 1 and 2). 
Critical Design Review is planned for the 4th quarter of fiscal year 
2016. Contractor ground and flight testing for airworthiness 
certification is planned for 2017 and Government ground and flight 
testing is planned to commence in 2018. The first four of the planned 
operational inventory of 21 aircraft are planned to achieve IOC in 
2020.
                          fixed-wing aircraft
KC-130J
    The DON implemented plans to procure two KC-130Js per year starting 
in fiscal year 2016 and to continue product improvements. Targeted 
improvements include aircraft survivability through advanced electronic 
countermeasure modernization and obsolescence upgrades to the Harvest 
HAWK ISR/Weapon Mission Kit.
    Fielded throughout our Active Force, the KC-130J brings increased 
capability, performance and survivability, with lower operating and 
sustainment costs for the MAGTF. Forward deployed in support of ongoing 
operations since 2005, the KC-130J continues to deliver marines, fuel 
and cargo whenever and wherever needed. In 2016, the KC-130J remains in 
high demand, providing tactical air-to-air refueling, assault support, 
CAS and Multi-sensor Imagery Reconnaissance (MIR) capabilities in 
support of Special Purpose MAGTFs and deployed MEUs.
    First deployed in 2010, the roll-on/roll-off Harvest HAWK mission 
kit for the KC-130J continues to provide extended MIR and CAS 
capabilities. With almost 7,000 hours flown, 210 Hellfire missiles, 91 
Griffin missiles, and six Viper Strike munition combat engagements, 
this expeditionary mission kit has proven its worth and made the KC-
130J even more indispensable for marines on the ground. All six mission 
kits have been fielded, and funding included in the fiscal year 2017 
budget request will be used to maintain operational relevance of this 
mission system through compatibility with additional Hellfire variants 
and an improved full motion video data-link.
    The Marine Corps has funded 65 of the 79 KC-130J aircraft through 
the current FYDP. The three aircraft included in the fiscal year 2013 
budget would have completed the Active Component (AC) requirement of 51 
aircraft. However, in 2014 the Marine Corps began using the AC backup 
aircraft to accelerate the Reserve Component (RC) transition from the 
legacy KC-130T aircraft to the more capable and efficient KC-130J. The 
aircraft requested in the fiscal year 2017 President's Budget will 
continue to increase KC-130J inventory as we strive to achieve Full 
Operational Capability in the RC. Delays in procurement would force the 
Marine Corps to sustain the KC-130T aircraft longer than planned at an 
increased cost.
    It is also important to note that the USAF C-130J procurement is 
anticipated to end in 2025. If the Marine Corps procure KC-130Js at a 
rate of two per year, we will have approximately six aircraft remaining 
to procure after fiscal year 2025 in order to reach the POR of 79 
aircraft. The loss of USAF aircraft quantities and the uncertainty of 
additional Foreign Military Sales may result in a significant unit cost 
increase for these final few aircraft.
                       maritime support aircraft
P-8A Poseidon
    The P-8A Poseidon recapitalizes the Maritime Patrol ASW, Anti-
Surface Warfare (ASuW) and armed ISR capability currently resident in 
the P-3C Orion. The P-8A combines the proven reliability of the 
commercial 737 airframe with avionics that enables integration of 
modern sensors and robust communications. The P-8A's first operational 
deployment was completed in June 2014, and continuous 7th Fleet 
operational deployments are underway. As of December 2015, five Fleet 
squadrons have completed transition to P-8A and a sixth is underway. 
All Fleet squadrons are scheduled to complete transition by the end of 
fiscal year 2019. The P-8A program is meeting all cost, schedule and 
performance parameters in accordance with the approved Acquisition 
Program Baseline.
    The prime contractor (Boeing Company) has delivered 36 aircraft 
(LRIP I/II/III/IV) to the Fleet as of December 2015, and four remaining 
LRIP IV aircraft are scheduled to deliver by May 2016. FRP 1 (16 
aircraft) is under contract and will start delivering in May 2016. FRP 
2 and 3, which consist of nine Navy and four Royal Australian Air Force 
(RAAF) aircraft in FRP 2 and sixteen Navy and four RAAF aircraft in FRP 
3, awarded in August 2015. The fiscal year 2017 President's Budget 
procures 47 P-8As over the FYDP and sustains the P-3C to P-8A 
transition. In fiscal year 2017 the warfighting requirement remains 117 
aircraft; however, the fiscally constrained inventory objective for 109 
aircraft will provide adequate capacity at acceptable levels of risk.
    The first upgrade under P-8A Increment 2 added a broad-area, multi-
static acoustic ASW capability to the aircraft. This capability, 
referred to as ``MAC (Multi-Static Active Coherent)'' significantly 
increases the P-8A's ASW search rates in harsh littoral environments. 
The capability is scheduled to receive regular incremental enhancements 
and upgrades over the next seven years in order to pace the ASW threat. 
MAC completed Follow-on Operational Test & Evaluation in April 2015 and 
has been delivered to the Fleet.
    The Navy is on track to field additional Increment 2 MAC 
capabilities to include improvements to the Operator-Machine Interface 
in 2016. Separately, Increment 2 integration of a High Altitude ASW 
Weapons Capability continues under a contract awarded in December 2014, 
in support of a planned 2017 Fleet introduction.
P-3C Orion
    The aging P-3 fleet will continue to provide critical ASW, ASuW and 
ISR support for joint and naval operations worldwide until the Fleet 
completes transition to P-8A. The fiscal year 2017 budget request 
provides $2.8 million in funding required to manage P-3C aircraft 
mission systems obsolescence during the transition. As of December 
2015, 61 P-3 Special Structural Inspection-Kits have been installed 
(one remaining); 89 Zone 5 modifications completed (last aircraft in 
work); and 26 Outer Wing Installations completed (last three aircraft 
in work).
    The P-3 aircraft is well beyond the original planned fatigue life 
of 7,500 hours for critical components, with an average airframe usage 
of over 18,700 hours. The fiscal year 2017 request of $1.9 million 
continues to fund the P-3 Fatigue Life Management Program so the Navy 
can maintain sufficient capacity to successfully complete the 
transition to P-8A.
EP-3 Aries Replacement/Sustainment
    The EP-3E Aries is the Navy's premier manned Maritime Intelligence, 
Surveillance, Reconnaissance, and Targeting (ISR&T) platform. The Joint 
Airborne Signals intelligence (SIGINT) Common Configuration includes 
Multi-Intelligence sensors, robust communication, and data links 
employed by the flexible and dependable P-3 air vehicle to ensure 
effective Maritime ISR&T support across the full Range of Military 
Operations. The fiscal year 2011 National Defense Authorization Act 
directed Navy to sustain EP-3E airframe and mission systems relevance 
to minimize SIGINT capability gaps until the systems are fully 
recapitalized with a platform or family of platforms that in the 
aggregate provide equal or better capability and capacity.
    Navy ISR family of systems approach shifts focus from platforms to 
payloads. The future force will rapidly respond to changing threats 
with modular, scalable, netted sensors and payloads on a range of sea 
and shore-based manned and unmanned systems, establishing persistent 
Maritime ISR when and where it is needed.
    Navy's ISR&T transition plan will deliver increased capacity and 
persistence by the end of the decade. However, due to fiscal and end 
strength constraints, the Department will accept some risk in near term 
capability and capacity. The EP-3 fiscal year 2017 budget request of 
$22.2 million (baseline and OCO) reduces risk compared to the previous 
fiscal year and the Navy continues to work with Joint Staff, DOD, and 
the Fleet to optimize the ISR transition plan. The transition plan 
remains largely unchanged from fiscal year 2016.
                    unmanned aircraft systems (uas)
    The DON has placed a priority on the development of unmanned 
systems leading to a fully integrated manned and unmanned fleet. 
Unmanned technology will not replace our sailors and marines, instead 
it will unlock their full potential as we integrate this technology 
with our total force.
MQ-4C Triton UAS
    The fiscal year 2017 President's Budget enables MQ-4C Triton to 
continue production with four LRIP aircraft in fiscal year 2016 and two 
LRIP aircraft in fiscal year 2017.
    The fiscal year 2017 President's Budget requests $111.7 million in 
RDT&E,N to continue Triton development activities, $181.3 million in 
RDT&E for Triton modernization, and $579.2 million of APN for 
procurement of the second lot of LRIP aircraft and spares; and for 
procurement of long lead materials for the first lot of FRP aircraft.
    Triton will start establishing five globally-distributed, 
persistent maritime ISR orbits beginning in fiscal year 2018, as part 
of the Navy's Maritime ISR&T transition plan. MQ-4C Triton test 
vehicles have completed 57 total flights as of February 2016 and are 
continuing sensor flight testing this spring. An Operational Assessment 
was completed in December 2015. This rigorous integrated flight test 
program will support Milestone C planned for fiscal year 2016. The MQ-
4C Triton is a key component of the Navy Maritime Patrol Reconnaissance 
Force. Its persistent sensor dwell, combined with networked sensors, 
will enable it to effectively meet ISR requirements in support of the 
Navy Maritime Strategy.
    The Navy currently maintains an inventory of four RG-4A Global Hawk 
Block 10 UAS, as part of the BAMS Demonstrators, or BAMS-D program. 
These aircraft have been deployed to CENTCOM's AOR for over seven 
years. BAMS-D recently achieved over 18,000 flight hours in support of 
CENTCOM ISR tasking. These assets are adequate to address Navy needs 
through fiscal year 2018.
MQ-XX
    In 2015, the Office of the Secretary of Defense conducted a 
comprehensive Strategic Portfolio Review (SPR) of DOD ISR programs. The 
results of the SPR, and a subsequent ISR portfolio review, as reflected 
in our fiscal year 2017 President's Budget, is the restructure of the 
UCLASS program. This new program, MQ-XX, will deliver the Navy's first 
carrier-based unmanned aircraft. The MQ-XX program will deliver a high-
endurance unmanned aircraft that will replace today's F/A-18E/F 
aircraft in its role as the aerial tanker for the Navy's CVW, thus 
preserving the strike fighter's flight hours for its primary missions. 
MQ-XX will also leverage the inherent range and payload capacity of 
high endurance unmanned aircraft to provide critically-needed, around 
the clock, sea-based ISR capability in support of the Carrier Battle 
Group and the joint forces commander. The Navy envisions that the open 
standards to be employed in the MQ-XX design will enable future 
capabilities to be introduced to the aircraft after it has been fully 
integrated into the CVW. The fiscal year 2017 President's Budget 
requests $89.0 million in RDT&E,N for MQ-XX developmental activities.
    Ongoing Carrier modifications to prepare Mission Control Spaces and 
integrate UCLASS architecture will be leveraged for MQ-XX, as will the 
Control System and Connectivity segment and the Common Control System 
programs currently in development.
MQ-8 Fire Scout
    The MQ-8 Fire Scout is a rotary-wing air system that includes two 
airframe types, the MQ-8B and MQ-8C. The MQ-8C is a larger, more 
capable and more cost-effective airframe that uses the same ground 
control station, avionics and payloads as the MQ-8B. The system is 
designed to operate from any suitably-equipped air-capable ship, carry 
modular mission payloads, and operate using the Tactical Control System 
and Line-Of-Sight Tactical Common Data Link. The fiscal year 2017 
President's Budget requests $26.5 million of RDT&E,N to continue 
development of the MQ-8C endurance upgrade, to include integration of 
ISR payloads and radar, and studies for future payloads such as short 
range air to surface weapons and mine counter measures. Funding will 
also be used to continue payload and LCS/FF integration with the MQ-8B 
and MQ-8C. The request for $92.9 million in APN procures one MQ-8C air 
vehicle; MQ-8 system mission control systems; ancillary, trainers and 
support equipment; technical support; modifications based on 
engineering changes; and logistics products and support to outfit 
suitably-equipped air-capable ships and train the associated Aviation 
Detachments.
    The MQ-8B has completed ten operational deployments and flown more 
than 15,000 operational hours, including: deployments to Afghanistan 
from May 2011 until August 2013 for more than 5,100 dedicated ISR 
flight hours in support of U.S. and coalition forces; more than 8,100 
hours on Navy Frigates; and 160 hours aboard LCS performing more than 
2,000 autonomous ship board take-offs and landings in support of 
Special Operations Forces and Navy operations. The MQ-8B is deployed 
today with HSM-35 in a composite aviation detachment with a MH-60R on 
USS FORTH WORTH (LCS 3), and will deploy with a maritime search radar 
capability this fiscal year. Integration with the Coastal Battlefield 
Reconnaissance and Analysis Mine Countermeasures capability is 
underway.
    The MQ-8C Fire Scout has flown more than 765 flight hours 
conducting developmental testing, and completed 84.2 flight hours 
during its successful completion of a land based Operational Assessment 
in the first quarter of fiscal year 2016. The Navy is executing efforts 
for integration of a radar capability into the MQ-8C, and is planning 
to integrate the APKWS II and Mine Countermeasures payloads. The Fire 
Scout program will continue to support integration and testing for LCS-
based mission modules.
Tactical Control System (TCS)
    The fiscal year 2017 President's Budget requests $8.4 million in 
RDT&E,N for the MQ-8 System's Tactical Control System (TCS). TCS 
provides a standardscompliant open architecture with scalable command 
and control capabilities for the MQ-8 Fire Scout system. In fiscal year 
2017, TCS will continue transition of the Linux operating system to a 
technology refreshed mission control system, and
enhance the MQ-8 System's Automatic Identification System and sensor 
track generation integration with ship systems. The Linux operating 
system conversion overcomes hardware obsolescence issues with the 
Solaris based control stations and provides lower cost software updates 
using DOD common application software. In addition, the TCS Linux 
upgrade will enhance collaboration with the Navy's future UAS Common 
Control System.
RQ-21A Blackjack
    The fiscal year 2017 President's Budget requests $14.6 million in 
RDT&E ($5.1 million USN, $9.5 million USMC); $70.0 million in APN for 
four Navy systems to support Naval Special Warfare; and $80.2 million 
in Procurement, Marine Corps for four expeditionary RQ-21A systems 
(which includes 20 air vehicles) to address Marine Corps ISR capability 
requirements. This Group 3 UAS will provide persistent ship and land-
based ISR support for expeditionary tactical-level maneuver decisions 
and unit level force defense and force protection missions. Blackjack 
entered LRIP in 2013, completed Initial Operational Test & Evaluation 
in the second quarter of fiscal year 2015, and reached IOC in January 
2016. FRP is planned for the fourth quarter of fiscal year 2016.
    The RQ-21's current configuration includes full motion video, 
communications relay package and automatic identification systems. The 
air vehicle's payload bay allows for rapid deployment of signal 
intelligence payloads. The Marine Corps is actively pursuing 
technological developments for the RQ-21A system in an effort to 
provide the MAGTF and Marine Corps Forces Special Operations Command 
with significantly improved capabilities. Initiatives include over-the-
horizon communication and data relay ability to integrate the system 
into future networked digital environments; electronic warfare and 
cyber payloads to increase non-kinetic capabilities; and change 
detection radar and moving target indicators to assist warfighters in 
battlespace awareness and force application.
Common Control System (CCS)
    The fiscal year 2017 President's Budget requests $36.5 million in 
RDT&E,N for the Common Control System (CCS). The primary mission of CCS 
is to provide common control across the Navy's unmanned systems (UxS) 
portfolio to add scalable and adaptable warfighting capability, 
implement robust cybersecurity attributes,
leverage existing government owned products, eliminate redundant 
software development efforts, consolidate product support, encourage 
innovation, improve cost control, and enable rapid integration of UxS 
capabilities across all domains: Air, Surface, Sub-Surface, and Ground. 
CCS leverages existing Government owned software to provide UxS Vehicle 
Management (VM), Mission Management (MM) and Mission Planning (MP) 
capabilities. CCS uses an open and modular business model and is being 
developed initially as Government Furnished Information/Equipment for 
the MQ-XX and for follow-on use with Triton and Fire Scout. In Fiscal 
year 2017, CCS Increment I will continue to perform software design, 
development, integration and test for VM. Concurrently, CCS Increment 
II will conduct MM/MP requirements development and software design.
                        strike weapons programs
Cruise Missile Strategy
    The Department's Cruise Missile Strategy has been fully defined 
with the fiscal year 2017 budget submission. Developmental and 
sustainment efforts of this strategy include; support of Tomahawk Land 
Attack Block III and TACTOM Block IV through anticipated service lives, 
integration of modernization and obsolescence upgrades to TACTOM during 
a mid-life recertification program (which extends the missile service 
life an additional 15-years), fielding of the LRASM as the OASuW 
Increment 1 material solution to meet near to mid-term threats, and 
development of follow on Next Generation Strike Capability (NGSC) 
weapons to address future threats and targets in time to replace or 
update legacy weapons while bringing next generation technologies into 
the Navy's standoff conventional strike capabilities. NGSC includes 
capabilities for both the air-launched OASuW Increment 2 capabilities 
to counter long-term anti-surface warfare threats, and a surface and 
sub-surface-launched NGLAW to initially complement, and then replace, 
current land attack cruise missile weapon systems.
Tactical Tomahawk (TACTOM) BLK IV Cruise Missile Program
    The fiscal year 2017 President's Budget requests $186.9 million in 
Weapons Procurement, Navy (WPN) for procurement of an additional 100 
TACTOM weapons and associated support, $71.0 million in Other 
Procurement, Navy (OPN) for the Tomahawk support equipment, and $71.3 
million in RDT&E,N for capability updates of the weapon system. WPN 
resources will be for the continued procurement of this versatile, 
combat-proven, deep-strike weapon system in order to meet ship load-
outs and combat requirements. OPN resources will address the resolution 
of Tactical Tomahawk Weapons Control System obsolescence, 
interoperability, and information assurance mandates. RDT&E,N resources 
will be used to develop navigation system improvements and 
communications upgrades to improve TACTOMs performance in Anti-Access/
Area Denial environments, as well as development of a seeker to enable 
TACTOM to engage maritime targets.
    Tomahawk provides an attack capability against fixed and mobile 
targets, and can be launched from both Ships and Submarines. The 
current variant, TACTOM, preserves Tomahawk's long-range precision-
strike capability while significantly increasing responsiveness and 
flexibility. TACTOM's improvements include in-flight retargeting, the 
ability to loiter over the battlefield, in-flight missile health and 
status monitoring, and battle damage indication imagery--providing a 
digital look-down ``snapshot'' of the battlefield via a satellite data 
link. Other Tomahawk improvements include rapid mission planning and 
execution via Global Positioning System (GPS) onboard the launch 
platform and improved anti-jam GPS.
Tomahawk Theater Mission Planning Center (TMPC)
    The fiscal year 2017 President's Budget for TMPC requests $13.2 
million in RDT&E,N and $40.1 million in OPN. TMPC is the mission 
planning and strike execution segment of the Tomahawk Weapon System. 
TMPC develops and distributes strike missions for the Tomahawk Missile; 
provides for precision targeting, weaponeering, mission and strike 
planning, execution, coordination, control and reporting. TMPC provides 
COCOMs and Maritime Component Commanders the capability to plan and/or 
modify conventional Tomahawk Land-Attack Missile missions. TMPC is a 
Mission Assurance Category 1 system, vital to operational readiness and 
mission effectiveness of deployed and contingency forces. RDT&E,N 
efforts will address National imagery format changes, update Tomahawk 
navigation and accuracy algorithms--to include operations in the 
maritime and/or Anti-Access Area Denial environments, upgrade obsolete 
Tomahawk Cruise Missile Communications and initiate a Tomahawk seeker 
integration into the TMPC mission planning environment. OPN resources 
will enable the Navy to continue software engineering effort associated 
with Tomahawk Missile Modernization, upgrade unsupportable and obsolete 
TMPC software to ensure compliance with DOD cybersecurity mandates, and 
implement the TMPC Enterprise Network to allow for rapid delivery of 
security policies, cybersecurity software patches and anti-virus 
definitions. All of these upgrades are critical for the support of over 
180 TMPC operational sites worldwide, afloat and ashore, to include: 
Cruise Missile Support Activities (inclusive of STRATCOM), Tomahawk 
Strike and Mission Planning Cells (5th, 6th, 7th Fleet), Carrier Strike 
Groups, Surface and Subsurface Firing Units and Labs/Training 
Classrooms.
Offensive Anti-Surface Warfare (OASuW) Increment 1 (Long Range Anti-
        Ship Missile (LRASM))
    The fiscal year 2017 President's Budget request contains $250.4 
million in RDT&E,N and $29.6 million in WPN for OASuW Increment 1 
(LRASM). RDT&E,N funding will support the completion of technology 
maturation and initiation of the integration and test phase of the 
program; WPN funding will procure the initial 10 All-Up-Round weapons. 
OASuW Increment 1 (LRASM) leverages the Defense Advanced Research 
Projects Agency (DARPA) weapon demonstration effort. This program will 
provide COCOMs the ability to conduct ASuW operations against high-
value surface combatants protected by Integrated Air Defense Systems 
with long-range Surface-to-Air-Missiles and deny adversaries the 
sanctuary of maneuver. The OASuW Increment 1 (LRASM) program has nearly 
completed transition from DARPA to Navy leadership and is scheduled to 
achieve Early Operational Capability on the Air Force B-1 by the end of 
fiscal year 2018 and Navy F/A-18E/F by the end of fiscal year 2019.
Next Generation Strike Capability (NGSC)
    To ensure Navy maintains its strike capability in the next decade 
and beyond, the Department is pursuing an NGSC as part of the 
overarching Cruise Missile Strategy. NGSC will be a family of more 
lethal, survivable, and affordable multi-mission standoff weapons 
employable from multiple platforms. The family of NGSC weapons will be 
capable of attacking land, maritime, stationary, and mobile targets 
while supporting two of the Navy's primary mission areas: power 
projection (land attack from the air/sea/undersea) and sea control 
against enemy surface action groups and other combatants (ASuW). To the 
maximum extent possible, the Navy plans to utilize common components 
and component technologies (e.g. navigation, communications, seeker, 
guidance and control) to reduce cost, shorten development timelines, 
and promote interoperability. Based on performance requirements and 
launch parameters, it is likely the missile airframes and propulsion 
systems will differ between the air-launched and sea-launched weapons. 
NGLAW is planned as the follow-on surface/sub-surface launched long-
range strike capability to address the 2028 and beyond land attack and 
maritime threats and gaps. NGLAW is envisioned to complement, and then 
eventually replace, the Tomahawk Weapon System, which will be 
operational until the mid-late 2040s. OASuW Increment 2 is planned to 
address the long-term `air-launched' anti-surface warfare requirements 
for employment within advanced anti-access environments. The fiscal 
year 2017 budget requests $9.9 million for NGLAW and $2.0 million for 
OASuW Increment 2.
Sidewinder Air-Intercept Missile (AIM-9X)
    The fiscal year 2017 President's Budget requests $56.3 million in 
RDT&E,N and $70.9 million in WPN for this joint DON and USAF program. 
RDT&E,N will be applied toward the Engineering Manufacturing 
Development phase of critical hardware obsolescence redesign and 
Developmental Testing of Version 9.4 missile software; both part of the 
AIM-9X/BLK II System Improvement Program (SIP III). Navy also continues 
the design and development of Insensitive Munitions improvements in 
accordance Joint Chiefs of Staff direction. WPN funding is requested to 
procure a combined 152 All-Up-Rounds and Captive Air Training Missiles 
and associated missile-related hardware. Fiscal year 2017 will be the 
first year the Department procures the Block II+ configuration which 
delivers survivability enhancements to launch platforms. The AIM-9X 
Block II/Block II+ Sidewinder is the newest in the Sidewinder family. 
It is the only short-range infrared air-to-air missile integrated on 
Navy, Marine Corps, and USAF strike-fighter aircraft and will be 
integrated on Marine Corps attack helicopters. This fifth-generation 
weapon incorporates high off-boresight acquisition capability and 
increased seeker sensitivity through an imaging infrared focal plane 
array seeker with advanced guidance processing for improved target 
acquisition; data link capability; and advanced thrust vectoring 
capability to achieve superior maneuverability and increase the 
probability of intercept of adversary aircraft.
Advanced Medium-Range Air-to-Air Missile (AMRAAM/AIM-120D)
    The fiscal year 2017 President's Budget requests $40.4 million in 
RDT&E,N for continued software capability enhancements and $204.7 
million in WPN for 163 All-Up-Rounds and associated missile-related 
hardware. AMRAAM is a joint USAF and DON weapon that counters existing 
aircraft and cruise-missile threats. It uses advanced counter-
electronic attack capabilities at both high and low altitudes, and can 
engage targets from both beyond visual range and within visual range. 
AMRAAM provides an air-to-air first look, first shot, first kill 
capability, while working within a networked environment in support of 
the Navy's Theater Air and Missile Defense Mission Area. RDT&E,N will 
be applied toward software upgrades to counter emerging Electronic 
Attack threats for AIM-120C/D missiles.
Small Diameter Bomb II (SDB II)
    The fiscal year 2017 President's Budget requests $97.6 million in 
RDT&E,N for continued development of the USAF-led Joint Service SDB II 
weapon and Joint Miniature Munitions Bomb Rack Unit (JMM BRU) programs. 
Using multi-mode seeker and two-way data-link capabilities, SDB II 
provides an adverse weather, day or night standoff capability against 
mobile, moving, and fixed targets, and enables target prosecution while 
minimizing collateral damage. SDB II will be integrated into the 
internal carriage of both DON variants of the Joint Strike Fighter (F-
35B/F-35C) and Navy's F/A-18E/F. The JMM BRU (BRU-61A/A) is being 
developed to meet the operational and environmental integration 
requirements for internal bay carriage of the SDB II in the F-35B/F-
35C, and external carriage on F/A-18E/F. JMM BRU completed Milestone B 
and entered Engineering Manufacturing Development in August 2015. Both 
SDB II and JMM BRU will use a Universal Armament Interface architecture 
to enable more efficient/less costly future weapon/platform 
integration.
Advanced Anti-Radiation Guided Missile (AARGM) & AARGM Extended Range
    The fiscal year 2017 President's Budget requests $4.2 million of 
RDT&E,N for Block 1 follow-on development and test program, $43.1 
million of RDT&E,N for AARGM Extended Range (AARGM-ER) development, and 
$178.2 million of WPN for production of 253 All-Up-Rounds and Captive 
Training Missiles. The AARGM cooperative program with the Italian Air 
Force transforms the High-Speed Anti-Radiation Missile (HARM) into an 
affordable, lethal, and flexible time-sensitive strike weapon system 
for conducting Destruction of Enemy Air Defense missions. AARGM adds 
multi-spectral targeting capability and targeting geospecificity to its 
supersonic fly-out to destroy sophisticated enemy air defenses and 
expands upon the HARM target set. The program achieved IOC on the F/A-
18C/D aircraft in July 2012, with forward deployment to PACOM; 
integration is complete for AARGM with release of H-8 System 
Configuration Set for F/A-18E/F and EA-18G aircraft. The AARGM-ER 
modification program, involving hardware and software improvements, 
began in fiscal year 2016. This effort will increase the weapon 
system's survivability against complex and emerging threat systems and 
affords greater stand-off range for the launch platform. AARGM-ER will 
be designed to fit internally to both F-35A and F-35C, thereby 
increasing the capability and lethality of the Lightning II weapon 
system.
Joint Air-to-Ground Missile (JAGM)
    The fiscal year 2017 President's Budget requests $17.9 million in 
RDT&E,N to continue a five year integration effort of JAGM Increment 1 
onto the Marine Corps AH-1Z and $26.2 million in WPN for production of 
96 All-Up-Rounds. JAGM is a Department of the Army-led, joint ACAT-1D 
Major Defense Acquisition Program. JAGM is a direct attack/close-air-
support missile program that will utilize advanced seeker technology to 
provide fire-and-forget, simultaneous target engagement against land 
and maritime targets. JAGM will replace the HELLFIRE and TOW II missile 
systems for the DON. In November 2012, the Joint Chiefs of Staff 
authorized the JAGM incremental requirements and revalidated the DON's 
AH-1Z Cobra aircraft as a threshold platform. JAGM Increment 1 achieved 
Milestone B approval in fiscal year 2015, a Milestone C (LRIP) is 
planned for the fiscal year 2017 and AH-1Z Cobra/JAGM IOC is planned 
for fiscal year 2019.
Advanced Precision Kill Weapon System II (APKWS II)
    The fiscal year 2017 President's Budget requests $36.7 million in 
Procurement of Ammunition, Navy and Marine Corps (PANMC) for 
procurement of 1,060 APKWS II Precision Guidance Kits. APKWS II 
provides an unprecedented precision guidance capability to DON unguided 
rocket inventories, improving accuracy and minimizing collateral 
damage. Program production continues on schedule, meeting the needs of 
our warfighters in today's theaters of operations. Marine Corps AH-1W 
and UH-1Y achieved IOC in March 2012 and the Marine Corps AH-1Z 
platform was certified to fire APKWS II in June 2015. These platforms 
have expended more than 190 APKWS II weapons in combat thus far. The 
Navy successfully integrated APKWS II on the MH-60S for an Early 
Operational Capability in March 2014 and fielded a similar effort on 
the MH-60R in March 2015. A variant of APKWS II has been integrated 
onto the AV-8B and F-16 aircraft, and has been fielded in support of 
Operation INHERENT RESOLVE.
Direct Attack Weapons and General Purpose Bombs
    The fiscal year 2017 President's Budget requests $91.7 million in 
PANMC and $40.4 million in OCO for Direct Attack Weapons and General 
Purpose bombs to include the Joint Direct Attack Munition (JDAM). In 
eighteen months of OPERATION INHERENT RESOLVE, DON aircraft have 
expended more than three times the number of 500lb JDAM kits than we 
have procured during the same period. This significant warfighter 
demand has forced the Navy to reduce the number of 500lb JDAM available 
for training in order to preserve warfighting inventory. The OCO 
request for fiscal year 2017 replaces the ordnance expended in the 
first six months of 2015. While OCO replenishment is helpful, it does 
not overcome the remainder of the year's expenditures which will 
continue to exacerbate the current inventory shortfall. Fully funding 
the General Purpose Bomb line item is critical to sustaining the DON's 
inventory for ongoing combat operations and replenishing it for future 
contingencies.
                               conclusion
    The Department of the Navy continues to instill affordability, 
strive for stability, and maintain capacity to advance capabilities and 
meet mission requirements. We remain an agile strike and amphibious 
power projection force in readiness, and such agility requires that the 
aviation arm of our naval strike and expeditionary forces remain 
strong. Mr. Chairman, and distinguished committee members, we request 
your continued support for the Department's fiscal year 2017 budget 
request for our Naval Aviation programs.

    Senator Wicker. Thank you very much, sir.
    Lieutenant General Davis?
    General Davis. Sir, I have got no statement.
    Senator Wicker. Admiral Manazir.
    Admiral Manazir. The same with me, sir. I stick by Admiral 
Grosklags' statement. Thank you, sir.
    Senator Wicker. Very good.
    Let us just make sure, Admiral Manazir, that I am 
pronouncing your name correct.
    Admiral Manazir. Sir, perfectly. Thank you very much.
    Senator Wicker. Thank you very, very much. We are having a 
little debate back here.
    Well, let us see. General Davis, let us talk about aviation 
readiness, spare parts, things like that. Aviation readiness is 
said to be in a crisis. How did we get there? What are you 
doing to improve readiness? What are the biggest challenges to 
overcome?
    General Davis. I thank you for the question, Senator.
    The Marine Corps is the Nation's force in readiness. The 
aviation component is a big part of how we fight and how we 
project power. The Marine Corps is designed as a relatively 
small force, but a high state of readiness.
    I will tell you that we are getting our forces out the door 
for our scheduled deployments that we call T2.0 readiness. It 
is the bench. It is the next-to-deploy guys and units that do 
not have the airplanes they need to fly those airplanes.
    Just a case in point, if you look at F-18's in the Marine 
Corps, I have got 12 gun squadrons of F-18's and trained 
squadrons. Design for the Marine Corps F-18 squadron is 12 
flying squadrons and 30 training airplanes. It should be about 
174 airplanes. 18 months ago, because we did not have the 
inventory, we were worried that the bench was not going to be 
able to train. We degraded the F-18 squadrons to 10-plane 
squadrons from 12. That will be 156 airplanes we need to go run 
state operations on a degraded front.
    I pulled up our readiness data just yesterday. We had 87 
aircraft that are mission-capable in the F-18's. Out of those 
87 airplanes, I put 30 airplanes in the training squadron and 
40 airplanes forward deployed. There is not a lot left for the 
units to train with during the day, and that leads to low 
flight time and short training progression. More importantly, 
that bench that is on a schedule to deploy is not as ready as 
it should be. We get them airplanes at the very last bit right 
before they deploy, and then they work up to readiness, but the 
bench is not ready to go.
    How did we get here? There are multiple ways we got here, 
sir. I would say 15 years of solid service and heavy fighting. 
We have got a very high op tempo. Before 9/11, we were 1-to-3 
deployment-to-dwell ratio in the Marine Corps. Now we are 
operating on 1-to-2. The numbers of aircraft have reduced as 
well.
    The aircraft, while they were overseas, have been over-
utilized. We have flown them a lot, a lot more than they were 
originally designed to fly. While we had them overseas, we kept 
some airplanes overseas maybe longer than we should have. We 
reset them in theater. We rolled new units in on top of those 
airplanes vice bringing them home because we needed those 
airplanes over there.
    At the same time, our overseas contingency operations 
funding was decreasing and our O&M [operations and maintenance] 
budgets were decreasing as well. From 2011 to 2013, the numbers 
of airplanes I had on the bench reduced by 35, and from 2013 to 
2015, reduced by a further 76. For a small force, it is 
dwindling the number of airplanes we have to make our readiness 
goals, and that is what is impacting us in the Marine Corps.
    What are we doing about it? That is the problem, sir. Not 
enough inventory, not enough airplanes up on the flight line to 
go train. We are fixing--basically we attacked that problem. We 
are trying to fix our readiness. Ran a couple of independent 
readiness reviews starting 18 months ago, and with your help, 
we are funding those readiness recovery efforts. Harrier was 
the first one. We are actually tracking back about 75 percent 
of the actions have completed that you have helped us fund is 
bringing Harrier back to full life.
    We saw CH-53 echo. I know of concern to everybody here. A 
very low rate. It is probably the worst readiness in the Marine 
Corps with a heavy lift helicopter. With your help, we did a 
full reset for the first aircraft. Got there. That is complete 
and flying. We are going to do that with another 140 airplanes, 
about 48 per year. It takes about 100 days to do that, but a 
major effort to bring CH-53 numbers back to full readiness.
    Then outside of that, sir, what we are doing to do the 
range recovery for the legacy platforms is the new procurement. 
These are old airplanes. We have got an F-18 on the line that 
flew in the Libya strike. Our oldest F-18 was purchased on the 
9th of March 1985. It is 31 years old. If we ran that airplane 
all the way in, it would be 45 years old by the time we retired 
it.
    There is a recapitalization effort out there that is 
imperative, and the F-35 is the key for us on the TACAIR 
[tactical air support] side. Both F-18's and Harriers and EA-6B 
Prowlers will go to the F-35, and we are very excited about 
that.
    I want to say thank you to your committee for the support, 
making sure we got the range recovery money we have got, but we 
got a big hole to dig out of. As you know, I am concerned about 
that, sir.
    Senator Wicker. Well, thank you very much.
    I think we are just going to stick to our 5-minute rounds.
    Before I recognize Senator Hirono, I would simply observe 
that I think it is actually very positive that she and I have 
expressed concerns about the same things not only today but in 
our previous hearings, that we are very much into the idea of 
lessons learned from experts at the other end of this table and 
doing what we can to make sure that we are fully ready while we 
are trying to modernize. I want to congratulate my ranking 
member for being such a great teammate and recognize her for 5 
minutes.
    Senator Hirono. Thank you very much. Does that mean I can 
get everything I want?
    [Laughter.]
    Senator Hirono. Thank you very much.
    I want to talk about the C-40's which is on your unfunded 
priority list. This is for General Davis and Admiral Manazir. I 
understand that the Navy has a requirement for 17 C-40's, and 
the Marine Corps needs two C-40's. Each service is two aircraft 
short of that objective. The Chief of Naval Operations unfunded 
priority list includes buying two C-40 aircraft, and the Marine 
Corps Commandant's unfunded priority list includes buying two 
C-40 aircraft.
    Could each of you describe how you use the C-40 aircraft 
and what having them contributes to supporting your forces, 
especially in the Asia-Pacific AOR?
    Admiral Manazir. Ma'am, thanks for the question.
    The C-40 is a derivative of the 737, as you know, a very, 
very capable airplane. We have 14 delivered already of the 17 
aircraft requirement and an additional one is coming, a total 
of 15. That is why the request for two.
    The Navy C-40 provides what is called Navy unique fleet 
airlift, and those numbers of C-40's are tied to the major 
contingency operation plan, particularly in the Pacific. We 
move great amounts of cargo and gear with the C-40 and move 
that in between the areas and those long distances of the 
Pacific to be able for us to operate.
    During non-wartime, they are used to move logistics around. 
A good vignette is when we change crews out on our SSBN 
[ballistic missile submarine] force or our LCS [Littoral Combat 
Ship], we can take an entire crew and all their gear on the C-
40 and move them out, and it is very efficient.
    The C-40 is the only airplane that you can simultaneously 
carry HAZMAT, hazardous material, and passengers inside the 
same fuselage. That allows us to have only one airplane for the 
full complement.
    The Navy has already replaced the aging C-9 aircraft with 
C-40's, and we look to replace the C-20G's that are getting 
old. The C-40 is less than half the cost per hour of the C-20G 
and can carry eight times more cargo, hence the request for the 
C-40 to fill out the wartime requirement.
    General Davis. Ma'am, we use the aircraft the same way.
    Right now, we have no C-40's. We have two C-9's. I think we 
are the only Military Service that operates the C-9. Right now, 
that airplane's cost per flight hour is skyrocketing. It is 
almost prohibitively expensive to operate it. One of my 
Intrepid aviators landed one pretty hard, and it is going to 
cost me a lot more to fix that airplane than it would be to 
replace it with something else.
    Bottom line, we use the C-40 for logistics sustainment 
throughout the United States and throughout overseas, and also 
in times of war, for moving logistics.
    The other airplane we have is a C-130, and those will be 
tankers, to include gunships out there with the Harvest Hawk 
model. Those are in high demand. One of our highest op tempo 
aircraft is the C-130J right now. The C-40's reduce the burden 
on moving logistics around inside the continental United States 
and gets out of a very old airplane, the C-9.
    Senator Hirono. Speaking of aging C-20's, we have two of 
them at Kaneohe Bay. They are already beyond their expected 
life expectancy of 20,000 flight hours. I am wondering what the 
Navy plans to do with the need that is going to arise at 
Kaneohe Bay. Our reservists fly these planes, and I am 
wondering whether if we provide the funding for the C-40's to 
you, that maybe they could be part of the replacement for the 
C-20's at Kaneohe Bay.
    Admiral Manazir. Yes, ma'am. That is exactly the objective. 
We are operating under a flight extension for the C-20G right 
now. It is being maintained. As discussed, it has a very, very 
high cost per hour. We are paying a premium to do that. If 
these C-40's are delivered to the United States Navy, we would 
place them in Hawaii to replace the C-20G's. That is exactly 
where they will go.
    Senator Hirono. That is music to my ears.
    I will have a second round of questions, but for now, I 
will stop with that. Thank you.
    Senator Wicker. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    The recent Fox News story on the U.S. Marine Corps' 
aviation readiness was very disturbing, and I note also I would 
suspect that some of the same challenges are found not just in 
the Marine Corps but also in the Navy. Let me just read a 
couple of items out of this just to highlight what the concerns 
are here, and then I would like if you could both respond to 
this in terms of what the challenges are that you are finding.
    This was published on April 17th of this year. It was 
identified as Budget Cuts Leaving Marine Corps Aircraft 
Grounded. Out of 276 F/A-18 Hornet strike fighters in the 
Marine Corps inventory, only about 30 percent are ready to fly. 
Similarly, only 42 out of 147 heavy lift CH-53 echo Super 
Stallion helicopters are airworthy.
    It goes on to say that in one case to get a Hornet flying 
again, marines stripped a landing gear door off of a mothballed 
museum jet. The door was found on the flight deck of the World 
War II era USS Yorktown, was manufactured over a decade ago. I 
suspect that is one of the reasons why you need a C-40 is to 
get that where it has got to go.
    Maintaining the high performance of Hornets challenge it 
with over 30,000 fewer marines now than what we had before.
    Sometimes it takes marines 18 months to get parts for early 
model F/A-18 jets, whose production was halted in 2001.
    I noticed also that there was a note on here that the 
average flight time per pilot--and I think this is very 
disturbing. In the last 30 days, our average flight time per 
pilot was just over 4 hours, according to one of the 
individuals quoted. Compare that with what the Chinese and 
Russian pilots are doing right now. We are falling behind. Not 
only that, you are finding that your aviators are also--they 
want to fly. If they cannot fly when they are not being 
deployed, they are going to go someplace else and get the 
flying in even if it means leaving and going to the airlines, 
which is what I suspect you are probably having some problems 
with.
    As I looked this over, I would suspect that we are going to 
hear from both of you the same thing.
    I think the chairman hit it on the head when he indicated 
earlier, and what are we going to do about. I think we also 
have to point to the fact that you did not do it, but Congress 
did and that is, that in 2010, U.S. military spending was $691 
billion. In 2015, it was $560 billion, $131 billion less. I 
know that you are not here to tell us that. We should know that 
already, but gentlemen, if I could, would you please expand? To 
either one of you two, to begin and perhaps you would like to 
confirm or add to what this particular message is sending to 
us.
    General Davis. I think it kind of dovetails with what 
Admiral Manazir said about the strike fighter shortfall in the 
Department of the Navy, the Buford, Miramar, and Japan for the 
Marine Corps in our forward-deployed locations.
    We do have about 276 F-18's assigned, and our requirement 
on the flight line, like I said earlier, sir, is 174. That is 
what we should have to have the full-up fighting Marine Corps 
that you are supposed to have. About 100 of those airplanes, 
which are pipe and attrition airplanes. I am more focused on--I 
talked to Paul about those, how they are working through the 
rework. The issue is we do not have the ones we are supposed to 
have on the flight line.
    That young--I think it was a squadron commander talking 
about 4 hours a month. I track that very closely and I do have 
some units out there, because they do not have the number of 
airplanes they are supposed to have, that they are somewhere, 4 
to 5 to 6 hours a month in some of those type model series that 
have a depleted bench right now. We are getting squadrons going 
out the door--their airplanes--and getting them trained at the 
very last minute, but the bench does not have what they need.
    There is frustration out there on the part of the young 
guys and gals that joined the Marine Corps. They joined the 
Marine Corps to fly and fight. They joined the Marine Corps to 
be marines. I will tell you we have got the very best young 
enlisted marines and officers out there, phenomenal talents, 
phenomenal human capital. They work themselves to the bone to 
try to get the airplanes up and make their operational 
commitments to make as much training as they can. It is getting 
harder and harder as they do that, especially for those next-
to-deploy forces. That is where the risk is for the United 
States Marine Corps.
    The key for the fewer marines is maintaining the best 
quality of marines and giving our marines the best training and 
education we can. We are working on that, sir.
    I would have to come back to you and talk about components 
that take 18 months to find. We do occasionally look for parts 
on older airplanes to scavenge a part out there. In this case 
here, we actually made that part--we found it was not 
scavengeable. We made it with a 3-D printer. Some of the 
airplanes are down not because they are stuck in depot, but 
because they do not have the spare parts they need to go fly. 
It is not as much of a problem in an F-18 as it is in, say, CH-
53 and in some cases the V-22 airplanes we have overflown our 
supply support and in 15 years of hard fighting. It is a 
complicated problem, but the three of us are working very hard 
to solve that problem with the resources we have available to 
us.
    Admiral Manazir. Sir, have to echo what General Davis said 
about the readiness challenges. They are similar in the United 
States Navy. Each type model series has specific challenges. 
You referenced the F-18A-D, which we fly with the Marine Corps, 
and the CH-53, which we fly an MH-53. You go into each type 
model series and you see different challenges.
    From the strike fighter perspective, it is evident that we 
were running hard. The United States Navy in the 15 years of 
war that we have been in--we have had 8- to 10-month cruises, 
sometimes 11-month cruises. We came back in 2013 from those 
cruises, and sequestration hit us. We got behind on--in a hole 
on repairing those airplanes.
    We are getting out of that hole now. I will talk more about 
strike fighter inventory management later on. The path from----
    Senator Wicker. Why do not go ahead and do that?
    Admiral Manazir. All right, sir. Thank you.
    What the Congress has given us in money between President's 
Budget 2016 and President's Budget 2017 actually decreases the 
shortfall now to below that manageable number of 65. I know we 
will reach that unmanageable number of 65 until 2024 now. It 
has pushed it to the right.
    That increase is a combination of three levers. We briefed 
this last year to this committee. These witnesses briefed to 
this committee three things.
    One was to improve the depot throughput down in our fleet 
readiness squadrons, and that has improved over fiscal year 
2015 by 44 percent. It takes a long time to dig out of this. We 
are not going to get out until the end of fiscal year 2018, 
which is what we have been briefing. The depot is coming back 
up on step.
    The second lever is to get our service life extension 
program for the F-18 Super Hornet in good shape as we approach 
the 2020s. Right now, we have funded the assessment to do that, 
and we have a good idea that that airplane, through engineering 
analysis with Boeing, is going to do better than the F-18A and 
C did. We have confidence that we can limit the shortfall 
through the 2020s.
    Then the third lever is buying F-18's and F-35C's. Congress 
was very good to us in PB-17. We bought F-35C's in the base 
budget. We bought a couple of F-18's. Those new procurements, 
coupled with the mitigation strategies we have in the Super 
Hornet, coupled with the improvement in the depot throughput, 
has taken our projected shortfall now with the assumptions we 
have and moved it up to within the manageable level in the rest 
of this decade.
    That still does not exacerbate the current flight line 
challenges that we have in both the United States Navy and 
United States Marine Corps. That is literally getting those 
airplanes, mostly the A's to D's, out of the depot. The Marine 
Corps is more exposed on legacy Hornets than the Navy is. That 
is why the Marine Corps has deeper problem with the F-18C's 
than we do. We have less squadrons. We have more Super Hornets 
than we do legacy. When we get those airplanes out of the 
depot, then we will able to improve that readiness.
    There is a good news story, by the way, to that museum 
piece. Sometimes some of those parts literally exist on 
airplanes that we have on sticks somewhere. As General Davis 
mentioned, we found a 3-D printer capability to be able to go 
manufacture a part that, because of obsolescence, is not 
manufactured anymore. A lot of the parts for the older lot 
Hornets--the companies went out of business because there is no 
business for them. The good news part of that is the troops 
went out and found a way to manufacture the part.
    Sir, to the other point that you made, the morale on a Navy 
ship and a Navy flight line is very good right now. If you go 
out to one of the carriers, the USS Dwight D. Eisenhower is 
right now conducting the COMPTUEX [Composite Training Unit 
Exercise] exercise off the coast of Florida, and they are 
operating hard. We fund that advanced training and our 
deployers to the maximum level of readiness. We are able to 
tier our readiness, right readiness, right cost at the right 
time. Those deployers are operating with the resources we need 
to.
    Regrettably, if you go to a squadron way down in the 
training phase, you are going to see pilots that are not flying 
very much. Right now, for the United States Navy, the minimum 
number of hours a pilot can fly per month is 11. We call that 
the tactical hard deck. Studies have been done by the safety 
center that says if pilots fly less than 11 on a regular basis, 
the chance of mishap will go higher. Down on either side, the 
lower levels of training, we do not have enough resources to 
keep those flying at the right level. The Marine Corps 
generates their readiness at a top level all the time as the 
force in readiness, the 9/11 force. That is why he has to stay 
highest, and the United States Navy can tier our readiness down 
so that 65 is a manageable number because we put the right 
airplanes in the right place at the right time.
    We see the same challenges, and we are very concerned. That 
is why I have to underline what Admiral Grosklags said about 
stable funding in all of the readiness lines. We cannot come 
off of that. We have to keep that going so that our recovery 
plan, which right now is very fragile, has got to continue.
    Senator Rounds. Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Rounds.
    Let me just say with regard to the news stories that you 
mentioned in recent days, I read them and listened to them with 
interest. I hope there is no one listening or watching that is 
upset that that somehow got out and was told to our public. I 
think it actually is helpful for the American public to hear 
the truth. I celebrate a system where there is an open press 
that is willing to go and dig and find out some information and 
ask the right questions and get the public informed. I for one 
salute whoever worked with the press and answered their 
questions in an unclassified manner to get the public informed.
    Senator Shaheen?
    Senator Shaheen. Thank you, Senator Wicker. I share your 
view that transparency is important for the public, especially 
when we are talking about such critical security issues for the 
country.
    Thank you all very much for your service and for being here 
today.
    Admiral Manazir, I want to pursue a little bit more of the 
conversation that you and Senator Rounds were engaged in 
because what is the long-term impact of our continued inability 
to provide more training hours, and what does that do long-term 
to the readiness of those pilots, to our capabilities to defend 
this country, and do what we need to do around the world?
    Admiral Manazir. Ma'am, we have a system of training in 
both the Navy and the Marine Corps that relies on what we call 
a training and readiness matrix. The matrix has a number of 
missions in there that a strike fighter pilot, any pilot of our 
airplanes in the Navy and the Marine Corps, has to fly to 
maintain the currency and the proficiency to conduct any 
mission we send that person out to do.
    The training and readiness matrix is actually graded in a 
4.0 scale, and we call them C1, C2, C3, or C4. For instance, an 
F-18 training and readiness matrix--the full set of missions 
flown per month might encompass about 25 to 27 flight hours for 
one pilot per month. Those flight hours are indexed against 
specific missions.
    When we send our pilots, our squadrons out on deployment, 
they are resourced and flown to a C2 readiness level. That is 
full 80 percent proficiency an currency for the missions that 
they are supposed to be trained in. On an exercise like the 
Dwight D. Eisenhower is conducting right now, there is 
oversight and certification processes that make sure that our 
squadrons are able to perform at that level.
    In the United States Navy, if squadrons are not performing 
that that 80 percent level, they will not be sent on 
deployment. We resource the deployers to do that so the people 
in deployment on Truman right now are at a C2 readiness level 
are able to execute any mission we call on whether it is 
against ISIS [the Islamic State of Iraq and Syria] or China or 
Russia, air-to-air, air-to-surface, or anti-submarine warfare, 
full capability complement on our aircraft carriers, carrier 
strike groups, and from the shore.
    The lower tiered squadrons that are waiting to go to 
advanced training and deploy are not as ready. They would be 
down around the C4 level. When you get that squadron ready to 
go, you have to work them up to the C2 level. The impact of the 
lower readiness down here is actually fiscal, and it requires 
us to spend a lot more money to bring that pilot back up in 
proficiency.
    I will guarantee to you, as the CNO has directed and our 
fleet commander, Admiral Davidson and Admiral Swift, we will 
not send a unit on deployment without being fully tasked. It is 
actually a fiscal challenge and we need money to do that.
    General Davis. Ma'am, if I could, could I add a little bit 
to that?
    Senator Shaheen. Please.
    General Davis. Some of the same challenges, a little bit 
different since we do not do a tiered marines construct. We 
really need to be ready all the time as a force in readiness as 
mandated by Congress. We do not have the inventory to do that 
with the bench squadrons. We get our units ready to go right at 
the last minute and get them out the door trained to a T2.0 
readiness, which is a C2 or better.
    I will tell you the morale and the folks that are trained 
and overseas doing great work for us right now makes everybody 
proud. They are doing phenomenal work.
    I worry about the ones that are getting ready to deploy. 
With the dep-to-dwell of 1-to-2, that means you are home for a 
year and you are gone for 6 months. That year, if you do not 
have the airplanes to train and you are on the tape to deploy, 
what is going to happen is you are not going to have the 
qualifications and experience you need to get out the door 
trained like you need to be.
    I worry about--not right now, but I also worry about the 
years to come where these young pilots do not get the 
experience and they do not get the qualifications they need. 
They come in. Now they are the supervisors, the trainers, and 
they do not have the experience that I had as a junior officer. 
I think that is a critical delta for us right now that we need 
to be very concerned about and work on. The only way to do that 
is to basically get new metal on the line, new flying machines 
for these marines to fly and fight with.
    Admiral Manazir talked about improving depot throughput. 
That helps in F-18, but for me I am flying F-18's, Harriers, 
and F-35's. I worry very much about spare parts accounts in 
Harriers and F-35's. That is the critical delta. We got these 
brand new, great airplanes, but sometimes we do not have the 
parts we need to get full readiness and marines will find 
parts, but they will find them in another airplane and 
cannibalize. We do not want them doing that.
    Then bottom line is taking best care of the airplanes we do 
have. You should expect us to get every airplane that we got in 
the depot or do not have a spare part on in the air and 
fighting and flying as quickly as we can. Is very difficult to 
do that right now.
    Admiral Manazir. Senator, there is a deeper, larger 
challenge to this that is implicit in your question. The CNO 
and the Commandant have both testified that we can resource the 
fighting force. What is lacking is the surge behind it. The 
United States Navy will not recover the surge force behind it 
until about 2020.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Let me ask both of our admirals about the 
next generation jammer. I will start with you, Admiral Manazir. 
The Navy is currently developing an advanced electronic warfare 
system, the NGJ [Next Generation Jammer], currently planned to 
be carried only by the EA-18G Growler. How does the Navy 
envision operating these jammers? Is the currently planned 
number of Growlers sufficient to effectively employ the next 
generation jammer?
    Admiral Manazir. Senator, the United States Navy has 
procured 160 EA-18G Growlers. We feel that sources the Navy 
requirement for airborne electronic attack. When the Marine 
Corps retires the EA-6B in 2019, the Growler will be the only 
DOD airborne electronic attack platform that will be flying. We 
are still conducting the study that determines whether the 
number of Growlers is sufficient to cover all of the missions 
across the joint force.
    The next generation jammer will be flown on the EA-18G 
Growler, just like the current ALQ-99 podded system, which has 
been flying now for about 40 years, is being flown on the 18G.
    The reason we are purchasing the next generation jammer, 
which its first increment will initial operational capability 
around 2021, is that the threat is getting more and more 
advanced. That threat is in the electromagnetic spectrum. The 
next war is going to be fought in the electromagnetic spectrum. 
Ability to use RF energy by us to assure our systems and to 
deny the use of enemy systems is going to be the predominant 
measure by which we will succeed.
    The next generation jammer podded system is designed to go 
after those advanced threats, and it is designed to continue to 
track and outmatch the threat as we go forward. We have evolved 
from a system of just barrage type of electromagnetic energy 
that just would saturate a system now to very, very smart 
digital systems that we can put in the next generation jammer 
to fight against any of the high-end threats that are out 
there.
    We are currently purchasing enough next generation jammers 
to source the number of Growlers that we have. We tightly 
couple the number of next generation pods that we buy with the 
number of Growlers that we buy. Right now, it is sufficient to 
address the threat that we know. We continue to do the study on 
the joint missions.
    Senator Wicker. When do you think you are going to have the 
results of the study as to the appropriate number?
    Admiral Manazir. Sir, there are two things in play with the 
Office of the Secretary of Defense. The first one is a study, 
along with the Joint Staff, on specifically the Growler. The 
second is overall in the Department of Defense an examination 
of airborne electronic attack. There are different ways to do 
it. We continue to talk to OSD and the Joint Staff about how 
much information we need to determine how many Growlers that we 
need to go forward. We are still in discussions about that, 
sir. I would say in the next year, in the next portion of a 
year that we would have enough information to be able to go 
forward with a definable number as to whether 160 is enough.
    Senator Wicker. Admiral Grosklags, let us talk about 
acquisition process. The NGJ has been designated the first 
program in the Skunk Works pilot program that seeks to 
streamline the process. Can you describe the elements of this 
pilot program and how the NGJ will benefit?
    Admiral Grosklags. Certainly, sir. When we sat down and 
finally made the decision that NGJ was going to be the pilot 
project, the first thing we did was sit down between the Navy 
secretariat's staff and AT&L [Acquisition, Technology, and 
Logistics] staff and identified a very limited core group of 
individuals who are going to have oversight over that program 
and the ability to participate in decision meetings.
    Typically what we see with a major defense acquisition 
program is it is kind of all-comers get together around the 
soccer ball and get their input into the decision process. What 
we identified was a very select group of individuals starting 
with Secretary Kendall who have all the right skill sets, all 
the right knowledge, all the right subject-matter expertise in 
order to make the right decisions for that program, but it is a 
very select group of individuals.
    That very narrow focused group enables the program manager 
to not have to deal with repetitive briefing cycles to work his 
way through a myriad of staff reviews for every decision that 
he or she has to get. As an example, they just had their 
milestone B decision about a month ago. They moved into the 
engineering, manufacturing, and development phase, a big step 
for the program. Instead of going through literally months of 
staff work and briefings for that milestone decision, what they 
ended up doing was a single-day meeting with that small core 
group of individuals representing OSD [the Office of the 
Secretary of Defense] folks, representing the Navy staff, 
representing the Navy secretariat. They went to the contractor 
facility. They had a 1-day meeting. The program manager led 
that discussion. He did not have to do pre-briefs. At the end 
of that day, he got a decision. That is the way we need to 
operate all of our programs, and we need to make this pilot 
program the standard vice the exception.
    On the Navy side, what we are trying to do with the MQ-XX 
program is to take that a step farther and take that 
streamlining not only from the acquisition oversight 
perspective but also drilling it down into the engineering 
requirements and the test and evaluation requirements and 
streamlining those activities as well so that we can truly get 
new capabilities out to the fleet in a much quicker fashion. It 
is still getting them the capability they need but getting it 
to them in a timely manner.
    We think the Skunk Works is a great initiative. We need to 
do more of it.
    Senator Wicker. Any resistance, naysayers?
    Admiral Grosklags. The only naysayers that I saw were 
people that potentially had their feelings hurt because they 
were not included as principal members in that core group of 
decision-makers.
    Senator Wicker. Senator Blumenthal?
    Senator Blumenthal. Thanks, Mr. Chairman. Thank you for 
having this hearing--to you and the ranking member.
    Thank you, gentlemen, for your extraordinary service to our 
Nation.
    I have a few questions about the F-35B and F-35C. I note 
from your joint testimony that you feel that basically things 
are going pretty well. The F-35 program, to quote you, is 
executing relatively well. Some problems in software and in 
cost, problems meaning continuing challenges that are 
surmountable.
    I wonder if you could tell me how the software aspect of 
the aircraft is going at this point. I know there have been 
some issues along the way.
    Admiral Grosklags. Sir, I will start with that.
    First of all, the Marine Corps is flying the 2B software, 
and they have one additional release for the 2B coming that 
gives them some additional capabilities. They also, as the 
General just noted, have some 3I aircraft, and that is what is 
coming off the production line today.
    One of the challenges that we are seeing with the 3I is a 
software stability concern. That software stability has 
primarily to do with the radar system onboard the aircraft, but 
as things are very intertwined on this platform, it affects the 
overall system. We were seeing system resets, system anomalies 
much more often than we could accept.
    General Bogdan, the program executive, took a step back. He 
chartered a red team to take a deep dive at some of these 
issues because he wanted to make sure that we nailed down the 
problems on 3I and not wait till 3F, which is the final fleet 
release for the Navy and for all the services once we get 
through operational test.
    We believe, based on information and testing that has just 
been completed very recently and is continuing through the end 
of the month, that the majority of those software stability 
issues have been resolved. We still have a few flights to 
verify that to ourselves, but we seem to be on a good path.
    The implication for 3F is now that we took a bit of a pause 
in the development of 3F. The timeline for 3F to actually get 
to the fleet has probably been delayed by another couple of 
months based on making sure we get it right in 3I. We think 
that was a prudent step on his behalf, General Bogdan's behalf, 
but we seem to be on a good path at this point.
    General Davis. Sir----
    Senator Blumenthal. Sorry. Go ahead.
    General Davis. We are flying that software now, 2B, some 
3I. What we did not do--I think that was later at the last 
iteration of the 3I software that we have had stability 
problems with. We did not load that. We are not having those 
problems in the Marine Corps right now. We are operating 2B, 
3I, and we are not having the radar resets and problems that 
they have seen with the latest software load. We are tracking, 
doing very well with that software load, and flying the 
airplane really well.
    Right now, the VMFA-121 is out there in Yuma. They are 
flying a lot. Is the training squadron 501, and we are going to 
stand up VMFA-211 here this June. It is tracking very well.
    The popularity of the program--we have got a lot of 
captains and majors and lieutenants that are signing up to fly 
the airplane. Right now, of all the Marine Corps flying assets 
that we have out there, the guys who are making their flight 
hours is the F-35 program. They are tracking. They are getting 
good training. In fact, the first three students are going 
through the WTI [Weapons and Tactics Instructors Course] class 
in Yuma, Arizona right now and bringing that fifth generation 
capability to the Marine Air Ground Task Force in a big way.
    We are not seeing the problems with software right now for 
what we are doing. We are very pleased with what we got and 
every day learning a little bit more about how to operate this 
airplane and bring additional capabilities to the fight.
    You asked about cost, sir. I think we are actually seeing 
the total cost going down a little bit, but then they looked at 
their lifecycle cost going up by 2 percent. That is a bad news 
story but I think also a good news story. I think they actually 
said we are going to fly the airplane another couple decades. 
They rolled in additional time there.
    The good news about the F-35--it is an 8,000-hour airplane. 
I would love to have that with some of my legacy airplanes 
right now because that is 2,000 hours additional life that I do 
not have to do a reset or a depot event on. That is a great 
capability out there. We are very pleased with what we are 
seeing from the airplane.
    Everything costs too much. We would like it be cheaper. I 
think one of the ways to make it cheaper is to get more of 
these airplanes and put more on the flight line. The Marines 
are very happy, not satisfied. We are happy. We always want 
better and always want more, but this has been a great program 
for us and a very exciting time.
    Senator Blumenthal. That is a great answer to a couple of 
the next questions that I was going to ask. I want to thank 
you.
    I notice in, again, your joint testimony you talk about the 
incentives to the manufacturers, all of the contractors for 
this airplane to reduce their costs to $85 million a copy. You 
alluded to the point that I was going to raise. To what extent 
will the cost come down if we accelerate production? I assume 
that would be one way of bringing down costs in this program.
    Admiral Grosklags. Yes, Senator. I will touch on that.
    Just very quickly, what General Davis alluded to in terms 
of sustainment costs, in the selected acquisition report that 
they just submitted this year to the Congress, the sustainment 
costs on a cost-per-hour basis, the cost per aircraft per hour 
actually came down anywhere from 2.2 percent for the Air Force 
to I think 4.2 percent for the Navy and the Marine Corps. The 
F-35B was in the middle of that.
    The total sustainment cost lifecycle went up because 
primarily the Air Force added 2 years to the lifecycle of the 
aircraft. That kind of overrode the fact that the actual cost-
per-hour is coming down. In my view, that is not a bad news 
story.
    In the same report, what they show is that the procurement 
costs were reduced by a total of $7.5 billion over the life of 
the program. The cost of buying the aircraft.
    One of the initiatives that all the services, as well as 
our partner nations, are looking at to further reduce the cost 
of the aircraft is the potential for starting a block buy 
concept where we would request permission from the Congress to 
procure some of our long lead materials via an economic order 
quantity, do that in advance of several lots of aircraft. 
Different from a multiyear in that we are not committing to a 
certain number of aircraft each year. We would still have an 
annual appropriation that would guide that decision, but it 
would allow industry to invest a little bit more upfront and 
get some of those cost savings.
    Eventually we would love to get a multiyear program for the
F-35, which we think would really drive costs down. Obviously, 
we have to get through IOT&E [Initial Operational Test and 
Evaluation] and a full-rate production decision before we can 
do that.
    Senator Blumenthal. Well, I would encourage you to think 
along those lines. I am speaking only for myself. Multiyear 
production and contracting, obviously, are a way to bring down 
costs, and this aircraft is our future. It is transformational. 
It is going to be, as General Davis remarked, for decades to 
come what maintains and secures our air superiority around the 
world. The quicker--I do not want to use the word ``cheaper'' 
but less expensively, more cost-effectively we can produce it, 
the better.
    Thank you very much. Your testimony has been very 
instructive and valuable. Thank you.
    Senator Wicker. Thank you, Senator Blumenthal.
    Senator Sullivan?
    Senator Sullivan. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here.
    I apologize for not being here at the beginning, and I fear 
I am going to tread a little ground that you have already 
covered about readiness.
    You know, there was a Fox News article--I am sure you saw 
it, General Davis, recently. To be honest, I think in the eyes 
of Americans, the terms ``low readiness'' and ``the United 
States Marine Corps'' is kind of an oxymoron. It is not 
normally what we equate when we think about the Marines. 
Actually ``high readiness'' is usually the description I think 
that most people would equate with the Marine Corps.
    I know you have already talked about it, but if we have not 
asked the question, is there anything we can do?
    I know the Commandant talked about this in his confirmation 
hearing, but I mean, how did this come about? You have talked 
about how it came about, but was this kind of a gradual thing 
that the Marine Corps has been talking about for years, or was 
this something kind of a little bit more abrupt? Becoming a low 
readiness designation is a pretty significant thing. I know I 
am not being very articulate here, but did the come about very 
quickly or slowly? I am just trying to think through how to 
make sure it does not happen again.
    General Davis. Sir, that is for me. That is my job and 
General Neller's job to make sure it does not happen again.
    I would say it happened over a period of time. I think in 
many ways, we are making our operational commitments. We are 
making our deployments to go fight in Afghanistan and Iraq and 
around the world, but the Marine Corps is designed for the big 
fight as well, the force in readiness for the low-end fight, 
the high-end fight. I think while we are making our operational 
commitments, making our deployments, what was not being done 
and gradually over time is our inventory was driving down the 
number of airplanes we had available to train to get our bench 
trained that General Dunford talked, General Neller talked 
about it. The number of airplanes out there to train the bench 
was not there and was decreasing in numbers to the point now 
where it is--you know, marines will always get the job done. 
They do not complain. They go out there. If you were down in 
Buford or forward-deployed anywhere, marines are always getting 
the job done out there, as the rest of our naval service 
brothers and sisters.
    The number of resources over time was getting lower and 
lower and lower. Our dep-to-dwell went from 1-to-3 because of 
reduced inventory and also increased tasking to 1-to-2. Lower 
inventory, high dep tempo. You know, you got a 1-to-2 dep-to-
dwell, and you got that period to train out there and you do 
not have the assets to do it. I think it happened over a period 
of time. I testified to it last year because we have been 
talking about this.
    I think we have been involved now in this range recovery 
model and we also know how to fix some of this. With your help, 
we have been doing that funding. Making sure the funding stays 
whole is the biggest thing that you can do to help us, making 
sure that the President's Budget gets executed and also, too, 
that we keep our recapitalization projects on track. There is 
only a certain amount of life we can get out of these old 
airplanes, and we are doing that. We are extracting every ounce 
of capability out like we should, but we do need to 
recapitalize. I think those things are the things we need to 
focus on, sir, and allow us to execute that range recovery 
model. It did not happen overnight and multiple reasons for it. 
We are diligently working our way out of it right now.
    Senator Sullivan. Well, one of the things--and this is a 
bit of an advertisement, but one of the things in terms of your 
getting back to readiness, I certainly would encourage the 
Marine Corps to take a look at the JPARC [Joint Pacific Alaska 
Range Complex] training complex up in Alaska, which as you 
know, the Air Force considers it certainly the best air-to-air 
and even CAS training in the world. Given that there is going 
to be a lot of an Asia-Pacific focus, we certainly would 
welcome the Marines up there. There were some ANGLICO [Air 
Naval Gunfire Liaison Companies] units up there last year at 
Red Flag, and I know the Marines have been up there to some 
degree. With the F-35's being based, two squadrons, at Eielson 
in Alaska, having the Marines up there training and fighting 
against the Air Force would be a healthy competition.
    Let me ask one final question. This is more just 
educational for me. When you talk about the STOVL capabilities 
of the F-35B and you look at those capabilities, is the B 
variant unable to do some things, whether it is bomb capacity, 
whether it is legs in terms of the ability to travel? 
Obviously, Harriers did not have the capability that, say, F-
18's did, but they had the STOVL ability. Did we lose anything 
in terms of capability with the B variant that the other F-35's 
have because the B variant has that vertical lift capability?
    General Davis. To the short takeoff, vertical land 
capability, sir, we lose a little range, but also we add the 
basing flexibility. You can go off of every amphibious ship to 
include the British ships if we so choose, the Queen Elizabeth 
and Prince of Wales. Anywhere wood floats you can base an F-
35B. In conjunction with--I think also, too, as we as a naval 
force, how we fight that fight better as we fight as a naval 
force, it will include both F-35B's and F-35C's working in 
concert from the sea base.
    Most of our stuff, about 75 percent of our airplanes, will 
flow from the sea base ashore. There is a great strategic 
advantage to being able to base in a 3,000-foot runway. We took 
the airplanes up to Twentynine Palms, and that squadron 
operated out of a 1,500 foot of that runway very easily in 
support of the marines up there at Twentynine Palms. A little 
bit of tin allows us to basically go anywhere that there is a 
short bit of strip out there. Actually there is a lot of demand 
for that kind of capability around the world. The Marine Corps 
is a light force, a middle-weight force. To us, it makes great 
sense to have an airplane with that basing agility to put that 
airplane closer to the guy on the ground. That is what it is 
all about for us.
    Senator Sullivan. No munitions capability?
    General Davis. The airplane will carry more ordnance if we 
go in the low observable configuration. It carries all the 
ordnance inside when we get 3F software and the 3F 
capabilities. More than software, it is also hardware. We get 
pylons. The airplane will carry 14,000 pounds of ordnance, 
which is 3,000 pounds more than the F-18 will today. It has got 
a little better legs than our legacy F-18. Actually it is a 
great capability.
    If you could watch what the young officers are doing 
operating this airplane up and away, it is a qualitatively 
different machine. I would love to show you all the stuff they 
are doing. It is very, very different than anything I have seen 
before, and it is really exciting.
    A few thousand pounds more ordnance than an F-18 can carry, 
about the same legs, and I can base on a 3,000-foot strip 
anywhere in the world or an amphibious ship. To me that is a 
great capability for the Marine Corps. It is kind of what we 
expect from our Corps.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thanks to the witnesses.
    The President's Budget, I believe, has a recommendation 
that we would decommission a carrier wing, and I gather that 
that is kind of a re-rationalization of some of the aircraft 
used. I was hoping that you could just walk us through the 
logic on that.
    Admiral Manazir. Senator, as you know, we deploy our 
carrier air wings with our carriers. As part of the President's 
budget 2017, I proposed to the CNO that we look at the air wing 
force structure, and it was based on a couple of things.
    The first one is as we look at the threat--and we 
discussed, China, Russia, North Korea, Iran--and we look at the 
global force management plan out through 2025--that is, we know 
what the President and the Secretary of Defense want us to do 
for deployment from a carrier strike force, and we also 
understand the load from the proposed operations plans for a 
major contingency operation, and we apply that out on sort of a 
map. We looked at the carrier maintenance schedules and the 
predictability of the nuclear maintenance schedules for our 
CVNs [aircraft carriers], which keeps them at top condition, 
and also the predictability of our optimized fleet response 
plan. It turns out when you lay the predictability of the 
carrier schedule--and, of course, every carrier that deploys 
and operates has an air wing on top of it--and you lay the 
predictability of those turnaround plans and the maintenance 
out through 2025, the number of operational carriers that you 
have is no more than nine at any one time because one is in 
long-term retro complex overhaul, as you know, sir, and the 
other one is in a 16-month dry-docking. The maximum number of 
air wings that you would need over that time is nine.
    If the world got a vote and something changed from 
predictability, there is enough time that is between each of 
those turnaround periods to extend an air wing and ship team to 
cover that contingency until they come over. There is some 
flexibility built in.
    Additionally, when we apply the 10 air wing force to our 
current operational tasking, what has happened over the last 
couple of years is the number of air wings that have spent too 
much time in port, not training and not deployed, has gone up. 
We had an air wing recently that had 83 months--83 months--
between deployments. There is not enough work to go around. 
What started out as a fiscal imperative on my part to the CNO, 
it turned out the analysis actually supported it, and the CNO 
called it a good business decision.
    That air wing is actually an administrative air wing. The 
way that we tier our readiness--that is the model 10th air 
wing. It is not a full air wing. A fully resourced air wing is 
out and deployed and in advanced training. The airplanes that 
are populating a portion of the air wing go out to different 
squadrons and reduce the requirement. The people that are in 
those air wings would go to different squadrons and reduce the 
accessions. We are able to use that capacity across the nine 
air wings.
    While it appears as if we are getting rid of force 
structure, we are actually getting rid of a flagpole that holds 
that force structure and we are moving the assets out. That is 
the business case, sir.
    Senator Kaine. I think that is a great answer. I figured 
that there was a really good answer behind that and I am very 
glad I asked that question.
    Let me ask a question. Senator Sullivan was asking about 
35B, that variant. I am curious about the 35C. Both the Marines 
and Navy are using the F-35C, I guess the carrier variant, and 
you are doing some kind of joint procurement. Talk to me a 
little bit about how that procurement is going along and the 
way the Navy and Marines structure the sharing of that 
procurement.
    Admiral Manazir. We have shared the transition plan for the
F-35C between the Navy and the Marine Corps. Thank you very 
much for the airplanes. In the President's budget 2017, they 
start to get at the ramp that we need to IOC the Navy's first 
squadron in August of 2018, then IOC the Marine Corps' first 
squadron the year after, and then alternate squadrons such that 
we will have the right number of squadrons in the mid-2020s to 
address the high-end threat.
    The F-35C, with some risk, as we have talked about, in 
software and mods is on track to IOC [Initial Operational 
Capability] in August of 2018, and we will operate that 
airplane together as we go forward. Right now, our plans are 
commingled. The number of airplanes--we have to get a ramp of 
the aircraft such that we are buying 20 F-35C's and 20 F-35B's 
per year starting in 2020. Right now, the ramp is on track to 
do that with the President's budget 2017. Thank you very much. 
We are on track.
    Senator Kaine. Please, General Davis.
    General Davis. Yes, sir. The Marine Corps will operate four 
squadrons of F-35C's, and when they are not on the carrier, 
they will be just like we do with our F-18's. If they are not 
assigned to a carrier, if there is a lull out there, they will 
be able to go deploy to a unit deployment program. Our 
unsinkable aircraft carrier out there in Ohakune--we flow about 
three F-18 squadrons and a Harrier squadron out there right 
now. We also share with the training squadrons.
    Right now, we have already bought--I think we purchased 10 
airplanes. I think five or six have delivered and they are down 
there in the training squadron right now. I think the executive 
officer of that squadron is a marine major right now. We are 
all in and, bottom line, ramping up. I think we actually get up 
a little bit north of 20 with the F-35's.
    Again, the key for us is getting the F-35B's. We will have 
16 squadrons of F-35B's when we are done, two Reserve and in 
Active Duty. Getting those airplanes on the line is an 
imperative for us, replacing the old with the new. I am very 
excited about that. We will get along just great with the C's 
and B's out there in the United States Marine Corps. We look 
forward to working with our Air Force counterparts as well. It 
is a great capability.
    Senator Kaine. Super.
    Thanks, Mr. Chair.
    Senator Wicker. Senator Tillis, Senator Hirono has been 
poised four times now for her second round. While you catch 
your breath, would you mind yielding and allowing her to 
proceed with her questions?
    Senator Tillis. It would be, indeed, my honor.
    Senator Hirono. That is kind of you. It is always really 
great when members come to our hearings. I do not want to 
dissuade anybody of that behavior.
    [Laughter.]
    Senator Hirono. Thank you so much for updating us on the F-
35 program. Admiral Grosklags, I think that you mentioned that 
at some point you would want the F-35 program to become a 
multiyear contract program so that we can lower the cost, which 
I think is a good thing.
    That is why I did bring up the concern that I have about 
the
V-22 multiyear contract. I do not need to go into it right now, 
but I just wanted to express the concern that we are not 
meeting the requirements of that particular multiyear contract.
    Let me turn to the unmanned carrier aviation program. This 
is for Admiral Manazir.
    Last year, the Navy was pursuing the unmanned carrier-
launched airborne surveillance and strike, or UCLASS, program 
to develop an autonomous aircraft carrier base unmanned combat 
area vehicle to provide an unmanned intelligence and strike 
asset to the fleet.
    This year, the Navy is pursuing a program called the 
carrier based aerial refueling system, or CBARS. As I 
understand it this program is primarily developing a tanker, 
but it may have surveillance and limited strike capabilities.
    I would like to get a better understanding of what the 
differences are between the two programs. Admiral, could you 
describe the CBARS program and how it differs from the older 
UCLASS program?
    Also for General Davis, are there any Marine Corps 
interests in the new CBARS program?
    Let us start with you.
    Admiral Manazir. Ma'am, I am excited that you were anxious 
to ask about this program. I will describe it to you.
    The United States Navy has been anxious to get an unmanned 
capability on to our CVNs for quite a while. Back in 2009 
actually Admiral Roughead pounded a table in a secure space and 
said, I want unmanned on a carrier by 2018. That started a 
series of conversations in the Pentagon about unmanned 
capability off the aircraft carrier.
    The UCLASS program you are familiar with was the subject of 
a strategic portfolio review by the Office of the Secretary of 
Defense conducted over the last year. That, coupled with a look 
at our ISR [intelligence, surveillance, reconnaissance] 
capabilities in the maritime, resulted in the restructure of 
the UCLASS program to what we currently call the MQ-XX. CBARS 
is now gone. UCLASS is gone. We talk about the MQ-XX. We are 
working with the authorities that do the aircraft designations.
    That MQ-XX is going to have two primary missions. The 
first, as you noted, is in-flight refueling. It will be able to 
take fuel and also give fuel. We primarily use that as an 
overhead recovery tanker, organic to the aircraft carrier. 
Right now, that mission is conducted by F-18E and F Super 
Hornets. If we offload that mission to an unmanned system, then 
we can use those six tankers, those configured airplanes. We 
can reconfigure the tanks and use them for fighters. That will 
limit the hours on the airplane.
    The second mission it will have is ISR. What we expect to 
do with that airplane is to put non-developmental systems 
into--key, non-developmental systems. Lower the technology risk 
by putting non-developmental ISR systems into this air 
platform, and then send it out and conduct critical maritime 
domain awareness missions around the carrier strike group. With 
its long endurance, it will be able to give that maritime 
domain awareness not only to the striker commander but also to 
the fleet commander.
    The reason that the Secretary of the Navy agreed with the 
Secretary of Defense and the Chief of Naval Operations on this 
new mission set is because we can accommodate those two 
missions on an unmanned system coming off the aircraft carrier 
more rapidly. You know that we use the X-47B UCAS [Unmanned 
Combat Air System] system to demonstrate landings and takeoffs 
and in-flight refueling. We have gotten everything out of that 
platform that we have needed. Now what we are going to do is 
show that we can use a platform to do two basic meat and potato 
missions on the aircraft carrier using the MQ-XX, and that will 
also provide a platform for us to go forward and do additional, 
more advanced capabilities in the future.
    Senator Hirono. General Davis, does the Marine Corps have 
any interest in the MQ-XX program?
    General Davis. We have tremendous interest, ma'am. It is a 
little bit different requirement. We would be going looking for 
something to go off an amphibious ship vice a carrier. A little 
bit different design.
    Right now, with our 22nd MEU [Marine Expeditionary Unit], 
the MQ-21 is a Group 3 UAS [Unmanned Aerial Systems] that is 
going out with that ship. Right now, it has to be caught on a 
tether when it comes in to recover. It gets launched and 
recovers on a tether. It limits the payload that we have on the 
airplane. It is a great capability for us, but we are looking 
for a Group 4 and a Group 5 UAS that have long dwell, long 
duration, manned/unmanned teaming concepts out there, to 
include--we think the future could be like an airplane with a 
future vertical lift. It will be a manned, optionally unmanned 
capability. If it is fly-by wire, we think we should be able to 
go off with a manned platform or an unmanned platform for 
multi-mission platforms.
    We are borrowing some MQ-8 Charles from the United States 
Navy for a period of time to kind of grow into kind of taking a 
larger airplane off an amphibious ship in an unmanned platform 
out there to go provide ISR and fires as need be. We are pretty 
excited about that.
    We have got a requirements document study that is going on 
at Quantico to go tell us exactly what they want us to go 
pursue. There are several projects out there that give us a 
long-range, long-duration, multi-mission platform for UAS. We 
think UAS could deliver people. It could deliver ordnance. It 
could deliver fires. It could deliver surveillance, all those 
things. We are looking for a wide aperture for what we can do 
with these platforms in the future.
    Senator Hirono. Thank you. I just have one clarifying 
question that I want to ask.
    Both of us talked about the strike fighter shortfall. I 
just need to know--this is probably for Admiral Manazir--what 
is the Department of the Navy's current estimate of the strike 
fighter shortfall because we have had different numbers over 
different years. What is the most recent shortfall number?
    Admiral Manazir. Ma'am, I am going to caveat the shortfall 
number. If you manage your inventory, the number is going to be 
dependent upon several sets of assumptions. You have to 
categorize those assumptions in supply of the airplanes, the 
demand of the airplanes, the utilization rate of those 
airplanes.
    With my current data, which is valid now, we have a 
shortfall this year of 92, and I go well below the manageable 
rate of 65, which we have testified to, all the way until 2024 
when the shortfall under the current set of assumptions is 77. 
Then I go below that gain until I get out into the 2030s when a 
different set of assumptions will be the case.
    Ma'am, I want to emphasize we talk now about management of 
the inventory, not the shortfall number. As I testified 
earlier, the things that you all have provided us in the PB17 
budget reduces our shortfall down to below the manageable level 
in the near term. Now, that again requires us to get through 
the depot output, and we have some assumptions for depot output 
that General Davis and I have already talked about, and that 
has got to stay on track for us to stay below a manageable 
level. That is overall strike fighters.
    Senator Hirono. Thank you for clarifying for us. This is 
not a set number, that there are things you can do to reduce 
the shortfall.
    General Davis. Ma'am, if I could. Like Admiral Manazir 
said, it is not just depot when we talk about Harrier and 
supply. There are Harriers. There are F-35's. There are F-18's 
in that mix. The depot really deals with the--each of these 
type model series are kind of like a child. They are all 
different and they all require a different strategy to recover 
and basically take best care of them. With the Harrier, it is 
supply. We have worked on that really hard, done a good job 
with that. Now F-35 would be--we are trying to avoid a supply 
problem with the spare parts for F-35 to make sure that when we 
bring that airplane in, we have got adequate supplies out there 
to go fight that thing and surge, if required.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Hirono.
    Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair. I apologize. I have 
got some competing meetings, and I have actually got another 
SASC [Senate Armed Service Committee] subcommittee meeting I 
have got to run off to. I am going to ask one or between 
questions of you, General Davis.
    I have been down to Lejeune, Cherry Point. We were down at 
Cherry Point talking about some of the facility's needs for the
F-35 long term. I came back with the impression that some of 
the stuff for the lift fan facility would become a part of your 
priorities. I am kind of curious. In fact, I think it was 
November I reached out to talk to the F-35 Joint Program Office 
and asked them is the lift fan facility a part of their 
priorities. I thought that the answer was yes, at least based 
on the letter that I got from them, and now it is not. I am 
trying to get an idea of what the future of the
F-35 operation is at Cherry Point, particularly in light of 
these lack of resources or moving the availability of these 
resources down at Cherry Point to the right.
    General Davis. Sir, if I could. I think Paul could be part 
of that as well--Admiral Grosklags.
    The lift fan facility is an important part of Cherry Point 
and getting that built and making sure that gets built on time 
to make sure we got that capability down there. I think right 
now we are just finding out how to pay for that facility.
    We have done the security improvements we need to with 
Cherry Point. That is going to be one of our major F-35 bases 
in the Marine Corps.
    Senator Tillis. Well, that is one of the reasons for my 
concern because we came away from Cherry Point advocating in 
the NDAA for the security fence component. We got that. I 
wanted to make sure I was not asking for something that is not 
going to follow through on things that you felt like you no 
longer need or just get some sense of certainty of when we are 
going to get it and when I should prioritize it as somebody who 
hails from that area.
    General Davis. Absolutely needed, sir, and it needs to get 
built. We are just working on where we find the funding for 
that right now, sir.
    Admiral Grosklags. Yes, sir. I do not have a whole lot to 
add. It is absolutely critical. The only other place we will be 
able to do that we do today the production and sustainment that 
that vertical lift fan is at the Rolls Royce factory in 
Indianapolis. By the early 2020s, they will have reached their 
current capacity in terms of the ability to deliver new, as 
well as repair the stuff that in service. The VLF facility is 
absolutely critical. There is nobody changing tune in terms of 
moving it away from Cherry Point. At this point, it is simply a 
question of the funding has not made it into our budget 
request.
    Senator Tillis. Well, maybe I can catch up with you all 
outside of the committee. I am just concerned. We are in 2016. 
2020 is not too far away. Getting the funding and then moving 
forward and getting the facility available--if you want to stay 
ahead of that curve of Indiana being at capacity, then it seems 
like this is something we have got to be talking about sooner 
rather than later.
    Admiral Grosklags. Yes, sir. I concur.
    Senator Tillis. Thank you. That is all the questions I 
have.
    Senator Wicker. Gentlemen, I am guessing Senator Tillis 
will catch up with you outside the committee.
    Let me just ask one thing, General. Admiral Manazir said 
the Navy minimum hours flown per month is 11. What is the 
minimum hours for the Marines?
    General Davis. Sir, we are a force in readiness, our 
targeted T2.0 readiness. It varies from about 15.4 hours per 
month to about 22 hours per month. We do not have a tier 
readiness model. We are under-executing in the flight hours in 
many of our type model series with the exception of F-35. I 
think C-130 is getting it right now, too. We are not in a good 
spot.
    Senator Wicker. You are under-executing. Is that because of 
safety concerns?
    General Davis. No. There are not enough airplanes on the 
line to fly. We talked about that ready bench. We do not have 
the airplanes to go fly all the pilots to their training and 
readiness manual numbers to be at T2.0. We do not have a 
minimum number.
    What we do make sure is that we are not putting anybody in 
an unsafe--what I would say where we are suffering is in the 
tactical proficiency that we need to be a force in readiness. 
You should not have to wait until right before deployment to 
get yourself up to speed to be ready to go. You would expect 
the Marine Corps to be ready tonight. Those bench forces out 
there are not ready to the degree they need to be.
    Senator Wicker. Gentlemen, we thank you very much.
    The record will be left open for questions submitted for 
the record for 5 days.
    Thank you very much for your testimony and your service.
    [Whereupon, at 3:28 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator John McCain
                               dod budget
    1. Senator McCain. The President's budget request is approximately 
$17 billion less than what last year's budget declared was required. 
How has the reduced budget affected Naval and Marine Corps aviation? 
What would be the effects of a lower topline budget?
    Admiral Manazir and Admiral Grosklags. Overall, the 2017 
President's Budget request prioritizes capability development over 
capacity and readiness. This tradeoff is apparent in the particularly 
challenging budget submission for naval aviation investment accounts. 
The budget request includes funding for 94 aircraft, the lowest number 
in fourteen years and well below the average annual procurement 
quantity of approximately 140 aircraft over the last 20 years. While 
the adequacy of the budget cannot be judged solely on the basis of 
procurement quantities given the wide range of aircraft types and their 
disparate costs and capabilities, it does provide some useful context. 
The Department of Navy aviation force structure requires an inventory 
in excess of 4,000 aircraft. An annual procurement rate of 140 aircraft 
enables aircraft to be replaced after 30 years on average. Where 
aircraft experience higher than expected operational tempo, they are 
likely to reach service life limits well before 30 years. If annual 
procurement quantities remain below the historical average, the Navy 
and Marine Corps aircraft inventory will inevitably become smaller, 
older and less capable.
    In addition to the capacity constraints, the budget also presents 
challenges for aviation readiness. Funding available for operations and 
maintenance directly impacts the operational availability of aircraft 
to meet current mission tasking. Roughly 80 percent of the various 
type/model/series of aircraft in the inventory are currently below the 
Fleet Readiness Training Plan (FRTP) requirements due to the number of 
aircraft that are out of reporting (e.g., undergoing scheduled depot 
level maintenance) or non-mission capable (e.g., awaiting repairs). 
Lastly, investments in future capabilities on our aviation platforms to 
pace the threat and investments in our weapons inventories will 
continue to fall behind with a lower topline budget.
    General Davis. The reduced budget topline directly affects Marine 
Corps' Aviation in readiness and procurement. Additionally, it 
negatively impacts our ability to recover the readiness of our legacy 
fleet; and it hampers the procurement of the new aircraft which allows 
the Marine Corps to transition from its legacy platforms that are 
rapidly running out of service life. The Marine Corps does not have 
enough serviceable, ready aircraft to meet its training requirements, 
much less its warfighting commitments. We have roughly 50 percent of 
what we need. The Marine Corps is on a path to recover our readiness, 
but we must keep our funding for readiness recovery and new procurement 
on track. Average reduction to our topline further delays our ability 
to meet our mission requirements
    Furthermore, competing funding requirements, during a period of 
reduced topline budget, necessitates difficult and challenging 
decisions to guarantee current readiness for today's fight while 
simultaneously planning for modernization to ensure dominance in the 
future. Modernization of current and procurement of new aviation assets 
is a two-pronged approach in the Marine Corps' readiness recovery 
program and resetting our entire fleet. Our top priorities are the 
recapitalization of TACAIR and heavy lift helicopters. These represent 
that greatest delta in meeting OPLAN requirements. Along with the 
purchasing of new aircraft, continuing to fund depot maintenance and 
increasing the throughput of F/A-18 A-D, KC-130's and MV-22's aircraft 
will maintain an executable readiness recovery program that is 
currently on-track, but fragile. Together with modernization, 
procurement, and all funding intact, the Marine Corps is on pace to 
recover our required readiness in June of 2020. A significant reduction 
in topline budget places our recovery at substantial risk.
                            industrial base
    2. Senator McCain. How would you describe the state of the 
industrial base that supports Navy and Marine Corps aviation programs? 
What must this subcommittee be particularly mindful of related to the 
industrial base?
    Admiral Grosklags. There has been a steady decline in the number of 
defense development programs for fixed-wing and rotary-wing aircraft. 
While modernization and depot programs will help sustain select 
capabilities, it will not provide opportunities for major design, 
development and integration work. With the approaching end of 
development programs, and an absence of new requirements in the next 
five to seven years, sustainment of critical aviation industrial base 
capabilities and competencies are at risk.
    Of particular concern, design/engineering workforce shortfalls are 
also projected to occur because a significant segment of the defense 
aerospace workforce is close to retirement and the pool of young 
engineers available to replace them is not keeping pace. As such, 
opportunities for hands-on, real-time transfer of knowledge will be 
limited. Future technical challenges are likely to be addressed by an 
industry engineering staff with significantly less experience than the 
generation before. While the exact consequences are still to be 
determined, potential impacts may include longer developmental costs 
and timelines to field naval aviation capabilities.
    It is critically important that existing and future efforts 
targeted at maintaining the engineering skill-sets and knowledge base 
are supported. Examples include joint efforts such as the comprehensive 
Future Vertical Lift effort and Aerospace Innovation Initiative, as 
well as the Navy's Next Generation Air Dominance Analysis of 
Alternatives--which will engage industry design teams as part of their 
analysis.
                        modernization priorities
    3. Senator McCain. What are the Navy and Marine Corps' top aviation 
modernization priorities?
    Admiral Manazir. The Navy's aviation modernization priorities are 
focused on integrated maritime warfighting initiatives, weapons 
capability improvements, and training and operational support programs 
that strengthen naval power at and from the sea. Program Objective 
Memorandum budgeting priorities include carrier air wing investments in 
4th generation upgrades to ensure near-term capability overmatch; 
integration of 5th generation platform capabilities for long-term 
sustainable air superiority; and recapitalization of the aircraft 
carrier fleet through the FORD-Class carrier replacement and refueling 
and complex overhaul programs to maintain a stabilizing American naval 
presence.
    In line with The Vision for Naval Aviation 2025, future priorities 
focus on transformational warfighting requirements including 
electromagnetic maneuver warfare, network resiliency, increased range 
and depth of aviation weapons, manned-unmanned integration and live, 
virtual, constructive training simulation opportunities. These focus 
areas invoke high velocity learning in acquisition, readiness, and 
warfighting and improve the family of core capabilities centered on the 
aircraft carrier and its embarked carrier air wing, augmented and 
supported by maritime patrol platforms that extend the reach of 
deterrence and sea control.
    General Davis. Marine Corps Aviation's priority is modernizing our 
aging fleet in order to maintain a ready, relevant, and agile force.
    1.  Top priority--Recapitalization of TACAIR and Heavy lift 
helicopter (F-35B/CH-53K)
        a.  These are the two T/M/S where there is the greatest delta 
in meeting OPLAN requirements.
    2.  Follow-on priorities
        a.  KC-130
        b.  MV-22
        c.  H-1
        d.  MQ-21
    3.  Modernization projects which enable relevancy or maintain the 
capability gap of our legacy and new aircraft over near peer 
competitors.
        a.  Readiness improvements to improve reliability.
          i.  Intrepid Tiger II, Block X
          ii.  Receiving the Small Diameter Bomb (SDB) II and 
integrating it on the F-35B
        b.  Enhancements through Digital interoperability (i.e. LINK-
16, FMV, etc)
          i.  LINK-16 on every platform
          ii.  Software Reprogrammable Payload (SRP) Radios
        c.  Addressing how our force will be required to fight in the 
future (V-22 amphibious based air refueling).
    4.  Readiness enhancements (common configurations and electrical 
upgrades).

    All these are what the Deputy Commandant for Aviation has testified 
to and can be found in our 2016 AVPLAN regarding current readiness, 
future readiness, and digital interoperability.
             multiyear procurement or block buy authorities
    4. Senator McCain. Are there programs that would benefit from cost 
reduction initiatives, such as Multiyear Procurement or block buys, 
that do not currently have these authorities? If so, please explain.
    Admiral Grosklags. The F-35 and P-8A programs would benefit from a 
block buy as a cost reduction initiative. The V-22 program is currently 
benefiting from the Congressional approved fiscal year 2013- fiscal 
year 2017 Multi-Year Procurement (MYP) II contract. Given the lower 
costs, stabilization of contractor work force and continuity of 
production facilitated by MYP contracts, V-22 will be requesting fiscal 
year 2018 Congressional authorization of a MYP III strategy through the 
established certification process. The E-2D program also plans to 
continue using multi-year contracting and realizing the benefits of 
lower costs, stabilization of contractor work force, and continuity of 
production.
               future carrier and future carrier air wing
    5. Senator McCain. The fiscal year 2016 NDAA mandated a study on 
alternative aircraft carrier designs. Can you comment on the status and 
interim conclusions of this study, as well as your vision for the 
future of aircraft carriers and the carrier air wing?
    Admiral Manazir. The study was conducted by the RAND Corporation, 
with oversight provided by OPNAV Director of Assessments (N81) and an 
Executive Steering Committee. The final version of the report has been 
delivered to Navy and is undergoing a final, thorough review by 
multiple Navy stakeholders
    RAND developed four notional variants: 20,000, 40,000, 70,000 and 
100,000+ tons displacement and assessed the expected capabilities of 
each variant in approved Defense Planning Scenarios to evaluate 
warfighting impacts. RAND focused on the operational aspects of 
employing each variant in the future fleet architecture, specifically 
sortie generation, overall weapons magazine capacity, and the flow of 
carrier forces into various theaters of operation.
    The RAND study concludes that the two smaller variants (40K and 
20K) would have significant operational shortcomings, requiring new 
aircraft types and new operating concepts and fleet design to execute 
the mission. The larger variants (70K and 100K+ tons) raise significant 
concerns regarding the feasibility of the proposed engineering 
requirements.
    The Navy continues to examine these four alternatives as part of 
Force Structure Analysis and Future Fleet Architecture studies.

    6. Senator McCain. The Air Force Research Laboratory's Loyal 
Wingman program seeks to pair unmanned aircraft with a fifth generation 
fighter. How do you envision such manned-unmanned teaming manifesting 
in naval aviation and with strike-fighters in particular?
    Admiral Manazir. The Navy is at the forefront of integrating 
unmanned autonomous systems into the Naval Aviation force. In some 
ways, the current era reflects the development of the aircraft carrier 
and carrier aviation of the 1920s and 1930s. As a result, we are just 
starting to understand the capabilities and limitations of systems like 
the MQ-25A, what relevant mission areas unmanned systems will operate 
within, and how the Navy can integrate these platforms into the carrier 
air wing (CVW). The Navy's priority is to field the MQ-25A, and related 
autonomous capabilities, into the hands of the warfighter so that the 
Navy can test, operate, and learn early in its capability development. 
The question is not whether unmanned systems will replace manned 
systems, but rather how the Department can leverage the unique benefits 
of each system in a teamed approach to generate optimal operational 
effects.
    To assure power projection at and from the sea, the embarked CVW of 
the future will necessarily evolve to a learning system which senses, 
evaluates, acts, and adapts continuously, leveraging our human 
strengths enhanced by both manned and unmanned platforms and payloads. 
Manned-unmanned integration (MUMI) will generate a true military 
advantage in speed of decisions. Applying the speed of learning 
machines to better observe, orient, decide, and act will accelerate the 
ability to traverse the effect-web, ultimately enabling warfighting 
success.
    The Department has entered a Next Generation Air Dominance (NGAD) 
Analysis of Alternatives (AoA) to evaluate options for recapitalizing 
and improving the required capabilities of the future CVW. This AoA 
will consider the widest possible range of trades to balance 
capability, affordability, lethality, and survivability across a 
potential family of systems. The analysis will evaluate manned, 
unmanned, optionally manned, and ``teamed'' options to fulfill mission 
requirements and meet predicted threats in the 2030 timeframe. It will 
leverage the full breadth of knowledge and experience across the 
aviation enterprise to generate revolutionary warfighting concepts and 
materiel capabilities. Our study team is integrated with the Air Force. 
The Air Force's experience with Loyal Wingman, and related science and 
technology initiatives, help the Navy better understand the challenges 
to integration of manned and unmanned combat aircraft performing 
coordinated operations in a contested environment. The AoA will 
consider these existing programs in evaluating future
materiel solution(s) concepts as we explore options for future CVW 
warfighting capabilities.
                        advanced arresting gear
    7. Senator McCain. In February, you directed a revision of the 
requirements for the Advanced Arresting Gear (AAG). Among other 
changes, the operating envelope has been reduced to the existing MK-7 
operating envelope. What drove these changes? What has been sacrificed?
    Admiral Manazir. The February 2016 memorandum revised Advanced 
Arresting Gear (AAG) requirements in light of evolving program costs, 
schedule and performance, while preserving current and future carrier 
air wing (CVW) interoperability requirements. Specifically, the 
revision focuses on testing requirements to deliver AAG Initial 
Operational Capability to support current CVW requirements and allows 
for iterative test expansion to address future CVW recovery energy 
growth and future CVW interoperability requirements. To that end, there 
is no sacrifice to current air wing requirements, and the ability to 
test for future air wing requirements has been retained.

    8. Senator McCain. What is the path to attain the original 
requirements, and the associated cost and schedule?
    Admiral Manazir. The capability to expand in support of future CVW 
requirements has been retained, and it is expected that the path to 
test to the original requirements will be executed in an incremental 
manner, with the associated cost and schedule based on future CVW 
requirements currently under development.
                        strike-fighter shortfall
    9. Senator McCain. Please provide the subcommittee an update on 
your current assessment of the Navy's strike-fighter shortfall, current 
efforts to alleviate the shortfall, and the biggest challenges to 
overcome.
    Admiral Manazir. The Department of the Navy (DON) remains 
challenged with end of life planning for legacy F/A-18A-D aircraft that 
reach the end of their service life before replacement aircraft (F-35) 
can be delivered into service. With the support of Congress, the 
Department has established a recovery plan to overcome the Strike 
Fighter Inventory Management challenge, but risk to recovery remains 
volatile. Each phase of the plan presents unique challenges in 
addressing the gap between aircraft supply and the Department's Master 
Aviation Plan demand over time.
    In the near-term, the Department's focus is on maximizing F/A-18A-D 
availability. Critical Chain Project Management implementation and 
additional engineering/artisan hiring has resulted in a year-over-year 
increase in F/A-18A-D depot production. The 2017 President's Budget 
(PB17) request builds on these gains by incorporating targeted 
investments in program related engineering and program related 
logistics accounts (1A4N) to continue to improve throughput. 
Furthermore, the Department has partnered with Boeing and L3 to 
incorporate additional maintenance capacity and accomplish required 
High Flight Hour inspections and repairs outside of organic depot 
facilities. Commander, Naval Air Forces is also evaluating a means to 
reduce utilization rates to ensure more aircraft are available to 
operational units. Finally, the Navy is procuring additional F/A-18E/F 
aircraft to pace Combatant Commander demand and assure aircraft with 
useful life into the 2030s.
    The Department's focus in the mid-term is decreasing risk in F/A-
18E/F service life extension efforts to sustain inventory capacity to 
meet warfighting requirements. The F/A-18E/F will be the mainstay of 
the Navy's carrier air wing strike fighter force into the 2030's, but 
the fleet, on average, has already consumed 46 percent of its designed 
6,000 hour expected service life (ESL). Consequently, the DON initiated 
a service life extension assessment earlier in the F/A-18E/F's life, 
funding two ``early-look'' aircraft in an attempt to gauge the level-
of-effort and cost associated with repairing yet unknown airframe 
corrosion and fatigue--the same type of unplanned work that currently 
hampers F/A-18A-D service life extension efforts. Furthermore, PB17 
incorporates funding to accelerate the Service Life Assessment Program 
(SLAP) analysis by six months and enables earlier kit procurement. 
Finally, the DON has requested the continued procurement of F/A-18E/F 
aircraft to simultaneously maintain operational readiness and achieve a 
fully executable and sustainable F/A-18E/F Service Life Extension 
Program (SLEP).
    In the far-term, the Department is focused on ``overmatching the 
threat'' by sustaining inventory capacity with new aircraft procurement 
(F/A-18E/F and F-35), and incorporating capability improvements to 
maintain combat relevancy. Current sustainment and procurement 
investment profiles assure both capability and capacity to meet 
warfighting requirements.
               unfunded priority list--f/a-18e/f request
    10. Senator McCain. The CNO's Unfunded Priority List has 14 
additional Super Hornets as the Navy's #1 priority. Given the strike-
fighter shortfall and concerns about aviation readiness, why were these 
aircraft not included in the President's budget request?
    Admiral Manazir. The 2017 President's Budget request represents the 
best balance of competing warfighting priorities across all warfare 
domains. The Department prioritized investments in advanced 
capabilities that, under budget controls, required trade-offs in 
capacity and readiness. Although the Department recognizes the need for 
additional F/A-18E/F aircraft to close the gap between strike fighter 
inventory capacity and Master Aviation Plan demand, the Navy was unable 
to procure additional F/A-18E/F aircraft in 2017 due to fiscal 
constraints.
                       ea-18g growler requirement
    11. Senator McCain. The Navy has completed it planned procurement 
of 160 EA-18G Growlers. Secretary Mabus has testified to Congress that 
160 fulfills the Navy requirement for Growlers, but the number needed 
to fulfill the joint requirement is still being evaluated. Do you 
believe the Navy requires more Growlers to fulfill the needs of the 
joint force?
    Admiral Manazir. The current funded inventory of 160 EA-18G 
aircraft supports nine carrier air wings with seven aircraft assigned 
to each squadron, five expeditionary squadrons with five aircraft 
assigned to each, and one Reserve squadron with five aircraft. 
Following a thorough analysis of the Navy's assessment of joint 
warfighter demand, we have determined that eight EA-18G aircraft per 
carrier air wing squadron would be required to meet joint demand in the 
most stressing scenarios. Consequently, the Department is currently 
exploring solutions to meet the demand signal.
               electronic warfare--next generation jammer
    12. Senator McCain. The Navy is currently developing an advanced 
electronic warfare system, the Next Generation Jammer, currently 
planned to only be carried by the EA-18G Growler. How does the Navy 
envision operating these Jammers?
    Admiral Manazir. The Next Generation Jammer (NGJ) system is a new 
procurement replacing the 40 year old Airborne Electronic Attack (AEA) 
mid-band capability of the ALQ-99 Tactical Jamming System (TJS) on the 
EA-18G Growler. The NGJ Increment 1 system, a podded system, will 
provide improved AEA capabilities against both conventional analog and 
high-end advanced digital systems in the electromagnetic spectrum. The 
primary mission of NGJ Increment 1 will be to provide robust jamming at 
significantly greater standoff ranges, enabling safe engagement of 
modern Integrated Air Defense Systems (IADS) radars, communications, 
data links, and other Radio Frequency-based adversary systems. NGJ 
Increment 1 will also provide improved AEA in conventional and 
irregular warfare by addressing non-traditional RF targets. The NGJ 
system will apply advanced digital techniques to outmatch the high-end 
threats, and feature growth capability in cognitive electronic warfare 
to respond to emerging threat capabilities. NGJ Increment 1 will assist 
Major Combat Operations by gaining operational access, denying enemy 
battlespace awareness, denying enemy freedom of action, and disrupting 
the enemy's ability to command and control his forces.

    13. Senator McCain. Is the currently planned number of Growlers 
sufficient to effectively employ the NGJ?
    Admiral Manazir. Yes. The current funded inventory of 160 EA-18G 
aircraft supports nine carrier air wings with seven aircraft assigned 
plus expeditionary, Reserve, and training squadrons. Current plans are 
to procure sufficient number of Next Generation Jammers (NGJ) to outfit 
all Primary Aircraft Authorized (PAA) which includes training plus 
attrition Reserve. This will be a sufficient number of Growlers to 
tactically employ the NJG and meet all Navy Airborne Electronic Attack 
(AEA) demands.

    14. Senator McCain. The Next Generation Jammer (NGJ) has been 
designated the first program in a ``SkunkWorks'' pilot that aims to 
streamline the acquisition process. Can you describe the elements of 
this pilot and how NGJ will benefit?
    Admiral Grosklags. As first identified in Better Buying Power (BBP) 
2.0 and further emphasized in BBP 3.0, USD(AT&L) laid the groundwork 
for a ``Skunk Works'' approach to streamlining acquisition oversight. 
USD (AT&L) wanted to pilot this idea on a program with a small, highly 
competent Government and industry team working together on a new 
product that was early in its development cycle and planned for a cost 
plus development approach with strong government and industry 
interaction.
    USD(AT&L) and ASN(RDA) selected the Next Generation Jammer 
Increment 1 program as the first Skunk Works program in April 2015 
following the program's Development Request for Proposal Release 
Decision Point. The program was formally chartered on September 17, 
2015, and the Skunk Works management construct has been implemented. 
The goal of this management approach is to maximize the probability of 
program success by empowering a small, highly qualified core team to 
execute substantive program tasks and streamlining oversight, processes 
and documentation to enable high quality, timely decisions. 
Documentation tailoring includes elimination of some regulatory 
requirements and delegation of some document approvals to the lowest 
appropriate level. Milestone process tailoring includes elimination of 
the traditional OSD Defense Acquisition Board process and the Navy Gate 
Review process, including associated preparatory reviews such as 
Overarching Integrated Product Teams. These are replaced with a program 
execution review process overseen by an Executive Management Board 
(EMB). The EMB brings together key leadership from the Navy and OSD to 
review program execution at relevant, and more frequent, program 
knowledge points, rather than just the traditional milestones. The EMB 
is supported by a `core team' of empowered subject matter experts from 
the EMB offices. The core team actively participates in the program in 
order to transform traditional external oversight and influence into 
hands-on insight. EMB reviews are conducted directly and concurrently 
with both ASN(RDA) and USD(AT&L), eliminating multiple pre-briefs at 
both the Navy and OSD levels, therefore allowing the program to focus 
on program execution.
    Since September 2015, this Skunk Works approach has been 
effectively implemented on the NGJ Increment 1 program. Two EMBs have 
been held: a Post Preliminary Design Review and a Technical Deep Dive/
Milestone B held at the contractor site. This approach has allowed the 
program team to more effectively focus on program success and provided 
greater insight to EMB leadership on the program at appropriate 
knowledge points.
       marine air ground task force electronic warfare (magtf ew)
    15. Senator McCain. When the last EA-6B Prowler squadron sundowns 
in 2019, the Marine Corps will no longer have a dedicated airborne 
electronic attack aircraft. How will the MAGTF EW systems of systems 
replace the electronic surveillance and electronic attack capabilities 
of the Prowler?
    General Davis. Currently, the Marine Corps is ensuring we can 
conduct electronic warfare across the ROMO after the EA-6B sundowns. We 
will provide the MAGTF Commander continued access to organic electronic 
warfare assets that are adaptable, scalable, and collaborative. Most 
importantly, we cannot afford to have a HDLD EW capability that only 
serves a portion of the MAGTF--we need it to be present for ever 
scenario. We will accomplish this by integrating EW capability across 
every type/model/series. There are several initiatives that will be 
used to meet and modernize the Corps' capacity and capabilities for 
electronic warfare support (ES) and electronic attack (EA). These 
initiatives will be complementary to our sister Services' programs, 
providing the Joint force with diverse, capable, and flexible options 
for electronic warfare.

    1.  The Intrepid Tiger II (IT-II) pod is carried on AV-8B Harrier 
and F/A-18 Hornet airframes, and will be integrated onto the UH-1 
aircraft in 3QFY16. The IT-II pod provides electronic attack against 
communications targets. This is a capability previously only available 
to the MAGTF commander from the EA-6B, but now available on multiple 
platforms. Future platforms for IT-II integration are MV-22, CH-53, KC-
130, AH-1, as well as UAS variants, dramatically increasing the 
flexibility and EW options available to the commanders in the field.
    2.  IT-II Block X was funded for technology development starting in 
fiscal year 2016 and is funded through the FYDP. This variant will 
provide electronic attack against radar targets, increasing the MAGTF 
commander's flexibility with this critical EW mission.
    3.  The F-35 Joint Strike Fighter possesses inherent electronic 
warfare capabilities and the Marine Corps is exploring options to 
further expand these abilities.
    4.  Tactical demonstrations and proofs-of-concepts continue to 
develop the Marine Corps' vision for the Electronic Warfare Services 
Architecture. The EWSA is a network that enables collaborative 
integration of electronic warfare assets to best attack and defeat 
modern spectrum threats.

    Intrepid Tiger II These four initiatives will provide the MAGTF 
commander and modern, better EW capability for the future than the EA-
6B.

    16. Senator McCain. Will the lack of a dedicated airborne 
electronic attack aircraft community create a center of excellence void 
for the Marines?
    General Davis. The Marine Corps intends to retain its existing 
airborne electronic warfare expertise to the maximum extent possible. 
We are offering in-service transitions to EA-6B Prowler aircrew so they 
may continue to contribute to the operating forces and supporting 
establishments. We currently have two EA-6B pilots transitioning to the 
F-35B platform and recently selected an additional four. The personnel 
structure currently allotted to the EA-6B community will be re-
allocated to a mixture of operational and support billets, in the F-35 
(pilots) and the UAS community (Pilots and Electronic Countermeasures 
Officers (ECMOs)).

    <bullet>  The MAGTF EW Transition Plan reallocates 106 pieces of 
personnel structure from the EA-6B community to staff and operational 
billets. The intent is to create a more permanent electronic warfare 
representation on MAGTF staffs and to transition electronic warfare 
expertise to growth communities.
    <bullet>  In addition to the MAGTF EW Transition Plan, the Marine 
Corps is standing up a UAS Fleet Replacement Detachment (FRD) aboard 
MCAS Cherry Point. This FRD will train new UAS officers in a number of 
core skills, one of which will eventually be electronic warfare. This 
ensures resident electronic warfare expertise in the UAS community as 
our Electronic Warfare payloads on UAS field.
    <bullet>  To equip the UAS community with the material solutions to 
conduct electronic warfare, the Marine Corps has fully funded in POM-18 
through the FYDP an electronic warfare payload for the RQ-21. Future 
Marine Corps Group 4/5 UAS platforms are planned to be key electronic 
warfare nodes in the MAGTF EW system of systems.
    <bullet>  To date, 30 EA-6B aircrew have been selected for MOS 
transition (Pilots:
F-35B, F/A-18, MV-22, KC-130J), (Electronic Counter Measures Officer: 
F/A-18 Weapon Systems Officer, Student Naval Aviator, UAS). EA-6B 
aircrew MOS transitions will continue to be offered for the foreseeable 
future.
    <bullet>  Any remaining structure reductions from EA-6B sundowns 
are consistent with the drawdown of the Marine Corps end strength.
                    joint strike fighter operations
    17. Senator McCain. Could you provide an update on F-35B operations 
since IOC declaration last August?
    General Davis. Since we declared IOC, our first F-35 squadron has 
participated in numerous Marine Corps and Joint exercises. These 
include multiple--and continuing--Forward Air Controller training 
exercises, numerous Large Force Exercises (LFE) focused on 4th and 5th 
generation fighter integration, numerous Close Air Support (CAS) 
exercises in 29 Palms, and we will be supporting Red Flag in July of 
this year.
    December of 2015, we deployed 8 F-35's to our expeditionary 
airfield in 29 Palms to support a combined arms exercise named Steel 
Knight. The squadron spent 15 days in the field. All take-offs and 
landings were conducted in Short Take Off and Vertical Landing (STOVL) 
mode, demonstrating the reliability of the lift system. The squadron 
executed operations from a small 1500 foot Expeditionary Airfield (EAF) 
at Red Beach aboard Camp Pendleton to demonstrate Forward Arming and 
Refueling.
    On 7 May 2016 we graduated our first three students from our 
Weapons Tactics Instructors course. This is the first time we have 
graduated students from the program in a 5th generation aircraft and 
the aircraft exceeded expectations. In the final exercise 4 F-35's 
integrated with 4th generation fighters contributed to 24 Red Air kills 
and zero friendly losses--the first time this has been accomplished. 
When this same scenario was presented solely to 4th generation 
aircraft, we lost more than half of the 4th generation aircraft and did 
not kill the targets.

    Facts:

    AGILE LIGHTNING in support of STEEL KNIGHT

    <bullet>  Deployed 8 F-35B to 29 Palms Marine Corps Air Ground 
Combat Center
    <bullet>  14 Pilots and 162 maintenance and support personnel), 
along with the required spares, tools, and support equipment (SE), were 
deployed from 2 to 16 December 2015 to support flight operations (9 to 
15 December 2015).
    <bullet>  Executed CAS with simulated and live ordnance
    <bullet>  All Takeoffs and Recoveries were conducted in STOVL mode, 
demonstrating the reliability of the lift system
    <bullet>  Executed operations at Red Beach EAF to examine Mobile 
Forward Arming and Refueling issues.
    <bullet>  ``In a CAS role, the aircraft and pilots integrated 
seamlessly with the Forward Air Controllers . . . The aircraft was able 
to effectively employ precision munitions from a sanctuary altitude 
outside the known threat weapons engagement zone with greater accuracy 
than any other.''--CO, 1st Battalion, 1st Marine Regiment

    MAWTS-1 / WTI Support

    First two instructors validated the WTI curriculum from Sep-Oct 
2015
    <bullet>  Class 1-16: 6 F-35B, 119 hours, 58 sorties

    First 3 WTI students graduated the Mar-April WTI Class on 7 May 
2016
    <bullet>  Class 2-16: 6 F-35B, 210.7 hours / 94 sorties
    <bullet>  F-35 fully integrated into the WTI construct. Major 
evolutions validated 4th/5th Generation fighter integration and gained 
valuable lessons learned in preparation for F-35 PWTIs.
    <bullet>  Integrated F-35 into the MEUX evolution where F-35s 
escort V-22s during a long range mission, then provide CAS after 
insertion.

    MAGTF / Exercise Support

    <bullet>  Desert Talon--FAC(A) development
    <bullet>  EWTG(PAC) support--Expeditionary Warfare Training group 
(Pacific)--FAC and JTAC Training
    <bullet>  Numerous LFE's in support of Marine Air Groups (MAGs), 
primarily focused on fighter integration
    <bullet>  Talon Reach--CAS Exercise in 29 Palms March 2016
    <bullet>  Supported Joint Exercise at Nellis AFB, May 2016
    <bullet>  Red Flag--Jul 2016
    <bullet>  WTI 1-17--September-October 2016
    <bullet>  Developmental Test Period 3 aboard USS America, October-
November 2016

    18. Senator McCain. VMFA-121 will move to Iwakuni, Japan next year 
and deploy aboard ship in 2018, marking the first O-CONUS and shipboard 
deployments of the F-35 respectively. Can you provide an update on 
planning for those deployments and what you view as the biggest risks?
    General Davis. We are on track to meet our timeline for VMFA-121's 
permanent move to Iwakuni in January 2017 and the F-35B's first 
shipboard deployment in early 2018. We continue to plan and execute our 
milestones with the F-35 Joint Program Office, the Navy, the Government 
of Japan and other stakeholders for both events in the same manner that 
led to the Marine Corps' successful IOC. The Marine Corps is working 
through the inherent challenges of moving the nation's first 5th 
generation fighter squadron to be forward deployed in the Pacific AOR. 
Spares funding and procurement continue to be the biggest challenge to 
our first shipboard deployment but we are developing mitigation plans 
to ensure parts are available when and where they are needed. Together 
with our Navy counterparts, we are on schedule to conduct both safe and 
combat effective shipboard deployments of the F-35B and distributed 
STOVL operations throughout the Asia-Pacific.

    19. Senator McCain. The F-35B brings new capabilities and 
operational possibilities to the Marine Expeditionary Unit and you have 
discussed the vision of linking Marine Expeditionary Units (MEUs) more 
closely into the joint force. However, those new capabilities and 
operating concepts require investment in shipboard infrastructure to 
include upgraded data links. Please discuss your vision for L-class 
ship connectivity and current plans to achieve that vision.
    General Davis. The Marine Corps' capstone operating concept, 
Expeditionary Force 21, imposes an operational requirement to 
increasingly command and control (C2) the Marine Air Ground Task Force 
(MAGTF) from the seabase during operational maneuver from the sea and 
distributed enhanced MAGTF operations. To meet this requirement for 
enhanced C2 while embarked, and exploit the improved capability of the 
F-35B, we must improve the capability of the LHD/LHA to send, receive, 
and distribute C2 data. This includes shipboard integration of weapons 
coordination / control and status reporting with remote land, air, 
surface, and sub-surface units.
    The F-35B provides great potential for increased capability within 
the MAGTF, Naval and Joint Force, but only if it is appropriately 
integrated. Over the past decade, we have carefully identified, in 
forums, councils, wargames, and concept of operations development, 
current and future requirements that will ensure integration between 
the F-35B, our MAGTF Tactical Data Systems, and L-class ships. These 
requirements outline the human / system interfaces for commanders and 
decision makers to access the operational environment and information 
network in order to enable effective C2 of all fires and aviation 
assets, to include the F-35B, in support of the MAGTF afloat and 
ashore.
    Five main area of improvement are identified to achieve system 
level digital interoperability:

    1.  Improved Link-16 capabilities to support C2 in a digital 
environment, track data exchanges, electronic warfare, mission 
assignment, target engagement order/status, imagery, and free text 
messages.
    2.  Improved Variable Message Format (VMF) to support digital C2 
track data, mission assignment data (e.g. Close Air Support, Airspace 
Control, and Fire Support Control Measures, Call for Fires), imagery, 
and free text messages.
    3.  Ability to send/receive Intelligence, Surveillance, 
Reconnaissance (ISR) Full-Motion Video/Still Imagery Photograph (FMV/
SIP) receipt via Common Data Link (CDL).
    4.  Integrated Combat Systems and local area networks cross-domain 
solutions to support exchanges of track, targeting, electronic warfare, 
cyber, ISR and C2 data to supporting systems and functional agencies.
    5.  Sufficient network and communications capacity to provide 
increased throughput and reachback to facilitate F-35B pre-flight data 
upload, in-flight information exchange, and post flight mission data 
downloads and ISR/FMV/SIP on-board and off-board distribution.
    The overall end-state is to elevate the ARG/MEU capability to, at a 
minimum, match the information exchange capabilities of today's Carrier 
Strike Groups and ideally would be elevated to match the F-35B's 5th 
Generation sensing and fusion capability in order to effectively 
command and control the amphibious force in the future operating 
environment.
    Beginning in 2018, the F-35B will represent the nation's only 
forward deployed, advanced (5th generation), counter Anti-Access/Area 
Denial (A2/AD) capability for a period of several years. The 
requirement to implement the solutions identified is valid, compelling, 
and urgent. Additionally it is critical that ship upgrades and 
deployment schedules are closely synchronized and tracked to ensure no 
gap in capability.

    20. Senator McCain. What do you view as the biggest challenges to 
successful integration of the F-35 into the carrier air wing?
    Admiral Manazir. The greatest operational challenges to fully 
integrate the
F-35C into the carrier air wing include at sea sustainment and network 
interoperability. The Global Support Solution (GSS) is an innovative 
approach to sustaining aircraft at sea, and blending this new approach 
with legacy naval sustainment models will be challenging to accomplish. 
Additionally, the F-35 will bring revolutionary capabilities in data 
fusion to the integrated warfighting concept of operations. To achieve 
the full benefits of 5th generation capability integration, our 
networks will require capacity and resiliency unprecedented in past 
concepts of employment.
    Furthermore, the F-35 presents other challenges and opportunities 
in the training environment. As the future carrier air wing becomes 
more interdependent, the integrated approach to naval warfare will 
require evolutionary high-fidelity integrated training to prepare for 
operational employment. The Department plans to leverage live, virtual, 
and constructive training opportunities to accomplish revolutionary 
training requirements.

    21. Senator McCain. Navy leaders have testified regarding their 
concerns about the sustainment model and costs for F-35C. Have those 
concerns been sufficiently addressed?
    Admiral Manazir. The Department of the Navy's sustainment and cost 
concerns are being adequately addressed through the Global Support 
Solution (GSS) development process and the program's ``blueprint for 
affordability.'' Over the course of the past year the Joint Program 
Office has made significant strides in developing, refining and 
implementing its GSS for the F-35. The Department remains committed to 
this architecture as outlined in the ``Hybrid Product Support 
Integrator'' (HPSI) initiative.
    General Davis. The Marine Corps' concerns are being addressed as it 
remains engaged throughout the Global Support Solution (GSS) 
development process and the program's ``blueprint for affordability.'' 
Over the course of the past year the Joint Program Office (JPO) has 
made significant strides in developing, refining and implementing its 
GSS for the F-35. The USMC remains committed to this architecture as it 
has been outlined in the ``Hybrid Product Support Integrator'' (HPSI) 
initiative. The Marine Corps is watching with interest the continued 
implementation of the GSS. Simultaneously, select subject matter 
experts from various Marine Corps competencies have been participating 
in its development which is now categorized as a ``best of breed'' 
construct. This new GSS concept contains elements from both the JPO and 
USAF proposed models. We are confident that our concerns are being 
addressed and that the program is headed in the right direction for 
sustainment.
                      f-35 follow-on modernization
    22. Senator McCain. The follow-on modernization for the F-35 is 
estimated to cost the DOD nearly $3 billion over the next 6 years 
alone, easily surpassing the statutory and regulatory levels for a 
Major Defense Acquisition Program (MDAP). Do you feel the Follow-on 
Modernization program for the F-35 should be managed as a separate 
MDAP? Why or why not?
    Admiral Manazir. The follow-on modernization effort is best managed 
as a continuation of the baseline F-35 program. The existing oversight 
mechanisms, management structure, and decision processes are more than 
adequate to continue to manage the modernization program.
    General Davis. The follow-on modernization effort is best managed 
as a continuation of the baseline F-35 program. The existing oversight 
mechanisms, management structure, and decision processes are adequate 
to continue to manage the modernization program. Because of past delays 
associated with the F-35 program, we will deliver a System Development 
and Demonstration (SDD) compliant aircraft several years behind the 
threat baseline for the aircraft. The warfighter cannot afford further 
delays in this program and I believe a separately managed MDAP would 
only delay the progress of the program without enhancing oversight or 
efficiency. Any change to the path forward for follow-on-modernization 
management may delay delivery of added capability to the warfighter 
which is already delayed in fielding.
                        f-35 program management
    23. Senator McCain. The Joint Program Office was established when 
the three variants were envisioned being 70-90 percent common rather 
than the 20-25 percent they are. From your position, does the Joint 
Program Office management structure properly align responsibility and 
accountability?
    Admiral Manazir. The Joint Program Office structure, under the 
direction of the Office of the Secretary of Defense, adequately aligns 
responsibility and accountability to deliver a complex weapons system 
to the U.S. military and partner nations. As the program matures, the 
management structure is also expected to mature commensurately to 
ensure the most capable weapons system is delivered according to each 
F-35 user's unique operating requirements.
    Although there are significant structural differences between the 
three variants of the Joint Strike Fighter, they are similar from a 
weapons system capability perspective. Given that follow-on 
modernization is almost solely focused on capability additions and 
global sourcing solution refinement, the importance of centralized 
program management to develop the required capabilities at the greatest 
value remains vitally important. Currently, no single service or 
partner nation is equipped to assume this role, therefore a joint 
service management group will be required for the foreseeable future.
    General Davis. Although there are significant structural 
differences between the three variants of the F-35, from a weapon 
system capability standpoint, they use similar weapons, loading 
systems, and training. The importance of centralized program management 
to develop the required capabilities at the greatest value remains 
vitally important. Currently, no single service or partner is equipped 
to assume this role, and an independent management group will be a 
requirement for the foreseeable future. Accordingly, under the 
direction of the Office of the Secretary of Defense, the Joint Program 
Office structure adequately aligns responsibility and accountability to 
deliver a complex weapon system to the U.S. military and our partner 
nations. However, as the program matures the management structure is 
also expected to mature commensurately to ensure the most combat 
capable weapon system is delivered to the warfighter, at the right 
price, and on time.

    24. Senator McCain. What are your views on alternative management 
structures for the F-35 program, such as establishing separate service 
or variant program offices rather than maintaining a joint program 
office?
    Admiral Manazir. The Department of the Navy seeks to develop, 
procure, and deliver the most combat capable weapon system to the 
warfighter in accordance with operational requirements. While the Joint 
Program Office handles overall program management well, it is incumbent 
upon each service and partner nation to recognize challenges to Fleet 
integration and adapt to overcome those concerns.
    Accordingly, the Chief of Naval Operations recently announced the 
establishment of the Navy's Joint Strike Fighter Fleet Integration 
Office (FIO) which will ensure unity of command and effort in F-35C 
Fleet integration. The FIO, under the leadership of an operationally-
experienced flag officer, will be responsible for developmental, 
operational, and sustainment lines of effort across the DON as the Navy 
moves toward delivering this revolutionary aircraft into its combat 
inventory. One component critical to FIO success is an external 
architecture that facilitates communication and coordination between 
the DON, program participants, and the vendors in order to align 
requirements and maximize the value of allocated resources.
    General Davis. Ultimately, the Department of the Navy seeks to 
develop, procure, and deliver the most combat capable weapon system to 
the warfighter in order to meet operational requirements. While the 
Joint Program Office handles overall program management well, it is 
incumbent upon each service and partner nation to recognize challenges 
of fleet integration and requirements definition and adapt to overcome 
these concerns. Much like other USMC aircraft programs, under my 
direction and supervision, Headquarters Marine Corps has a team 
dedicated to driving and managing Marine Corps requirements for the F-
35. Today, it is critical to our success to have an external program 
management structure which coordinates and focuses the requirements of 
the services and partners and manages vendors in order to maximize 
efficiency and effectiveness of the program. In the future, the Marine 
Corps supports the concept of exploring alternative management 
constructs provided that they can deliver better combat capability to 
the warfighter at a lower cost.
    Efficiencies in program management would be lost if each service 
produced its own program manager. While direct cost and accountability 
would be managed within the DON, it would leave Lockheed Martin too 
much of a central view and the ensuing private company prioritization 
would make Joint and International fair share responsibilities more 
complex.
                        airborne data link plan
    25. Senator McCain. You both have talked about the importance of 
networks to your visions of Naval and Marine aviation. The committee is 
concerned that the Department of Defense's ideas for airborne data 
links have lacked vision and been disjointed. Please discuss your 
efforts in this area and how you are ensuring that the Navy and Marine 
Corps are interoperable not only with each other, but with the Air 
Force and Army as well.
    Admiral Manazir. Our vision is to provide warfighters with 
information and knowledge that they need, when they need it, in order 
to produce warfighting effects that deter and defeat our adversaries. 
Naval Aviation's vision for data links; nested within the Joint Force 
doctrine carefully evaluates information requirements. Navy and Marine 
Corps aviation networks are designed to optimize Joint warfighting 
effectiveness at the best cost.
    Interoperability, a key principle, is the condition achieved among 
communications systems when information or services can be exchanged 
directly and satisfactorily between them and/or their users. Joint 
doctrine describes three levels of interoperability:

    Integrated--Systems are able to merge seamlessly and are 
interchangeable,
    Compatible--Systems are able to interact with each other in pursuit 
of a common mission, and
    De-conflicted--Systems can co-exist but not interact together.

    A completely integrated force or netted navy is an objective in our 
vision. However, the highest level of interoperability also tends to 
come with the highest cost and most challenging requirements. 
Therefore, we tend to focus those efforts where the impact returns the 
greatest results, as exemplified by F-35 to F-35 communication over the 
Multifunction Advanced Data Link (MADL) or Tactical Targeting Network 
Technology (TTNT) on the EA-18G and E-2D beginning in 2020. No single 
network is able to handle every mission, all of the time, across every 
frequency. The physics and cost of such a network would be unaffordable 
as well as vulnerable to our adversaries.
    To overcome these challenges, compatible systems such as Link 16 
bridge the capabilities of integrated systems such as F-22 and F-35 so 
that the largest possible joint force has the greatest capability. Link 
16 is a military standard data link that has been widely fielded across 
the Department of Defense (DOD) for more than 20 years, to include all 
tactical aircraft platforms. Over 10,000 Link 16 terminals are in use 
throughout the world. All of the Services abide by DOD-wide Link 16 
standards, which ensure that all Link 16 terminals are compatible. In 
addition to the joint force, the Link 16 standard has been adopted by 
the North Atlantic Treaty Organization, allowing us to communicate 
effectively with over 45 partner nations and allies. All of the 
Services abide by DOD-wide Link 16 standards, which ensure that all 
Link 16 terminals are compatible. To ensure interoperability 
requirements, all platforms must achieve interoperability certification 
from the Joint Interoperability Test Command. Interoperability 
certification and the establishment of architectural standards will be 
key facets of future advanced networking.
    The Navy is in the process of developing a long range (2020 - 2045) 
strategic plan for tactical data links beyond Link 16 and TTNT. 
Communicated with our Air Force and Joint partners through several 
venues beyond doctrinal, requirements, acquisition, and test venues 
mentioned previously, our data link strategy is interoperable to 
provide the most cost effective joint force for the best cost. Our long 
range strategy recognizes ongoing research on waveforms, algorithms, 
and computer processing power that may increase the effectiveness of 
fully integrated systems. Throughout our current and future system 
lifecycles, the Navy and our Joint partners have several means to 
quickly respond to threats and opportunities to improve our ability to 
provide warfighters with the right information at the right time in the 
right format.
    General Davis. The United States Marine Corps is leveraging the 
capability of a software reprogrammable payload radio, which will be 
hosting waveforms from the Joint Tactical Networking Center DOD 
Waveform Information Repository. This will enable an infrastructure of 
air data links that leverages the standardized DOD waveforms, while 
giving us the flexibility to adjust to new waveform capabilities via 
the inherent reprogrammable framework. Additionally, we are maturing a 
gateway technology that enables our service to exchange data between 
dissimilar networks. This is analogous to how we can all access the 
same internet via different equipment, i.e., Windows computers, Apple 
Computers, or Android devices, only this will be on a tactical network 
framework. Marine Aviation is working closely with NSA to overcome the 
challenges of handling the multi-level security challenges that this 
approach levies. Our efforts to date have been promising and we've 
taken significant steps forward in our gateway development.
                        usmc aviation readiness
    26. Senator McCain. Marine Corps aviation readiness appears to be 
in a crisis. How did we get here, what are you doing to improve 
readiness, and what are the biggest challenges to overcome?
    General Davis. Marine aviation support to OEF and OIF utilized 
aircraft at war time surge rates for over a decade. We were still 
operating at surge rates in 2013 when sequestration was implemented. 
The loss of skilled artisans, a shrinking force and continued 
deployments combined with fiscally challenged budgets helped to create 
the conditions today. This resulted in a reduction in contract services 
and a lack of funds resulted in an aviation force that was not reset 
and combined with the loss of many experienced marines on the flight 
lines. Since 2014 with the end of OIF and a major force reduction in 
Afghanistan, the Marine Corps has continued to respond to the Nations 
requirements with our Marine Expeditionary Units and, without ships 
available, as a land based crisis response force ready to protect our 
Nation's interests at a moment's notice. Our leadership has learned 
from the prioritization of funds within DOD and after 2014 and 2015 
realization of our current readiness, improved funding readiness 
enabler accounts to begin readiness recovery. 2016 is a transitional 
year, and while some efforts for recovery of funding have been 
directed, a majority of efforts for long term recovery begin in 2017.
    Beginning in 2014, Marine Aviation initiated several Independent 
Readiness Reviews (IRRs). Thus far AV-8Bs, CH-53Es, and MV-22s have 
completed. These reviews are led by leaders outside the Naval Aviation 
Enterprise to provide different perspectives, independent assessments 
and COAs to achieve our readiness requirements. These studies have 
enabled us to begin implementing changes as early as 2015 for AV-8B. In 
2016, we started resetting CH-53Es and these lessons are being applied 
to all other aircraft in the 2017 budget. Since implementation, we have 
seen more Ready Basic Aircraft (RBA) to the flight line proving we have 
identified and implemented a good course change in readiness. In the 
past year, we have recovered 54 aircraft--a 12.7 percent improvement in 
RBA. The continued support of readiness funding will enable Marine 
Aviation force training by fiscal year 2020 and our ready bench by 
fiscal year 2022.
Key Points:
    There are many reasons for these reduced readiness numbers.
    1.  Budget constraints lowered readiness funding.
    2.  Deployments continue.
    3.  Aging aircraft have not been replaced.
    4.  Aircraft inventory should be 1373 and is 1272.
    5.  RBA aircraft is 478 and should be 589 for T-2.0 and 690 for a 
ready bench.
    6.  We have begun implementing our plan and seen a 12.7 percent 
increase in RBA.
    7.  Continued support of readiness and FHP is critical.
    8.  Procurement to replace over-age and aging aircraft is critical 
to maintaining our capability over near peer competitors.
    9.  Spares--Aircraft Not Mission Capable Supply rates are 25+ 
percent.
Issues/Amplification:
    The flight hour metric, while not the only measure of capability, 
is an indicator of the depth of our material bench and of our ability 
to surge if the Nation called. Our Marine aviators and crew are in 
high-tempo environments, flying increasingly complex mission profiles, 
the time between operational deployments is decreasing, the inventory 
of aircraft to train with is decreasing and they are not getting enough 
``looks at the ball'' to ensure they are as trained as they should be.
Current Readiness:
    In 2014, the Marine Corps initiated a series of Independent 
Readiness Reviews (IRRs) to discover root causes to the readiness 
dilemma and highlight corrective actions.
    1.  AV-8B Harrier Independent Readiness Review (HIRR)
    2.  CH-53E Super Stallion Independent Readiness Review (SSIRR)
    3.  MV-22B Osprey Independent Readiness Review (OIRR)
    4.  H-1 Independent Readiness Review (Pending)

    Four main components surfaced within each IRR (with different 
combinations in each Type/Model/Series): People, Parts, Process, and 
Funding. The Marine Corps is tackling these components head-on and our 
numbers are starting to trend up, with a full recovery planned for 2019 
(as long as we keep these initiatives funded and stay on track with 
recapitalization).
Future Readiness:
    The real key to reducing risk in capacity and recovering readiness 
is in transition. We are 54 percent through our transition 
(recapitalization) of every aircraft in our inventory and must 
constantly balance current readiness and modernization to maintain and 
increase our operational advantage as we buy a newer force. We have 
just started our TACAIR recapitalization with the F-35 B/C and will 
soon begin our transition to the CH-53K.
Future Initiatives:
    <bullet>  Exploring MV-22B options to add weapons (precision 
guided, ramp mounted, and forward firing) and increase both 
maintainability and availability through common aircraft configuration.
    <bullet>  Our KC-130J Harvest Hawk is currently receiving sensor 
and fire control system upgrades to include LINK-16 capability. We are 
also increasing the reliability and capabilities of our sensors and 
restoring the usability of the left external wing tank (18,000lbs of 
fuel). Future growth will include Full Motion Video (FMV), Beyond Line 
of Sight (BLOS) communications and integration of the AN/ALQ-231 
``Intrepid Tiger'' electronic warfare pod.
    <bullet>  The USMC UAS Family of Systems (FoS) will expand MAGTF 
ISR capacity while developing enhanced multi-mission capability over 
the next 10 years.
      o  On the road to the Group-5 seabased MUX, the USMC will field 9 
RQ-21A Blackjack systems per Active Duty VMU to expand the organic ISR 
capacity of the Marine Corps.
      o  The first RQ-21A MEU deployment is with the 22nd MEU in July 
2016.
      o  In parallel, the USMC will leverage MQ-24 KMAX aircraft to add 
a Group 4 VTOL capability that has a beyond line of sight (BLOS) 
antennae, MX-10 sensor with ID capability and a 6,000 pound payload, to 
inform the MUX program and develop both sea based and weapons 
capability.
      o  The USMC plans to spiral upgrade the RQ-21 BLOS data link and 
improve the RQ-21's optics. Additionally, EW payloads on the RQ-21 to 
ensure every MAGTF can employ organic EW from both manned and unmanned 
platforms.
                              v-22 osprey
    27. Senator McCain. The President's budget request includes 
procurement of 16 V-22 Ospreys, 2 fewer than the current multi-year 
contract called for. What effect will this reduction have on the 
current and future contracts?
    Admiral Grosklags. The quantity reduction of two aircraft in fiscal 
year 2017 would breach the terms and conditions of the MYPII contract 
in its final year. This would effectively create a partial termination 
for convenience of the contract to which Industry would have the 
ability to seek compensation. Principal areas of impact that would 
require evaluation and negotiation via a termination proposal include 
overhead/labor rates, direct/indirect labor and material, and 
termination costs for: economic order quantity (EOQ) components, long 
lead components, and suppliers.
    Two mitigation strategies to avoid breach of contract are in-work. 
The first is an fiscal year 2017 USMC Unfunded Priority List (UPL) 
request for two aircraft. Second is the opportunity to replace the two 
aircraft with pending international orders from Japan and/or an fiscal 
year 2016 CV-22 plus up aircraft by the Air Force. The Government of 
Japan's case acceptance for four aircraft was received June 9, 2016, 
and the program office exercised the MYPII Fiscal Year 2016 Variation 
in Quantity (VIQ) contract clause on June 30, 2016. The contractual 
commitment for full funding of the fiscal year 2017 MYPII procurement 
is due by December 31, 2016.
              navy and marine corps air-launched munitions
    28. Senator McCain. In your judgment, are your air-launched 
munitions inventories sufficient to support current operations and the 
Defense Strategic Guidance writ large? Are there individual air-
launched munitions whose inventories, either present or projected, are 
insufficient to meet requirements? If so, what are they and what is 
being done to address the shortfalls?
    General Davis. Air-launched munitions inventories are sufficient to 
support Defense Strategic Guidance. However, inventory risk of some 
air-launched munitions has grown due to expenditures in support of 
Operation Inherent Resolve (OIR) and a prioritization of future weapons 
capability over current weapons quantity.
    One example of an air-launched munition at significant inventory 
risk is the KMU-572 tail kit for the 500-pound Joint Direct Attack 
Munition (JDAM). KMU-572 tail kits procurement is managed by the USAF 
(lead service) and is limited by industrial capacity. The USAF has 
invested additional funding in order to increase future production 
capacity which allows additional baseline and OCO funding to be 
leveraged against the inventory issue.
    USMC Aviation is relying upon OCO funding to maintain adequate 
inventory levels during the high operational tempo of OIR. Both 
training (readiness) and contingency operations require live 
expenditures that cannot be replaced using baseline funding alone.
    A further detailed listing of weapons with insufficient inventories 
requires discussion above this classification level.
    Admiral Manazir. The air-launched munitions inventories are at risk 
for the Joint Direct Attack Munition (JDAM), Laser Maverick, and Air-
to-Air weapons. All other air-launched weapons have sufficient 
inventories to support the Defense Strategic Guidance.
    JDAM: Combat expenditures associated with OPERATION INHERENT 
RESOLVE (OIR) have significantly reduced our 500lb JDAM Tail Kit 
inventories. To address this issue, the Department is coordinating with 
the U.S. Air Force (JDAM Lead Service) and the prime contractor (Boeing 
Company) to increase production and reallocate the percentage of 
weapons coming off the production line for Navy/Marine Corps use 
commensurate with warfighter needs. However, as JDAM tail kit 
procurement is currently limited by industrial capacity, the Department 
will not see higher production quantities being delivered to the 
warfighter until the mid-fiscal year 2019 timeframe. In the interim, 
expanded use of GBU-12 (Laser Guided Bombs/Paveway II), while slightly 
less effective than JDAM, provides the warfighter a precision guided 
bomb alternative.
    Laser Maverick: Laser Maverick missile inventories levels are being 
depleted due to increased combat expenditures with OIR, coupled with a 
lack of follow-on capability as Laser Maverick is no longer in 
production. To address these issues, Navy is leveraging Overseas 
Contingency Operations (OCO) funding to convert the remaining legacy 
`Infrared and Optically Guided Maverick Weapons' into the AGM-65E2 
Laser Guided Maverick missile. The Department is also evaluating long-
term capability solutions, including an assessment of the feasibility 
of a potential future variant of the Joint Air-to-Ground Missile (JAGM) 
for fixed-wing aircraft. As a mitigating strategy to address 
insufficient inventories, warfighters are being encouraged to employ 
GBU-54 (Laser JDAM) for moving targets.
    Air-to-Air Weapons: The Department of the Navy (DON) has an 
adequate inventory of legacy air-to-air weapons. However, the DON faces 
a challenge in inventories of the most capable air-to-air weapons to 
fight in a protracted anti-access/anti-denial environment. 
Specifically, there are limited inventories of the latest short-range 
AIM-9 missile (AIM-9X/BLK II) and the Advanced Medium Range Air to Air 
Missile (AMRAAM/AIM-120D). The Department is currently evaluating 
procurement profiles to address inventory shortfalls in this area.
                       long range strike weapons
    29. Senator McCain. In recent conflicts, the United States has 
enjoyed little challenge to its command of the air, allowing the use of 
shorter range, direct attack munitions, such as the Joint Direct Attack 
Munition (JDAM) to prosecute ground targets. In your judgement, will 
future engagements allow for such unfettered use of these weapons? If 
not, what are the Navy and Marine Corps doing to ensure they maintain 
the required combat effectiveness?
    Admiral Manazir. Future engagements may allow unfettered use of 
direct attack munitions when conducting contingency operations in areas 
with limited conventional defense capabilities. When facing strategic 
competitors with robust Integrated Air Defense Systems (IADS), the 
Department will be increasingly challenged by technological advances 
and weapon system proliferation. Strategic competitors are pursuing 
advanced weapon systems at levels and a pace of development that our 
Nation has not seen since the mid-1980s. This requires investment in 
advanced capabilities that increase Navy long range strike capabilities 
and lethality for both the current and future force. In major combat 
operation scenarios significant use of short-range `Direct Attack' 
weapons will still be required after longer range threats are 
neutralized.
    As part of the Navy's Cruise Missile Strategy, the Department is 
investing in long-range Tactical Tomahawk cruise missile improvements, 
developing the Offensive Anti-Surface Warfare Increment 1 (Long-Range 
Anti-Ship Missile), and planning new starts for the Offensive Anti-
Surface Warfare Increment 2 and Next Generation Land Attack Missile 
(NGLAW). Additional Navy investments include the suppression and 
destruction of enemy air defenses at longer ranges with an extended 
range version of the Advanced Anti-Radiation Guided Missile (AARGM-ER). 
Standoff area defense and strike weapon improvements are resident in 
the Small Diameter Bomb II and inventory sustainment of all variants of 
the Joint Standoff Weapon (JSOW).
    The Navy's strategy encompasses the investment and sustainment of a 
balanced weapons portfolio including advanced long-range strike 
weapons, standoff area defense and strike weapons, and direct attack 
weapons to provide the capability and the capacity for the Navy and 
Marine Corps to meet campaign and contingency munitions requirements 
for the foreseeable future.
    General Davis. The JDAM family of weapons will continue to be a 
vital part of the Marine Corps inventory due to their low cost, 
flexibility, and capability against a full range of targets. The Marine 
Corps is developing weapons in concert with the Joint services (Small 
Diameter Bomb (SDB) II and Joint Stand Off Weapon (JSOW) C-1) which are 
able to engage targets at extended ranges, through a wide range of 
threat and weather environments, and are net-enabled. Future 
engagements will require that F-35 and other emerging technologies be 
utilized in conjunction with a balance of high-end weapons in 
restrictive threat environments and lower-cost weapons like JDAM in 
permissive threat environments.
    It is important to also consider the political will of our civilian 
leaders. Development of expensive long range air launched weapons 
reduces the requirement to penetrate sovereign air space. While near 
peer competitors continue to develop anti-access systems, non-
escalation and the direction to remain a conventional force requires a 
balanced approach that provides both standoff and penetration options.

    30. Senator McCain. Do we have sufficient numbers of longer range 
weapons to ensure adequate combat effectiveness?
    General Davis. Yes, based on our validated models, the Naval 
Munitions Requirement Process, the current inventory of High-speed 
Anti-Radiation Missile (HARM), Advanced Anti-Radiation Guided Missile 
(AARGM), and Joint Stand-Off Weapon (JSOW) C/C-1 is adequate to ensure 
USMC combat effectiveness. However, in the long term, as near peer 
competitors field increasingly more capable systems, advanced weapons 
with extended ranges such as the AARGM ER (IOC fiscal year 2023) in 
conjunction with the F-35 will be required to maintain the Joint 
Force's freedom of maneuver.
    Admiral Manazir. The Department of the Navy has sufficient capacity 
of longer range weapons to ensure adequate combat effectiveness. 
Through the Naval Munitions Requirements Process (NMRP), the Navy 
assesses the long-range strike weapons inventory risk as low. However, 
as strategic competitors field weapon systems with improved 
capabilities in higher numbers, the Navy will encounter increased risk 
to the warfighter, particularly during an extended engagement. 
Projected competitor threat systems are anticipated to affect the 
stand-off ranges of U.S. Navy launch platforms, both at sea and in the 
air, which may preclude the launch of legacy naval weapons from 
sanctuary. Naval strike fighter aircraft or Vertical Launch System 
(VLS) equipped ships will be driven to operate within the competitor's 
threat envelope in order to launch weapons against enemy targets. While 
the Navy will employ countermeasures and tactics to disrupt the threat, 
friendly forces will operate at additional risk to platform 
survivability.
    To offset mid/long-term long-range weapon risks, the Navy has 
developed a Cruise Missile Strategy for 2019 and beyond. While 
integrating modernization and obsolescence upgrades to Tomahawk Cruise 
Missiles during a mid-life recertification program, the Navy intends to 
field the Offensive Anti Surface Weapon (OASuW) Increment 1 (Long Range 
Anti-Ship Missile) in 2018, the Offensive Anti Surface Weapon Increment 
2 in 2024, and the Next Generation Land Attack Weapon (NGLAW) in the 
2028-2030 timeframe. The Navy is also pursuing an extended-range 
version of the Advanced Anti-Radiation Guided Missile (AARGM-ER), which 
is planned to field in 2023. AARGM-ER will enable Naval Aviation forces 
to suppress Integrated Air Defenses with increased platform and weapon 
survivability.
                         usmc unmanned roadmap
    31. Senator McCain. Please discuss the roadmap for Marine Corps 
unmanned systems, and in particular L-class ship-based unmanned 
systems.
    General Davis. The Marine Corps' family of unmanned systems (FoUAS) 
will play a key role in all USMC missions across the range of military 
options to include forward presence, security cooperation, counter-
terrorism, crisis response, forcible entry, prolonged operations, and 
counter-insurgency. The family approach delivers capacity and 
capability to tiered echelons of command from small units (squad) to 
large combat formations (MEF).
    The small UAS (Group 1) are organic to the ground combat element 
(GCE) and provide real-time battlespace situational awareness from 
simple man-portable systems. These systems include the RQ-21B Raven, 
RQ-12A Wasp and RQ-20A Puma. Vertical Take-Off and Landing (VTOL) and 
nano-VTOL small UAS will complement the capabilities of the current 
family of UAS in urban terrain and other confined environments.
    The larger Group 3 UAS systems are organic to the aviation combat 
element (ACE). The USMC is transitioning into the RQ-21A Blackjack UAS, 
which provides UAS support to the Marine Expeditionary Unit, regiments, 
and Marine Special Operations Forces (MARSOC). The RQ-21A enhances the 
capabilities of Marine Expeditionary Unit (MEU) and regimental-sized 
units by providing a long-endurance, expeditionary, multi-mission 
platform that is ship-board capable. Characterized by its runway 
independence and iterative payload capabilities RQ-21A will enhance the 
MAGTF commander's battlespace awareness and influence the 
electromagnetic spectrum. The RQ-21A will deploy this summer with the 
22nd MEU from a San-Antonio LPD-17 class ship and be resident in all 
CONUS based MEUs. Recognizing the need to operate with a disaggregated 
Amphibious Ready Group (ARG), the RQ-21A will also be integrated into 
the LHA amphibious ships. Additionally, VMU-2, RQ-21A, will support a 
MARSOC deployment in the summer of 2016. The RQ-7B Shadow remains a key 
component to the Marine Corps family of UAS and will support large 
combat formations such as a Marine Expeditionary Brigade (MEB) or 
Marine Expeditionary Force (MEF) from expeditionary locations ashore.
    Recognizing our current recapitalization toward a more diverse, 
amphibious and middle-weight expeditionary force, the Marine Corps 
requires a UAS that is network-enabled, digitally-interoperable, and 
built to execute responsive, persistent, lethal, and adaptive full-
spectrum operations. The MAGTF Unmanned Expeditionary (MUX) initial 
capabilities document (ICD) will inform a system that provides the MEF/
MEB-sized MAGTF with an advanced multi-mission platform. This 
capability has a target IOC of 2024 and will be organic to the Marine 
Expeditionary Unit (MEU) ACE aboard L-class amphibious shipping, to 
compliment the MV-22 Osprey's operational capabilities.
                         mq-25 stingray (cbars)
    32. Senator McCain. The Navy has restructured the UCLASS program to 
focus on aerial refueling and limited ISR. How does the Navy plan on 
leveraging all the work accomplished during the UCLASS program to 
ensure an accelerated deployment of an unmanned vehicle aboard the 
carrier at a reasonable cost?
    Admiral Grosklags. Data developed for and infrastructure planned 
for UCLASS will be directly leveraged by the restructured MQ-25 program 
and will help accelerated developmental timelines. For example, ongoing 
Carrier modifications to prepare Mission Control Spaces and integrate 
UCLASS architecture will be utilized for MQ-25; as will the Control 
System and Connectivity segment and the Common Control System programs 
currently in development. In addition, feedback from industry in 
response to the recently released Concept Refinement Request for 
Proposal will leverage previous design efforts to fully assess the 
tradespace of design concepts, cost, schedule, and performance 
attributes for the MQ-25 program.

                                 <all>
</pre></body></html>
